<html>
<title> - THE PADUCAH GASEOUS DIFFUSION PLANT: AN ASSESSMENT OF WORKER SAFETY AND ENVIRONMENTAL CONTAMINATION</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
THE PADUCAH GASEOUS DIFFUSION PLANT: AN ASSESSMENT OF WORKER SAFETY AND 
                      ENVIRONMENTAL CONTAMINATION

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                      OVERSIGHT AND INVESTIGATIONS

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 22, 1999

                               __________

                           Serial No. 106-87

                               __________

            Printed for the use of the Committee on Commerce



                   U.S. GOVERNMENT PRINTING OFFICE
61-428 CC                  WASHINGTON : 2000



                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    THOMAS C. SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

              Subcommittee on Oversight and Investigations

                     FRED UPTON, Michigan, Chairman

JOE BARTON, Texas                    RON KLINK, Pennsylvania
CHRISTOPHER COX, California          HENRY A. WAXMAN, California
RICHARD BURR, North Carolina         BART STUPAK, Michigan
  Vice Chairman                      GENE GREEN, Texas
BRIAN P. BILBRAY, California         KAREN McCARTHY, Missouri
ED WHITFIELD, Kentucky               TED STRICKLAND, Ohio
GREG GANSKE, Iowa                    DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  JOHN D. DINGELL, Michigan,
ED BRYANT, Tennessee                   (Ex Officio)
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Cochran, Thomas B., Director, Nuclear Programs, Natural 
      Resources Defense Council, Inc.............................   305
    Fowler, Ronald B.............................................   301
    Graves, M. Brad, Lockheed Martin Energy Systems..............   305
    Green, Richard D., Director, Waste Management Division, 
      Environmental Protection Agency, Region 4..................   385
    Hummer, John J., Director of Corporate Environment, Safety 
      and Health, Lockheed Martin Corp., accompanied by Richard 
      J. Leon, Counsel...........................................   345
    Jenkins, Garland E...........................................   298
    Key, Jim H., Pace Local 5-5550...............................   292
    Knapp, Malcolm R., Deputy Executive Director of Operations 
      for Materials, Research, and State Programs, Nuclear 
      Regulatory Commission......................................   388
    Logan, Robert W., Commissioner, Kentucky Department of 
      Environmental Protection; accompanied by John Volpe, 
      Manager, Radiation Control Branch, Kentucky Cabinet for 
      Health Services............................................   391
    Michaels, David, Assistant Secretary for Environment, Safety 
      and Health, Department of Energy...........................   376
    Miller, James H., Executive Vice President, USEC, Inc., 
      accompanied by Robert Moore, Counsel.......................   358
    Nemec, Joseph F., President, Bechtel Jacobs Company, LLC.....   349
Material submitted for the record by:
    Green, Richard D., Director, Waste Management Division, 
      Environmental Protection Agency, Region 4, responses for 
      the record.................................................   408
    Hummer, John J., Director of Corporate Environment, Safety 
      and Health, Lockheed Martin Corp., letter dated November 
      22, 1999, enclosing response for the record................   410
    Logan, Robert W., Commissioner, Kentucky Department of 
      Environmental Protection, responses to questions of the 
      Subcommittee on Oversight and Investigations...............   418
    Michaels, David, Assistant Secretary for Environment, Safety 
      and Health, Department of Energy, responses for the record.   423
    Miller, James H., Executive Vice President, USEC, Inc., 
      responses to questions of the Subcommittee on Oversight and 
      Investigations.............................................   415
    Nemec, Joseph F., President, Bechtel Jacobs Company, LLC, 
      responses to questions of the Subcommittee on Oversight and 
      Investigations.............................................   413

                                 (iii)

  


THE PADUCAH GASEOUS DIFFUSION PLANT: AN ASSESSMENT OF WORKER SAFETY AND 
                      ENVIRONMENTAL CONTAMINATION

                              ----------                              


                     WEDNESDAY, SEPTEMBER 22, 1999

                  House of Representatives,
                             Committee on Commerce,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2322, Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Burr, Bilbray, 
Whitfield, Bryant, Bliley (ex officio), Klink, Stupak, Green, 
Strickland, DeGette, and Dingell (ex officio).
    Staff present: Dwight Cates, majority investigator; Amy 
Davidge, legislative clerk; and Edith Holleman, minority 
counsel.
    Mr. Upton. Good morning. Today the subcommittee will review 
worker safety and environmental contamination at the Paducah 
Gaseous Diffusion Plant located in the congressional district 
of Congressman Ed Whitfield. This hearing follows a recent June 
hearing where this subcommittee reviewed the Department of 
Energy's nuclear safety program for protecting workers engaged 
in nuclear activities at DOE facilities as required by the 
Price Anderson Amendments Act of 1998. At that hearing, the 
subcommittee learned that DOE has not been aggressive in 
issuing nuclear safety rules or in holding its contractors 
accountable for complying with nuclear safety requirements. 
Today, at the urging of Congressman Whitfield, the subcommittee 
will assess DOE's effectiveness in enforcing worker safety at 
the Paducah site, as well as the Department's current and past 
efforts to deal with the enormous wastes that have accumulated 
in the course of nearly 50 years of uranium enrichment at 
Paducah.
    The Paducah site was built in the early 1950's to increase 
the government's production of enriched uranium for defense and 
nondefense needs. The plant is surrounded by the West Kentucky 
Wildlife Management Area which, I am told, is a significant 
recreational resource to the Paducah community. Paducah is one 
of three gaseous diffusion plants, including the K-25 plant and 
the Portsmouth plant built by the Department of Energy's 
predecessor agency, the Atomic Energy Commission. The 
government ceased uranium production for weapons purposes in 
1964. However, Paducah's enriched uranium output was actually 
increased in the late 1960's to meet the growing demands of the 
U.S. Naval Nuclear Program and the nuclear power industry. The 
plant was operated for AEC and DOE under contract by Union 
Carbide between 1951 and 1986, and then by Martin Marietta 
which became Lockheed Martin between 1984 and 1996. Pursuant to 
the Energy Policy Act of 1992, the newly created government 
corporation USEC assumed uranium enrichment responsibility in 
1993 at the Paducah and Portsmouth plants with Lockheed Martin 
continuing as contractor. USEC was privatized last year, and 
has assumed control of the plants from Lockheed Martin. The 
Paducah and Portsmouth plants are still owned by DOE, and are 
leased to USEC, which uses the plants to produce low-enriched 
uranium for sale as commercial power reactor fuel.
    The DOE retains responsibility for remedial action of past 
environmental releases, or legacy wastes at the site, including 
nearly 37,000 canisters of depleted uranium. Contaminants found 
in groundwater wells around Paducah in 1988 eventually led to a 
Superfund site designation for Paducah in 1994. Several 
Superfund studies and cleanup actions to contain the spread of 
contaminants in groundwater and soil are already underway. 
Since October 1998, environmental responsibilities at Paducah 
have been managed by DOE's contractor, Bechtel Jacobs 
Corporation. USEC employs approximately 1,500 people, and 
Bechtel Jacobs employs 400 at Paducah.
    There are many issues that we will cover today and they all 
stem from the committee's interest in ensuring that the workers 
and the surrounding community are safe. On today's first panel 
we will hear from three workers currently employed at Paducah--
Mr. Jim Key, Mr. Garland Jenkins, and Mr. Ronald Fowler--and 
one Lockheed Martin employee who has worked at Paducah, Mr. 
Brad Graves.
    I want to express my thanks to each of you and commend you 
for your bravery in coming forward to relate your experiences 
at this site. I realize that your efforts to reveal the truth 
at Paducah have introduced uncertain risks and complications in 
your lives but your efforts are truly appreciated. In the past 
3 months, the country has learned more about Paducah than the 
DOE would have revealed in a period of years. You should also 
know if you experience any act of retaliation following your 
testimony before this subcommittee, you should notify us 
immediately.
    Because of your efforts, and the front page press attention 
you have generated, the Secretary of Energy is now focused on 
worker safety and environmental issues at the Paducah site. Mr. 
Richardson visited the Paducah site on October 23, 1998, and 
met with the members of the Paducah Site Specific Advisory 
Board. According to the minutes of this meeting, board members 
expressed serious concerns regarding plutonium emissions from 
the site, the health impacts of legacy wastes at the site, and 
the fear of being forgotten within the Department's large Oak 
Ridge complex. The board's requests were not enough to attract 
the necessary attention to these issues.
    Nonetheless, the two-phased investigation the Secretary 
recently initiated may answer many of the questions the board 
sought answers to last year. However, I still remain concerned 
that the first phase of DOE's investigation, covering the 
period from 1990 to present, is insufficient. Preliminary 
findings of the Department's 2-week onsite review of worker 
safety and environmental issues at Paducah were released last 
Tuesday. Findings include: 1, a failure of DOE to perform 
adequate health and safety oversight at Paducah; 2, a lack of 
discipline, formality and oversight with respect to Bechtel 
Jacobs' radiation protection program; and, 3, significant 
onsite hazards from legacy wastes stored onsite. But 2 weeks is 
not enough time to get your hands around 10 years of 
mismanagement. These preliminary findings do not include 
environmental sampling data DOE has collected on and offsite. 
The Department has told committee staff that radiation readings 
at one offsite stream are high enough to require technicians to 
wear protective clothing while taking samples. This 
contaminated stream is fully accessible to the public, but 
there are no warning signs.
    In light of these findings, I should point out that several 
State and Federal studies around Paducah indicate that there is 
contamination offsite, but not at levels of current health 
hazard to the public. However, data recently obtained by the 
committee indicate that the levels of plutonium in offsite soil 
are higher than what the State, EPA, DOE and DOE's contractors 
have been telling the public.
    I want to make it clear that this information needs to be 
verified and any health issues resolved quickly. This committee 
will give close scrutiny to any government agency or contractor 
who may have misled the Paducah community regarding offsite 
contamination.
    It is also important to point out another issue that the 
Department's investigation of Paducah has not reviewed. 
Radiation protection in areas currently controlled by the 
United States Enrichment Corporation is regulated by the NRC. 
The NRC has informed the committee that the company is in 
compliance with nuclear safety requirements and that workers at 
the site are adequately protected from radiation. However, 
plant upgrades to protect workers in the event of an earthquake 
are still not complete. When the United States Enrichment 
Corporation was privatized last year, DOE transferred more than 
$200 million worth of uranium to the company to pay for these 
NRC upgrades which were supposed to be completed in 1997. This 
is a significant safety issue that will be thoroughly 
investigated as part the committee's review of the 
privatization of the United States Enrichment Corporation.
    Clearly there are many issues that need to be closely 
evaluated at Paducah. There seem to be new revelations coming 
forth every day. The Department's Phase II investigation 
covering the period before 1990 has not even started. I expect 
that the Phase II effort will take months. It is unreasonable 
to believe that we will have all the answers today. However, I 
do expect candid answers regarding the Department's surprising 
lack of safety oversight and the mistakes made by DOE's 
contractors and the management changes that must occur to raise 
the level of worker safety and environmental cleanup 
performance at Paducah.
    I also appreciate and thank the staff for working so hard 
on this hearing. I know that it was rather quickly set up and 
particularly with the delay last week because of the hurricane 
threat to Washington. We appreciate on both sides the good 
staff work done by both the Democratic and Republican members 
of the staff.
    At this point, I would like to make a unanimous consent 
request that a number of documents that have been circulated on 
both sides be made a part of the record. Without objection, so 
ordered.
    [The information referred to follows:]


    [GRAPHIC] [TIFF OMITTED]61428.001
    
    [GRAPHIC] [TIFF OMITTED]61428.002
    
    [GRAPHIC] [TIFF OMITTED]61428.003
    
    [GRAPHIC] [TIFF OMITTED]61428.004
    
    [GRAPHIC] [TIFF OMITTED]61428.005
    
    [GRAPHIC] [TIFF OMITTED]61428.006
    
    [GRAPHIC] [TIFF OMITTED]61428.007
    
    [GRAPHIC] [TIFF OMITTED]61428.008
    
    [GRAPHIC] [TIFF OMITTED]61428.009
    
    [GRAPHIC] [TIFF OMITTED]61428.010
    
    [GRAPHIC] [TIFF OMITTED]61428.011
    
    [GRAPHIC] [TIFF OMITTED]61428.012
    
    [GRAPHIC] [TIFF OMITTED]61428.013
    
    [GRAPHIC] [TIFF OMITTED]61428.014
    
    [GRAPHIC] [TIFF OMITTED]61428.015
    
    [GRAPHIC] [TIFF OMITTED]61428.016
    
    [GRAPHIC] [TIFF OMITTED]61428.017
    
    [GRAPHIC] [TIFF OMITTED]61428.018
    
    [GRAPHIC] [TIFF OMITTED]61428.019
    
    [GRAPHIC] [TIFF OMITTED]61428.020
    
    [GRAPHIC] [TIFF OMITTED]61428.021
    
    [GRAPHIC] [TIFF OMITTED]61428.022
    
    [GRAPHIC] [TIFF OMITTED]61428.023
    
    [GRAPHIC] [TIFF OMITTED]61428.024
    
    [GRAPHIC] [TIFF OMITTED]61428.025
    
    [GRAPHIC] [TIFF OMITTED]61428.026
    
    [GRAPHIC] [TIFF OMITTED]61428.027
    
    [GRAPHIC] [TIFF OMITTED]61428.028
    
    [GRAPHIC] [TIFF OMITTED]61428.029
    
    [GRAPHIC] [TIFF OMITTED]61428.030
    
    [GRAPHIC] [TIFF OMITTED]61428.031
    
    [GRAPHIC] [TIFF OMITTED]61428.032
    
    [GRAPHIC] [TIFF OMITTED]61428.033
    
    [GRAPHIC] [TIFF OMITTED]61428.034
    
    [GRAPHIC] [TIFF OMITTED]61428.035
    
    [GRAPHIC] [TIFF OMITTED]61428.036
    
    [GRAPHIC] [TIFF OMITTED]61428.037
    
    [GRAPHIC] [TIFF OMITTED]61428.038
    
    [GRAPHIC] [TIFF OMITTED]61428.039
    
    [GRAPHIC] [TIFF OMITTED]61428.040
    
    [GRAPHIC] [TIFF OMITTED]61428.041
    
    [GRAPHIC] [TIFF OMITTED]61428.042
    
    [GRAPHIC] [TIFF OMITTED]61428.043
    
    [GRAPHIC] [TIFF OMITTED]61428.044
    
    [GRAPHIC] [TIFF OMITTED]61428.045
    
    [GRAPHIC] [TIFF OMITTED]61428.046
    
    [GRAPHIC] [TIFF OMITTED]61428.047
    
    [GRAPHIC] [TIFF OMITTED]61428.048
    
    [GRAPHIC] [TIFF OMITTED]61428.049
    
    [GRAPHIC] [TIFF OMITTED]61428.050
    
    [GRAPHIC] [TIFF OMITTED]61428.051
    
    [GRAPHIC] [TIFF OMITTED]61428.052
    
    [GRAPHIC] [TIFF OMITTED]61428.053
    
    [GRAPHIC] [TIFF OMITTED]61428.054
    
    [GRAPHIC] [TIFF OMITTED]61428.055
    
    [GRAPHIC] [TIFF OMITTED]61428.056
    
    [GRAPHIC] [TIFF OMITTED]61428.057
    
    [GRAPHIC] [TIFF OMITTED]61428.058
    
    [GRAPHIC] [TIFF OMITTED]61428.059
    
    [GRAPHIC] [TIFF OMITTED]61428.060
    
    [GRAPHIC] [TIFF OMITTED]61428.061
    
    [GRAPHIC] [TIFF OMITTED]61428.062
    
    [GRAPHIC] [TIFF OMITTED]61428.063
    
    [GRAPHIC] [TIFF OMITTED]61428.064
    
    [GRAPHIC] [TIFF OMITTED]61428.065
    
    [GRAPHIC] [TIFF OMITTED]61428.066
    
    [GRAPHIC] [TIFF OMITTED]61428.067
    
    [GRAPHIC] [TIFF OMITTED]61428.068
    
    [GRAPHIC] [TIFF OMITTED]61428.069
    
    [GRAPHIC] [TIFF OMITTED]61428.070
    
    [GRAPHIC] [TIFF OMITTED]61428.071
    
    [GRAPHIC] [TIFF OMITTED]61428.072
    
    [GRAPHIC] [TIFF OMITTED]61428.073
    
    [GRAPHIC] [TIFF OMITTED]61428.074
    
    [GRAPHIC] [TIFF OMITTED]61428.075
    
    [GRAPHIC] [TIFF OMITTED]61428.076
    
    [GRAPHIC] [TIFF OMITTED]61428.077
    
    [GRAPHIC] [TIFF OMITTED]61428.078
    
    [GRAPHIC] [TIFF OMITTED]61428.079
    
    [GRAPHIC] [TIFF OMITTED]61428.080
    
    [GRAPHIC] [TIFF OMITTED]61428.081
    
    [GRAPHIC] [TIFF OMITTED]61428.082
    
    [GRAPHIC] [TIFF OMITTED]61428.083
    
    [GRAPHIC] [TIFF OMITTED]61428.084
    
    [GRAPHIC] [TIFF OMITTED]61428.085
    
    [GRAPHIC] [TIFF OMITTED]61428.086
    
    [GRAPHIC] [TIFF OMITTED]61428.087
    
    [GRAPHIC] [TIFF OMITTED]61428.088
    
    [GRAPHIC] [TIFF OMITTED]61428.089
    
    [GRAPHIC] [TIFF OMITTED]61428.090
    
    [GRAPHIC] [TIFF OMITTED]61428.091
    
    [GRAPHIC] [TIFF OMITTED]61428.092
    
    [GRAPHIC] [TIFF OMITTED]61428.093
    
    [GRAPHIC] [TIFF OMITTED]61428.094
    
    [GRAPHIC] [TIFF OMITTED]61428.095
    
    [GRAPHIC] [TIFF OMITTED]61428.096
    
    [GRAPHIC] [TIFF OMITTED]61428.097
    
    [GRAPHIC] [TIFF OMITTED]61428.098
    
    [GRAPHIC] [TIFF OMITTED]61428.099
    
    [GRAPHIC] [TIFF OMITTED]61428.100
    
    [GRAPHIC] [TIFF OMITTED]61428.101
    
    Mr. Upton. And I would recognize the ranking member of the 
subcommittee, Mr. Klink.
    Mr. Klink. I just note that we will have additional 
documents that we will want to insert in the record as well.
    Mr. Upton. Fine.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]61428.102
    
    [GRAPHIC] [TIFF OMITTED]61428.103
    
    [GRAPHIC] [TIFF OMITTED]61428.104
    
    [GRAPHIC] [TIFF OMITTED]61428.105
    
    [GRAPHIC] [TIFF OMITTED]61428.106
    
    [GRAPHIC] [TIFF OMITTED]61428.107
    
    [GRAPHIC] [TIFF OMITTED]61428.108
    
    [GRAPHIC] [TIFF OMITTED]61428.109
    
    [GRAPHIC] [TIFF OMITTED]61428.110
    
    [GRAPHIC] [TIFF OMITTED]61428.111
    
    [GRAPHIC] [TIFF OMITTED]61428.112
    
    [GRAPHIC] [TIFF OMITTED]61428.113
    
    [GRAPHIC] [TIFF OMITTED]61428.114
    
    [GRAPHIC] [TIFF OMITTED]61428.115
    
    [GRAPHIC] [TIFF OMITTED]61428.116
    
    [GRAPHIC] [TIFF OMITTED]61428.117
    
    [GRAPHIC] [TIFF OMITTED]61428.118
    
    [GRAPHIC] [TIFF OMITTED]61428.119
    
    [GRAPHIC] [TIFF OMITTED]61428.120
    
    [GRAPHIC] [TIFF OMITTED]61428.121
    
    [GRAPHIC] [TIFF OMITTED]61428.122
    
    [GRAPHIC] [TIFF OMITTED]61428.123
    
    [GRAPHIC] [TIFF OMITTED]61428.124
    
    [GRAPHIC] [TIFF OMITTED]61428.125
    
    [GRAPHIC] [TIFF OMITTED]61428.126
    
    [GRAPHIC] [TIFF OMITTED]61428.127
    
    [GRAPHIC] [TIFF OMITTED]61428.128
    
    [GRAPHIC] [TIFF OMITTED]61428.129
    
    [GRAPHIC] [TIFF OMITTED]61428.130
    
    [GRAPHIC] [TIFF OMITTED]61428.131
    
    [GRAPHIC] [TIFF OMITTED]61428.132
    
    [GRAPHIC] [TIFF OMITTED]61428.133
    
    [GRAPHIC] [TIFF OMITTED]61428.134
    
    [GRAPHIC] [TIFF OMITTED]61428.135
    
    [GRAPHIC] [TIFF OMITTED]61428.136
    
    [GRAPHIC] [TIFF OMITTED]61428.137
    
    [GRAPHIC] [TIFF OMITTED]61428.138
    
    [GRAPHIC] [TIFF OMITTED]61428.139
    
    [GRAPHIC] [TIFF OMITTED]61428.140
    
    [GRAPHIC] [TIFF OMITTED]61428.141
    
    [GRAPHIC] [TIFF OMITTED]61428.142
    
    [GRAPHIC] [TIFF OMITTED]61428.143
    
    [GRAPHIC] [TIFF OMITTED]61428.144
    
    [GRAPHIC] [TIFF OMITTED]61428.145
    
    [GRAPHIC] [TIFF OMITTED]61428.146
    
    [GRAPHIC] [TIFF OMITTED]61428.147
    
    [GRAPHIC] [TIFF OMITTED]61428.148
    
    [GRAPHIC] [TIFF OMITTED]61428.149
    
    [GRAPHIC] [TIFF OMITTED]61428.150
    
    [GRAPHIC] [TIFF OMITTED]61428.151
    
    [GRAPHIC] [TIFF OMITTED]61428.152
    
    [GRAPHIC] [TIFF OMITTED]61428.153
    
    [GRAPHIC] [TIFF OMITTED]61428.154
    
    [GRAPHIC] [TIFF OMITTED]61428.155
    
    [GRAPHIC] [TIFF OMITTED]61428.156
    
    [GRAPHIC] [TIFF OMITTED]61428.157
    
    [GRAPHIC] [TIFF OMITTED]61428.158
    
    [GRAPHIC] [TIFF OMITTED]61428.159
    
    [GRAPHIC] [TIFF OMITTED]61428.160
    
    [GRAPHIC] [TIFF OMITTED]61428.161
    
    [GRAPHIC] [TIFF OMITTED]61428.162
    
    [GRAPHIC] [TIFF OMITTED]61428.163
    
    [GRAPHIC] [TIFF OMITTED]61428.164
    
    [GRAPHIC] [TIFF OMITTED]61428.165
    
    [GRAPHIC] [TIFF OMITTED]61428.166
    
    [GRAPHIC] [TIFF OMITTED]61428.167
    
    [GRAPHIC] [TIFF OMITTED]61428.168
    
    [GRAPHIC] [TIFF OMITTED]61428.169
    
    [GRAPHIC] [TIFF OMITTED]61428.170
    
    [GRAPHIC] [TIFF OMITTED]61428.171
    
    [GRAPHIC] [TIFF OMITTED]61428.172
    
    [GRAPHIC] [TIFF OMITTED]61428.173
    
    [GRAPHIC] [TIFF OMITTED]61428.174
    
    [GRAPHIC] [TIFF OMITTED]61428.175
    
    [GRAPHIC] [TIFF OMITTED]61428.176
    
    [GRAPHIC] [TIFF OMITTED]61428.177
    
    [GRAPHIC] [TIFF OMITTED]61428.178
    
    [GRAPHIC] [TIFF OMITTED]61428.179
    
    [GRAPHIC] [TIFF OMITTED]61428.180
    
    [GRAPHIC] [TIFF OMITTED]61428.181
    
    [GRAPHIC] [TIFF OMITTED]61428.182
    
    [GRAPHIC] [TIFF OMITTED]61428.183
    
    [GRAPHIC] [TIFF OMITTED]61428.184
    
    [GRAPHIC] [TIFF OMITTED]61428.185
    
    [GRAPHIC] [TIFF OMITTED]61428.186
    
    [GRAPHIC] [TIFF OMITTED]61428.187
    
    [GRAPHIC] [TIFF OMITTED]61428.188
    
    [GRAPHIC] [TIFF OMITTED]61428.189
    
    [GRAPHIC] [TIFF OMITTED]61428.190
    
    [GRAPHIC] [TIFF OMITTED]61428.191
    
    [GRAPHIC] [TIFF OMITTED]61428.192
    
    [GRAPHIC] [TIFF OMITTED]61428.193
    
    [GRAPHIC] [TIFF OMITTED]61428.194
    
    [GRAPHIC] [TIFF OMITTED]61428.195
    
    [GRAPHIC] [TIFF OMITTED]61428.196
    
    [GRAPHIC] [TIFF OMITTED]61428.197
    
    [GRAPHIC] [TIFF OMITTED]61428.198
    
    [GRAPHIC] [TIFF OMITTED]61428.199
    
    [GRAPHIC] [TIFF OMITTED]61428.200
    
    [GRAPHIC] [TIFF OMITTED]61428.201
    
    [GRAPHIC] [TIFF OMITTED]61428.202
    
    [GRAPHIC] [TIFF OMITTED]61428.203
    
    [GRAPHIC] [TIFF OMITTED]61428.204
    
    [GRAPHIC] [TIFF OMITTED]61428.205
    
    [GRAPHIC] [TIFF OMITTED]61428.206
    
    [GRAPHIC] [TIFF OMITTED]61428.207
    
    [GRAPHIC] [TIFF OMITTED]61428.208
    
    [GRAPHIC] [TIFF OMITTED]61428.209
    
    [GRAPHIC] [TIFF OMITTED]61428.210
    
    [GRAPHIC] [TIFF OMITTED]61428.211
    
    [GRAPHIC] [TIFF OMITTED]61428.212
    
    [GRAPHIC] [TIFF OMITTED]61428.213
    
    [GRAPHIC] [TIFF OMITTED]61428.214
    
    [GRAPHIC] [TIFF OMITTED]61428.215
    
    [GRAPHIC] [TIFF OMITTED]61428.216
    
    [GRAPHIC] [TIFF OMITTED]61428.217
    
    [GRAPHIC] [TIFF OMITTED]61428.218
    
    [GRAPHIC] [TIFF OMITTED]61428.219
    
    [GRAPHIC] [TIFF OMITTED]61428.220
    
    [GRAPHIC] [TIFF OMITTED]61428.221
    
    [GRAPHIC] [TIFF OMITTED]61428.222
    
    [GRAPHIC] [TIFF OMITTED]61428.223
    
    [GRAPHIC] [TIFF OMITTED]61428.224
    
    [GRAPHIC] [TIFF OMITTED]61428.225
    
    [GRAPHIC] [TIFF OMITTED]61428.226
    
    [GRAPHIC] [TIFF OMITTED]61428.227
    
    [GRAPHIC] [TIFF OMITTED]61428.228
    
    [GRAPHIC] [TIFF OMITTED]61428.229
    
    [GRAPHIC] [TIFF OMITTED]61428.230
    
    [GRAPHIC] [TIFF OMITTED]61428.231
    
    [GRAPHIC] [TIFF OMITTED]61428.232
    
    [GRAPHIC] [TIFF OMITTED]61428.233
    
    [GRAPHIC] [TIFF OMITTED]61428.234
    
    [GRAPHIC] [TIFF OMITTED]61428.235
    
    [GRAPHIC] [TIFF OMITTED]61428.236
    
    [GRAPHIC] [TIFF OMITTED]61428.237
    
    [GRAPHIC] [TIFF OMITTED]61428.238
    
    [GRAPHIC] [TIFF OMITTED]61428.239
    
    [GRAPHIC] [TIFF OMITTED]61428.240
    
    [GRAPHIC] [TIFF OMITTED]61428.241
    
    [GRAPHIC] [TIFF OMITTED]61428.242
    
    [GRAPHIC] [TIFF OMITTED]61428.243
    
    [GRAPHIC] [TIFF OMITTED]61428.244
    
    [GRAPHIC] [TIFF OMITTED]61428.245
    
    [GRAPHIC] [TIFF OMITTED]61428.246
    
    [GRAPHIC] [TIFF OMITTED]61428.247
    
    [GRAPHIC] [TIFF OMITTED]61428.248
    
    [GRAPHIC] [TIFF OMITTED]61428.249
    
    [GRAPHIC] [TIFF OMITTED]61428.250
    
    [GRAPHIC] [TIFF OMITTED]61428.251
    
    [GRAPHIC] [TIFF OMITTED]61428.252
    
    [GRAPHIC] [TIFF OMITTED]61428.253
    
    [GRAPHIC] [TIFF OMITTED]61428.254
    
    [GRAPHIC] [TIFF OMITTED]61428.255
    
    [GRAPHIC] [TIFF OMITTED]61428.256
    
    [GRAPHIC] [TIFF OMITTED]61428.257
    
    [GRAPHIC] [TIFF OMITTED]61428.258
    
    [GRAPHIC] [TIFF OMITTED]61428.259
    
    [GRAPHIC] [TIFF OMITTED]61428.260
    
    [GRAPHIC] [TIFF OMITTED]61428.261
    
    [GRAPHIC] [TIFF OMITTED]61428.262
    
    [GRAPHIC] [TIFF OMITTED]61428.263
    
    [GRAPHIC] [TIFF OMITTED]61428.264
    
    [GRAPHIC] [TIFF OMITTED]61428.265
    
    [GRAPHIC] [TIFF OMITTED]61428.266
    
    [GRAPHIC] [TIFF OMITTED]61428.267
    
    [GRAPHIC] [TIFF OMITTED]61428.268
    
    [GRAPHIC] [TIFF OMITTED]61428.269
    
    [GRAPHIC] [TIFF OMITTED]61428.270
    
    [GRAPHIC] [TIFF OMITTED]61428.271
    
    [GRAPHIC] [TIFF OMITTED]61428.272
    
    [GRAPHIC] [TIFF OMITTED]61428.273
    
    [GRAPHIC] [TIFF OMITTED]61428.274
    
    [GRAPHIC] [TIFF OMITTED]61428.275
    
    Mr. Klink. First of all, I want to thank you for holding 
this important hearing, and I would applaud the staff for the 
work that they have done to help put this hearing together.
    The Department of Energy and the Atomic Energy Commission 
have a decade-long disgraceful record of denying workers at the 
nuclear weapons plants who labor every day with highly 
radioactive material, often under dangerous conditions, the 
compensation that they deserved when they fell ill. They also 
have a long and shameful history of telling their workers that 
handling radioactive material is not dangerous and punishing 
those that ask questions or who conducted the studies that 
determined otherwise.
    In many ways this hearing is the latest in a series of 
hearings that this committee has been holding for over 2 
decades, and it is depressingly similar. In 1978 we heard from 
a cancer researcher who was fired by the DOE when he found 
unusually high cancer deaths among the workers of the Hanford 
Nuclear Weapons Facility.
    In 1988 we took testimony about failed safety programs, 
plants unsupervised by government owners, safety reports buried 
in back cabinets, safety regulations routinely ignored, and 
award fees that encourage contractors to hide safety problems 
from the government. In 1994 this subcommittee worked with the 
GAO to reveal that every year DOE was paying over $40 million 
to private law firms to keep from paying workers' compensation 
claims and environmental damages that resulted from its 
contractors' deliberately negligent behavior. Over the years 
probably $1 billion has been spent to avoid liability, and all 
of it was taxpayer money.
    We had some successes. Admiral Watkins and his tiger teams 
changed as much as possible in the DOE culture. The 
Whistleblower Protection Act was passed to protect contract 
workers who came to Congress to talk about the problems. 
Billions of dollars was appropriated for cleanups. Independent 
oversight was instituted and hopefully will not be destroyed by 
the DOE reorganization recently approved by the House. But this 
is not enough. The testimony we will hear today will again 
address these historic problems and will show that at Paducah, 
workers and the environment are still not being protected. The 
workers are not being compensated, and the lack of action I 
believe is deliberate.
    As far back as 1952, the Department recognized that to 
avoid worker exposure to both uranium and small quantities of 
plutonium in recycled feedstock when used in the gaseous 
diffusion processing system, the material should be maintained 
in a closed system, workers should have respiratory protection 
and protective clothing. They should never be allowed to work 
with open wounds. Every single one of these restrictions was 
violated at Paducah. Management was also told to determine 
where plutonium would go and whether it would concentrate and 
at what levels it would concentrate. They did not.
    By the late 1950's the Paducah and Oak Ridge laboratories 
were finding cesium, and strontium in the feedstocks, and by 
1960 the Biology and Medicine Division of the AEC reported 
neptunium contamination at Paducah and resulting worker 
exposure problems.
    The authors of this memo said that 300 people at Paducah 
should be checked for exposure but that the site hesitated to 
``proceed to intensive studies because of the union's use of 
this as an excuse for hazard pay. I am afraid the policy at 
this plant is to be wary of the unions and any unfavorable 
public relations.'' That is the end of the quote.
    Another memo in 1960, which admitted there were jobs which 
produced localized areas of somewhat elevated concentrations of 
uranium in air for short periods of time, also worried that any 
reduction in exposure would cost money. None of this was ever 
told to the workers. The health physics program to check their 
exposure was nonexistent in the early days, and we will hear 
from two health physicists at the radiation control program at 
Paducah it was still nonexistent in the early 1990's. 
Management told one of the physicists that Paducah was a 
chemical plant. The contractor didn't have adequate staff for 
measuring instruments for uranium. Although contamination was 
everywhere, there were no posted areas, and workers freely 
walked throughout the site. In fact these witnesses, both hired 
by Martin Marietta, supposedly to put the plant in order, were 
not told by management that plutonium and neptunium were 
present.
    The environmental side of Paducah was little better. 
Contaminated drums and trash have been buried willy nilly on 
the site, sometimes off the site; trichloroethylene, TCE, a 
toxic solvent was poured onto the ground. Contaminated scrap 
and metal were left out in the weather in huge piles, adding to 
the contaminated ground plumes leaving from the site. There is 
an old pond filled with drums containing uncharacterized waste. 
After the pond was full, the barrels were piled on the ground 
and covered with dirt. A much larger pile was called drum or 
barrel mountain. It also contains contaminated drums and other 
refuse covered up by dirt. The two largest groundwater plumes 
which contained techtinium 99 and trichloroethylene move one 
foot per day.
    Despite the expenditure of $400 million in cleanup funds at 
Paducah, there is no adequate remediation underway for this 
most obvious of waste streams. Dump sites are not even located, 
much less characterized. DOE and its contractors have not 
bothered to talk to the workers to find out where they dumped 
the waste.
    What has been Martin Marietta's and the DOE's response over 
the past decade? Some upgrades have been made prior to the 
transfer of the plant to the U.S. Enrichment Corporation, but 
according to the latest DOE investigation, the radiation 
control program on the DOE part of the site is still deficient. 
Worker training to deal with transuranics occurred once in 
1992. Bioassays to determine uptakes of radioactive material by 
workers still have not been done. The most contaminated process 
buildings were shut down, but they have not been characterized. 
For several years they were used as changing rooms; security 
personnel sometimes used them for training, going around in the 
contaminated dust. Now under DOE's direct control, they are 
falling apart because of disrepair, which also releases 
contamination.
    During the development and manufacture of nuclear material, 
many people were injured. Most have now been compensated in 
some way only after years of suffering. The soldiers at the 
test sites have been compensated. The Marshal Islanders have 
been compensated. The institutionalized children that were 
subjected to radiation experiment have been compensated. The 
uranium miners have been compensated, but the workers have 
never been compensated. If they ask questions about their 
health and working conditions, they were vilified, threatened 
and lied to by the government to which they were so dedicated. 
Joe Harding's heirs were told in 1991 that DOE dismissed his 
claims of dangerous working conditions and declared the plant 
to be safe. DOE said there was no presence of a thick uranium 
hexafluoride dust because it was not consistent with the mode 
of operation, but uranium was found in Mr. Harding's bones and 
today we will hear testimony from two eyewitnesses about the 
thick uranium and asbestos dust in the plant that workers were 
forced to breathe.
    When Joe Harding left the plant in 1972 he was told he 
would get a disability pension for an unrelated leg injury. But 
when Union Carbide reneged and the DOE, backed by the Justice 
Department, fought every claim for workmens' compensation and 
wrongful death, Joe Harding finally died in 1980 at the age of 
58. And just 2 years ago his widow finally received $12,000 in 
settlement of her claims. Just last week, secretary Richardson 
called Joe Harding a cold war hero and gave his widow a medal. 
Clara Harding doesn't need a medal. She is impoverished and has 
lost her home. She deserves the widow's benefit that she has 
been denied for almost 20 years.
    Today, Mr. Chairman, I am announcing that I am sending a 
letter to Secretary Richardson asking him to reopen that 
settlement and pay with interest the full amount owed to Clara 
Harding. It would be a small beginning to ending this very 
disgraceful era, and I would ask unanimous consent that my 
letter to Secretary Richardson be included in the transcript of 
this hearing.
    Mr. Upton. Without objection.
    [The information referred to follows:]

                      U.S. House of Representatives
                                      Committee on Commerce
                                                 September 22, 1999
The Honorable Bill Richardson
Secretary
U.S. Department of Energy
1000 Independence Avenue, S.W.
Washington, D.C. 20585
    Dear Secretary Richardson: Last week, you personally awarded Clara 
Harding, the 76-year-old widow of Joe Harding, with a medal from the 
U.S. Department of Energy (DOE). You called her late husband a ``Cold 
War hero,'' and honored Mrs. Harding for her ``personal contribution in 
reminding us of the human face of the men and women who contributed to 
the nation's effort and the ultimate success in winning the Cold War.''
    It is true that the injured workers are the forgotten victims of 
the Cold War. While the Department has spent billions of dollars to 
clean up the environmental damage caused by the negligent handling of 
toxic, hazardous and radioactive waste, minuscule amounts have been 
spent to compensate workers made ill by the very same materials. In 
fact, over the years, the Department has spent tens of millions of 
dollars in legal fees to make sure that these workers did not receive 
workmen's compensation, medical assistance, disability payments and 
pensions. The entire legal establishment of the federal government was 
massed to avoid these claims. Sick workers were ridiculed, vilified and 
lied to and about.
    The case of Joe Harding is a classic example of this treatment. 
However gracious and heartfelt this gesture to Mrs. Harding may have 
been on your part, it cannot obscure the decades' of shabby, dishonest 
treatment and poverty that the Hardings were subjected to by the 
actions of the Department, its contractors and its lawyers. Nor can it 
obscure the fact that it took Mrs. Harding more than 15 years to 
receive a paltry $12,000 settlement for her late husband's workmen's 
compensation claims. This payment, which was fought for years by Union 
Carbide's and DOE's own lawyers, was received less than two years ago.
    Joe Harding worked for 18\1/2\ years at the Paducah Gaseous 
Diffusion Plant (GDF). He was a process operator who worked without any 
radiation protection in air thick with uranium dust that was also 
contaminated with plutonium, neptunium and possibly ruthenium. 
Sometimes he did maintenance in pipes that moved uranium hexaflouride 
from building to building. He suffered lesions, stomach pain and other 
symptoms of radiation illness. But the company told him that his work 
environment was safe even though it knew that it was not.
    When Mr. Harding left the Paducah GDF in 1971, he was 49 years old 
and ill, probably with the cancer to which he ultimately succumbed. 
Before he left, he was promised a 100 percent disability pension from 
Union Carbide. But he never received that a nickel of that pension. He 
lost his health insurance. He never received a retirement pension. 
After Mr. Harding died, the Department issued a report said that there 
was not enough radiation exposure at Paducah to cause his illness, and 
that ``The presence of thick dust in the air which Mr. Harding stated 
occurred . . . is not consistent with the mode of operation'' at the 
plant. As testimony at the Subcommittee's hearing today will show, the 
DOE report writers lied to deny Mr. Harding his compensation. Mr. 
Harding's statements were absolutely consistent with the mode of 
operation at Paducah. Workers frequently labored in thick uranium dust, 
and many were sick. You heard many similar statements from workers 
yourself last week.
    Mrs. Harding deserves an ``honor'' that she can take to the bank. 
By this letter, I am requesting that you direct the Department's Office 
of General Counsel and Union Carbide to go back to the court of 
jurisdiction in which the Harding settlement was filed and move to 
reopen that settlement so that it can be increased to fully reimburse 
Mrs. Harding for her years of pain and penury. Additionally, I am 
requesting you to investigate what happened to Mr. Harding's retirement 
pension. We have been told by DOE officials that he was offered a 
pension, but never returned the paperwork. This would be surprising 
since Mr. Harding fought many years to obtain some kind of compensation 
for his work.
    Please respond in writing by Thursday, September 30, 1999, with the 
steps the Department intends to take to fully compensate Mrs. Harding 
and to investigate the retirement pension. If you have any questions, 
please have your staff contact Edith Holleman, Minority Counsel, at 
(202) 226-3407.
    Thank you for your immediate attention to this very important 
matter.
            Sincerely,
                                                  Ron Klink
            Ranking Member, Oversight & Investigations Subcommittee
cc: Rep. Fred Upton
   Mrs. Clara Harding

    Mr. Upton. At this point I recognize the chairman of the 
full committee, Mr. Bliley, for an opening statement.
    Chairman Bliley. Thank you, Mr. Chairman. This hearing 
builds on the committee's ongoing commitment to hold the 
Department of Energy and its contractors accountable for poor 
management practices that compromise worker safety, cause 
unnecessary environmental contamination, and waste billions of 
taxpayer dollars. The long list of poorly managed DOE projects 
and programs has kept the committee very busy over the past 
several years. Unfortunately, we do not have the resources to 
keep track of all of DOE's mistakes, but it has been necessary 
to take a hard, close look at several issues.
    The subcommittee's past DOE hearings include the Pit 9 
cleanup disaster in Idaho, the spent nuclear fuel project at 
Hanford, the troubled Office of Science and Technology, the 
radioactive tank waste at Hanford, the questionable funding of 
Molten Metal Technologies, misdirected contract reform efforts, 
and just recently, a review of the Department's nuclear safety 
program. Each of these hearings have informed the committee of 
some of the more pressing problems at DOE. Today's important 
hearing will review worker safety and environmental 
contamination at the Paducah Gaseous Diffusion Plant located in 
Kentucky.
    I have been alarmed by the reports I have read about the 
Paducah site. My first priority is to determine whether current 
conditions at the site and contamination offsite are 
threatening workers and the community. For this information I 
must rely on DOE and the Federal and State agencies. The 
committee has communicated with each of these agencies and the 
picture is still unclear. Last month Secretary Richardson sent 
a team of investigators to the site. He has stated that DOE has 
not uncovered ``any imminent threat to the public health, 
worker safety, or the environment, but we are continuing to 
investigate these concerns.''
    The Secretary has been quick to react to Paducah's 
problems, but only since they have received front page 
attention. Where has the Department's health and safety 
oversight been? Why does it take a special investigation to 
find out whether the workers at Paducah are safe? I have an 
answer: It is because the Department's safety oversight 
responsibilities at Paducah have been severely mismanaged. The 
initial findings of the Department's investigation have 
uncovered serious mismanagement by DOE, and several problems 
with DOE's contractor, Bechtel Jacobs Corporation, regarding 
nuclear safety oversight, radiation protection of workers and 
environmental monitoring. However, these findings are not new. 
Many of the problems uncovered by the Department's recent 
investigation were identified in a July 1990 Tiger team safety 
review at Paducah, initiated by former Secretary Watkins.
    For instance, in 1990 the Tiger team found DOE oversight 
roles and responsibilities have not been well defined, 
documented or communicated. A correction plan was put into 
place in 1991, and millions were spent for improvements, but 9 
years later the same problems persist. Thus, what confidence 
can we have that corrective actions from DOE's new 
investigation will be implemented? Furthermore, how can we be 
confident that DOE's 2-week review is sufficient?
    Today's hearing will allow us to review what further 
actions need to be taken by DOE, DOE's contractors and the 
regulators to ensure the safety of workers and the community.
    The Paducah site and its dedicated workers have a proud 
place in history. The uranium enriched at the site helped win 
the cold war, and today it helps supply 40 percent of the 
world's nuclear fuel for electricity. We owe it to the Paducah 
community to cut through the culture of silence and deceit at 
Paducah, and allow for the truth to come out. The truth and the 
answers will start today at this hearing. I thank you for it, 
Mr. Chairman.
    Mr. Upton. Thank you. Mr. Strickland.
    Mr. Strickland. Thank you, Mr. Chairman. The subject of 
today's hearing is shocking and terribly disturbing. The lives 
of thousands of workers and the safety of local communities 
depends on our swift and just response to this crisis. I 
applaud the Secretary of Energy for this initiative to 
thoroughly investigate these recent reports and to take 
responsibility to address the needs of past and present workers 
who have been placed in harm's way. I represent southern Ohio, 
not Paducah, Kentucky. Southern Ohio is the home of the uranium 
enrichment plant located near Portsmouth. It is Paducah's 
sister plant.
    It is totally unacceptable that the current worker 
compensation proposal offered by this administration covers 
only Paducah workers, leaving Portsmouth workers out in the 
cold. In other words, employees charged with carrying out the 
same work for this government, who may have been injured as a 
result of the work, are being treated differently simply 
because they lived and worked in different places. Is this 
just? Is it fair? Of course it isn't.
    That is why this committee and this Congress should correct 
this inequity. Our government must take responsibility for all 
of its employees, past and present, who have been injured due 
to the exposure to hazardous materials. When the 
administration's proposal is sent to Congress for action, I 
pledge to do everything humanly possible to ensure equal 
treatment for all DOE workers.
    Because this crisis demands our immediate attention, Mr. 
Chairman, I urge you to join me in working to make this 
legislative proposal more inclusive and to see that it is 
swiftly passed into law. Further, I am requesting that this 
subcommittee hold a similar hearing on the Department of 
Energy's investigation of the Portsmouth site at the earliest 
appropriate time, and I urge you to join me in working to 
rectify our government's abandonment of cold war veterans and 
their modern day colleagues.
    Finally, our action will demonstrate to the American 
citizens just what kind of government they have and what kind 
of people we are.
    Thank you, Mr. Chairman.
    Mr. Upton. We certainly appreciate your interest on this 
and I assure you we will continue to monitor this and I know 
that questions for this site obviously reflect a deep interest 
in your site in your State as well.
    Mr. Strickland. Thank you, Mr. Chairman.
    Mr. Upton. Mr. Whitfield.
    Mr. Whitfield. Thank you, Mr. Chairman. I particularly want 
to thank Chairman Bliley and Chairman Upton and Mr. Klink for 
agreeing to have this hearing and to speed up the process, 
particularly regarding the health and well-being of the current 
and former workers at the Paducah Gaseous Diffusion Plant, as 
well as citizens in the surrounding area.
    And before I read my statement, I would like to announce 
that we have been trying to obtain approval for DOE to 
reprogram $1.96 million to begin cleaning up uranium 
hexafluoride cylinders at the Paducah plant. There are over 
37,000 of them there, and we obtained that approval this 
morning and so that is a very small step in beginning to 
immediately try to address this problem.
    I am delighted that Mr. Klink talked about Joe Harding. I 
might also say that the Paducah Sun in 1986 ran an article 
talking about all of its problems at the Paducah plant, with 
the exception of the plutonium. It is tragic that it has taken 
this many years to focus on this and to begin to clean it up. 
The events of the last month and a half at the Paducah plant 
have all the elements of a best selling spy novel--exhumed 
bodies with uranium; allegations of missing documents; 
coverups; long-term exposure to toxic materials; black 
radioactive ooze at landfills. Unlike a great book with a good 
ending, this story is still unfolding, and I am determined that 
the ending of this story is not a tragic one.
    Since my election to Congress 5 years ago, I have worked 
with the employees at the Paducah plant to preserve collective 
bargaining rights, to protect their pension benefits and jobs 
in the midst of privatization, to minimize the impacts of the 
declining domestic uranium market and increased Russian uranium 
imports, and to obtain funds for the construction of a uranium 
hexafluoride conversion facility to convert the depleted 
uranium.
    But today I am committed to finding answers to important 
questions which have been raised by a Federal lawsuit and 
subsequent articles.
    The first panel of witnesses includes employees of the 
Paducah plant who have raised serious allegations of wrongdoing 
by former DOE contractors, Lockheed Martin and Martin Marietta, 
as well as Union Carbide.
    They allege that the contractors knowingly presented false 
and fraudulent claims for payment, cost compensation and awards 
under contracts with the Department of Energy, and they 
endangered the health and welfare of the employees. From this 
panel I want to hear the specific allegations and the evidence 
to support those allegations.
    The second panel is composed of witnesses representing past 
and present DOE contractors and the current operator of the 
production facility--Lockheed Martin, Bechtel Jacobs, and the 
United States Enrichment Corporation. From this panel I want to 
know if the allegations raised are true. In addition, we want 
to know whether the deficiencies enumerated in the Tiger team 
assessment of 1990 have been corrected; what problems exist in 
cleaning up the site today; what is the timetable and site 
management plan for the cleanup; and was there a calculated 
effort to keep workers and the community in the dark about the 
presence of plutonium in the materials the plant received, and 
what Congress can do to facilitate the cleanup.
    The third panel includes the Federal and State regulators 
of the plant--the Department of Energy, and the Nuclear 
Regulatory Commission, the Environmental Protection Agency and 
the Kentucky Department of Natural Resources. From this panel I 
want to know why supervision of the plant has been so lax, to 
explore the Energy Department's proposal for a pilot project to 
compensate workers with injuries resulting from radiation 
exposure, is the plant safe today and what steps will be taken 
to clean up the contaminated sites and to correct mismanagement 
of the past.
    Mr. Chairman, I represent men and women who have worked and 
still work at the Paducah Gaseous Diffusion Plant. They have 
not asked for, nor do they expect much. They do, however, 
expect their employers and the government to be honest with 
them, to provide them with a safe place to work, to pay them a 
fair wage and to compensate them for medical expenses incurred 
because of their responsibility by the government or its 
contractors.
    The entire Paducah community is entitled to answers about 
the plant to clean up this area and to correct past wrongs. I 
hope my colleagues on the subcommittee will help uncover why it 
took an investigative report and a Federal lawsuit to bring 
these revelations to light.
    Help us separate fact from fiction. We want to know the 
truth, and we want a safe working place for workers not only at 
the Paducah plant, but at Portsmouth and Oak Ridge and other 
DOE facilities around the country. Thank you.
    Mr. Upton. Thank you.
    We recognize the ranking member of the full committee, a 
member of this subcommittee, Mr. Dingell.
    Mr. Dingell. Mr. Chairman, I thank you and I commend you 
for holding this hearing. Worker safety at DOE nuclear sites 
has long been a matter of interest to me and also to the 
committee. It was the subject, as members of this subcommittee 
will recall, of regular investigative work by this subcommittee 
during the 1980's and early 1990's. Back when I chaired the 
subcommittee in 1994, I made one observation that still holds 
true: One of the largest groups of likely American victims of 
the cold war are the workers who labored for years in our vast 
nuclear weapons complexes across the Nation.
    Unfortunately, last week, Mr. Chairman, the House of 
Representatives, when it voted to create an autonomous nuclear 
weapons agency within the Department of Energy, turned its back 
on these workers and communities around the weapons facilities 
and the environment. The House voted to return to the secret 
days of the Atomic Energy Commission when so many of these 
tragedies began and when the culture was created that we 
suppressed public flow of information and didn't give a whoop 
about the environment, worker safety and other things.
    That created a situation where our employees at these 
facilities, whether they be Federal or contractors, were calmly 
and serenely irradiated and subjected to other risks of 
employment and when the communities found that contamination of 
every one of these sites was regular order of business. And I 
would observe to you, Mr. Chairman, this was all done under a 
culture which was caused because of its secretive character, 
the suppression of information to the public at large, the 
media, and of course to the Congress which was viewed as a 
threat by that agency at that time. And it took us years to 
break that attitude on the part of that agency.
    Today we are seeing that the Congress has willingly 
returned to that in the legislation we passed last week. Worker 
safety in these times was knowingly jeopardized in favor of 
weapons production, and the safety of people in adjacent 
communities was severely risked; and as a result, all of the 
sites under the former jurisdiction of the Atomic Energy 
Commission, acting under a veil of secrecy, are now 
contaminated with hazardous both high- and low-level of nuclear 
waste.
    Those who had the temerity to ask questions were 
systematically harassed, intimidated, and the Congress and 
others were stonewalled. When outsiders made inquiry on these 
matters, lying was the usual refuge of bureaucrats in that 
agency.
    Today's hearing is important, and again, Mr. Chairman, I 
commend you. What went on at Paducah was outrageous, but what 
went on at Paducah was replicated at many other sites run by 
the Atomic Energy Commission.
    Last week's vote by the House was also outrageous. We do 
need many more hearings like this to convince the leadership of 
this House to reverse the course and go out for independent and 
aggressive oversight of the weapons complex to see to it that 
we work to bring about the necessary cleanup and to see to it 
that that cleanup involves not only the physical cleanup of 
sites, but a cleanup of an attitudinal problem at DOE, which is 
the inheritance of the mantle of the Atomic Energy Commission, 
and to see to it that we have a situation come about where the 
Congress can find out what goes wrong and properly supervise 
this matter instead of returning to the veil of secrecy which 
caused so many of the problems.
    I thank you and commend you, Mr. Chairman.
    Mr. Upton. Thank you.
    Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman. At this time, I would 
request to be able to pass and reserve my time.
    Mr. Upton. Mr. Burr.
    Mr. Burr. I thank the chairman and I also thank the entire 
committee and our witnesses, because the postponement of this 
hearing allowed many of us to go back to the State of North 
Carolina and address what still today is a significant disaster 
and will continue to be a problem.
    I want to commend Mr. Whitfield for one of the finest 
opening statements that I have heard in a long time, and one 
that clearly tells me that he has stayed focused on the human 
face behind the issue, and that is the workers in Paducah and 
the many people that live around this plant.
    Paducah does have a long history, a history that goes back 
to the 1950's, a history that if this were the book, it would 
include the cold war, it would include the need for nuclear 
development, and this was at the centerpiece of that effort.
    Throughout those 50 years, much has happened. And quite 
honestly, questions have been raised about safety and 
contamination. Mr. Whitfield alluded to the Paducah Sun article 
in 1986. Had we only listened then, maybe we could have started 
this process much sooner.
    It has been amazing to me after reviewing the documents for 
this hearing, my conclusion is why didn't we listen? Why didn't 
we listen to the Paducah Sun? Why did it take the Washington 
Post and other news outlets finding documents that this 
committee and Congress could not obtain through the Department 
of Energy because in many cases contractors never filed those 
papers with that agency. How is it that for 9 years, an 
appendix to the report could be lost and all of a sudden 
reappear?
    Ladies and gentlemen, I think that raises the question that 
we should be here to ask: How hard are contractors and the 
Department of Energy working today to solve the problems at 
Paducah? Much time has been spent talking about other 
investigations, other sites, and clearly that is a 
responsibility of this Congress, but I am hopeful that what we 
will do today before we leave is that the Department of Energy, 
the contractors, and the Congress will commit that we will 
clean this site up and assure worker safety.
    Let me read you a quote from Dave Michaels with the 
Department of Energy that appeared in the Post on September 9. 
He said, ``We are most concerned that these problems continue 
to repeat themselves and that the laboratory management, 
despite commitments made in previous enforcement actions, have 
failed to correct identified problems. We have used enforcement 
on things that we knew were real and contractors haven't 
responded.''
    Well, I understand that the investigations are ongoing. I 
am concerned that the Department of Energy's preliminary 
observations announced September 14 are simply a rehash of 
earlier investigations. If in the end DOE does not improve in 
the way in which it oversees contract operations, how it 
evaluates contractor performance, and the way that it actually 
writes its contracts, then none of the other changes it makes 
will take hold. If DOE will not make the needed changes in 
contract management, I am certain this committee and this 
Congress will have a large say in how we proceed in the future.
    Mr. Chairman, I thank you for holding this hearing, but I 
especially thank those media outlets that were able to access 
documents that furthered the urgency for this hearing and I 
yield back the balance of my time.
    Mr. Upton. Mr. Green.
    Mr. Gene Green. Thank you, Mr. Chairman. And as a Member of 
Congress and an American, it makes me ashamed to read the 
documents that we have and that we as a country treated our 
workers, or through the contractors we hired, this way.
    I want to thank the chairman for scheduling this hearing 
and, again, not having the long-term seniority that our ranking 
member has, it is frustrating, I imagine, to be here year after 
year and be told that something is being done and yet it is 
not.
    Over and over we hear of lax standards and nonexistent 
safety protocols and hazards and dangers that no one should 
have to tolerate. Despite action and oversight by this 
committee, it seems every time Congress hears how these 
problems are fixed, you hear the latest plan for improving the 
working conditions at these facilities, we instead have to hear 
more problems: our most recent problem at Paducah, Kentucky 
where for almost 40 years we have managed to avoid dealing with 
clear evidence of radiation hazard for workers.
    In one report from 1960, it appears that the people we put 
in charge kept the information about the real possibility that 
dangers and unsafe working conditions existed secret because 
the managers were afraid that they would have to pay hazardous 
pay. We will hear testimony from environmental safety officials 
at the plant about exposure of workers to plutonium which is so 
radioactive that one millionth of an ounce, if inhaled, can 
cause cancer.
    As early as 1952 we knew that exposure of workers to 
plutonium and other man-made metal was dangerous. That did not 
stop those who ran the facilities from ignoring the dangers to 
workers and failing to protect them from exposure. It seems 
that the contractors we hired knew that there was widespread 
and systematic and documented failures in their effort to stop 
the spread of these materials, but did nothing to try to 
correct it.
    Our government bears much of the blame for the lack of 
oversight which has led to this and other situations. However, 
I hope that by now we would have identified the problems and 
been far down the road toward solving them, and I hope that the 
Department of Energy and the contractors have done a better job 
at our other facilities, whether they be in Ohio or Texas, and 
I look forward to the testimony today from the witnesses. Thank 
you, Mr. Chairman.
    Mr. Upton. Mr. Bilbray.
    Mr. Bilbray. Mr. Chairman, I would like to thank you and 
the ranking member for holding this hearing, and I think the 
bipartisan aspect of this hearing is something that we should 
encourage more often.
    I would like to congratulate the gentleman from Kentucky, 
Mr. Whitfield, because ever since he came to this Congress I 
know that this issue has been one that he has been doggedly 
following and hounding. He knew that it was an issue that was 
not going to go away, and he did it in a very organized, to a 
degree quiet at times, but very effective way of forcing this 
issue out into the light of day. And Mr. Whitfield, I think you 
set an example for a lot of us, that you may feel strongly 
about things, but screaming and shouting is not the only way to 
take care of problems. Actually addressing them is appropriate.
    Mr. Chairman, the more I read these reports, I thank my 
lucky stars that when I was working around a nuclear facility I 
was working under the Department of Defense rather than the 
Department of Energy, and I just say that as somebody who has 
worked and seen the safety precautions and the employee 
protection that the Department of Defense rendered to those of 
us working in those environments, and I have to raise up my 
hands and shrug my shoulders and say why not here.
    But I also have to point out that we can find blame and 
fault, and that is really easy for us who are legislators to 
point fingers at any administration. The problem is, can we 
find answers? And I would ask to take a look at the fact that 
all of us bear in some degree responsibility in the past, t we 
bear more responsibility to make sure that these situations are 
addressed in the future. And I would ask all of us what are we 
doing to initiate some answers here.
    And just this morning I have heard the statement of cleanup 
mentioned countless times, and I would just ask every member 
who has ever mentioned the issue of cleanup, at are we doing to 
make cleanups safer and more cost effective?
    A good example is the problem doesn't stop with the DOE. 
The fact is that we just had a situation last year where the 
Army Corps of Engineers cleaned up a World War II site, shipped 
the material from New York all of the way to California, and 
then disposed of it illegally in a facility that is not 
supposed to be taking nuclear material. And their reason for 
doing it, to save money.
    So I think that we need to look around and say there is a 
deeper problem here, and I will just ask all of us to remember 
that every time we talk about cleaning up a nuclear site, we 
should be asking ourselves and the public should be asking us 
what are we doing to provide the facilities to cleanup these 
sites, cause the material removed has to go somewhere. And I 
ask this committee as an oversight committee to take a look at 
what happened last year and what we need to do in the future so 
that the material can be cleaned up and transferred to an 
appropriate disposal site, which is something that none of us 
want in our neighborhood, but we all want done somewhere.
    We need to learn from the mistakes of the past; let's 
change the system but maybe change our own attitudes about 
being proactive in nuclear cleanup, and say what is this 
committee as the Commerce Committee doing to initiate the 
ability for Paducah to be cleaned up in a safe, cost-effective 
manner? And I think that this hearing can remind us that doing 
nothing is not an option.
    I yield back the balance of my time.
    Mr. Upton. Thank you.
    Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman. I apologize that I 
will be in and out of this hearing because I have a number of 
congressional hearings today. I am very interested in this 
hearing because I think it is important that we examine the 
safety record of the Department of Energy with respect to its 
handling of plutonium and other radioactive materials. 
Yesterday the Washington Post reported that radiation risks to 
workers were concealed at Paducah because of ``fear of a public 
outcry.'' While it is unclear from the news article whether DOE 
had knowledge of the contamination, it is clear that their 
oversight of the operation was disastrous. This disaster has 
caused people to pay with their lives, due to cancer they 
contracted while working in that unsafe environment.
    The Department of Energy has done a horrendous job of 
protecting the public workers and the public in Paducah from 
radiation exposure and harm. DOE is now proposing to ship 
plutonium through both of our districts as well as that of Mr. 
Blunt from this subcommittee. DOE assures us it will be handled 
safely by a responsible government contractor. Yet to this 
point, the DOE has refused to have public hearings in my 
district or anywhere else along the shipment route. Even though 
the Canadian Government is having public meetings on the 
shipment, DOE is refusing to even hold one hearing in this 
country. Are they afraid of public outcry? Does this situation 
sound disturbingly similar to the subject of this current 
hearing today? I hope not.
    I believe DOE and its contractors should be open and 
forthright with respect to their responsibility in the 
operation at Paducah. I believe they have both a duty and an 
obligation to find out who is responsible for these lapses and 
ensure the victims are treated fairly.
    Furthermore, I believe DOE should quit stalling and begin 
hearings on the proposed MOX fuel shipment scheduled to go 
through our districts. Enough coverups. We need public 
discussion. DOE's track record with Paducah gives us a serious 
doubt and reason to doubt the safety of DOE's nuclear weapons 
program. Only public discussion and reparation will repair that 
lost trust. Let me remind DOE officials here today, last week 
the House unanimously passed my amendment to hold public 
hearings before you begin shipment of the plutonium and the MOX 
fuels.
    Four hundred thirty-five Members said hold hearings. I darn 
well hope that we have those hearings and have them soon.
    Thank you for holding this hearing, Mr. Chairman. I look 
forward to working with you on this issue as well as the MOX 
fuel shipment issue.
    Mr. Upton. I supported your amendment on the House floor 
and only a slow subway and the rain stopped me from getting 
over there to speak in favor of it.
    Mr. Stupak. Mr. Bryant.
    Mr. Bryant. I want to thank you for having this hearing. My 
colleague from Tennessee, Zach Wamp, represents the Oak Ridge 
area and for those of you who know him, know how strong he 
feels about all issues and certainly will work aggressively to 
ensure that the right thing is done in this instance to include 
Oak Ridge.
    I do want to associate myself with the remarks of Mr. 
Strickland and Mr. Whitfield who also have facilities. We have 
talked a little bit and as I sit here and listen and review the 
materials, I too am very concerned about what appears to be not 
negligence but active coverup over a number of years, and for 
reasons that are very inappropriate given the risk involved 
here.
    I do again thank all of you for being here. I look 
especially forward to hearing from the workers, both at Paducah 
and Oak Ridge, and I don't know if this is their first 
opportunity to actually testify, but I welcome that and look 
forward to that and I yield back the balance of my time.
    Mr. Upton. Thank you.
    At this point we welcome our first panel. They include Mr. 
Jim Key, Mr. Ronald Fowler, Mr. Thomas Cochran, and Mr. Brad 
Graves. It is my understanding that many of you, if not all, 
brought counsel with you, which is certainly fine and fits 
under the committee rules, but by doing so they need also to be 
sworn, in that everything is under oath here. If you would 
identify them when you begin your testimony, that would be 
appropriate. At this point if you would stand and raise your 
right hand.
    [Witnesses sworn.]
    Mr. Upton. By the way, your counsel need to do the same 
thing. Identify yourself and then we will swear you in.
    Mr. Cooper. Charles Cooper, representing Mr. Jenkins and 
Mr. Fowler.
    Mr. Egan. Joe Egan, representing Mr. Jenkins and Mr. Fowler 
and Mr. Cochran.
    Mr. McMurray. William F. McMurray for Mr. Jenkins and Mr. 
Fowler.
    Mr.  Mull. Martin Mull for Mr. Jenkins and Mr. Fowler.
    Mr. Lawrence. Mr. Lawrence for Mr. Jenkins and Mr. Fowler 
and Mr. Cochran.
    Mr. Upton. For counsel, who did not take the oath 
previously, raise your hand I will swear you.
    [Counsel sworn.]
    Mr. Upton. Now you are all under oath. Mr. Key, we will 
start with you. We would like you to limit your remarks to 5 
minutes. Your statement will be made fully part of the record 
in its entirety, if you can stay pretty close to 5 minutes.
    By the way, because of the delay in the hearing from last 
week due to the hurricane, we very much appreciate getting your 
testimony on time so we could review it over the weekend. Go 
ahead.

     TESTIMONY OF JIM H. KEY, PACE LOCAL 5-5550; GARLAND E. 
  JENKINS; RONALD B. FOWLER; M. BRAD GRAVES, LOCKHEED MARTIN 
   ENERGY SYSTEMS; AND THOMAS B. COCHRAN, DIRECTOR, NUCLEAR 
       PROGRAMS, NATURAL RESOURCES DEFENSE COUNCIL, INC.

    Mr. Key. Thank you, Mr. Chairman, for allowing me to come 
before you today. My name is Jim Key.
    Mr. Upton. Could you bring the mike a little closer?
    Mr. Key. Thank you, Mr. Chairman, and committee members for 
allowing me to come before you today. I am Jim Key, an hourly 
electrician at the Paducah Gaseous Diffusion Plant at Paducah, 
Kentucky. I was hired by Union Carbide in 1974 as a laborer and 
I have worked for a succession of contractors, including Martin 
Marietta, Lockheed Martin, and most recently the privatized 
United States Enrichment Corporation. Since 1989 I have also 
served as the environmental safety and health representative 
for Local 5-550 of the Paper Allied Industrial Chemical and 
Energy Workers Union.
    At the outset, allow me to clarify for the record that 
neither I nor PACE Local 5-550 is a party to any litigation 
with respect to health and safety issues at Paducah at this 
time. The Department of Energy headquarters oversight staff 
have included me in daily outbriefs when they investigated the 
Paducah site during the Phase I study between August 17 and 
September 3, 1999. It was disturbing to learn, however, that 
elements within Department of Energy now want to exclude me 
from further participation, apparently based on the erroneous 
charge that I had leaked my notes from the outbriefs to the 
press. This is wholly inaccurate and appears to be a function 
of the Department of Energy looking for a scapegoat to blame 
for the publicity associated with the disclosure of the 
oversight team report.
    If there is one message that I want the committee to 
receive from the workers at Paducah today, it is this: The 
majority of current and former workers are afraid that they may 
have been exposed to substances like plutonium without proper 
protection and that they will, as a result, be stricken with a 
fatal disease and lose their lives.
    Allow me to describe some of the working conditions and I 
think you will understand the fear. Shortly after I was hired 
in 1974 I joined the group of workers who were directed to take 
drum loads of uranium metal shavings from the machine shop and 
dump them into deep, onsite pits. The uranium spontaneously 
ignited before the metal chips ever hit the bottom of the hole 
and a pungent and irritating smoke enveloped us. A coworker 
used a front-end loader and dumped soil to cover over the fire. 
The reason the uranium metal caught fire is it is hydrofluoric.
    During the plant upgrades CIP-CUP project, 20-foot diameter 
converters were hoisted by overhead cranes with pipe openings 
that emitted clouds of smoke. The smoke was uranium 
hexafluoride reacting with moisture in the air. Sometimes the 
smoke was so thick, you could not see the overhead crane 
operators. Respirators were not required. Between 1977 and 1982 
I was assigned the responsibility of grinding asbestos transite 
to fit as covers over high-voltage electrical cable. I was not 
provided any personal protective equipment or air monitoring. 
At the end of the day when I went to the change room, my entire 
body was covered with white asbestos dust.
    Union Carbide Nuclear Corporation knew in 1952 that the 
introduction of plutonium-contaminated reactor tails into the 
uranium enrichment process at Oak Ridge, a process similar to 
Paducah, may require consideration of certain changes to the 
health physics program, including a contamination control 
program.
    In 1985 DOE identified a need to protect workers from 
exposure to transuranics. The report concluded that Paducah 
management, in conjunction with DOE, should conduct an exposure 
assessment for those workers involved in processing and 
recycling material at Paducah Feed Plant.
    A similar recommendation was made to conduct an exposure 
assessment at the Portsmouth, Ohio Oxide Conversion Facility. 
DOE admitted no such exposure assessment was performed for the 
first time last week.
    Another report in 1990, ``Neptunium Experience at PGDP,'' 
concluded that the presence of transuranics at Paducah requires 
significantly different control procedures. What is clear is 
that the government's contractors knew the need to protect 
workers from plutonium and other transuranics since 1952. It 
took 40 years after the Union Carbide memo cited above to 
implement a contamination control program specifically for 
transuranics such as neptunium and plutonium. Because the site 
didn't have this basic radiation control equipment for almost 
40 years, contamination of all types was tracked from building 
to building, into vehicles and into workers' homes.
    In summary, workers are afraid of what may happen to them 
in the future. They have worked in conditions which exposed 
them to radiological and chemical contamination that have long 
legacy periods. These workers who served our Nation as veterans 
of the cold war production era must not be forgotten. The 
workers at Paducah and DOE sites deserve more than medical 
monitoring. They deserve coverage of the work force under the 
Federal workers' compensation system that shifts the burden of 
proof onto the Federal Government to demonstrate that workplace 
exposures didn't lead to illnesses in light of the Department 
of Energy's deceit and failure to monitor workers for radiation 
and other types of risk; and, two, health insurance coverage 
for all at-risk workers and their spouses.
    The harm to humans must be taken as seriously as the 
environmental harm to dirt. Thank you, Mr. Chairman.
    [The prepared statement of Jim H. Key follows:]
Prepared Statement of Jim H. Key, Paper, Allied-Industrial, Chemical & 
                   Energy Workers International Union
    I am Jim Key, an hourly electrician at the Paducah Gaseous 
Diffusion Plant (``PGDP'') in Paducah, Kentucky. I was hired by Union 
Carbide in 1974 as a laborer, and I have worked for a succession of 
contractors including Martin Marietta, Lockheed Martin, and most 
recently for the privatized USEC, Inc. Since 1989, I have served as the 
Environment, Safety & Health Representative for Local 5-550 of the 
Paper, Allied-Industrial, Chemical and Energy Workers Union (``PACE'') 
and its predecessor the Oil, Chemical & Atomic Workers Union 
(``OCAW'').<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ The Local was chartered by the Oil, Chemical & Atomic Workers 
International Union (``OCAW'') on January 21, 1953.
---------------------------------------------------------------------------
    PACE represents approximately 850 hourly production, maintenance, 
environmental restoration, waste management and escort workers who are 
employed by USEC, Inc. Approximately 30 PACE workers who are performing 
waste management and cylinder management under USEC's direction are 
scheduled to be transitioned to the DOE's Management and Integrating 
Contractor, Bechtel-Jacobs LLC, on October 4, 1999.
    At the outset, allow me to clarify for the record that neither I, 
nor PACE Local 5-550, is a party to any litigation with respect to 
health and safety issues at Paducah at this time.
    DOE Headquarters Oversight Staff has included me in the daily out-
briefs by the DOE Oversight Team when they investigated the Paducah 
site during the Phase I study between August 17 and September 3, 1999. 
It was disturbing to learn, however, that elements within DOE now want 
to exclude me from further participation, apparently based on the 
erroneous charge that I had leaked my notes from the outbriefs to the 
press. This is wholly inaccurate, and appears to be a function of DOE 
looking for a scapegoat to blame for the publicity associated with the 
disclosure of the Oversight team report. DOE needs to provide public 
assurances that a designated union representative will continue to be 
included in all outbriefs as the Paducah investigation continues.
1. A Fundamental Concern of Workers at Paducah
    If there is one message I want the Committee to receive from the 
workers at Paducah, it is this:
        The majority of current and former workers are afraid that they 
        may have been exposed to substances like plutonium without 
        proper protection and that they will, as a result, be stricken 
        with a fatal disease and lose their lives. I have this fear 
        from my 25 years of work at Paducah.
    Allow me to describe some of the working conditions and the site's 
historic failures to protect workers from exposure to everything from 
asbestos to radiation, and I think you will understand that fear.
2. Brief History of My Personal Working Conditions and Lack of Exposure 
        Monitoring to Transuranics
    URANIUM FIRES: Shortly after I was hired in 1974, I joined a group 
of laborers who were directed to take drum loads of uranium metal 
shavings from the machine shop and dump them into deep holes behind an 
on site (C-746) warehouse. The uranium spontaneously ignited before the 
metal chips ever hit the bottom of the hole and a pungent and 
irritating smoke enveloped us. A co-worker used a front loader and 
dumped soil to cover over the fire. We don't know if the fires were 
smothered by the soil, because we were directed to go back and get 
another truckload of uranium shavings which also ignited when we dumped 
those drums. The reason the uranium metal caught fire is that it is 
pyrophoric, which means that, under certain conditions, the uranium 
will simply self-ignite and burn. To my knowledge, this dumping ground 
has yet to be characterized, and is not included in the DOE's 2006 Plan 
for Environmental Cleanup.
    URANIUM DUSTS: I worked on the Cascade Upgrade Project (``CIP-
CUP''), removing and installing the large motors that drive the 
thousands of compressors in the enrichment process. During the 
disassembly process, 20-foot diameter converters were hoisted by cranes 
with pipe openings that were emitting clouds of smoke. The smoke was 
uranium hexaflouride (``UF6'') reacting with moisture in the air. When 
this reaction occurs, uranium becomes airborne. My co-workers reported 
that the smoke was so thick, they couldn't even see the crane 
operators. Respirators were not required.
    ASBESTOS EXPOSURES: Between 1977 and 1982, I was assigned the 
responsibility for grinding asbestos transite to fit as covers over 
high voltage electrical cable. I was provided no Personal Protective 
Equipment (``PPE'') or air monitoring. At the end of the day, I went to 
the change room with my entire body covered with asbestos dust.
    NO RESPIRATORY PROTECTION: I worked in the C-410 building which, 
beginning in 1953 and continuing through 1976, was used to convert 
plutonium-contaminated uranium, known as ``reactor tails,'' back into 
uranium hexaflouride for introduction into the uranium enrichment plant 
at Paducah. I recall having to hold my breath to get through clouds of 
unknown fumes in the C-410 building and there was no respiratory 
protection required.
    TRANSURANICS: In the mid-1970's, I observed operators cleaning up 
spills of ``black powder'' (crushed spent reactor fuel that contained 
plutonium, neptunium, and technetium-99) in the C-410 Feed Materials 
Building. Workers were not advised on the presence of transuranics, or 
the need for special health physics monitoring. The first time I ever 
learned plutonium or neptunium was used and employees were at risk of 
exposure was in 1990, when Martin Marietta advised of the need for 
monitoring employee exposure to transuranics.
    NO CONTAMINATION CONTROL: There were no formal contamination 
control procedures in use at Paducah until 1990. Contamination control 
involves the use of radiation detectors that workers pass through to 
make sure that they don't have contamination on their clothes, skin or 
shoes that they could track outside of the building. Because the site 
didn't have this basic radiation control equipment for almost 40 years, 
contamination of all kinds was tracked from building to building, into 
vehicles, and off-site into workers' homes.
3. DOE and Its Contractors Deliberately Failed to Protect Workers from 
        Uptakes to Neptunium and Plutonium For Nearly 40 Years
    Union Carbide Nuclear Company knew in 1952 that the introduction of 
plutonium contaminated ``reactor tails'' into the uranium enrichment 
process at Oak Ridge--a process similar to that at Paducah--``may 
require consideration of certain changes to the plant health physics 
program'', including a contamination control program.
    This March 26, 1952 Union Carbide memo, which was declassified in 
1995, states, ``[S]ince plutonium has a specific activity approximately 
100,00 times that of uranium, it may be noted that a very much smaller 
mass of plutonium is required to produce a given surface or air 
contamination level than is necessary with uranium.'' The memo added: 
``From a radiation standpoint, plutonium is considered somewhat more 
toxic than is uranium with the result that the plant acceptable limit 
for plutonium air contamination should be lower than is the 
corresponding uranium limit.'' Additionally, the memo stated that under 
certain conditions it would be necessary to have specific contamination 
controls for plutonium, including labeling areas as ``plutonium 
contaminated locations'' and tagging equipment accordingly. (Memo 
attached)
    Again in 1985, DOE identified the need to protect workers from 
exposure to transuranics. The Joint Task Force on Uranium Recycle 
Material Processing (DOE/OR-859), September 1985 concluded that 
``Paducah management, in conjunction with DOE, should conduct an 
exposure assessment (to transuranics and fission products) for those 
workers involved in the processing of recycled material at the Paducah 
Feed Plant.'' A similar recommendation was made to conduct an exposure 
assessment at the Portsmouth, Ohio Oxide Conversion Facility. We have 
no evidence that these recommendations were acted upon or communicated 
to the workforce. (Excerpt attached)
    In yet another report, Neptunium Experience at PGDP, K/ETO-30 
(September 1990), DOE's contractor concluded that ``[t]he presence of 
transuranics [at Paducah] requires significantly different control 
procedures.'' (Excerpt attached)
    What is clear is that the AEC and DOE contractors knew of the need 
to protect workers from plutonium and other transuranics with special 
safeguards as early as 1952. The need for exposure assessment to 
transuranics was declared in 1985. Finally, 40 years after the Union 
Carbide memo cited above, Martin Marietta Energy Systems commenced a 
contamination control program specifically for transuranics (neptunium 
and plutonium). The Environment, Safety and Health Information Bulletin 
(February 29, 1992) states: ``The program demands a higher level of 
compliance with Health Physics Practices and lowers the acceptable 
limits for air and surface contamination in the plant.'' (Excerpt 
attached).
    In 1990, Martin Marietta commenced a voluntary program for workers 
to provide a simulated 24-hour sample for transuranics. The 30 people 
who volunteered, however, were not necessarily those who were most at 
risk for transuranic uptakes, i.e. those who worked in the feed plant 
buildings or the enrichment process areas. Approximately 16 hourly 
workers were included--less than 2% of the hourly workforce.
    The results were invalidated, however. On February 11, 1991, Martin 
Marietta Energy Systems announced it would ``invalidate'' the sample 
results due to ``several concerns and discrepancies'' at the contract 
laboratory that performed the work (memo attached). Martin Marietta 
asked that employees resubmit new samples, and announced that Oak Ridge 
National Laboratories would re-analyze samples. Only 7 workers elected 
to participate in the re-test--three of which were hourly. Apparent 
mistrust of Oak Ridge National Labs, a DOE controlled operation, was 
cited as a reason why far fewer Paducah workers elected to participate 
in the follow-up tests. To rectify the concern, the local union 
identified independent labs, but Martin Marietta completely rejected 
their use.
    Results for the 7 workers were reported on July 15, 1991. All 7 
reported less than detectable levels of plutonium and other 
transuranics. However, the results from the original 30 bioassay sample 
results and the written analysis of what went wrong at the contract 
laboratory have never been disclosed. Recently, I was told by USEC, 
which controls access to DOE's information, that this particular 
information about the 30 bioassay samples is ``sensitive'' and 
``management is reluctant to release this information due to concern 
about how it would be used''.
    If management is correct that the contract laboratory simply erred 
in its performance, there should be nothing to fear from the full and 
free examination of this data. However, such needless secrecy breeds 
mistrust. Perhaps, the Commerce Committee could assist in securing this 
data for the workers.
    DOE claims that it has historically provided whole body counting 
machines for detecting internal dose. According to a 1993 NIOSH 
Memorandum <SUP>2</SUP>, Paducah used the mobile in vivo monitoring 
system from Oak Ridge Y-12 and could only schedule exams infrequently. 
The detection system produced results that were ``unreliable and 
erratic'' according to NIOSH, and it was not usually possible to 
perform an in vivo exam immediately after a suspected uptake by a 
worker since the mobile system was either not on site or out of service 
being repaired. Since uranium processed at Paducah was typically quite 
soluble, ``the lack of an in vivo examination on demand was a serious 
deficiency'', according to NIOSH.
---------------------------------------------------------------------------
    \2\ Trip Report, Paducah Gaseous Diffusion Plant, Henry B. Spitz, 
January 29, 1993, attached to Memorandum to File from J.H. Stebbings, 
NIOSH, February 8, 1993
---------------------------------------------------------------------------
    The reality of plutonium contamination in the production process 
did not register with the overwhelming majority of the hourly workforce 
at Paducah until an article appeared in the Washington Post on August 
8, 1999. Why was the workforce in the dark when Martin Marietta had 
instituted a voluntary testing for transuranics in 1990? After 1990, 
when the term ``transuranics'' was introduced to the hourly workforce, 
a listing of specific radioactive elements, such as plutonium, was 
rarely included in employee communications, and when plutonium was 
mentioned, it was labeled as a ``trace'' quantity. It is true that some 
people received limited training on the presence of plutonium. But even 
today, the current basic training manuals (General Employee Training, 
Radiological Worker I and Radiological Worker II) that every employee 
must study to work at the plant do not communicate the presence of 
plutonium and neptunium.
5. Workers' Locker Rooms Were ``Hot''
    Reactor tails and feed processing stopped when the government was 
ordered to buy UF6 from outside vendors in the late 1970's. The so-
called ``feed'' building (C-410) remained in use for 13 more years for 
support activities, such as the locker room for changing, and storage 
and repair of computers. Surveys of the C-410 locker area in November 
1989 found lockers had up to 350,000 dpm (disintegrations per minute) 
of fixed contamination. The toilet and shower areas had 175,000 dpm. 
The computer storage area had 175,000 dpm. By comparison, the limit for 
off site release is 5,000 dpm for fixed contamination. At these levels, 
the DOE Radiation Control Manual suggests that these areas should have 
been posted as a ``contamination area'' or as a ``high contamination 
area,'' and, thus, should not be used as a clean change area. Further, 
these surveys do not identify what isotopes were in the buildings. The 
reported contamination could have included some amounts of plutonium
    The C-410 Feed Building was closed shortly thereafter. The C-410 
building, as well as C-420 and C-340 (a uranium metals production and 
hydroflouric acid production building), are not adequately 
characterized, and no plan or funding exists for decontaminating and 
decommissioning. Animals have taken up residence in the C-410 building 
and are tracking contamination out of the building.
    To the best of my knowledge, the DOE contractors did not require 
workers to provide bioassay samples to determine if there had been 
ingestion of plutonium, neptunium or other transuranics until 1991. If 
any sampling did occur, internal dose or burden results of these 
transuranics were not reported to workers. Although the union has 
requested it, there has been no epidemiological morbidity or mortality 
study at the site.
5. Current Worker Safety Problems Identified by the Oversight Team on 
        the DOE Part of the Paducah site
    The DOE oversight team made a number of observations, including:

<bullet> the air sampling process used at the site today does not 
        ensure that air sample results are effectively used to 
        establish the need for respiratory protection, or that the 
        respirators now in use provide adequate worker protection.
<bullet> there has not been adequate radio-isotopic characterization, 
        adversely impacting the effectiveness of the rad protection 
        programs.
<bullet> radiation control procedures are generic and may need to be 
        tailored to specific jobs and hazards.
<bullet> radiation control training doesn't adequately address 
        radiological hazards, such as transuranics, nor do rad work 
        permits describe the radiological hazards.
    If these and other worker safety findings are validated, DOE will 
need to take hands-on steps to make sure that the contractor and 
subcontractor radiation protection programs are brought into compliance 
with the Price Anderson Act regulations.
    The DOE team made two additional significant observations:

<bullet> Release criteria for radiologically contaminated property is 
        not being consistently used and justified. For example, 
        fluorine cells were sold to private industry without regard to 
        the presence of detectable plutonium.
<bullet> DOE's oversight of contractor and subcontractor activities has 
        been very limited
    The two findings are particularly significant, as DOE has announced 
a program to recycle and selling a major part of the 60,000 tons of 
radiologically contaminated metals that are stored at Paducah. DOE is 
proposing to recycle 9,350 tons of radiologically contaminated nickel 
that has become contaminated throughout (volumetrically) with uranium, 
plutonium, neptunium and technetium-99.
    This proposal is being made by DOE even though the NRC has not 
established a de minimus standard for releasing volumetrically 
contaminated metals into unrestricted, every day commerce. Every effort 
to permit this activity has been met with widespread public opposition 
from the public and the scrap-based steel industry.
    The oversight team's observations raise fundamental questions about 
whether DOE should be trusted to control the free release of massive 
quantities of radioactive materials into the scrap metal market that 
could result in intimate human contact. This includes everyday items 
such as baby carriages, knives and forks, surgical implants such as hip 
replacements, iron tonics and eyeglass frames.
    The Oak Ridge Operations Office has not conducted an intensive 
safety oversight review at Paducah in many years. The Paducah Plant 
only has 10 federal employees, and cannot be expected--given its scarce 
resources--to carry out a vigorous oversight program. What the 
situation demonstrates is that you cannot oversee a plant the size and 
complexity of Paducah from 350 miles away by telephone. Yet this is how 
Oak Ridge manages Paducah. Congress needs to establish a Paducah 
Operations Office with sufficient federal staff, budget and contracting 
authority to manage the site.
    DOE also found that Bechtel-Jacobs' oversight of subcontractors has 
not been visible and effective. Consequently, the DOE observed, many 
DOE requirements are not being effectively implemented. This raises a 
red flag about DOE's embrace of the Management & Integrating contact 
approach--a model that DOE has touted as the wave of the future.
    The DOE team found that information provided to the public has been 
delayed, is in forms not clearly understood by the general public and 
stakeholder groups, and leads to a perception that DOE and the 
contractor are withholding information from the public. This 
observation validates the experience of PACE, which has been 
stonewalled in its efforts to obtain basic health and safety data, such 
as requests for data on leukemia incidence, bioassay data, and in vivo 
monitoring data for Paducah workers surveyed at Fernald.
6. DOE Headquarters Oversight Efforts Have Been Inadequate
    The Department of Energy's Office of Enforcement is responsible for 
enforcing the radiation protection regulations that were adopted 
pursuant to the Price-Anderson Act Amendments at 10 CFR Part 835. To my 
knowledge, they have never conducted an inspection at the Paducah 
Plant. DOE has only assigned 4 inspectors to cover the DOE nuclear 
complex nationwide. Congress needs to beef up DOE's Enforcement 
capacity, because DOE doesn't seem willing to do it on its own.
7. Summary
    Workers are afraid of what may happen to them in the future. They 
have worked in conditions that have exposed them to radiological and 
chemical contamination that have long latency periods and can have 
catastrophic results. These workers--who served our nation as veterans 
of the Cold War production era--must not be forgotten.
    Medical monitoring by independent, certified occupational 
physicians is needed today to identify diseases which hopefully can be 
caught early enough to be successfully treated. DOE's medical 
surveillance program needs to be expanded and funded so that any 
nuclear worker who wants a medical exam at Paducah, Portsmouth and Oak 
Ridge can obtain one. Monitoring is imperative, but without any other 
remedy, monitoring is simply a process to watch people get sick and 
die.
    The workers at Paducah and other DOE sites deserve more than just 
medical monitoring. They deserve:
(1) coverage for the workforce under a federal workers compensation 
        system that reverses the burden of proof onto the federal 
        government to demonstrate that workplace exposures didn't lead 
        to illness, in light of DOE's failure to monitor workers for 
        radiation and other toxic risks, and
(2) health insurance coverage for all at risk workers and their spouses 
        through retirement.
    The harm to workers must be taken as seriously as is the harm to 
dirt. Resources must be committed the human beings who were unknowingly 
exposed to these many hazards.

    Mr. Upton. Thank you, Mr. Key. Mr. Jenkins.

                 TESTIMONY OF GARLAND E. JENKINS

    Mr. Jenkins. Mr. Chairman, members of the subcommittee, 
good morning. My name is Garland E. Jenkins. I don't normally 
go by the name of Garland. People generally call me Bud. I live 
at 2744 Lake View Church Road, Benton, Kentucky. I'm here today 
to testify about conditions at the Paducah Gaseous Diffusion 
Plant in western Kentucky. I've never testified before a 
congressional committee or subcommittee before, so I hope 
you'll be patient with me. But I think what I have to say is 
important. My main concern is the safety of my fellow workers 
and the neighborhood.
    I have lived in the Paducah area all my life, for over 30 
years. The Paducah Gaseous Diffusion Plant is not a 
particularly beautiful place but the area around it is. The 
area immediately next to the site is a wildlife refuge and used 
frequently for hunting, fishing, et cetera. I've spent a good 
deal of time there myself with my family.
    I have spent my whole working career at the Paducah site. I 
began working there in 1968 after graduating from high school 
and getting out of the military. I still work there. I began 
working there for Union Carbide. I've also worked for Martin 
Marietta Energy Systems, Lockheed Martin Energy Systems, 
Lockheed Martin Utility Services, and United States Enrichment 
Corporation. So I've got over 30 years' experience at the site 
and with its operations and working conditions.
    Looking back on my experience at the Paducah site, I guess 
you could say it's almost hard to believe. But what I'm going 
to tell you is the absolute truth. I worked for a long time as 
one of the operators in the C-410 and C-420 plant. This plant 
took various kinds of uranium from outside sources, converted 
it chemically to black oxide, uranium dioxide, then to 
greensalt, or UF4, and finally to uranium hexafluoride or UF6. 
The UF6 was the feedstock for the enrichment cascades.
    Around 1973, Union Carbide began to resume using uranium 
that had been recovered from spent reactor fuel. We called this 
stuff RT tails, or rat tails. It was pulverized into a very 
fine powder in Building 400 and then it come to the 410 feed 
plant. When it was moved to the 410 feed plant, it came to us 
in hoppers, with the consistency of flour, but much heavier. I 
know that we handled many thousands of tons of these RT tails. 
I know now, but didn't know then, that these RT tails were 
contaminated with plutonium, neptunium and other radioactive 
substances.
    The work environment in C-410 and C-420 was awful. The air 
was extremely dusty with black oxide, greensalt and chemical 
smoke from UF6 releases. Sometimes it was difficult to breathe. 
Two exhaust fans blew the contaminated air outside, but as far 
as I am aware, these releases were not reported. We didn't use 
respirators unless it got so bad that breathing or seeing was 
impossible, so we were constantly inhaling the dust and fumes. 
There were no devices to measure radioactivity in the air. We 
wore no radioactivity protective clothing, just regular white 
overalls and work gloves. We ate meals in these contaminated 
clothes. Of course we often showered before leaving the plant, 
but still these were just regular showers, nothing special. So 
often we would still be contaminated when we got home. Bed 
linens in the morning would often be green or black from the 
black oxide and greensalt.
    Waste management practices was pretty bad. Five ton hoppers 
of RT tails and yellowcake uranium frequently spilled, and dust 
would fly everywhere and eventually settle on the floor. At the 
end of the shift we would sweep it into a dumpster along with 
the regular nonradioactive trash. All would be taken to a 
sanitary landfill, just like regular household trash. I believe 
other contaminated materials were also sent to sanitary 
landfills. When this contaminated stuff spilled outside, we 
hosed it down into ditches, usually at night.
    I also worked on recycling metals, such as gold, from 
nuclear weapons. To my knowledge, none of this gold was ever 
surveyed for radioactivity before it was released. This is even 
though the recycling operations took place in the same 
contaminated building where plutonium contaminated RT tails 
were pulverized.
    There was just no effective radiation protection. We were 
told that the uranium substances we were working with were safe 
and posed no threat to our health or to the health of our 
families. We were told we were not getting any dose. We were 
even told that materials were safe enough to eat. There were no 
health physics professionals present in the workplace. There 
were no radiation warning signs or markings, no restricted 
areas where entry was controlled, and no radiation maps of the 
building. We had film badges but they weren't checked very 
often. There was no regular checking for uranium that we might 
have breathed or consumed, and it would still be in our body. 
Every other year or so, a truck-mounted body counter would 
arrive at the site to take whole body counts. I remember the 
technicians who ran the counter taking the readings over and 
over again, saying they could not believe the numbers. We were 
never told the results. I went to a special facility near 
Cincinnati once for a whole body count and was assured 
everything was okay but was never given the results.
    These are just some of my experiences at the Paducah plant. 
I am not sure of what radiation dose I received over the years. 
I am now sure it was extremely high but I certainly don't 
believe the contractor's records. I've always believed what I 
was doing at the Paducah plant was important to the national 
defense. I'm proud to have played a small part in the cold war 
and in protecting this great country from harm. Thank you for 
listening to me.
    [The prepared statement of Garland E. Jenkins follows:]
            Prepared Statement of Garland E. ``Bud'' Jenkins
    Mr. Chairman and members of the Subcommittee, good morning. My name 
is Garland E. Jenkins. I don't usually go by the name Garland. People 
usually call me Bud. I live at 2744 Lakeview Church Road, Benton, 
Kentucky. I'm here today to testify about conditions at the Paducah 
Gaseous Diffusion Plant Site in western Kentucky. I've never testified 
before a Congressional Committee or Subcommittee before so I hope you 
will be patient with me. But I think what I have to say is important. 
My main concern is the safety of my fellow workers, past and present, 
the safety of their families, and the safety of my neighbors.
    I've lived in the Paducah, Kentucky area for over thirty years. The 
Paducah Gaseous Diffusion Plant itself is not especially beautiful. But 
the area around it, and western Kentucky, is nice. The area immediately 
next to the Site is a wildlife refuge and is used frequently for hiking 
and fishing. I've spent a good deal of time there myself with my 
family.
    I've spent my whole working career at the Paducah site. I began 
working there in 1968 after graduating from high school and serving in 
the military. I still work there.
    I began there working for Union Carbide. I've also worked for 
Martin Marietta Energy Systems, Lockheed Martin Energy Systems, 
Lockheed Martin Utility Services, and U.S. Enrichment Corporation. So 
I've got over thirty years experience at the Site, and with its 
operations and working conditions.
    Looking back on my experience at the Paducah Site, I guess you 
could say it's almost hard to believe. But what I'm going to tell you 
is the absolute truth. I worked for a long time as one of the operators 
in the C 410 and C 420 feed plant. This plant took various kinds of 
uranium from outside sources and converted it chemically to black oxide 
(or uranium dioxide), then to greensalt (or UF4), and finally to 
uranium hexafluoride (or UF6). The UF6 was the feedstock for the 
enrichment cascades. Around 1973, Union Carbide began to resume using 
uranium that had been recovered from reactor spent fuel. We called this 
stuff RT tails, or ``rat tails.'' It was pulverized into a very fine 
powder in Building C 400, where I have also worked. Then it was moved 
to the feed plant. It came to us there in 5-ton hoppers, with the 
consistency of flour, but much heavier. I know that we handled many 
thousands of tons of these RT tails while I was there. I know now, but 
didn't know then, that these RT tails were contaminated with plutonium, 
neptunium, and other radioactive substances.
    The work environment in C 410 and C 420 was awful. The air was 
extremely dusty with black oxide, greensalt, and chemical smoke from 
UF6 releases. Sometimes it was difficult to breathe. Two exhaust fans 
blew the contaminated air outside, but as far as I am aware these 
releases were not reported. We didn't use respirators, unless it got so 
bad that breathing or seeing was impossible, so we constantly inhaled 
the dust and fumes. There were no devices to measure radioactivity in 
the air. We wore no radiological protective clothing, just regular 
white overalls and work gloves. We ate meals in these contaminated 
clothes. Of course, we often showered before leaving the plant, but 
these were just regular showers--nothing special. So often we'd come 
home still contaminated. Bed linens in the morning would often be green 
or black from the black oxide and greensalt.
    Waste management practices were also pretty bad. Five ton hoppers 
of RT tails and yellowcake uranium frequently spilled, and dust would 
fly everywhere and eventually settle on the floor. At the end of the 
shift we would sweep it up into a dumpster along with the regular non-
radioactive trash. All would be taken to the sanitary landfill just 
like regular household trash. I believe other contaminated material was 
also sent to sanitary landfills. When this contaminated stuff spilled 
outside, we'd hose it down into a ditch, usually at night.
    I also worked on recycling metals, such as gold, from nuclear 
weapons. To my knowledge, none of this gold was ever surveyed for 
radiation before it was released. This was so even though the recycling 
operations took place in the same contaminated building where the 
plutonium contaminated RT tails were pulverized.
    There was just no effective radiation protection. We were told that 
the uranium substances we were working with were safe and posed no 
threat to our health, or to the health of our families. We were told we 
were not getting any ``dose''. We were even told the materials were 
safe enough to eat. There were no health physics professionals present 
in the workplace. There were no radiation warning signs or markings, no 
restricted areas where entry was controlled, no radiation maps of 
buildings. We had film badges, but they weren't checked very often. 
There was no regular checking for uranium we might have breathed or 
consumed, and would still be on our bodies. Every other year or so a 
truck-mounted whole body counter would arrive at the Site to take whole 
body counts of some of the workers. I remember the technicians who ran 
the counter taking the readings over and over again, saying they didn't 
believe the numbers. But we were never told the results. I went to a 
special facility near Cincinnati once for a whole body count, and was 
assured afterwards that everything was fine.
    All this about lack of safety precautions was true, even though, as 
I know now, the RT tails we were working with and breathing were 
contaminated with radioactive plutonium, neptunium, and technicium.
    These are just some of my experiences at the Paducah Site. I'm not 
sure what radiation dose I received over the years. I'm now sure that 
it was extremely high. I certainly don't believe the contractor 
records, but even those show my dose exceeding federal limits. About 
five years ago, I had to have the lower part of my esophagus replaced 
surgically with a plastic tube because of corrosive damage there. I've 
been told by my doctor that there is a 99% chance that the situation 
will become cancerous.
    I've always believed what I was doing at the Paducah Plant Site was 
important to the national defense. I'm proud to have played a small 
part in the Cold War and in protecting this great country from harm. 
But if I had to do it all over again, I'd be much less trusting of what 
my contractor bosses were telling me. I probably wouldn't have worked 
there at all, knowing what I now know. Many of my good friends are 
dead, or dying. I always wonder whether Plant conditions caused their 
sicknesses and deaths.
    I want to do what I can to make sure that conditions at the Site 
are improved.
    You know, we trusted the contractors when they told us everything 
was OK, that we weren't getting any dose, and that none of the RT tails 
or other stuff was dangerous. We trusted them to record our doses 
correctly and tell us if we were in trouble. I'm darn mad that these 
big corporations used us to earn huge fees from the Government for so-
called good safety performance. I think we should make them pay some of 
this back. The whistleblowers have agreed to give half of any recovery 
we get in the qui tam lawsuit to the Natural Resources Defense Council 
for protection of the environment.
    Thank you for listening to me.

    Mr. Upton. Thank you.
    Mr. Fowler.

                  TESTIMONY OF RONALD B. FOWLER

    Mr. Fowler. Good morning. My name is Ronald B. Fowler. I am 
a Section Manager for Training and an Applied Health Physicist 
employed by the United States Enrichment Corporation at the 
Paducah Gaseous Diffusion Plant. I have worked at the site 
since 1991; most of that time for my previous employers, 
Lockheed Martin Utility Systems and its predecessor, Martin 
Marietta Utility Systems.
    I am a health physicist. Health physics is the profession 
responsible for protecting workers and the public from 
excessive and unnecessary exposure to radiation. Health physics 
is supposed to be a rigorous part of every nuclear facility in 
this country. Prior to coming to Paducah, I worked as a health 
physicist for several commercial nuclear power plants. I am 
certified by the National Registry for Radiologic 
Technologists. I have extensive experience and training in 
applied health physics. I have trained numerous other health 
physicists throughout the nuclear industry. Earlier in my 
career, I developed a series of health physics and reactor 
training videos that have been widely distributed throughout 
the industry. I have received numerous awards, commendations, 
and promotions in my work. My resume is attached to my written 
testimony.
    When I first arrived at Paducah in 1991, I was astounded. I 
discovered that there was essentially no health physics program 
at this site, and the situation had apparently persisted for 37 
years. This was all the more surprising in that the Paducah 
plant deals with extremely high levels of radioactive 
particulates compared to a commercial nuclear power plant. That 
generally means more protection is required, not less, 
especially to guard against the inhalation and possible 
ingestion. To protect workers and the public, there are certain 
things that are part and parcel of any proper health physics 
program--in these circumstances, access controls, placarding, 
radiation maps, airborne monitors, detailed exposure records, 
thermoluminescent dosimeters, effluent controls and monitors, 
radiation training, radiation protective clothing, and a 
trained health physics staff. These things, however, were 
virtually nonexistent or severely lacking at the Paducah 
facility.
    I was hired to help Paducah develop a health physics 
training program. Needless to say, I was not a popular person 
among management. I kept pointing out many serious defects and 
infractions in the health physics area. For years, it was like 
scooping water out of the ocean. I was bucking a management 
culture that had told workers for decades there were no health 
risks at Paducah, the radiation will not harm you, and that you 
could eat radioactive particulate substances commonly used at 
the site; that regulations are for other facilities but not 
Paducah; that production takes place over precedence, over 
health.
    What I was not told about at the time, and I only 
discovered much more recently, was just how widespread and 
significant the transuranic contaminants like plutonium and 
neptunium in the environment were in and around the site. I was 
unaware of tens of thousands of tons of plutonium-contaminated 
feedstocks that had been brought to the site for years for 
processing. Had I known this initially, my concerns would have 
been compounded manyfold, as they are today.
    I became a whistleblower when I was told the plant security 
force had begun posting my picture with a bullet hole through 
my forehead. Security guards began following me wherever I 
went. They intentionally damaged my vehicle. This scared me and 
my wife to death. I had already been denied promotions, and 
management was taking other actions to harass and intimidate me 
for my continuing reporting of defects. I wanted to leave the 
facility, but I have a wife and a sick mother-in-law I have to 
support.
    Last year, I went to a law firm in Washington staffed by 
nuclear engineer attorneys. They assisted me in preparing a 
complaint to the Department of Labor. This was not a health 
physics complaint but a plain white harassment and intimidation 
complaint. Ironically, we offered Lockheed and USEC to settle 
my complaint with me by my retiring early. They refused, 
calling my concerns insignificant. In retrospect, it is perhaps 
fortunate for all of the Paducah workers and residents that 
they did this, because later on I found documents showing 
significant offsite contamination of plutonium. My attorneys 
found this extremely curious and they contacted Dr. Cochran of 
the Natural Resources Defense Council. They also consulted with 
other technical experts. Plutonium was not supposed to exist in 
any significant quantities at a uranium enrichment facility. 
They visited me with Dr. Cochran and toured the site. They 
asked me to attempt to locate other documents showing onsite 
and offsite contamination. I searched some of the document 
files earlier this year, and I was truly astonished at what I 
found.
    With the assistance of my colleague, Chuck Deuschle, I 
found the results of radiological surveys taken on- and offsite 
in the 1990's showing activity levels literally tens of 
thousands of times higher than background levels of radiation. 
There were dozens of samples of plutonium and neptunium found 
in ditches offsite, some more than 100 times the Nuclear 
Regulatory Commission's release limit. There were radiological 
surveys of common work areas showing radiation tens to 
thousands of times higher than the prescribed action levels, in 
areas like the cafeteria, the kitchen, locker rooms, storage 
rooms and the parking lots. There were indications of 
radioactive wastes going into sanitary landfills offsite, of 
lagoon-like sludge containing plutonium nearly 2,000 times the 
level of NRC release limits.
    As a health physics training manager, I had never been told 
of these very serious radiological conditions. These findings 
were squarely at odds with annual environmental reports 
prepared by my superiors stating all laws, regulations, and DOE 
orders were fully complied with. Needless to say, most of the 
workers were also in the dark.
    Now, like many of my colleagues and Paducah neighbors, I'm 
downright scared. I have shed real tears over the many friends 
and colleagues at the site who were deceived and now, like Mr. 
Jenkins, suffer real health consequences. I worry constantly 
about the recreational users of nearby Kentucky and Federal 
recreation areas who continue to engage in activities on 
contaminated land and waters. I recently asked for my radiation 
dose records from Paducah and received a supposed dose history 
reporting that I had received no dose whatsoever for all but 
two of the more than 30 quarters I have worked at the site. 
These records are clearly fraudulent.
    On virtually a weekly basis, even now, I continue to report 
health physics and other safety infractions to management. 
Those infractions have continued, right up to the present 
month. Even last April, I noticed unplacarded trucks with 
uranium hexafluoride cylinders parked in downtown Paducah in an 
unsecured open lot, with children on bicycles riding freely 
among them. It is only recently that I view my reports as 
something less than futile.
    I would like to thank Secretary Richardson for the safety 
stand-down he ordered at the site. It was the very first sign 
that somebody in authority is finally paying attention to the 
workers and the people of Paducah. There is a long way to go. 
In my view, the government owes it to the Paducah workhorse to 
demand proper rad controls, to clean up the site and 
surrounding environs, and to monitor the workers' health. I 
believe those at fault should pay for these efforts and should 
compensate the workers.
    Finally, the government owes it to the workforce to 
participate in the necessary cleanup so as to preserve the 
jobs. Thank you very much.
    [The prepared statement of Ronald B. Fowler follows:]
                 Prepared Statement of Ronald B. Fowler
    Good Morning. My name is Ronald B. Fowler. I am a Section Manager 
for Training and an Applied Health Physicist employed by the United 
States Enrichment Corporation at the Paducah Gaseous Diffusion Plant. I 
have worked at the site since 1991, most of that time for my previous 
employers, Lockheed Martin Utility Systems and its predecessor Martin 
Marietta Utility Systems.
    I am a health physicist. Health physics is the profession 
responsible for protecting workers and the public from excessive and 
unnecessary exposure to radiation. Health physics is supposed to be a 
rigorous part of every nuclear facility in this country. Prior to 
coming to Paducah, I worked as a health physicist for several 
commercial nuclear power plants. I am certified by the National 
Registry for Radiologic Technologists. I have extensive experience and 
training in applied health physics, and I have trained numerous other 
health physicists throughout the nuclear industry. Earlier in my 
career, I developed a series of health physics and reactor training 
videos that have been widely distributed throughout the industry. I 
have received numerous awards, commendations, and promotions in my 
work. My resume is attached to my written testimony.
    When I first arrived at Paducah in 1991, I was astounded to 
discover that there was essentially no health physics program at the 
site, and that this situation had apparently persisted for at least 37 
years. This was all the more surprising in that the Paducah plant site 
deals with extremely high levels of particulates compared to a nuclear 
power plant. That generally means more protection is required, not 
less--especially to guard against inhalation and ingestion. To protect 
workers and the public, there are certain things that are part and 
parcel of any proper health physics program--in these circumstances, 
access controls, placarding, radiation maps, airborne monitors, 
detailed exposure records, thermoluminescent dosimeters, effluent 
controls and monitors, radiation training, radiation-protective 
clothing, and a trained health physics staff. These things, however, 
were virtually non-existent or severely lacking at Paducah.
    I was hired to help Paducah develop a health physics training 
program. Needless to say, I was not a popular person among the 
management, since I kept pointing out the many serious defects and 
infractions in the health physics area. For years, it was a lot like 
scooping water out of the ocean. I was bucking a management culture 
that had told workers for decades that there were no health hazards at 
Paducah, that radiation will not harm you, that you can eat the 
radioparticulate substances commonly used at the site, that regulations 
are for other facilities but not Paducah, that production takes 
precedence over health.
    What I was not told about at the time, and only discovered much 
more recently, was just how widespread and significant were the 
transuranic contaminants like plutonium and neptunium in the 
environment at and around the site. I was unaware that tens of 
thousands of tons of plutonium-contaminated feedstocks had been brought 
to the site for years for processing. Had I known this initially, my 
concerns would have been compounded manyfold, as they are today.
    I became a whistleblower when I was told the plant security force 
had begun posting my picture with a bullethole through my forehead. 
Security guards began following me wherever I went, and my car was 
damaged. That scared me and my wife to death. I had already been denied 
a promotion, and management was taking other actions to harass and 
intimidate me for continuing to report defects. I wanted to leave the 
facility, but I have a wife and a sick mother-in-law to support.
    Last year I went to a law firm here in Washington staffed by 
nuclear engineer-attorneys. They assisted me in preparing a complaint 
to the Department of Labor. This was not a health physics complaint, 
but a plain vanilla harassment and intimidation complaint. Ironically, 
we offered Lockheed and USEC to settle my complaint with me retiring 
early. They refused, calling my concerns insignificant. In retrospect, 
it is perhaps fortunate for all Paducah workers and residents that they 
did. Because later on, I found documents showing significant off-site 
contamination of plutonium. My attorneys found this extremely curious 
and contacted Dr. Cochran of the Natural Resources Defense Council. 
They also consulted with other technical experts. Plutonium was not 
supposed to exist in any significant quantities at a uranium gaseous 
diffusion plant. They visited me with Dr. Cochran and toured the site. 
They asked me to attempt to locate other documents showing on-site and 
off-site contamination. I searched some of the document files at the 
site early this year. I was truly astounded by what I found.
    With the assistance of my college Chuck Deuschle, I found the 
results of radiological surveys taken on and off-site in the 1990s 
showing activity levels literally tens of thousands of times higher 
than background levels of radiation. There were dozens of samples of 
plutonium and neptunium found in ditches offsite, some more than 100 
times the Nuclear Regulatory Commission's release limit. There were 
radiological surveys of common work areas showing radiation tens to 
thousands of times higher than the prescribed action levels for the 
plant, in areas like the cafeteria, the kitchen, locker rooms, storage 
rooms, and in parking lots. There were indications of radioactive 
wastes having gone into the sanitary landfills off-site, of lagoon 
sludge containing neptunium more than 2000 times the level of NRC 
release limits. As a health physics training manager, I had never been 
told of these very serious radiological conditions. These findings were 
squarely at odds with annual environmental reports prepared by my 
superiors stating that all laws, regulations, and DOE Orders were being 
fully complied with. Needless to say, most all of the workers were also 
in the dark.
    Now, like many of my colleagues and Paducah neighbors, I'm just 
downright scared. I have shed real tears over the many friends and 
colleagues at the site whowere deceived, and who now, like Mr. Jenkins, 
suffer real health consequences. I worry constantly about the 
recreational users of nearby Kentucky and federal recreation areas who 
continue to engage in activities on contaminated land and waters. I 
recently asked for my radiation dose records from Paducah and received 
a supposed dose history reporting that I had received no dose 
whatsoever for all but two of the more than 30 quarters I have worked 
at the site. These records are clearly fraudulent.
     On virtually a weekly basis now, I continue to report health 
physics and other safety infractions to management. Those infractions 
have continued, right up to the present month. Last April I noticed 
unplacarded trucks with uranium hexafluoride cylinders parked in 
downtown Paducah in an unsecured open lot, with children on bicycles 
riding freely among them. It is only recently that I view my reports as 
something less than futile. I thank Secretary Richardson for the safety 
stand down he ordered last week at the site. It was the first sign that 
someone in authority is finally paying attention to the workers and 
people of Paducah.
    There is a long way to go. In my view, the government owes it to 
the Paducah workforce to demand proper radiological controls, to clean 
up the site and surrounding environs, and to monitor the workers' 
health. I believe those at fault should pay for these efforts, and 
should compensate all workers. Finally, the government owes it to the 
workforce to participate in the necessary cleanup, so as to preserve 
jobs.
    Thank you for your interest in these matters.

    Mr. Upton. Thank you.
    Mr. Graves.

                   TESTIMONY OF M. BRAD GRAVES

    Mr. Graves. Good morning. My name is Brad Graves, I'm an 
employee with Lockheed Martin Energy Systems. Due to the 
timeframe of my invitation, a written statement had been waived 
in my case, so I will be reading from notes here. Please 
forgive me. It is important to note that I am not a relator in 
this particular action, however I am here to provide 
information relative to the radiological conditions at the 
Paducah site while I was there.
    I have been nationally registered by the National Registry 
of Radiation Protection Technologists and I'm comprehensively 
certified by the American Board of Health Physics in this 
practice. As such, a lot of my information that I present to 
you will probably be technical in nature. If I use units that 
you don't understand or if I say things that you have confusion 
about, please ask me to repeat. I will be happy to.
    Thank you for your invitation and your time gentlemen, 
ladies.
    Mr. Upton. Thank you.
    Dr. Cochran.

                 TESTIMONY OF THOMAS B. COCHRAN

    Mr. Cochran. Mr. Chairman, thank you for the opportunity to 
appear before your committee to discuss the health and safety 
problems at Paducah. My name is Thomas B. Cochran, I'm the 
Director of the Nuclear Program at the Natural Resources 
Defense Council.
    After hearing from Mr. Jenkins and Mr. Fowler and the other 
witnesses, I don't think you need to hear from me, but I'm 
going to take this opportunity in any case. I have four brief 
messages I want to leave with the committee. As Mr. Jenkins had 
said, we are here because we are concerned about the health and 
safety of the workers at Paducah and the citizens living near 
the plant.
    Second, the problems we are addressing are current. They 
are not just problems of the past. While the situation has 
improved in recent years, basic worker protection problems 
persist. Contractors are violating basic radiation protection 
regulations as we speak. The mind-set that has led to the 
deaths and illness of workers such as Joe Harding from past 
exposures persist at the Paducah plant and unnecessary deaths 
and illnesses will continue unless there is a radical change, a 
sea change, in the culture of plant management.
    Third, the levels of exposure and contamination at the 
facility and offsite are not insignificant as some have 
suggested. The levels in some cases are well above regulatory 
limits. Moreover, it has been a basic tenet of the health 
physics profession since 1949 that for prudence, it is an 
obligation to keep radiation exposures as low as reasonably 
achievable in light of economic and technical and practicality 
considerations. This ALARA regulation is embodied in EPA 
regulations, NRC regulations, DOE orders, it is a basic tenet 
of the profession, and it is not being applied properly at the 
Paducah plant today.
    Fourth, the Federal Government, the State of Kentucky, and 
its citizens and workers at Paducah have been lied to. As a 
consequence, we do not know how bad the situation really is. An 
independent investigation is needed.
    In the Paducah case, the qui tam case under the False 
Claims Act and the issues before this committee involve four 
categories of health and safety issues. First, excessive 
exposure and poor or unlawful control of radiation exposure to 
workers; excessive releases and insufficient or unlawful 
control of radioactivity released offsite; third, unlawful 
disposal of radioactive wastes; and, fourth, improper recycling 
into commerce of scrap materials contaminated with 
radioactivity.
    With regard to the first, there is an appalling lack of 
health physics protection for workers at the Paducah plant. 
Until the late 1980's, the plant had no professional health 
physics program. Workers were neither advised of the hazards of 
working with uranium nor monitored for exposure to uranium and 
other radioactive isotopes. The workplace was not properly 
monitored and lacked the proper controls over contaminated 
spaces. Clearly the plant managers were grossly violating DOE 
worker safety regulations.
    This week I interviewed a former plant worker who left the 
site in 1992 after working there for 39 years. He was 
completely uninformed about even the most basic health physics 
concepts that workers are required to know. He said to me, 
``It's all Greek to me.''
    Most or some of these deficiencies were confirmed by a 
recent DOE audit which led to the Secretary of Energy ordering 
a 24-hour stand-down at the plant while the work force received 
additional health physics training. Indeed, my review of DOE's 
auditors' findings this week led me to believe that the factual 
allegations of our lawsuit are being affirmed in most of their 
key particulars. The audit also illustrates that the problem is 
a current problem and not just a historic one. The worker 
conditions would be bad enough had the uranium been the only 
significant radioactive element present at the plant. We now 
know that 100,000 tons of feedstock contaminated with fission 
products and transuranic elements were processed at the plant.
    We respectfully request Congress to ensure that a 
competent, independent firm systematically search the 
historical records at Hanford, Paducah, Savannah River and Oak 
Ridge for information on the contamination levels of this 
recycled uranium feed, including how the contamination levels 
changed over time. We also respectfully request that Congress 
immediately demand that DOE order its staff and its contractors 
at the Paducah, Portsmouth, and Oak Ridge gaseous diffusion 
plants to maintain the integrity of any physical and electronic 
evidence at these plants as well as any documentation and 
electronic files that could be useful to reconstruct worker 
exposure and contractor and DOE culpability.
    From my visit to the Paducah plant earlier this year, I 
found areas outside the security fence that were contaminated 
with radioactivity and not properly labeled. The public had 
access to areas that are or may be contaminated with 
radioactivity in excess of appropriate levels. These areas 
should no longer be used for recreational purposes without a 
comprehensive offsite characterization, access controls, proper 
placarding and marking and removal of radioactive sources at a 
minimum. The lack of protective measures I witnessed offsite, 
given what I presently know, was astounding. There is an 
inadequate effort by the Paducah Gaseous Diffusion Plant 
management to minimize the transport of radioactivity offsite 
by controlling the flow of contaminated water offsite via 
numerous ditches. We now know from DOE auditors that the 
sampling data reported to DOE by the contractors apparently 
omitted fugitive emissions from the plant which may have 
amounted to thousands of kilograms of contaminated material.
    Together with the onsite conditions, these violations 
indicate that the contractors at Paducah have been and are 
today operating in callous disregard for the basic tenets of 
the health physics profession by failing to keep exposures to 
radiation as low as reasonably achievable, taking into account 
technical, practical and economic considerations. Uranium is a 
carcinogen. It is also chemically toxic. It will destroy your 
kidneys if you get too much uranium in your kidneys. It is 
unwise and unlawful to expose people to uranium unnecessarily, 
and one is not permitted to release it into the accessible 
environment indiscriminately.
    Congress should investigate whether the cleanup contractor 
systematically performs and documents ALARA analyses before 
undertaking significant decontamination efforts at the site. 
According to workers at Paducah, including the other relators, 
the contractors illegally buried materials contaminated with 
radioactivity offsite, including what has been characterized as 
a sanitary landfill. The recent discovery of radioactive black 
ooze represents another unlawful offsite dump. Most 
importantly, and this is attached to my testimony, a Kentucky 
police investigator reportedly found criminal dumping activity 
at an around the site in 1991. And DOE contractor personnel 
were reportedly told by their contractor bosses that if they 
did not dump radioactivity wastes illegally onto Kentucky land, 
they would be fired.
    This demands a thorough investigation. Was DOE aware of 
this? Was the report followed up? If not, why not? Is a new 
criminal investigation warranted? With DOE's approval, 
radioactive wastes that have been dumped offsite illegally are 
apparently now being shipped to a site, EnviroCare of Utah, 
that obtained its license to operate and amendments to its 
license during a time in which its owner paid the top 
regulatory official in Utah more than $600,000 in cash, gold 
coins and a ski condominium.
    The Department of Energy apparently believes it is 
appropriate to continue to enrich this owner with taxpayer 
funds so long as he merely declines to participate in the day-
to-day management of his company.
    Apparently, enormous quantities of radioactively 
contaminated steel, nickel, aluminum and significant quantities 
of contaminated gold and possibly silver were recycled by the 
contractors into the streams of commerce. This problem persists 
today. The Department of Energy is subsidizing--subsidizing--
the recycling of thousands of tons of radioactively 
contaminated scrap metal from the former nuclear weapons plant 
at Oak Ridge, one of the sister plants to the Paducah plant.
    In a recent court decision, a Federal district judge 
expressed serious concern that the potential for environmental 
harm is great, especially given the unprecedented amount of 
hazardous materials the DOE contractor seeks to recycle. The 
DOE office responsible for the oversight of the Paducah plant 
is also overseeing this Oak Ridge recycling project. The last 
thing DOE should be doing is subsidizing the dumping of its 
nuclear wastes into commercial products.
    I urge you, Congress should pass legislation that precludes 
the recycle of radioactively contaminated materials when they 
may come into imminent human contact. We have suggested and we 
believe the evidence does and will continue to show that DOE, 
notwithstanding its own shortcomings, was seriously misled by 
the contractors operating the Paducah facility and site. We 
hope the government will seize the opportunity to hold the 
contractors accountable for what surely will be a massive and 
massively expensive cleanup and worker monitoring and 
compensation project.
    The taxpayers should not have to foot this bill. It is my 
understanding that DOE indemnity provisions for contractors do 
not apply in cases of contractor misconduct, such as the case 
here.
    Thank you, Mr. Chairman.
    [The prepared statement of Thomas B. Cochran follows:]
 Prepared Statement of Thomas B. Cochran, Director, Nuclear programs, 
                Natural Resources Defense Council, Inc.
    My name is Thomas B. Cochran. I am Director of the Nuclear Program 
and hold the Wade Greene Chair for Nuclear Policy at the Natural 
Resources Defense Council, Inc. (``NRDC''). NRDC is a national 
environmental public-interest organization with over 400,000 members 
that has been extensively involved in monitoring the environmental 
activities of the U.S. Department of Energy's (``DOE's'') nuclear 
weapons complex. I am one of four relators in the civil action filed 
against Lockheed Martin Corporation, et al. under the qui tam 
provisions of the False Claims Act related to these DOE contractors' 
operation of the Paducah Gaseous Diffusion Plant (``Paducah GDP''). A 
summary of my qualifications are set forth in the front of my qui tam 
disclosure statement, which I submitted to the committee with exhibits 
in response to a subpoena duces tecum.
Summary of the Issues Surrounding the Paducah Case
    The Paducah case involves four categories of health and safety 
issues:

a) excessive exposure and poor or unlawful control of radiation 
        exposure of workers;
b) excessive releases and insufficient or unlawful control of 
        radioactivity released off-site;
c) unlawful disposal of radioactive wastes; and
d) improper recycling into commerce of scrap materials contaminated 
        with radioactivity.
    In association with each of these categories of health and safety 
issues:

i) the contractors at the Paducah GDP have engaged in systematic 
        falsification of reports to the Federal and State governments 
        and to the public; and
ii) the Department of Energy (``DOE'') relied too much on what its 
        contractors were telling it, and obviously failed to provide 
        adequate oversight of those contractors.
    Finally, there is a need for Federal legislation to prevent similar 
abuses in the future.
    Next, I will briefly summarize the health and safety issues.
Excessive Exposure and Unlawful Control of Radiation Exposure of 
        Workers
    There has existed at the Paducah GDP an appalling lack of health 
physics protection for workers. For many years, the plant apparently 
had no professional health physics program. Workers were not properly 
advised of the hazards of working with uranium, particularly uranium in 
particulate and gaseous form. Workers were not properly monitored for 
exposure to uranium and other radioactive isotopes. The workplace was 
neither properly monitored nor were there proper controls over 
contaminated spaces. Clearly, the plant managers were grossly violating 
DOE Orders and the basic health physics tenet to keep radiation 
exposures ``as low as reasonably achievable'' (``ALARA''). (See 
Appendix A of my Disclosure Statement) This week, I interviewed a 
former plant worker who left the site in 1992 after working there for 
39 years. He had never heard of the terms ``ALARA,'' ``as low as 
reasonably achievable,'' ``as low as practical,'' or ``ALAP.'' ``It's 
all Greek to me,'' he said of the concept.
    Some of the more telling pieces of evidence of the appalling 
working conditions at the plant are:

a) reports that the bed sheets of workers turned green from the 
        radioactive uranium tetrafluoride (UF4, or ``greensalt'') that 
        was carried home on their clothing and bodies;
b) reports by workers of conditions in buildings where chemical 
        conversion activities took place--where they worked without 
        respirators in rooms densely filled with radioactive dust;
c) extremely high measurements of uranium deposited in the bones of Mr. 
        Joe Harding, a deceased worker whose bone tissues was assayed 
        after his death;
d) reports of lunchrooms, locker rooms, computers, and kitchens 
        significantly contaminated with radioactivity; and
e) reports that uranium concentrations in sanitary sewage at the site 
        were so high that a special project (Project GLIT) was 
        instituted to recover uranium from sewage sediment.
    While health physics conditions at the plant may have improved 
somewhat in recent years, my observations at the site, my review of 
documents, and my discussions with the other relators indicate that the 
Paducah GDP's managers still are not complying with DOE Order 5400.5, 
10 C.F.R. Part 835, or following the rudiments of good health physics 
practices. In fact, based on my discussions with the other relators the 
following deficiencies are noted:

i) Monitoring of workers for internal exposure to radioactivity is 
        inadequate. The frequency of urine, fecal and perhaps whole-
        body counts is inadequate to reliably establish worker 
        exposure. Workers are not properly advised of their radiation 
        exposure, and in any case, historical exposure records would be 
        erroneous and incomplete because of the failure to adequately 
        monitor for internal and external exposure. Documents reveal 
        shocking inadequacies as recent as this month.
ii) Some areas within the security fence that are excessively 
        contaminated with radioactivity are not properly marked and 
        secured as radiation-controlled areas, and there is no health 
        physics program in place to control adequately the movement of 
        workers into and out of controlled areas.
iii) There is inadequate monitoring and control of personnel and 
        vehicles leaving the site to prevent or limit the transport of 
        radioactivity off-site.
iv) Radiation survey instruments are not adequately calibrated.
v) There are insufficient numbers of certified health physicists and 
        trained health physics technicians on site and inadequate and 
        in some cases inappropriate supervision of the technicians.
    Some or most of these conditions appear to have been confirmed by a 
recent DOE audit that led to the Secretary of Energy ordering a 24 hour 
stand down at the plant while the workforce received additional health 
physics training. Sadly, if the Secretary thinks he can solve the 
worker health problems in 24 hours he is being very ill-advised by his 
staff, or is offering up a political rather than a substantive fix. 
Indeed, my review of DOE's auditors' findings this week lead me to 
believe that the factual allegations of our lawsuit are being affirmed 
in most of their key particulars. The audit also illustrates that the 
problem is a current problem, and not just a historic one.
    These worker conditions would be bad enough had uranium been the 
only significant radioactive element handled at the plant. A report in 
Nuclear Fuel, March 16, 1992, summarizing from a Martin Marietta 
report, indicated that 101,268 tons of feedstock were brought to the 
Paducah GDP site principally from Hanford, but also from DOE's Savannah 
River Site. This feed was separated uranium recovered from processing 
at Hanford and Savannah River irradiated production reactor fuel. This 
uranium was contaminated with fission products as well as neptunium, 
plutonium and other transuranic isotopes.
    This material, according to Martin Marietta, was found to be far 
more contaminated than commercially reprocessed reactor fuel--which 
itself is generally significantly contaminated. For example, the report 
notes that between 175 and 700 times the levels of technetium-99 that 
are found in commercially reprocessed fuel were found in the Paducah 
GDP feedstock material. Concentrations of transuranics (principally 
plutonium and neptunium) were measured at 20 to 450 times the levels 
normally found in reprocessed fuel.
    There were four chemical separation plants (B, T, REDOX and PUREX) 
at Hanford. These used at least three separate chemical separation 
processes, each of which went through modifications and upgrades. 
Therefore, it is safe to assume that over the years there were 
improvements in the capability to separate out radioactive contaminants 
from the uranium. In fact, the first chemical separation technique did 
not even separate the uranium from the fission products. This was only 
done later when improved processing techniques became available.
    We respectfully request Congress to ensure that a competent 
independent firm systematically searches the historical records at 
Hanford, Paducah, Savannah River, and Oak Ridge for information that 
could shed light on the contamination levels of this recycle uranium 
feed and on how the contamination levels changed over time, and who was 
responsible for sending highly contaminated and unfit recycled spent 
reactor fuel feedstocks to Paducah.
    It would also be possible to obtain additional useful information 
by sampling the residual contamination in the most contaminated 
chemical processing buildings at the Paducah GDP. I was appalled to 
learn that Bechtel-Jacobs, DOE's cleanup contractor, may have destroyed 
some of the most valuable evidence by recently washing down some of the 
contaminated processing buildings' walls in order to avoid the 
inconvenience and expense of providing building workers with proper 
respiratory protection. Reportedly, outside personnel have recently 
been interviewed to assist in destroying some files at the site, 
although I do not know the relevance of these files to the issues we 
have raised. In any case, we respectfully request the Congress to 
immediately demand that DOE order its staff and its contractors at the 
Paducah, Portsmouth and Oak Ridge GDPs to maintain the integrity of any 
physical and electronic evidence at these plants, as well as any 
documents and electronic files that could be useful in reconstructing 
worker exposures and contractor and DOE culpability. Congress should do 
the same with regard to the Nuclear Regulatory Commission (``NRC'') in 
its regulatory oversight capacity over USEC.
Excessive Releases and Unlawful Control of Radioactivity Off-Site
    I visited the Paducah GDP site earlier this year, on February 24-
25, 1999. This visit revealed the sub-standard circumstances that are 
in violation of DOE health and safety requirements. I found the 
following:

a) Areas outside the security fence that are contaminated with 
        radioactivity were not properly labeled and the public had 
        access to areas that are, or may be, contaminated with 
        radioactivity in excess of appropriate levels.
b) Significant areas of the off-site environs around the Paducah GDP 
        are generally contaminated with radionuclides and should no 
        longer be used for recreational purposes without a 
        comprehensive off-site characterization, immediate access 
        controls for radiologically contaminated areas, proper 
        placarding and marking, removal of radioactive sources, and 
        remediation of streams, ponds, and sediment banks, at a 
        minimum. The lack of protective measures I witnessed off-site 
        (given what I know is present on-site) is astounding.
c) There is inadequate effort by Paducah GDP management to minimize the 
        transport of radioactivity off-site by controlling the flow of 
        contaminated water off-site via numerous ditches.
    On February 25, 1999, I took radiation measurements and collected 
sediment samples in publicly accessible areas outside of the Paducah 
GDP security fence. Most of the radiation measurements that I took in 
the environs around the Paducah GDP, outside the security fence, were 
at or near background levels. A few readings were higher than 
background. Inside a section of concrete culvert sitting on top of the 
ground in an area accessible to the public, I measured radiation levels 
that were between 10 and 20 times background. I did not determine 
whether the radioactivity, the source of this radiation, was easily 
removable or fixed.
    I also collected 12 sediment samples in areas accessible to the 
public. An analysis of these samples indicated that the U-238 (i.e., 
depleted uranium) concentration in various ditches in publicly 
accessible unmarked areas was found to be between 10 and 80 times 
background or between 0.3 and 2.5 times the Nuclear Regulatory 
Commission's (``NRC's'') draft release criteria for decontamination of 
a site. The high end of this range is comparable to the concentration 
one might encounter in phosphate ores containing uranium.
    The measurements I took are not inconsistent with earlier recorded 
off-site readings presented in the qui tam disclosure statement of Mr. 
Deuschle (See Deuschle's Exhibits 3 and 4), one of the other relators, 
though many substantially higher readings are recorded in past data. 
The data indicate contamination levels in off-site sediment (through at 
least 1994) that far exceed federal requirements for plutonium, 
neptunium, thorium, uranium, and technetium, at a minimum. The data 
show plutonium-239 measurements of up to 240 pCi/g, exceeding the NRC 
standard by a factor of 127, and neptunium-237 measurements of up to 63 
pCi/g, exceeding the NRC standard by a factor of 335.
    I regard the soil data for the actinide isotopes as particularly 
troubling in one respect, because these heavy isotopes like plutonium-
239 and neptunium-237 are not generally mobile and do not generally 
migrate in water as easily as many other isotopes. The high readings 
off-site suggest to me that relatively large quantities of such 
isotopes must have been deposited through effluent releases. Slow 
migration would suggest such contamination may be present for many, 
many more years. The isotopes are generally very long-lived as well. 
Neptunium-237 has a half-life of 2.14 million years. Plutonium-239 has 
a half-life of 24.4 thousand years. While technetium generally passes 
relatively quickly through the body, plutonium is one of the more toxic 
isotopes, and is a bone and liver seeker in humans.
    There is no question that readings of the levels disclosed by Mr. 
Deuschle would require immediate posting, and should have led to prompt 
removal or remediation in many circumstances. Had the contractors been 
in compliance with DOE Order 5400.5 pertaining to ALARA, it is unlikely 
that these contamination levels would have occurred. Even if 
significant releases had occurred due to some unforseen event, once 
detected through an adequate health physics program, immediate steps 
would have been undertaken to minimize further releases and obviate 
these high contamination levels.
    I have reviewed numerous documents prepared by Lockheed Martin or 
Martin Marietta for DOE suggesting that the maximally exposed 
individual off-site from Paducah GDP operations could expect to receive 
no more than 100 millirems, and, indeed, a far lesser number (in some 
cases only 2 millirems) in any year. In my opinion, which I believe any 
respectable nuclear scientist would concur in, the actual measurements 
recorded, though not subsequently reported, suggest that the maximally 
exposed public individual could have received over 100 millirems per 
year. Moreover, the contractor is required by DOE Orders to maintain 
exposures as far below 100 millirems per year as is reasonably 
achievable. Lockheed Martin and the previous Paducah DGP contractors 
were clearly in violation of this ALARA requirement. We now know from 
DOE's auditors that the sampling data reported to DOE by the 
contractors apparently omitted ``fugitive'' emissions from the plant, 
which may have amounted to thousands of kilograms of contaminated 
material.
    The risks to the general public due to these off-site releases are 
considerably less than the risks to the workers from on-site exposure 
to radioactivity. Nevertheless, these off-site releases are in clear 
violation of DOE Order 5400.5, which requires that radiation exposures 
be ALARA. Together with the on-site conditions these violations 
indicate that the contractors at Paducah have been and are today 
operating in callous disregard for the basic tenets of the health 
physics profession, and are failing to keep exposures to radiation as 
low as reasonably achievable taking into account technical, practical 
and economic considerations.
    Uranium-238, the predominant radioisotope at Paducah, is not the 
most hazardous radioisotope either on the basis of mass (i.e., gram for 
gram) or specific activity (i.e., curie for curie). However, it is 
carcinogenic. It is unwise and unlawful to expose people to uranium 
unnecessarily, and one is not permitted to release it into the 
accessible environment indiscriminately. Congress should investigate 
whether an ALARA analysis was performed and documented, for example, 
before contaminated buildings were recently hosed down at the site. How 
did Bechtel-Jacobs dispose of the contaminated water? Was it processed, 
or dumped into the sewer or ditches?
    There is the separate but related issue of off-site atmospheric 
emissions of radioactivity. Since I do not have firsthand knowledge of 
these matters I place the following in the category of issues that call 
for thorough investigation:

a) There are accusations that there were massive releases of 
        radioactivity to the atmosphere that typically occurred at 
        night.
b) Reportedly, the air monitoring stations around the Paducah GDP that 
        were operated by the State of Kentucky were turned off during a 
        recent period for lack of money. This also calls into question 
        the adequacy of the State's monitoring of ditches and streams 
        that received liquid effluent from the Paducah GDP.
c) There was reportedly a high and unexplained reading at an air 
        monitor at a nearby high school as recently as last fall.
Unlawful Disposal of Radioactive Wastes
    According to workers at Paducah, including the other relators, the 
contractors illegally buried materials contaminated with radioactivity 
off-site, including in what has been characterized as a ``sanitary 
landfill.''
    In The Washington Post, August 29, 1999, it was reported that just 
outside the so-called ``sanitary landfill'' workers recently discovered 
radioactive ``black ooze'' seeping from the ground where a drilling rig 
had become stuck in the soft earth. DOE denies that this is related to 
the landfill. If that is true, it suggests a second unlicensed, 
unlawful, radioactive waste dump off-site in the area. There are 
probably more. Again, a thorough investigation is needed. The landfill 
should be adequately sampled with core samples.
    Documents obtained by our attorneys (see Attachment No. 1) reveal 
that a Kentucky police investigator reportedly found criminal dumping 
activitiy at and around the site in 1992, and DOE contractor personnel 
were reportedly told by their contractor bosses that if they did not 
dump radioactive wastes illegally onto Kentucky land they would be 
fired. This demands a thorough investigation. Was DOE aware? Was the 
report followed up? If not, why not? Is a new criminal investigation 
warranted?
    With DOE's approval, radioactive wastes that have not been dumped 
off-site illegally are apparently now being shipped to a site--
Envirocare of Utah, Inc.--that obtained its license to operate during a 
time in which its owner payed the top regulatory official in Utah more 
than $600,000 in cash, gold coins, and a ski condominium. DOE 
apparently believe it is appropriate to continue to enrich this owner 
with taxpayer funds so long as he merely declines to participate in the 
day-to-day management of the company.
Unlawful Recycling into Commerce of Scrap Materials Contaminated with 
        Radioactivity
    Apparently enormous quantities of radioactively contaminated steel, 
nickel, aluminum, and significant quantities of contaminated gold (and 
possibly silver) were recycled by the contractors into the stream of 
commerce. This was apparently done a) without adequate monitoring of 
the radioactive contamination remaining in these recycled materials; b) 
without adequate DOE or national radiation protection standards for 
limiting the permissible volumetric contamination of the recycle 
material; and c) without an ALARA analysis and documentation of the 
same.
    This problem persists today. As part of a $238 million contract 
with BNFL, Inc., the DOE is subsidizing the recycling of thousands of 
tons of radioactively contaminated scrap metal from a former nuclear 
weapons plant in Oak Ridge, Tennessee. Since last October BNFL has been 
recycling radioactive scrap metal and selling it for use in commercial 
products such as cookware, orthodontic braces, medical devices, and 
children's toys; some 100,000 tons of scrap metal will be recycled.
    The DOE contract protects BNFL from fluctuations in market prices 
of scrap aluminum, copper, and nickel by requiring DOE to cover 80% of 
BNFL's losses when market prices drop below 95% of the contract 
baseline price for the metals. According to a BNFL estimate, under 
recent market conditions, this would result in a $9 million DOE subsidy 
for the recycling of 6000 tons of nickel alone.
    DOE's subsidy violates DOE, Environmental Protection Agency, and 
Nuclear Regulatory Commission requirements that public exposure to 
radiation be ``as low as reasonably achievable.'' DOE's artificial 
support of radioactive metals recycling not only unnecessarily 
increases the public's exposure to radiation--there are other options--
but makes no sense economically. There is no justification for DOE to 
subsidize the recycling of nuclear waste into commercial products.
    In a recent court decision, a federal district judge expressed 
serious concern that ``[t]he potential for environmental harm [from the 
BNFL recycling project] is great, especially given the unprecedented 
amount of hazardous materials the Defendants seek to recycle.''
    The radioactive contaminants in the metals pose a long-term threat, 
as they remain hazardous for more than 200,000 years. The BNFL project 
poses significant risks because (1) surveying methods for radioactivity 
are imperfect and could result in the improper release of contaminated 
metals; (2) the recycling method for the Oak Ridge nickel is 
experimental and untested for large-scale production; and (3) the 
health effects of low-level radiation are the subject of significant 
scientific controversy.
    The recent revelations about the failed environmental, safety and 
health oversight at DOE's facility in Paducah, Kentucky, which like the 
Oak Ridge facility is a gaseous diffusion plant, raises further 
concerns about the risks of the Oak Ridge scrap project. The DOE office 
responsible for oversight of the Paducah facility is also overseeing 
the Oak Ridge recycling project. After 50 years of demonstrated chronic 
mismanagement of the nuclear weapons complex, DOE claims that it can 
safely recycle radioactive materials for use in products for the 
general public. With so much evidence to the contrary, the last thing 
DOE should be doing is subsidizing the dumping of its nuclear waste 
into commercial products. Congress should pass legislation that 
precludes the recycle of radioactively-contaminated materials when they 
may come into intimate human contact.
The Contractors Have Engaged in Systematic Falsification of Reports to 
        the Federal and State Governments and to the Public
    The heart of the qui tam action against Lockheed Martin, et al., to 
which NRDC is a party, is that the contractors were aware of unlawful 
activities related to worker exposure, off-site releases, burial of 
radioactive waste and recycling of contaminated material, and yet 
proceeded to present false and misleading statements about these 
activities, representing that they were complying with DOE orders and 
all applicable laws and regulations. We assert that the DOE contractors 
were willfully, illegally, recklessly, in bad faith, imprudently, and /
or negligently: (1) dumping significant quantities of radioactive and/
or mixed waste in unauthorized locations; (2) exposing workers at the 
Paducah GDP site to unnecessary and unlawful levels of radioactivity 
through contact, proximity, contamination, inhalation, and ingestion, 
failing adequately to monitor worker exposures properly, and failing to 
report radiation hazards to the workers and to the authorities; (3) 
failing adequately to report accurately to the proper authorities 
regarding levels of radioactive contamination; (4) failing adequately 
to properly remove contamination in recycled materials, monitor for 
radiation prior to shipment of these materials off-site, or inform 
recipients of contamination; (5) failing to properly measure off-site 
contamination and control public access where necessary; and (6) 
failing to meet federally proscribed radiation protection standards. 
While engaged in these activities the contractors made numerous false 
statements to the DOE, the State of Kentucky and the public. We ask for 
Congress' assistance in ensuring that the full compendium of such false 
statements is found and preserved.
The Department of Energy Has Failed to Provide Adequate Oversight, 
        Though This Does Not Excuse the Contractors
    We understand that at most times the Department had no more than 6 
to 12 personnel on site, to oversee contractor work force of nearly 
2000. The improper and illegal activities at the Paducah GDP occurred 
throughout its 46 year history of operation. The failure of DOE and its 
predecessor agencies, the Energy Research and Development Agency and 
the Atomic Energy Commission, to prevent these activities demonstrates 
the quality of the Government oversight over the nation's uranium 
enrichment enterprise. One cannot of course presume that one's 
contractors are lying to you. But the fact that some of these improper 
and illegal activities have occurred right up until the present is a 
measure of the degree and quality of the DOE oversight even today.
NRDC Notification to DOE
    On or about May 27, 1999, we informed the staff of DOE that in a 
matter of a few days we would be filing under seal a qui tam action 
related to activities at the Paducah GDP. The disclosure statements of 
the four relators were provided to the DOE staff at that time, and we 
briefed the staff on the technical and legal issues. On May 28, 1999, I 
hand-carried a second copy of the four disclosure statements together 
with a cover letter to the office of the Secretary of Energy. In the 
cover letter, I said,
          I am writing to inform you of the serious health and safety 
        risks at the Paducah, Kentucky, gaseous diffusion plant. These 
        violations require your immediate attention. Yesterday we 
        presented our concerns and the facts supporting our proposed 
        qui tam action against the Paducah contractors to members of 
        your staff from the Environmental Management, Environmental 
        Safety and Health, and Nuclear Energy programs and the General 
        Counsel's office. We are providing you with copies of the 
        relevant documents to ensure that you are fully informed of the 
        gravity of the issues at the Paducah facility.We are grateful 
        that finally, more than 14 weeks later, DOE's auditors have 
        confirmed our findings and allegations. Sadly, however, the 
        Paducah Manager of Projects for Bechtel-Jacobs--the contractor 
        in charge of cleaning up the Paducah site--in anticipation of 
        the one-day-long safety stand down at the facility last week, 
        announced to his personnel: ``More to come--I still have 
        season's tickets to the circus for sale if anyone still needs 
        one.'' Clearly, far more than a just a day will be required to 
        change the culture of the Paducah contractors.
Who Should Pay?
    We have suggested, and we believe the evidence does and will 
continue to show, that DOE, notwithstanding its own shortcomings, was 
seriously misled by the contractors operating the Paducah facility and 
site. We hope the government will seize the opportunity to hold the 
contractors accountable for what surely will be a massive, and 
massively expensive, cleanup and worker monitoring and compensation 
project. The taxpayers should not have to foot this bill. It is my 
understanding that DOE indemnity provisions for contractors do not 
apply in cases of contractor misconduct, such as is the case here.


[GRAPHIC] [TIFF OMITTED]61428.276

[GRAPHIC] [TIFF OMITTED]61428.277

[GRAPHIC] [TIFF OMITTED]61428.278

[GRAPHIC] [TIFF OMITTED]61428.279

[GRAPHIC] [TIFF OMITTED]61428.280

[GRAPHIC] [TIFF OMITTED]61428.281

[GRAPHIC] [TIFF OMITTED]61428.282

    Mr. Upton. Thank you.
    And thank all of you.
    At this point we are going to go to 5 minutes of questions 
by each of us up here. I am stunned. I have to tell you that I 
have two nuclear plants, two nuclear energy plants in my 
district. I visit there fairly often. There has never been a 
time, whether I have been a Member of Congress or a staff 
member or as an interested party who lives pretty close to 
these folks, as they have a lot of tours that go through, you 
don't have one of those little detectors that they give you, 
they do a little readout at the end of the trip, they tell you 
what it is and everybody is fine.
    As I listened to your testimony, particularly from the four 
of you, the first four that actually worked there for a number 
of years, I am just stunned that you didn't have anywhere close 
to that same type of protection or readout that virtually 
anyone involved in the nuclear industry has.
    I guess my question for the first four, Mr. Key, Mr. 
Jenkins, Mr. Fowler and Mr. Graves, particularly Mr. Fowler and 
Mr. Jenkins: How often did you have one of these whole body 
radiation counts in the years that you've worked there? I'll 
start with Mr. Key. Did you ever have one?
    Mr. Key. Yes, Mr. Chairman, I had one during the period of 
time that I worked there.
    Mr. Upton. You worked there again how many years?
    Mr. Key. Since 1974.
    Mr. Upton. You had one?
    Mr. Key. Yes, sir.
    Mr. Upton. Even today do people have those little count--
whatever they call those.
    Mr. Key. The whole body counter or the TLD?
    Mr. Upton. You put it on your lapel or something like that. 
Are there people today, Mr. Fowler?
    Mr. Fowler. You're talking about a TLD. That's what 
monitors your whole body dose.
    Mr. Key. I was confused, Mr. Chairman. I thought you meant 
monitoring by the mobile in vivo body counter that used to come 
from the Oak Ridge facility to Paducah. Yes, since I have been 
employed there in 1974, I have always possessed a TLD dosimeter 
or a type of radiation monitoring dosimeter.
    Mr. Upton. So you had one all along since you've been 
there?
    Mr. Key. The dosimeter, yes, sir.
    Mr. Upton. Mr. Jenkins, did you?
    Mr. Jenkins. Yes, sir it was a film badge in the earlier 
years and then they changed it to a TLD.
    Mr. Upton. Mr. Fowler?
    Mr. Fowler. I've worn a TLD since I've been at the plant 
but never have I ever had a whole body analysis done, which at 
any other nuclear facility in the country is a standard health 
physics practice. A person such as myself who been there for 8 
years would probably have had a minimum of eight if not more 
whole body counts done at a commercial site. I have never been 
offered or given the opportunity to have one.
    Mr. Upton. Mr. Graves.
    Mr. Graves. Yes, I was issued a TLD when I came onsite. 
It's important to note that the TLD, thermoluminescent 
dosimeter, is for measurement of external exposure hazards. 
It's not for the measurement of internal intakes of radioactive 
material. That's done through bioassay methods such as in vivo 
counting or in vitro bioassay.
    Mr. Upton. Is that the whole body radiation then that 
measures?
    Mr. Graves. Essentially the TLD measures outside influence 
of radioactive material, gamma and beta radiation, but the 
bioassays are what is more predominantly used for the 
measurement of internal uptakes of radioactive material.
    Mr. Upton. Mr. Jenkins and Mr. Key, have you ever had the 
whole body count?
    Mr. Jenkins. Yes, sir, I've had approximately six in the 
time that I've been there. The first several--and the truck-
mounted whole body counter, the technician would take it two or 
three times. He just couldn't believe the readings.
    Mr. Upton. He never told you what the readings were?
    Mr. Jenkins. No, sir. Then I was sent to Cincinnati, right 
outside Cincinnati, for a special, one of the people that they 
sent up there. We went through it but I never was given my 
readings.
    Mr. Upton. Is there a way that you think you can find out 
your readings today?
    Mr. Jenkins. Sir, I don't know.
    Mr. Upton. How do we find out what these readings are? As 
you all testified to how scared folks still are working there, 
it would seem the first line of defense, the first line of some 
appeasement is to try and look at what these readings were to 
in fact gauge exactly what you were exposed to and whether it 
was safe or not, period.
    Mr. Fowler. My answer to that is I was doing the initial 
posting of the facility in which I found areas that had to be 
posted as radiation areas according to the codes of Federal 
regulations. I was wearing their TLD. The areas were 10 to 20 
millirem per hour. I worked in them for months, yet they gave 
me a zero dose. That is why that was fraudulent. If that were 
wrong, and I got a zero dose, then why aren't they still 
allowing the areas to be posted?
    Mr. Upton. Mr. Key, do you want to comment?
    Mr. Key. Yes, Mr. Chairman, back to the in vivo body 
counting measuring device that was routinely brought up very 
infrequently to the Paducah site, I did receive one of those 
body counts. At the end of completion of the count, the 
material was reviewed by the technician to me, though I was 
never handed a copy.
    As recent as 2 months ago when the Washington Post broke 
the story, I began asking for known documents existing, that 
which is the in vivo whole body counting, which we sent 16 
selected hourly employees from our facility. I've asked for 
those records. I've asked for the documentation concerning the 
24-hour special simulated bioassay urine sampling for 
transuranics. I've also asked for the fecal sampling results of 
the current and involved hourly work force, whereby I can 
cross-reference those documents to ensure that all participants 
did in fact have the opportunity to participate and that we 
could take that data and turn it over to our health physics 
individual we have with the international union. As of this 
date, I have yet to receive any documents that I have 
requested.
    I also requested that those documents be forwarded to the 
DOE oversight investigative team. I am unsure if they ever 
received those.
    Mr. Upton. Mr. Klink.
    Mr. Klink. Thank you, Mr. Chairman. It's hard to tell where 
to begin. First, from what Mr. Key and Mr. Fowler said in 
response to your questions, it appears--and I'm going to try 
and cover some territory--I ask you to bear with me, in 
brevity--it will be greatly appreciated.
    What you seem to be saying is, No. 1, you're having a hard 
time getting questions answered. Mr. Fowler, you're saying you 
don't believe the answers when you get them; is that correct?
    Mr. Fowler. That's correct, sir.
    Mr. Klink. Mr. Key, you agree as well?
    Mr. Key. Yes, sir.
    Mr. Klink. Mr. Graves, according to your previous interview 
with committee staff, if you disagree with anything I'm saying, 
interrupt me if you would. You came from the commercial nuclear 
industry to Paducah as a health physicist for Martin Marietta 
in 1989. It was your job to get the plant in order so it would 
conform with DOE orders regarding worker exposure, radiation 
controls, et cetera. You told the staff when you arrived that 
there was no radiation control at Paducah. In fact, if I can 
quote from my staff's notes during their interview with you, 
you said they were noncompliant in all areas. RADCON was brand 
new to them. They didn't know what was present at the 
workplace.
    The health physics program, they had one, but there were 
two technicians at the site for over 1,000 employees.
    Is that an accurate picture of what you found?
    Mr. Graves. I was initially hired by Martin Marietta to 
teach employees, the technicians that I spoke of. There may 
have been another technician but the staff was very, very 
small. I should say that.
    Mr. Klink. You think it was an inadequate number?
    Mr. Graves. Yes. That was my initial job there, to teach 
them, as I had taught in the nuclear power industry where I had 
come from. After that I went to the field operations manager 
responsibility, and that responsibility was to look at all 
aspects of the program and try to determine the compliance 
status of that program with regard to current regulations.
    Mr. Klink. You say that RADCON or radiological control was 
new to them. What about contamination? Did they know what it 
was?
    Mr. Graves. When I said in the statement that every 
fundamental area of the radiological control program at the 
time was noncompliant or inadequate, that is a true statement. 
Generally once I got to the site, coming from the Nuclear 
Regulatory Commission, regulated site, it was quite a shock to 
me; but as I understood once I got there, that for an extremely 
long period of time, and this was inferred to me by employees, 
that the plant was considered a chemical plant and that there 
was uniform contamination throughout the facility and we just 
had a lot of work to do.
    Mr. Klink. What does that mean if they treat it like a 
chemical plant?
    Mr. Graves. Essentially my first impression is they were 
unaware basically of what they were working with or the hazards 
thereof. That was the thought process that I had. But this was 
a uranium facility, and I was aware of that coming in, because 
that's why I was brought on board.
    Mr. Klink. They were not aware that they were dealing with 
radioactive material?
    Mr. Graves. No, I can't say that. But the general thought 
process----
    Mr. Klink. You're saying that you think they may have been 
aware but their thought process was not----
    Mr. Graves. The overall culture of the facility as it was 
operated for a lot of years was that of a chemical processing 
facility. That's what was reported to me when I got there. I 
use that as an example.
    Mr. Klink. But they knew they were dealing with radioactive 
material?
    Mr. Graves. Yes, sir.
    Mr. Klink. You told staff when you were surveyed you found 
technical contamination in every area you looked. Were any of 
those areas posted?
    Mr. Graves. No, sir. There was widespread contamination 
across the facility, yes.
    Mr. Klink. Were the people at the site capable of 
monitoring uranium?
    Mr. Graves. To the extent necessary to fulfill the 
regulations, no. We didn't have enough staff to adequately 
monitor the workplace.
    Mr. Klink. Tell me about the instrumentation that you 
found.
    Mr. Graves. The instrumentation predominantly was beta 
gamma monitoring instrumentation.
    Mr. Klink. Was that the most modern?
    Mr. Graves. The instrumentation that they had was up to 
date. It was contemporary in its use. There are some situations 
within the facility where alpha radiation is predominant over 
beta gamma. There were questions regarding the appropriateness 
of some of the instruments used with regard to the source term 
in the area, but they were in the process of getting more 
instrumentation and trying to eventually get up to speed to 
what they needed to be.
    Mr. Klink. Did you tell staff during the interview that the 
instrumentation was archaic, that the laboratory couldn't read 
your samples, that plus-or-minus error was sometimes 100 
percent?
    Mr. Graves. The instruments that you're speaking of now are 
different from the instruments I just addressed in the 
conversation.
    Mr. Klink. What's the difference?
    Mr. Graves. The difference in the instruments are one is a 
hand-held type instrument that is used by technicians to 
determine the gross alpha beta gamma activity at the site. What 
I made mention of to the staff person was that the 
radiochemical capability or the ability to discern between 
transuranics and uranium appeared to be process-oriented, 
archaic. The lower limit of detection was not sufficient to be 
of use to a health physicist in this regard.
    Mr. Klink. So you couldn't detect the transuranics at the 
site; is that correct?
    Mr. Graves. We couldn't do that at a number that would be 
considered reasonable to provide radiological protection.
    Mr. Klink. Did anyone tell you that there was plutonium or 
other transuranics located at the site?
    Mr. Graves. Not when I first came on board. I first became 
aware of the transuranics, I think I made the statement when I 
was doing a review of one of the buildings, and I came across 
large quantities of technetium 99 that was just identified 
through a walk-through. And asking questions as to where this 
stuff comes from--I came from nuclear power, I didn't 
understand why technetium was at a uranium enrichment facility. 
They said they did have processor reactor returns in the past. 
Based upon that response, I asked them about some other 
isotopes, CCM, being one because it has a relatively long half-
life.
    Then I asked the question about transuranics. At that time 
I was told that there were a number of drums, eight if I recall 
correctly, of transuranic waste at the facility, in a storage 
location that was a very well-defined storage location.
    Mr. Klink. What was the timeframe from the period you were 
told to come in here and fix it--and I assume that you were not 
told immediately upon arrival what you were dealing with--and 
the period of time at which you found out about the 
transuranics at the site?
    Mr. Graves. It is important to note from a health physics 
concern, what transuranic waste is, is much different than what 
transuranic waste is from a CERCLA standpoint. The response 
that I got initially was based upon CERCLA standards, which is 
a large amount of activity per gram of substance. But from a 
health physics concern, minute quantities of transuranics, or 
small quantities of transuranics can be a problem or concern in 
the radiological workplace.
    It wasn't until there had been a spill with a drum of one 
of these eight drums that I became aware of the amount of 
activity that they were talking about when they told me about 
the transuranic waste.
    Mr. Klink. Again, what was the period of time between when 
you first arrived there and this spill occurred and you found 
out about the transuranics?
    Mr. Graves. About a year, sir.
    Mr. Klink. What was the response of management when you 
expressed your concern as a health physicist about these 
transuranics?
    Mr. Graves. At which time, the time of the spill?
    Mr. Klink. Whenever you found out about it.
    Mr. Graves. I was surprised at the numbers or the amount of 
transuranics in the drum that was spilled. I think the general 
thought process of management at the time was that, one, I 
didn't feel like they had an appreciation of the seriousness of 
this type of isotope in a uranium facility. And second, I think 
it was generally felt that true normal CIP-CUP project 
maintenance, removal of cascade, that a lot of the material 
that hadn't processed in the past had been removed from the 
system.
    Mr. Whitfield [presiding]. Mr. Klink, I've let you go over 
a couple of minutes. I think we better proceed. We have a lot 
of questions to ask. Maybe we will have an opportunity for 
another round.
    First of all, Mr. Key and Mr. Jenkins and Mr. Fowler and 
Mr. Graves, I want to tell you how much we appreciate your 
willingness to come up here and testify. I know that it is 
particularly difficult when you are in this situation. You are 
still employees and you are testifying on issues that you deem 
very important, and so we thank you for being willing to do 
that.
    Mr. Key, in your testimony you had referred to a bioassay 
analysis study in 1990 conducted on employees at the plant. Did 
you indicate that those results were never released, or would 
you expand on that a little bit?
    Mr. Key. On the initial 24-hour simulated bioassay for 
transuranics at the plant, we were able to get approximately 30 
volunteers to participate for that. However, the results came 
back and the contractor called a meeting and claimed that the 
independent laboratory had cross-contaminated all of his 
instrumentation and thereby they were going to invalidate the 
results. I have since asked specifically for those exact sample 
results and as of yet have not received that. In fact, a 
management representative discussed with me that management was 
very reluctant to release that information because of the 
unknown of how it would be used.
    Mr. Whitfield. So it has been over 8 years and you still 
don't have that information?
    Mr. Key. That's correct.
    Mr. Whitfield. Now, from all of the newspaper articles on 
this, I think there is an attitude out there right now that 
offsite or outside the production area that USEC has 
responsibility for, there are some real contamination problems, 
significant problems, over 90,000 drums out there, for example. 
There also seems to be a perception that inside the production 
plant today is safe.
    Now, all of you have been involved in that plant, you've 
worked there now or you've had experience with it, like Mr. 
Graves. I would just ask you today, do you consider the 
production facility that is operated by USEC to be a safe place 
today? Mr. Key? Then go right down the line.
    Mr. Key. I believe that safety at the plant has drastically 
improved with respect to industrial safety and radiological 
control procedures and policies from the early 1990's to the 
present day. I believe there is always room every day for 
improved safety, including worker involvement. A very recent 
NRC internal investigation of USEC policies and practices, 
workers were not involved in that investigation, in the out-
briefing. Unlike when OSHA comes onsite, there is dedicated 
worker involvement and walk-around with the OSHA inspectors, 
and really under OSHA we feel like now we have a voice to be 
heard and can any time file a formal complaint.
    As one suggestion to the committee, I would suggest that 
NRC regulations adopt OSHA standards which include the worker 
involvement and participation.
    Mr. Whitfield. Mr. Jenkins?
    Mr. Jenkins. Sir, I agree with Mr. Key, but I have a hard 
time believing the records after 30 years of being falsified 
to. I'll put it that way.
    Mr. Whitfield. Mr. Fowler?
    Mr. Fowler. Yes, sir, I know that problems persist to this 
day. The problems we are talking about are current still. They 
are not just problems of the past. Yes, things have improved 
somewhat. But, I'll give you four examples. Approximately 3 
weeks ago, it was found that Bechtel Jacobs workers had been 
working in cylinder yards for months, nontrained, did not know 
what permits were. When this was caught, they sent these 
individuals to training. Ten of them failed. They retrained 
them. Three of them then failed. I started talking with these 
individuals. The problem was functional illiteracy. People were 
allowed to work in areas, they couldn't read the monitors, they 
couldn't read the permits.
    Three weeks ago, a computer was tagged as radiation free 
and ready to be delivered to a local school and it was found to 
be significantly contaminated. Plant management had proved the 
system worked. They said we found it. But it wasn't found by 
them. One of the whistleblowers' wives did a second check on 
the survey readings and found it to be contaminated. If she had 
not done this, a student would be sitting at a computer 
terminal getting unnecessary radiation exposure.
    Again, about 10 days ago, plant workers were sent into a 
contaminated building that required respiratory protection. Yet 
they had none. They were told to just wet down the areas and 
they could work without a respirator. A member of the safety 
department caught this, they halted the job, told the workers 
they would have to go to respiratory training. While these 
individuals were in that training, they let another group of 
workers go in without respirators and finish the job.
    In the main cafeteria, to this day, there has never been 
any access monitoring, so a contaminated person could enter at 
will. In other eating areas around the site, there were some 
monitors put in place, but the alarms were going off frequently 
and it became a problem for health physics. So these monitors 
are taken out. The problems are not only in the past, they are 
current, and they affect the workers today.
    Mr. Whitfield. Dr. Cochran, I have been told that you are 
quite an expert on nuclear issues. You were quoted in a peer-
reviewed journal as saying, ``The situation is as close to a 
complete lack of health physics as I have observed outside the 
former Soviet Union, which we know is horrible.''
    Did you make that statement?
    Mr. Cochran. I did. And I stand by it. I had visited the 
Chelyabinsk 65 in what is now Russia, which is their Hanford, 
and toured a reactor that was shut down. The conditions--we 
left an auditorium, put on some smocks, walked around in the 
reactor, walked outside, back around through the auditorium, 
took the smocks off and hung them on the rack for the next 
person.
    Based on my conversations with the other relators, 
particularly Mr. Fowler and Mr. Deuschle, Mr. Jenkins, I would 
say a similar attitude persists at the Paducah plant.
    You are going to hear this afternoon, or later this 
morning, from the senior person at Bechtel Jacobs. I would urge 
you to also examine an e-mail message sent from the Paducah 
manager of projects, Mr. Jimmy Massey, on September 8. That is 
the day before the shutdown, the Richardson 1-day or 24-hour 
shutdown. This memo was sent to the gentleman that is going to 
testify before your committee, Mr. Nemec, Joe Nemec. At the end 
of his memo, he says, ``More to come. I still have season 
tickets to the circus for sale if anyone still needs one.'' He 
is describing the events surrounding this case and the shutdown 
ordered by the Secretary as a circus. He described in the 
Paducah Sun the 24-hour shutdown as a family meeting. He 
describes as one of the activities that will be conducted in 
this 24-hour period, review and spruce-up of red postings.
    When I visited the site in February, outside of the fence 
in ditches that I measured, contamination levels in excess of 
NRC limits, there were no red postings. That is why I am 
telling you there is a need for a radical change in the culture 
at that plant. You cannot run--you cannot have senior manager 
in the cleanup sending memos to his staff and his superiors 
pretending that this is not a big issue when in fact it is.
    Mr. Whitfield. We have a copy of that e-mail. We will be 
asking about that.
    Mr. Klink. Mr. Chairman, can you yield to me for a second?
    Mr. Whitfield. Yes.
    Mr. Klink. I would ask unanimous consent that we have that 
document made permanent in the record. I am told it is in the 
packet. We haven't seen it yet. Thank you very much.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]61428.283
    
    Mr. Cochran. Mr. Chairman, the DOE, you are going to hear 
from a DOE representative who says that the team that went down 
there said that they didn't find any imminent hazards to 
workers and the public. I think this was a very unfortunate 
statement. An imminent hazard would be a nuclear explosion, a 
criticality accident or meltdown of a reactor. We're talking 
about chronic exposures to workers and those issues persist.
    Mr. Whitfield. Dr. Cochran, thank you for answering the 
question. We will be following up later on this.
    Next is Mr. Stupak.
    By the way, this is such an important issue that we are 
going to 7-minute questioning instead of 5.
    Mr. Stupak. Thank you. Let me again apologize. I have been 
up in the Superfund hearings, bouncing back and forth today 
here, Mr. Chairman.
    Mr. Chairman, as you know we have had hearings in the short 
time I have been on this committee with DOE about Lawrence 
Livermore, the spy situation out there. Now west Paducah, now 
we have got the transportation of the plutonium. What I am 
really concerned about, not just the plants, as the doctor 
properly pointed out, but also just the culture, the attitude, 
the lack of trust and confidence in DOE in not just running 
plants but their whole makeup, their whole environment there. 
I'm not sure how we address it. We have really got to get their 
attention and not just a lot of assurances from them, but we 
have got to see changes in the Department of Energy.
    It is not just this administration. When you talk about 
Lawrence Livermore, that went back over five administrations. 
The west Paducah stuff just wasn't recent, it has been going 
on, as we see.
    Now we want to transport plutonium through my district and 
others, and we cannot even get a hearing on the darn thing. You 
wonder about trust and all that. As I listened and read the 
testimony, there has been a lot of discussion about what is 
happening outside, especially, Mr. Key, to workers, what is 
happening outside. But how about internally, biologically, what 
is happening when they breathe asbestos or uranium 
hexafluoride?
    Mr. Stupak. Let me ask you, Mr. Key, what can result from 
breathing uranium hexafluoride, do you know, as a worker?
    Mr. Key. Of course breathing uranium hexafluoride fumes, it 
is irritating to the throat and nasal mucous passages, and can 
result in bronchial, upper respiratory ailments. Beyond that I 
don't have the expertise to say.
    Mr. Stupak. You are basically ingesting uranium?
    Mr. Key. Correct.
    Mr. Stupak. Mr. Key, you also testified to what appears to 
be massive exposure to asbestos dust during the late 1970's and 
you said the early eighties. And since 1964, since 1964, it has 
been common knowledge that working without protection with 
asbestos can cause asbestosis, but it takes a long time for 
asbestosis to develop. Has DOE or the contractor done anything 
to monitor, to track workers for asbestos exposure internally?
    Mr. Key. Not to my knowledge. The international union has a 
mobile screening unit. When requested, it has came to the 
Paducah location twice at the request of the PACE Local Union 
President, David Fuller, and the chest X-rays are taken and 
they are read by the certified readers.
    Mr. Stupak. Is this mobile unit, is this something that the 
union does internally for its members, or does DOE contract to 
provide it when the union requests it? How does that go?
    Mr. Key. To my knowledge it is only a union-involved 
program.
    Mr. Stupak. Okay.
    Mr. Whitfield Mr. Jenkins?
    Mr. Jenkins. I would like to respond. Myself, the lower 
part of my esophagus, I had to have it surgically replaced with 
a piece of plastic. Whether it caused it or not, I can't 
testify. My doctor said that there is a 99 percent chance that 
it is going to turn into cancer. Whether it does, I don't know.
    Mr. Stupak. Mr. Jenkins, were you in the area where you 
would have breathed this uranium hexafluoride?
    Mr. Jenkins. Yes, sir.
    Mr. Stupak. Thank you.
    In your testimony, Mr. Key, you talk about working in 
clouds of fumes in the building. Did workers ever ask for 
respiratory protection so they could breathe?
    Mr. Key. The building that I was referring to was the C-410 
and C-420 building which processed the rat tail uranium tails 
material. And the clouds of fumes that we walked through, there 
were times that I held my breath to get through those.
    Respiratory protection was only provided in the form of a 
World War II gas mask. It was placed in a box throughout the 
building. You could pull it out and it was not necessarily 
clean. And because it was general use, if you did not get it 
tight enough, the fumes would still permeate around the seal. 
One day I took the exhalation valve cover off one of the 
respirators, and it had dry rotted to the point that it did not 
provide protection.
    Mr. Stupak. Did you ask the supervisors for masks?
    Mr. Key. No, sir. You have to understand the indoctrination 
process that the majority of workers at the plant went through. 
When I was hired by Union Carbide, it was frowned upon for you 
to ask any questions. If you raised safety issues, generally 
you were given the worst job assignments within your 
department. You were labeled a troublemaker, lazy, 
nonproductive to bring up safety as an issue. That later 
transpired into what was termed the ``right to know,'' employee 
right to know. I could ask management a question and then 
management would decide if I needed that right to know on that 
issue.
    Mr. Stupak. Did you ask questions under the right to know?
    Mr. Key. Yes. In fact there were some general safety issues 
in the early and mid-eighties where I went to the safety 
department and I would say that OSHA regulation on this 
particular issue is this. The response was, We are not under 
OSHA, return back to your job.
    Mr. Stupak. Mr. Jenkins, Mr. Key, has there been any 
testing and monitoring to determine radiation exposure to the 
workers, do you know? Has there been any testing or monitoring?
    Mr. Key. Testing that I am aware of, of course you have 
heard testimony in relationship to the in vitro body counter 
which was a mobile unit out of Oak Ridge. There is a 1992 NOISH 
report which specifically points out the unreliable detection 
capabilities of that unit and the numerous mechanical 
breakdowns of it. That unit, as I am aware, was only for 
uranium and only the group of 30 plant workers that were sent 
for nonjelly detectors, commonly referred to as the geranium-
type detectors, has the ability to monitor the body for 
transuranics.
    Mr. Stupak. That is the only monitoring or testing that you 
are aware of?
    Mr. Key. That I am aware of.
    Mr. Whitfield. Mr. Stupak, your time is expired.
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Whitfield. Mr. Bryant.
    Mr. Bryant. This is a question for Mr. Fowler and Mr. 
Graves.
    Were you aware of any occasion where a DOE nuclear safety 
inspector ever visited the plant or reviewed the safety 
procedures there in Paducah?
    Mr. Graves. During my tenure at the site, there was a 
tremendous amount of DOE involvement from a Tiger team 
standpoint and independent oversight from HHS groups and 
program folks and folks out of the House. So yes, there was a 
lot of DOE involvement.
    Mr. Bryant. You are saying DOE personnel on the site?
    Mr. Graves. We had a site office where DOE employees were 
housed. In addition to that, there were several different DOE 
representatives that came and did audits and assessments as a 
function of the new initiatives of Admiral Watkins.
    Mr. Bryant. And part of that audit function would be 
obviously safety?
    Mr. Graves. Yes, sir. There was a lot of influence on 
safety.
    Mr. Fowler. After Mr. Graves left the facility, I never had 
the opportunity to meet one of these individuals in the field. 
I did discuss some issues with them in my office regarding 
interpretations of regulations, but I never had the opportunity 
to meet one again in the field after those days.
    Mr. Bryant. Help me distinguish between your office and the 
field.
    Mr. Fowler. I am the training manager for compliance at the 
facility and my office is--I am in charge of the OSHA and 
radiological protection training. I have had questions asked in 
regards to the regulations. But since Mr. Graves left, I have 
not seen a DOE auditor in the field.
    Mr. Bryant. On the date that Mr. Graves left, tell me when 
that was?
    Mr. Graves. Early 1992.
    Mr. Bryant. Mr. Key and Mr. Jenkins, Mr. Graves made 
mention of a Tiger team review. I think that occurred in the 
early 1990's, maybe 1991. Would each one of you tell me, and 
Mr. Key, you go first, were you aware of that Tiger team audit 
review and if it found any safety concerns?
    Second, were any steps taken by the contractor as a result 
of that to remedy any of these safety concerns?
    Mr. Key. Yes, sir. In my experience with the Tiger team, 
both when they were investigating and review of their findings, 
the contractor then developed action items for closure of those 
Tiger team findings.
    Yes, there were a lot of safety findings within that and on 
the--on some of the industrial safety findings, I was asked as 
a representative of the union to go out and review some of the 
exact locations in which the union did sign off on some of the 
safety de minimis items. The others, the majority of them have 
validation for closure.
    Mr. Bryant. Mr. Jenkins, do you have any comments?
    Mr. Jenkins. No, sir. Just about the same thing that Jim 
said. We worked real hard cleaning the place up. When they came 
in and made their inspections and everything, we did get a 
feedback on what they found and some of it was fixed.
    Mr. Bryant. Mr. Fowler, do you have any follow-up on that?
    Mr. Fowler. Yes, I do. I believe even to this day, there is 
only approximately 10 Department of Energy employees onsite I 
believe full time, and I have never seen an individual, an 
inspector out there at night, to this day.
    Mr. Bryant. And I know that we have--there is another side 
to this and we have witnesses coming in to testify on the 
second and third panels, probably a couple of other sides.
    Mr. Fowler, you seem to sort of bridge this area in terms 
of timewise and in your capacity there at Paducah. From your 
perspective, who is to blame here? If you can--I know that you 
can probably talk for days on this, but I am concerned about 
the Department of Energy as well as the contractor or 
contractors and in terms of what I mentioned in my statement 
about the possibility of coverup or negligence and gross 
negligence and intentional acts and all kinds of things there 
from a legal perspective, where would you lay the fault?
    Mr. Fowler. I think it is clearly on the contractor. I 
didn't see their findings placed in any of the official 
environmental reports that I started finding. I don't believe 
they told the Department of Energy the real story.
    Mr. Bryant. Do you lay any fault with DOE on not having 
enough oversight and supervisory control?
    Mr. Fowler. Yes, that is an aspect that they were to look 
over. But again, the facts that were not given to them were by 
the contractor.
    Mr. Bryant. Mr. Chairman, I have concluded my questions.
    Mr. Whitfield. Thank you. Mr. Strickland.
    Mr. Strickland. Thank you, Mr. Chairman. I want to thank 
each of you for coming here and for helping us more fully 
understand this.
    I would like to take just a moment, if I could, to ask if 
there is anything that you have not shared with us this morning 
that you would like to share before your time is up, before 
this panel concludes? Is there any bit of observation, opinion, 
or information that you would like for us to know?
    Mr. Key. Mr. Strickland, I do have a concern with the 
number of DOE site employees at the site, only 10, and given 
its scarce oversight and budget and the capability, I think it 
demonstrates that the Oak Ridge office is trying to operate the 
Paducah site via telephone. And with the size and complexion of 
the plant, I do not believe that is appropriate, and feel that 
Congress needs to establish a Paducah site operations office 
with sufficient funding, staff and contracting authority in 
order to manage it correctly. And they may also include the 
Portsmouth into that.
    Mr. Strickland. Thank you, Mr. Key. All of the problems 
that we are talking about Paducah apply to Portsmouth, and I 
have been told that we do not know what materials came to 
Portsmouth or what amounts or from whence those materials came. 
So I just want to reemphasize once again that all of the 
employees need the protection of this government and that we 
are going to fail in our responsibilities, if for reasons of 
fear of liability or fear of setting a precedent of some kind, 
we were simply to limit this program to a pilot project and 
exclude hundreds, perhaps thousands of employees, that were 
just as faithful to this government and just as important in 
winning the cold war as the wonderful workers at Paducah.
    In terms of who is responsible and who knew what when, Mr. 
Jenkins, did Union Carbide managers or Martin Marietta 
managers, to the best of your recollection, ever tell you that 
the ore or the recycled reactor tails and other materials that 
you were working with were safe?
    Mr. Jenkins. Yes, sir. They told us that they were safe 
enough to eat. I have been told several times, ``Guys, you 
could eat this stuff.''
    Mr. Strickland. It would be interesting to gather those 
folks and offer them a good meal. I suspect that they would 
have a different kind of attitude.
    Mr. Fowler, you spoke of having your picture posted on the 
wall with a bullet or a target on you. Can you just tell us 
briefly what that felt like?
    Mr. Fowler. My wife and myself have been extremely 
concerned. They used my picture for target practice, which when 
I turned in to upper management and they looked at the issues, 
they told me they considered that as a joke.
    Mr. Strickland. Do you recall the names? You don't have to 
give them here.
    Mr. Fowler. Yes, sir.
    Mr. Strickland. Do you recall the names of individuals who 
may have responded to you in that manner?
    Mr. Fowler. Yes, sir. I was told that it was a joke but 
they planned no disciplinary action for the employee that might 
have done it because it was awhile back.
    Mr. Strickland. Would you mind sharing the names of the 
person or persons who responded to you in that manner and who 
they worked for?
    Mr. Fowler. Mr. Howard Pulley, USEC; and Mr. Steve Seltzer, 
USEC Employee Concerns Manager.
    It carried on to have my car intentionally damaged on plant 
site in which the ex-plant manager paid for the damages to be 
repaired out of his own pocket, writing me a check.
    Mr. Strickland. Do you have reason to believe that even 
perhaps today there are individuals who may be observing you 
more closely than they should or following you or in other ways 
trying to intimidate you?
    Mr. Fowler. Yes, sir. There is a pattern that when--I have 
an access pass for my vehicle anywhere onsite. It is routinely 
followed. I will park my vehicle at my office and I am having 
security officers to come to me and say, move your vehicle. I 
ask the reasons why and they tell me because we want you to. My 
vehicle is routinely stopped and searched for no reason. Others 
that borrow my vehicle to enter the facility, they will stop it 
because it is my vehicle.
    Mr. Strickland. Thank you, Mr. Fowler. Mr. Key.
    Mr. Key. Mr. Strickland, the only other concern I have is a 
lot of documents relating to plutonium and reactor tails are 
viewed as trace amounts. There is a 1990, I believe, document 
which is put out by DOE and it is entitled Closing the Atom, 
``Closing the Circle of the Atom,'' and within that is a very 
vivid picture that I feel the committee members need especially 
to review. It shows one particle of plutonium inside of a lung 
eradicating 10,000 healthy lung cells and causing mutation, and 
that was published by the Department of Energy.
    Mr. Strickland. Thank you. Thank you all and thank you, Mr. 
Chairman.
    Mr. Whitfield. Mr. Burr.
    Mr. Burr. Mr. Graves, let me ask you, to your knowledge, 
did Martin Marietta ever falsify or withhold from DOE the level 
or existence of contamination or health hazards at Paducah?
    Mr. Graves. I am not aware of that; no, sir.
    Mr. Burr. Are you aware of any documentation or knowledge 
withheld from the worker or the legal team in this lawsuit upon 
their request by current contractors?
    Mr. Graves. No, sir, I am not aware of that either.
    Mr. Burr. Let me ask you with your degree of experience, in 
your opinion is there enough evidence of contamination that the 
alarm bells should have gone off and clearly earlier than today 
we should have known about the level of contamination at the 
Paducah site?
    Mr. Graves. Yes, sir.
    Mr. Burr. Do you believe that documentation exists today 
and did exist back even at your time at Paducah that clearly 
showed the evidence of contamination at the levels that are 
claimed today?
    Mr. Graves. Yes, sir. Several documents existed that 
identified the levels of contaminant there.
    Mr. Burr. When you raised questions of contamination and 
worker safety with your management at the time of your original 
employment at the Paducah site, did they approach it and follow 
up with the same passion that you displayed the concerns to 
them?
    Mr. Graves. No, sir. As I said earlier, I don't think that 
they had an appreciation for--you have to understand that there 
was a lot of change going on at that time. Admiral Watkins came 
in and raised the bar, as was mentioned, as to what appropriate 
radiological control was. Those of us that entered the complex 
DOE-wide, that had experience in the areas of nuclear power, or 
the Navy that were used to that level of rigor, were met 
obviously with resistance. It was change and when there is 
change, it breeds certain conflicts. No, I don't think that 
they received my message with as much rigor as I provided it.
    Mr. Burr. Mr. Cochran, you certainly have been active at 
the attempt to retrieve documents. I think in your document 
list, tab 8-A is in fact an executive summary from 1991 and I 
will just highlight one thing. I am sure that you are familiar 
with this. That the results of that report suggest in a very 
clear way that plutonium is not present in offsite sediments. 
Are you familiar with that?
    Mr. Cochran. Yes, sir. That is so stated in the executive 
summary of that Phase I report. There is no plutonium other 
than in the water.
    Mr. Burr. Not only was it stated in the executive summary, 
was it not also stated that there was no plutonium 
contamination found in the Annual 1991 Environmental Report on 
Paducah?
    Mr. Cochran. And in other environmental reports.
    Mr. Burr. You have requested for some time, I think since 
last spring, or your legal team, documents that pertain to a 
reference about appendix 2 B-17 of the 1991 Phase I site 
investigation, which it was noted in the executive summary was 
to come; am I correct?
    Mr. Cochran. That is correct. I think Mr. Fowler mentioned 
that earlier. My attorney, Mr. Egan, searched the public 
document room at Paducah in Karville for any references to 
onsite and offsite contamination. Those appendixes were missing 
from the Phase I report.
    Mr. Burr. The request for those appendices was to whom?
    Mr. Cochran. Well, there were various requests over a 
period of 3 months by Mr. Egan, primarily working through the 
librarian at the public document room, who was very helpful. 
She made inquiries----
    Mr. Burr. Which contractor is in charge of the documents?
    Mr. Cochran. I don't know who is in charge of the public 
document room or whether it is DOE or a contractor.
    Mr. Burr. As it relates to offsite, I believe it is Bechtel 
Jacobs, am I correct? Based upon that request, when did you 
receive the appendix?
    Mr. Cochran. I have never received the appendix. I have 
heard----
    Mr. Burr. You have seen data from it, though?
    Mr. Cochran. The other regulators, Mr. Fowler and Mr. 
Deuschle, found computer printouts of the data taken by a 
company hired by Martin Marietta, a company called CH2M Hill, 
and the computer printout data was in the health physics files 
at the U.S. Enrichment Corporation spaces, but it was only 
later that we discovered that that was the same data that was 
in the missing appendices in the public document room, and for 
that matter missing in every Phase II report that was publicly 
circulated, to the best of my knowledge.
    Mr. Burr. Let me ask Mr. Egan to come forward. If you would 
just lean toward the mike. Let me just ask you, Mr. Egan, based 
upon your request for that appendix, when did you receive it?
    Mr. Egan. We have never received it. We pursued it from a 
number of different angles, as Dr. Cochran said. The first 
request was to the very helpful librarian in Karville, who 
herself said she never received a request for it, had never 
realized it was missing. She contacted Oak Ridge and apparently 
contacted Bechtel Jacobs over a 3-month period. Her final 
answer to us was that she was unable to locate it.
    Mr. Burr. I have a copy of it. Do you find that surprising?
    Mr. Egan. I understand you do.
    Mr. Burr. The Louisville paper has a copy of it, but you 
don't have a copy of it and you were the first one to request 
it?
    Mr. Egan. That is correct.
    Mr. Burr. Mr. Graves, whose responsibility is it, based 
upon a contractor's obligation with a site like this, to make 
sure that the reports are fully conveyed to DOE?
    Mr. Graves. I am not sure that I know the answer to that 
question. There are probably a number of individuals that are 
responsible for that.
    Mr. Burr. Mr. Cochran, let me go back to you.
    Clearly we have entered into the record this document which 
you have requested for some time, your legal team. But you have 
looked at data that was used to compile that appendix. Let me 
ask you, does that data substantiate plutonium contamination 
offsite at Paducah?
    Mr. Cochran. Yes, it does, well in excess of regulatory 
limits in areas that when I visited the site were unposted and, 
to the best of my knowledge, are still unposted today in 
violation of DOE regulations.
    Mr. Burr. When you were there in the 1991-1992 timeframe, 
were you aware of plutonium contamination?
    Mr. Graves. I was only aware of it to the extent that I am 
aware of it today as a result of the spill. My main focus when 
I was at the plant was the health and safety of the 
radiological worker. In normal activities and duties of the 
work going on around the site, yes, I was aware that there was 
contamination out beyond the bounds of the site. The levels of 
transuranics versus uranium I don't recall right now, but I 
knew after research that they were certainly present.
    Mr. Whitfield. Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Cochran, I know that you are one of the relators in the 
civil contam action, and I know that the Justice Department is 
looking at some of those civil issues. One thing that struck me 
hard listening to your testimony was that it was peppered with 
references to potential criminal activity at the site, 
including your testimony about illegal dumping of uranium waste 
offsite on public grounds.
    I am wondering if it would be accurate to say that as well 
as the civil concerns and the concerns about remedying the 
situation for workers onsite, you have concerns about potential 
criminal activity as well?
    Mr. Cochran. Well, first of all I am not an attorney.
    Ms. DeGette. We will still listen to what you say.
    Mr. Cochran. My reference to criminal activity derive from 
a police report that I attached to my testimony where you have 
the Kentucky State Police inspector in charge of investigating 
hazardous waste making these allegations of criminal activity 
in 1991.
    My point is I think this needs thorough investigation to 
see whether those allegations were true. We certainly have 
evidence that there was illegal offsite dumping. What action 
was taken by the Department of Energy, if any, whether they 
were notified and so forth.
    Ms. DeGette. Do you know whether any investigation was 
undertaken?
    Mr. Cochran. No. I only became aware of this memorandum 
within the last week or 2.
    Ms. DeGette. Are you aware of any other instances of 
employees, or any of the rest of you, of employees being told 
to hide data or other kinds of willful activity that we should 
be concerned about?
    Mr. Cochran. Yes, I am aware of it from discussions with 
the other three relators.
    Ms. DeGette. Can you give me some examples of that, sir?
    Mr. Cochran. One was--Mr. Fowler can correct me if I'm 
wrong--I believe it was Mr. Deuschle when he found the computer 
records of the missing data, he was told by his management to 
bury the data and that it should not be made public.
    Mr. Jenkins has referred to numerous truckloads of 
radioactivity that was illegally dumped, much of it at night 
offsite.
    Ms. DeGette. Mr. Jenkins, do you want to expand on that?
    Mr. Jenkins. Yes. I loaded out several trucks of slag, what 
is commonly called magnesium slag from the C-340 building and 
they were going to the dump. I said, Where are you guys taking 
this? He told me offsite to the dump. At that time, I didn't 
know if they had a permit for it or what.
    Ms. DeGette. Did you later learn that they had a permit?
    Mr. Jenkins. A couple of days ago I learned that they 
didn't have a permit.
    Ms. DeGette. Did he know that they didn't have a permit?
    Mr. Jenkins. I don't know. He was doing what he was told 
by, I presume, his boss.
    Ms. DeGette. So you think that this was coming from high 
levels?
    Mr. Jenkins. Yes, ma'am, I do.
    Ms. DeGette. Dr. Cochran, something else that we were quite 
surprised to learn was that apparently a plume of contaminated 
groundwater is moving one foot a day toward the Ohio River, 
with no effective remediation underway or even planned. I am 
wondering if you know who is responsible for that and what we 
can do to get that remedied?
    Mr. Cochran. I don't know who is responsible for that. And 
I don't know how to remedy it.
    But I would correct your statement. It is in the river.
    Ms. DeGette. Right.
    Mr. Cochran. It is not just moving toward, it is into the 
river.
    Ms. DeGette. It is in the river now?
    Mr. Cochran. To the best of my knowledge. It is the 
technetium plume.
    Ms. DeGette. Mr. Fowler, let me ask you a couple of 
questions. When you arrived at Paducah, did you have any 
interactions with John Hummer who was in charge of health and 
safety for the gaseous diffusion plants for Lockheed Martin?
    Mr. Fowler. No, ma'am.
    Ms. DeGette. Mr. Graves told us there was no health physics 
program in 1989, and from what I hear of your testimony, it was 
still true that there wasn't in 1991; is that right?
    Mr. Fowler. I arrived at the plant in late 1991. My task 
was to develop radiological training for the work force in 
health physics. The majority of the work force did not know 
what ALARA stood for, and they didn't know how to implement any 
practices in radiological control.
    Mr. Graves. As a point of interest, when I make the 
statement that there was no health physics program, there was 
one in place; but one that is reasonably capable of doing what 
it is supposed to be doing in a compliant fashion with 
regulations, that is a different story. So to say that there 
was no health physics program in place is an overstatement, but 
there was not one that was capable of dealing with the problems 
at hand.
    Mr. Whitfield. Ms. DeGette, I am going to give you two more 
questions, and then we are going to take 5 more minutes.
    Ms. DeGette. I have one more question, and I don't need the 
second 5 minutes.
    It is almost worse to have a program in place that doesn't 
do the job than to have no program, I would think.
    Mr. Graves. Well, it is important to understand that 
throughout the entire complex--of course, I can't speak 
specifically to the entire complex--but in talking with 
colleagues over the years, when the new regulations for 
contamination control came on board, nobody was ready to 
implement that. So you have to understand what the culture was 
at the time, and the culture then and what it was changing to.
    The problem is if you take an extraordinarily long period 
of time to get one in place that knows what it is doing and 
that is relative to a function of what you are dealing with 
here.
    Ms. DeGette. Thank you.
    Mr. Whitfield. We are going to go 5 more minutes for anyone 
interested, and since I am the chairman, I will go first.
    Mr. Graves, at one time you were the health and safety 
expert with Lockheed Martin at the Paducah plant. In that 
capacity you submitted observations and recommendations 
periodically through the annual internal audit of the situation 
at the plant. I have some copies of your handwritten notes 
during this time which are being shown to you right now.
    In these notes, you make several observations that the 
current health physicist technician staffing level at Paducah 
was inadequate; the current health physicist position staffed 
with an individual with substantial operational health physics 
experience does not exist. Radiation area postings do not bear 
approximate dose rates; the current air monitoring system has 
too few locations to characterize work location airborne 
concentrations of radioactivity. And then in 1991 you talked 
about the work on the converter was performed without a work 
permit, the health physics program still not defined and 
enrolled by current procedures. And then you recommended a 
whole host of things that should be done to correct these 
problems.
    Do you know at that time when you made those 
recommendations whether those were taken care of?
    Mr. Graves. Well, from the things that I am reading here, 
you have to understand that as I understand this record, 
briefly looking at it, I was the company counterpart for this 
particular audit. This audit was conducted by Dr. Larry McKay, 
and I don't recall the other individual who was with him but I 
do remember the audit.
    Yes, indeed they basically verified everything that we had 
been talking about and described deficiencies in. They pretty 
much substantiated all that; yes, sir.
    Mr. Whitfield. Did they correct them from your knowledge?
    Mr. Graves. Well, the process of change, we want to--
correct them as far as the timeframe, I haven't been at the 
site for a very long time. I know that we were only marginally 
successful during my tenure at the site to change the inertia 
of the overall process.
    Mr. Whitfield. Mr. Fowler has characterized that there was 
a culture of lack of concern regarding the problems. Would you 
agree with that?
    Mr. Graves. Absolutely. There was a culture of doing 
business for many, many years and some of us who came from the 
Navy or the nuclear power influence when we got to these sites, 
it was very difficult to explain or to discuss the fundamental 
parts of health physics, controlling contamination at the 
source, ALARA. So yes, it was extremely difficult to get the 
ball turned in the other direction.
    Mr. Whitfield. All of us may very well have additional 
questions that we will submit to you all, and I might also say 
there will probably be follow-up hearings on this. But at this 
time, Mr. Strickland, do you have additional questions?
    Mr. Strickland. Thank you, Mr. Chairman. I am just sitting 
here listening to this, and I am thinking some terrible things 
happened. Some person or persons must be responsible for having 
made either terrible judgments or purposeful decisions to 
engage in behavior that has caused human harm. And I am 
wondering and I assume that the contractors had an obligation 
to carry out certain safety procedures. If they did not do that 
and if they submitted information that was misleading or 
inaccurate or deceptive, it seems to me that that implies 
serious criminal behavior.
    Like you, Mr. Cochran, I am not an attorney but one of the 
things that bothers me is that we oftentimes do not hold people 
responsible. And so consequently, there is not the motivation 
for appropriate behavior in the future. Someone is responsible 
and, Mr. Chairman, I would hope that using whatever mechanisms 
this committee has at its disposal, that we would consider 
encouraging a criminal investigation into what we have heard 
here today, because if decisions were made and contractual 
agreements were not kept and lies were told, we need to 
identify who is responsible for that and we need to hold them 
responsible. And unless we do that, my concern is that this 
kind of behavior and the mistrust of government which obviously 
this has caused to happen, will continue.
    I am interested in those of you who are on the panel 
regarding whether or not, based upon your experience and what 
you do know, that you would like to see an investigation into 
whether or not criminal behavior occurred and if it did, 
whether or not it should be pursued?
    Mr. Fowler. I definitely would like to have that looked 
into, sir.
    Mr. Jenkins. I agree, sir.
    Mr. Cochran. I share your thoughts completely.
    Mr. Graves. I have no comment in that regard.
    Mr. Key. The Presidential Report on Human Radiation 
Experiments, which I reviewed yesterday, which leads one to 
believe that the Atomic Energy Commission purposely starting in 
1947 had a mission, and also decisions were made to deceive the 
workers and public to keep this information internally. I guess 
my question, Mr. Strickland, is when did this stop or has it 
stopped?
    Mr. Strickland. And just in closing, I would like to make 
this comment. There is reference here to some of this material 
information was kept from workers because of fear that they may 
require or expect hazardous pay. I don't know if it is 
possible, but quite frankly I would like to see if we can go 
back and identify all of those employees, calculate what the 
hazard pay would be, add interest to that and make whoever was 
responsible, government or contractor, compensate those persons 
and, if they are deceased, compensate their families.
    It seems to me that this is just--it is just almost 
unbelievable and the frustration that you must feel I think is 
felt to probably a much more minimal degree by us but we 
appreciate--I appreciate the fact that you have come and you 
have shared and that you have been willing to take this step. 
Thank you, Mr. Chairman.
    Mr. Cochran. Mr. Strickland, I would urge you to examine 
the ALARA requirement. This is a U.S. Government regulatory 
requirement to keep radiation exposures as low as reasonably 
achievable. The contractor had an obligation to meet that, and 
to meet that he has to have an entire program. Just like he has 
a financial officer and accountants keeping his business books, 
he has to have an entire program, a man in charge or woman in 
charge and a whole battery of people whose duty it is to look 
for ways to minimize the exposure to workers.
    Had that been in place by Union Carbide and by Martin 
Marietta and Lockheed Martin and Bechtel Jacobs, you probably 
would not have the cancers and illnesses that occurred and you 
would not have them in the future and you would not have that 
technetium plume.
    You are going to hear from Mr. Hummer who makes a statement 
in his written statement on page 5, ``With respect to workers' 
safety, the radiation protection program at the Paducah plant 
during Lockheed Martin's management was developed and 
implemented to conform to standards of the International 
Committee on Radiation Protection, as well as the specific 
requirements of DOE.''
    That, sir, is a false statement.
    Mr. Whitfield. Dr. Cochran we will be hearing from Mr. 
Hummer on the next panel. Mr. Bryant.
    Mr. Bryant. I have two additional questions.
    Mr. Graves, let me ask you, if I could, an internal 
Environmental Compliance Review was done at Paducah by Martin 
Marietta in December 1990 and it identified compliance problems 
with respect to Martin Marietta's implementation of the 
National Environmental Protection Act. According to this 
document, the review found no system is in place to ensure that 
environmental impact assessments prepared in compliance with 
NEPA are honored by plant management.
    However, in that same year's environmental report, Martin 
Marietta told DOE that ``compliance with NEPA is maintained by 
following the guidelines set forth by CET, DOE, and Martin 
Marietta.'' Obviously these statements are in conflict. My 
question is, do you have any explanation from your position as 
to why these statements would be made?
    Mr. Graves. Mr. Bryant, again my responsibilities there 
were for radiological protection. The construction or the 
dissemination of documents relative to NEPA review or any other 
environmental regulation, I was not privy to. I must say that I 
reviewed some documents from time to time, but as far as the 
actual execution of the process, I can't comment to, sir.
    Mr. Bryant. You have referred several times today, this was 
something in the culture?
    Mr. Graves. Yes, sir.
    Mr. Bryant. Would this be consistent with that prior 
statement, the culture that you found in Paducah?
    Mr. Graves. I suppose that they could be looked at like 
that; yes, sir.
    Mr. Bryant. I know that there are other witnesses that will 
follow on other panels that can more adequately address that 
question.
    Let me ask, Mr. Fowler, if you know this answer. USEC made 
a commitment to the NRC to complete seismic upgrades at the 
Paducah uranium enrichment plants by December 1997 and this is 
a high-priority public health and safety project because the 
Paducah plant is near a fault line. However, USEC has pushed 
the completion date back and is not close to finishing the 
work.
    According to the most recent update of the NRC--and this is 
September 15--the schedule for completing these upgrades 
slipped back to September of the year 2000. Apparently DOE has 
transferred more than $200 million to USEC to complete these 
upgrades. Do you have any knowledge of this?
    Mr. Fowler. I know that they are bringing in a massive 
amount of subcontractors to complete the project. I know that 
it is ongoing, but the reasons for the delay, I can't explain.
    Mr. Bryant. Again, I think we have other members of the 
later panel who will be able to address that issue. In the 
event that question is not asked, I would hope that they would 
address that question.
    Mr. Whitfield. Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman. Mr. Strickland and I 
were kind of wondering what some of the employees of the plant 
think about this statement. ``With respect to worker safety, 
the radiation protection program at the Paducah plant during 
Lockheed Martin's management was developed and implemented to 
conform to standards of the International Committee on 
Radiation Protection as well as the specific requirements of 
DOE. Plant workers were advised of radiation hazards and other 
safety hazards associated with their work, both in general and 
for specific activities.''
    Mr. Key?
    Mr. Key. During that period of time there was a lot of 
change going on inside the plant. There were implementations of 
the contamination control program now. There were personal 
protection for workers that in order to perform their job had 
to adhere to. The whole work force was trying to absorb all the 
knowledge being thrown at them from various angles and some of 
that training that they received was not efficient or we had to 
go back and retrain on particular issues.
    So to answer your question, some of the changes were viewed 
by the workers themselves as requirements that were needed by 
DOE and implemented, but as far as their knowledge of the 
international radiological committees and stuff, it was 
nonexistent because it was a complete culture change for us.
    Ms. DeGette. Mr. Fowler?
    Mr. Fowler. The work force--at that time I was involved in 
direct development of training. They were not always informed, 
and I will make a reasoning, due to the management culture to 
support health physics. That was not there. They did not 
support it.
    Ms. DeGette. Mr. Jenkins?
    Mr. Jenkins. I agree with both Jim and Ron. Everything was 
in turmoil then. Some of it was never gotten out, I will put it 
that way.
    Ms. DeGette. Thank you. Thank you, Mr. Chairman.
    Mr. Whitfield. Thank you, Ms. DeGette.
    Mr. Burr, 5 minutes.
    Mr. Burr. Mr. Cochran, there has been a tremendous amount 
of interest not only by the Department of Energy but by EPA and 
State environmental regulators as well as HHS to determine 
worker safety, and I think DOE has done a preliminary report. 
HHS also finished a public health assessment done by the Agency 
for Toxic Substances and Disease Registry which was completed 
last month. It is still in draft form, I'm sorry. Let me read 
one of the areas of the draft form to you and I will ask a 
question about it.
    ``This means that although members of the public near the 
site may be exposed to low levels of contamination in the 
environment from the Paducah Gaseous Diffusion Plant 
facilities, concentrations are not at a level that would cause 
harm to humans.'' Based upon some of the new documents that we 
have seen about the level of contamination, how can an 
assessment be made in line with what we are reading in this 
draft?
    Mr. Cochran. I think that is an inaccurate statement that 
you just read.
    Mr. Burr. Let me ask you if you are aware of how in depth 
DOE, HHS, EPA, State environmental agencies, are at their 
reassessments? Are they actually going in, doing the testing, 
or are they using documentation that is available to come to a 
conclusion that has been provided by the contractors?
    Mr. Cochran. I don't know. I do not have firsthand 
knowledge of their activities other than, for example, the 2-
page DOE auditor statement or summary of the auditor--of the 
DOE audit and the public statements made by DOE officials and 
EPA and so forth.
    I think there needs to be a change in the culture of these 
organizations as well. First there are levels--there are levels 
of contamination offsite that are above regulatory limits. The 
hazard to the public is less than the hazards to the workers. 
The main focus of your investigation I think should be on 
workers and culpability.
    It is incorrect, though, to say that the levels offsite, 
for example, are at a level that would not cause harm.
    Mr. Burr. Let me take you back through some of the 
documents that you and I have been through. We had an executive 
summary in 1991. We had an annual environmental report on in 
1991 that was actually completed in October 1992. The executive 
summary was completed on March 22, 1991. That executive summary 
at that time stated that there was an appendix missing, that it 
was yet to come. That is the same appendix that your legal team 
has asked repeatedly to be produced. It has now been produced 
for the local paper and for the Congress but not for you. Let 
me draw your attention to the date of the appendix, January 4, 
1991.
    Clearly this Phase I site investigation was completed and 
printed in January 1991, 2 months prior to the completion of 
the executive summary that said site investigation to come and 
clearly a year, almost 2 years prior to the annual 
environmental report. Both the executive summary and the 
environmental annual report were written. The contractor had to 
have known of the existence of the Phase I site investigation 
written and completed on January 4, 1991. What would you 
conclude from that?
    Mr. Cochran. My conclusion is that the contractor was aware 
of the contamination and covered it up and proceeded to make 
numerous false statements in environmental reports and reports 
to the DOE and the State of Kentucky with regard to the levels 
of contamination.
    Mr. Burr. Clearly if the appendix had been included in the 
executive summary or the annual environmental report, those 
reports would have spelled out something totally different, 
would they not?
    Mr. Cochran. If it had been in the executive summary, it 
would have been harder to lie in the annual reports, yes.
    Mr. Burr. I thank you and I thank the rest of the 
witnesses. I yield back the balance of my time.
    Mr. Upton. Mr. Whitfield.
    Mr. Whitfield. I would like to make one statement, Mr. 
Chairman. This panel has provided us with some shocking 
revelations and under your leadership it is our intent to 
obtain all of facts and correct this problem once and for all.
    Mr. Upton. As I excuse the panel, I want to thank you for 
your hours of testimony this morning and this afternoon. I can 
assure you that it is our intent to assure that all of the 
workers in all of the sites feel that they are safe as they go 
to and from their job and that the community that they live in, 
that those folks too will be proud of the operation that is in 
that community. We will accept nothing less. Thank you very 
much. You are formally excused.
    Panel 2 includes Mr. John Jay Hummer, Director of Corporate 
Environment, Safety and Health for Lockheed Martin; Mr. Joseph 
Nemec, President of Bechtel Jacobs; and Mr. James Miller, 
Executive Vice President of USEC.
    I would like to proceed with Panel II as we are close to 
having some votes on the House floor. As I understand, each of 
you also have counsel, as we had with the first panel. No? Mr. 
Hummer, do you have counsel?
    If you could all rise and identify your counsel and have 
your counsel rise as well.
    Mr. Hummer. My counsel is Mr. Leon.
    Mr. Miller. Mr. Moore.
    [Witnesses sworn.]
    Mr. Upton. Thank you very much. You are now under oath. As 
you saw with the first panel, we would like to limit your 
remarks to no more than 5 minutes. Your entire testimony will 
be made certainly part of the record.
    Mr. Hummer, we will start with you. Thank you.

       TESTIMONY OF JOHN J. HUMMER, DIRECTOR OF CORPORATE 
    ENVIRONMENT, SAFETY AND HEALTH, LOCKHEED MARTIN CORP., 
   ACCOMPANIED BY RICHARD J. LEON, COUNSEL; JOSEPH F. NEMEC, 
 PRESIDENT, BECHTEL JACOBS COMPANY, LLC; AND JAMES H. MILLER, 
  EXECUTIVE VICE PRESIDENT, USEC, INC., ACCOMPANIED BY ROBERT 
                         MOORE, COUNSEL

    Mr. Hummer. Mr. Chairman, members of the committee, on 
behalf of Lockheed Martin Corporation, I appreciate the 
opportunity to provide testimony and answer your questions 
regarding safety at the Paducah Gaseous Diffusion Plant during 
the period that Lockheed Martin operated that facility. After 
nearly 3 decades in the nuclear field, 20 years of which was an 
as an officer in the Navy nuclear submarine program, I was 
hired in 1991 by Martin Marietta Energy Systems as the Director 
of Safety and Health in Oak Ridge, Tennessee, with duties 
including programmatic responsibility for safety at the Paducah 
plant. Since 1994, I have served as a Director of 
Environmental, Safety and Health at Lockheed Martin's corporate 
level, with programmatic responsibility for the facilities it 
operates for the Department of Energy.
    Owned by the Department of Energy, the Paducah facility was 
built in the early 1950's to produce enriched uranium for the 
Nation's nuclear weapons program. In the mid-1960's, its 
mission changed to include production of fuel for commercial 
nuclear reactors. Between 1964 and 1977, enriched uranium from 
reprocessed reactor fuel was introduced into that process. This 
reprocessed reactor fuel was known to be contaminated with 
small amounts of transuranic elements, including plutonium.
    Lockheed Martin operated the Paducah facility from 1984 to 
1989. Although introduction of the contaminated reactor fuel 
had ceased in 1977, some transuranic contamination remained. 
The worker and environmental protection programs that Lockheed 
Martin took over in 1984 were viewed by DOE as effective to 
address that contamination as well as the other safety risks 
inherent in the facility. In the late 1980's, however, the new 
Secretary of Energy, Admiral Watkins, instituted enhanced 
safety standards and programs at all DOE facilities in order to 
meet the ever-increasing expectations of the American people 
for protection of workers and the environment. Lockheed Martin, 
in coordination with DOE, improved the health, safety and 
environmental programs at Paducah.
    Throughout the 15-year period that Lockheed Martin operated 
the Paducah facility, it worked very closely with the 
Department of Energy to fulfill DOE contract requirements and 
to ensure that DOE was fully informed of plant circumstances. 
To the best of our knowledge, the corporation did not mislead 
workers or DOE as to the state of worker safety, environmental 
protection or any other matter at the Paducah facility. To the 
extent that lawsuits have been filed to date which raise new, 
unresolved allegations of wrongdoing by present or former 
Lockheed Martin employees, Lockheed Martin intends to look into 
those allegations and deal with them appropriately.
    In the meantime, however, Lockheed Martin will defend these 
suits vigorously and with every confidence that it will 
ultimately be vindicated in the courts of law. Lockheed Martin 
also remains committed to allay the concerns of the workers at 
the Paducah facility and their families. We will cooperate to 
the fullest extent possible with DOE and the Congress in their 
effort to protect the health and safety of these workers and 
their community.
    Thank you, Mr. Chairman.
    [The prepared statement of John J. Hummer follows:]
Prepared Statement of John J. Hummer, Director, Corporate Environment, 
             Safety and Health, Lockheed Martin Corporation
    Mister Chairman and Members of the Subcommittee, thank you for the 
opportunity to address this important matter on behalf of Lockheed 
Martin Corporation.
                              introduction
    I appear here today having worked in the nuclear field for nearly 
four decades. I graduated from the US Naval Academy in 1958 and from 
the Naval Nuclear Propulsion Program in early 1962. I later earned a 
Master of Science degree from the University of Southern California. I 
served 23 years on active duty in the Navy, principally operating 
nuclear submarines, but also commanding a major submarine training 
center. After retirement from the Navy as a captain, I spent ten years 
consulting and providing management support for nuclear public 
utilities. In 1991, I was hired as Director of Safety and Health for 
Martin Marietta Energy Systems in Oak Ridge, Tennessee. I served in 
that capacity for three years and had programmatic responsibility for 
safety at the Paducah Gaseous Diffusion Plant. Since 1994 I have been a 
Director on the Martin Marietta/Lockheed Martin Environment, Safety and 
Health staff at the corporate level with programmatic responsibility 
for the numerous DOE facilities operated by Lockheed Martin.
    Lockheed Martin Corporation has been asked to appear here today to 
provide information to the Committee regarding its management of the 
Paducah facility from 1984 to 1999. We are pleased to do so. However, 
it is important to note from the outset that as a result of lawsuits 
that have been filed against us and other private contractors who 
managed the Paducah facility--two of which having been filed so 
recently that we have not had an opportunity to even answer them yet in 
court--there are legal and practical limitations to how much we can 
say, at this time, regarding our performance under the contract with 
the Department of Energy. Nevertheless, because of our ongoing concern 
for the health and peace of mind of those in the Paducah area and our 
desire to dispel as many as possible of the inaccurate and false 
impressions that have been advanced to the public, I am here today to 
help answer your questions. Before doing so, I believe some background 
information would be useful.
                           management history
    The Paducah Gaseous Diffusion Plant is an important part of our 
national nuclear infrastructure. The plant was built for the Atomic 
Energy Commission (``AEC'') in the 1950's. It is still owned by the 
Department of Energy, the successor to the AEC. From its initial 
operation until 1984 the Paducah plant was operated by Union Carbide 
Corporation for the DOE. In April 1984 Martin Marietta Energy Systems 
Inc. succeeded Union Carbide as the plant operator. In 1993, pursuant 
to legislation from the Congress, the United States Enrichment 
Corporation (``USEC'') was formed and leased the Paducah plant uranium 
enrichment facilities from DOE for operation. Martin Marietta Utility 
Services Inc. (later Lockheed Martin Utility Services Inc.) operated 
the plant for USEC from 1993 to 1999. DOE retained responsibility for, 
and control of, the remainder of the Paducah plant, including 
environmental management. Lockheed Martin Energy Systems continued as 
DOE's operating contractor for those activities. In early 1998, 
Lockheed Martin Energy Systems was succeeded by the Bechtel Jacobs 
Company as the DOE contractor. In May 1999 USEC took over direct 
operation of the production facilities, ending Lockheed Martin's direct 
involvement with the Paducah plant.
    Located in western Kentucky, the Paducah plant sits on a 3500-acre 
site owned by the DOE. About 740 acres around the operating facilities 
are fenced, with the remainder forming an uninhabited buffer area. The 
buffer area is accessible to the public and is adjacent to a wildlife 
preserve. The uranium-enrichment facility includes huge multistory 
buildings with hundreds of electric motors consuming more than a 
thousand megawatts of power to move the process gas through the 
diffusion enrichment process. Support facilities for the plant are 
functionally equivalent to a small city. The plant employs about 2000 
men and women, including about 10 DOE personnel.
                       uranium enrichment process
    Although this hearing is not the place to describe in detail the 
scientific process for uranium enrichment, there has been considerable 
public discussion and concern about the presence of plutonium at the 
Paducah site and its hazardous potential to the employees and the 
public. Some additional background might help explain how plutonium was 
introduced into the Paducah facility and how safeguards implemented by 
contractor Lockheed Martin together with DOE helped protect workers and 
the environment against the hazards posed by plutonium and uranium.
    The Paducah plant uranium-enrichment facility was initially 
operated as part of our country's nuclear weapons program. For more 
than three decades it has also played a critical role in enriching 
uranium for the commercial reactors that provide electricity to 
communities around the country. Both weapons and reactor uses of 
uranium require that the concentration of uranium 235 be increased from 
naturally-occurring levels. At Paducah, the initial step in the 
enrichment process, the principal input or feed to the process is 
natural uranium in a gaseous fluoride state. As a result of the Paducah 
process, uranium 235 concentration, or enrichment, is increased to 
about 2%.
    During three extended periods from the early 1950's to the late 
1970's, enriched uranium from reprocessed DOE reactor fuel was 
introduced into the enrichment process at the Paducah plant, as part of 
a DOE effort to make the best use of the unused enriched uranium. These 
``reactor returns'' contained small amounts of transuranic elements 
such as plutonium and neptunium, and fission products such as 
technetium. Although the transuranic elements were present in very 
small proportion to the uranium, they posed special challenges to the 
radiation protection program at Paducah because by comparison they were 
far more radioactive. These challenges were recognized from the early 
days of the reactor return activities, and certain controls to limit 
worker exposure and radiation dose were in place when I joined Martin 
Marietta in 1991. The introduction of plutonium and other transuranic 
elements, however, had ended in 1977. Nevertheless, as a result of 
their earlier introduction between 1954 and 1977 Martin Marietta and 
Lockheed Martin and their successors have had to work with DOE to 
monitor and protect the workers and community against the residual 
presence of small amounts of those transuranic elements.
                         worker safety programs
    To address the safety hazards at the Paducah plant, operating 
contractors developed and implemented programs based on DOE safety and 
environmental requirements. These programs were reviewed and approved 
by the DOE, and subject to periodic evaluation by the contractor and 
DOE. The worker protection and other safety programs in place in 1984, 
when Martin Marietta Energy Systems took over operation at Paducah, 
were considered appropriate by all parties at that time.
    With respect to worker safety, the radiation protection program at 
the Paducah plant during Lockheed Martin's management was developed and 
implemented to conform to standards of the International Committee on 
Radiation Protection as well as the specific requirements of DOE. Plant 
workers were advised of radiation hazards and other safety hazards 
associated with their work, both in general and for specific 
activities. Orientation and refresher general training included a 
discussion of plant radiation hazards, radiation warning and 
information signs and requirements to obey posted warnings, and 
information about the radiation monitoring program. Individuals who 
worked in certain areas of significant radiation received additional 
training and met special qualification requirements before being 
assigned and performing the work. Employees were cautioned and trained 
to work in ways that minimize the radiation exposure, particularly to 
minimize the time spent in the radiation area, to stay as far from 
radiation sources as possible, and to use available shielding whenever 
possible.
    Employee concerns programs were also instituted to offer an 
opportunity for workers to voice safety concerns and have them 
resolved. Concerns could be raised anonymously, and any retaliation 
against individuals raising concerns was strictly against our 
requirements. Potential safety issues that were identified by workers, 
DOE, external agencies or internal management assessment were 
investigated and resolved to the best of our ability, most in 
conjunction with the individual who raised the issue.
    It is important to emphasize that radiation protection and some 
other health programs require monitoring to determine individual 
exposure levels and frequent area monitoring to determine levels of 
radioactive contamination. Radiation exposure monitoring serves two 
principal purposes: to assure that individuals are not exposed to 
amounts of radiation above established limits; and to help identify any 
need for additional controls. Limits for radiation exposure are 
implemented at administrative levels significantly lower than ICRP 
limits as part of the plan to limit exposures.
    The potential for internal contamination of radiation workers was 
monitored through a bioassay program. Bioassay was a routine part of 
the radiation protection program at the Paducah facility (and the other 
gaseous diffusion facilities) because of the presence of uranium. Data 
on the bio-assays of personnel engaged in particular activities or 
working in areas with the potential for internal exposure is in DOE 
records.
    In the late 1980's Admiral Watkins, the Secretary of Energy, 
recognized that safety standards and programs at all DOE facilities 
needed to be enhanced in order to meet the ever-increasing expectations 
of the American people for protection of workers and the environment. 
He instituted an aggressive audit program to identify and correct 
shortcomings, including shortcomings in the radiation protection 
programs. Improvements in DOE programs now include more detailed safety 
and environmental program direction and guidance, standardized training 
for radiological workers, and nuclear safety requirements enforceable 
under the Price Anderson Act.
    In response to the increased safety standards, Lockheed Martin 
developed and implemented enhanced safety and environmental programs at 
the Paducah facility.
    Indeed, when Admiral Watkins, in early 1990, advised Norm 
Augustine, then CEO of Martin Marietta, that the radiation control 
practices at its DOE facilities operated by Energy Systems were not 
satisfactory, Mr. Augustine responded with a description of actions 
already taken to improve the programs and a commitment to continue to 
provide his personal attention to the issue. He also provided a more 
detailed action plan to the DOE Manager of the Oak Ridge Operations 
Office.
                     managing environmental hazards
    The standards for control of releases of radioactive materials to 
the environment, whether into the air, soil or water, from DOE 
facilities, including the Paducah plant, were established in DOE Orders 
and by the EPA. The Commonwealth of Kentucky authorities additionally 
oversaw compliance with environmental requirements established in 
permits issued through the Cabinet for Natural Resources. To assess 
radiological emissions from the plant, DOE elected to require Lockheed 
Martin to collect and analyze samples from the water, soil and air at 
the plant, and to compare the results to the standards established in 
DOE Orders. In addition, a number of off-site surface water sampling 
locations were established. Airborne emissions were regulated under the 
Clean Air Act through a permit system administered by the KDEP. To 
assure compliance with the Clean Air Act permits from the State of 
Kentucky, stacks were sampled, ambient monitoring was conducted at 
various off-site locations, and on-site meteorological data was 
collected. In addition, external gamma radiation was measured at a 
number of off-site locations, radiation surveys were conducted 
throughout and around the plant site, and periodic aerial surveys were 
conducted.
    Data collected from the liquid and gaseous effluent monitoring 
programs described above were compiled, analyzed and reported each year 
in an annual environmental monitoring report for the Paducah plant. 
This report was distributed by DOE to the news media and the public. In 
many years a press conference was called to review the report and 
answer questions for the public and various environmental groups.
                               conclusion
    Lockheed Martin (previously Martin Marietta) operated the Paducah 
plant for 15 years, with responsibility for protection of employees, 
the public and the environment from hazards associated with the plant. 
Throughout that period the corporation worked very closely with DOE to 
fulfill DOE contract requirements and expectations, and to ensure that 
DOE was fully informed of plant circumstances. To the best of our 
knowledge, the corporation did not mislead workers or DOE as to the 
state of worker safety, environmental protection or any other matter at 
the Paducah plant. To the extent that the lawsuits that have been filed 
to date raise new, unresolved allegations of wrongdoing by present or 
former Lockheed Martin employees, Lockheed Martin intends to look into 
those allegations and deal with them appropriately. In the meantime, 
however, Lockheed Martin will defend these suits vigorously and with 
every confidence that it will ultimately be vindicated in the courts of 
law. It also remains committed to allay the concerns of the workers at 
Paducah, and their families. It will cooperate to the fullest extent 
possible with the Department of Energy and the Congress in their effort 
to protect the health and safety of those workers and their community.

    Mr. Upton. Thank you.
    Mr. Nemec.

                  TESTIMONY OF JOSEPH F. NEMEC

    Mr. Nemec. Thank you, Mr. Chairman. I am Joe Nemec, 
President of the Bechtel Jacobs Company. We are the management 
and integration contractor for environmental restoration work 
at Paducah at Portsmouth, Ohio and Oak Ridge, Tennessee. We are 
a relatively new contractor, been there about 18 months. Our 
role began in April of last year. We are there specifically to 
clean up the site, to stop the migration of contaminants, to 
clean up contaminated areas both on and off the site, dispose 
of wastes from past operations, to maintain these inactive 
facilities until they can be decommissioned, and to manage the 
inventory of depleted uranium hexafluoride, the surveillance 
and maintenance on the cylinders. Our role does not include the 
conversion of that material to another form. We have 94 
employees at Paducah and about 275 subcontractor employees.
    In January 1998 through March 1998 we went through a phase-
in period, a 3 month phase-in period where we reviewed existing 
programs and placed the transferring Lockheed Martin people at 
the appropriate point in our organization. With respect to the 
safety programs, we found an adequate set of procedures and 
process and programs in all elements of safety. However, we did 
find five separate programs for the five different sites that 
we oversee. And so we developed an integrated safety management 
system using the patterns that the Department of Energy had 
been developing over the previous few years. That system has, I 
think, two important components for these discussions:
    One, worker involvement. Every task we do, we get the 
workers who actually have to do the work involved in the 
planning of that task. That is a key to our success. That is 
only way that we will really improve our safety record.
    The second is management ownership of safety. It isn't the 
safety department's responsibility. It is my responsibility and 
those people who report to me, right down through our site 
manager and to the first line supervisors.
    It is also important that we have a system where we can 
continuously improve our safety through continuous feedback on 
all the tasks. That is an important element of our entire 
safety program. A few weeks ago, we had a fairly large DOE team 
visit the site to look at a variety of things, including some 
of our operations. They identified some preliminary concerns, 
and as a result the Secretary of Energy called a 1-day stand-
down and we conducted that stand-down; gave us an opportunity 
to discuss with the site personnel again our safety program and 
to elicit any suggestions or any concerns that they had.
    We expect that we will get a final report from DOE. We will 
read and understand that report, develop a corrective action 
plan and get on with any changes that are required.
    I think it is important to recognize that that 
investigative team found no imminent hazards to the workers, 
the public, or the environment and in fact we have what we 
believe is a fairly good safety program at Paducah. On average, 
the radiation exposure to our workers is less than 1 percent of 
the regulatory guideline, about the same as you would receive 
by two transcontinental flights across the country. We have had 
no environmental notices of violation, and our employees have 
worked for more than 500 days without a recordable injury.
    I want to thank the chairman and the committee for inviting 
me here. I will be happy to answer your questions. Thank you.
    [The prepared statement of Joseph F. Nemec follows:]
   Prepared Statement of Joseph F. Nemec, President, Bechtel Jacobs 
                              Company LLC
    My name is Joe Nemec, President of Bechtel Jacobs Company LLC, the 
management and integration (M&I) contractor for the Department of 
Energy's (DOE's) environmental management and uranium programs work at 
Oak Ridge, Tennessee; Paducah, Kentucky; and Portsmouth, Ohio. About 80 
percent of our work is at Oak Ridge, with about 10 percent each at 
Paducah and Portsmouth. Our role at Paducah is to restore the 
environment, dispose of the legacy waste in storage, and manage the 
stockpile of depleted uranium hexafluoride (DUF<INF>6</INF>). We are 
not responsible for operation of the Paducah Gaseous Diffusion Plant 
(PGDP). That operation is the responsibility of the United States 
Enrichment Corporation (USEC). Bechtel Jacobs Company has 94 employees 
and about 275 subcontractor employees at Paducah, while USEC has about 
1,600.
    Recent events have focused attention on worker and public safety 
issues at the Paducah site, and I will discuss those issues today.
    Bechtel Jacobs Company is a relatively new contractor at Paducah. 
We were selected through the competitive process as the M&I contractor 
in December 1997 and began a three-month phase-in on January 1, 1998. 
Eighteen months ago, on April 1, 1998, we assumed full responsibility 
for the DOE activities at the site from the predecessor contractor, 
Lockheed Martin Energy Systems. We took over cleanup activities that 
had been in progress at Paducah since the discovery of off-site 
contamination there in 1988. We have been making measurable 
improvements in all areas of that activity, including its associated 
safety and health program.
    While we have made significant progress to date, I'll be the first 
to acknowledge that there is much left to do and always room for 
improvement. The safety review recently initiated by DOE, and last 
week's one-day stand down ordered by Secretary Richardson, provided 
additional focus on safety.
    It is our understanding that this review team did not find any 
imminent threats to the health of workers, the public, or the 
environment. However, they have spoken to us about some areas for 
improvement, and we've initiated actions to address the issues they 
identified.
    My remarks today will cover three major areas. First, I'll describe 
Bechtel Jacobs Company's role and tell how it differs from that of 
previous contractors. Second, I'll describe the environmental 
management and uranium programs work at Paducah for which we are 
responsible. And third, I'll review our safety and environmental 
programs, including actions we are taking in response to what we 
learned during the stand down.
                     role of bechtel jacobs company
    The scope of our work involves environmental management and uranium 
programs.
    The environmental management portion of this assignment involves 
investigating, planning, and performing cleanup of numerous facilities, 
disposal sites, and waste materials that are left on-site from prior 
DOE operations; we refer to these wastes as legacy wastes. The uranium 
programs task involves managing 63,000 cylinders of DUF<INF>6</INF> 
stored at Oak Ridge, Paducah, and Portsmouth, with almost 38,000 
cylinders at Paducah.
    Our contract represents a major change in DOE's contracting 
strategy for these environmental management and uranium programs. Our 
predecessor had operated the DOE facilities for many years under a 
management and operations contract, which meant they performed most of 
the work with their own forces. Bechtel Jacobs Company was hired to 
complete the cleanup of the facilities as an M&I contractor. We plan, 
manage and integrate the work using primarily subcontractors to 
accomplish discrete individual tasks with a focus on project 
completion.
    Our contract with DOE allowed us to bring in some new personnel and 
a new management approach, but it also required that we hire the 
majority of the Lockheed Martin Energy Systems workforce at 
substantially equivalent pay and benefits. The former LMES workforce is 
to be moved to subcontractors during a two-year transition period. We 
are 18 months into that two-year period. In another six months we will 
have completed the transition, at which time about 90 percent of the 
work will be performed by subcontractors.
    By bringing us in as a new contractor, DOE has created the 
opportunity to review and revisit the way cleanup work is conducted at 
Oak Ridge, Portsmouth and Paducah. We have taken the opportunity to 
make changes where we can improve safety and efficiency. I will discuss 
some of these changes in greater detail. By keeping a substantial 
number of the prior personnel, however, DOE continues to receive the 
benefit of these employees' site experience and knowledge.
   overview of environmental management and uranium programs work at 
                                paducah
    DOE owns the 3,556-acre PGDP reservation and leases the uranium 
enrichment facilities to USEC. DOE leases 290 buildings and facilities 
to USEC and retains 152 as ``nonleased.'' The nonleased facilities 
include:

<bullet> inactive facilities under surveillance and maintenance
<bullet> waste storage and treatment facilities
<bullet> a permitted solid waste landfill
<bullet> storage yards for cylinders containing depleted uranium 
        hexafluoride
<bullet> burial grounds and scrap yards designated for environmental 
        cleanup
<bullet> closed landfills
<bullet> DOE material storage areas
<bullet> two groundwater extraction and treatment systems
<bullet> office and laboratory facilities
<bullet> roads and grounds both inside and outside the perimeter 
        security fence on the DOE Reservation
    A range of contaminants have been detected over the years in the 
DOE facilities at Paducah and in the environmental media around these 
facilities. Some of these contaminants are common to American 
industrial facilities, including trichloroethylene (TCE), a common 
industrial solvent, and polychlorinated biphenyls (PCBs), commonly used 
in oils in electrical systems. Others contaminants are found primarily 
at facilities dedicated to nuclear applications, such as uranium, 
plutonium, technetium and neptunium. The contamination that DOE is in 
the process of investigating and remediating resulted from historical 
operations and past practices no longer in use at PGDP.
    The risks to workers, the public and the environment posed by these 
contaminants depend on both the toxicity of the substance and the 
quantity, form, distribution and mobility of the material. Thus, 
although low levels of plutonium are present at the site, it does not 
pose as much risk to workers, the public or the environment as does the 
uranium, which is present in much greater quantities, and TCE and 
technetium, which are both mobile in groundwater.
    Bechtel Jacobs Company is responsible for planning and executing a 
variety of environmental restoration activities at Paducah. These 
activities are being planned and executed through the Comprehensive 
Environmental Response, Compensation and Liability Act (CERCLA) 
process, which provides for federal [U.S. Environmental Protection 
Agency (USEPA)] and state regulatory oversight, and extensive public 
notification and participation. CERCLA remedies are being developed and 
will be implemented to address 211 solid waste management units, 
approximately 60,000 tons of scrap metal and approximately 50,000 drums 
of legacy waste. In addition, interim actions are already under way to 
address two groundwater plumes, and innovative technologies are being 
evaluated as potential final remedies for all groundwater contaminants.
    The regulatory framework for environmental restoration at Paducah 
is the Paducah Federal Facility Agreement (FFA)--a triparty agreement 
among DOE, USEPA Region 4, and the Commonwealth of Kentucky--that 
became effective on February 13, 1998. For several years before this 
date, Paducah environmental restoration was implemented pursuant to an 
Administrative Consent Order under Sections 104 and 106 of CERCLA, as 
well as the corrective action requirements of the Resource Conservation 
and Recovery Act (RCRA) permit. The FFA coordinates the CERCLA-required 
activities, which are administered by USEPA, with the RCRA corrective 
action program administered by the Commonwealth of Kentucky. PGDP was 
placed on the USEPA's National Priorities List on May--31, 1994.
    Prior to the commencement of our contract, DOE, the Commonwealth of 
Kentucky and USEPA had identified 211 Solid Waste Management Units, and 
grouped these units into 30 Waste Area Groups. Most of these areas are 
on DOE property, either within the security fence or on the DOE 
Reservation. Historical contamination has affected groundwater between 
the plant and the Ohio River to the north, and two streams that receive 
surface water discharges from DOE property.
    Our recent efforts have focused on streamlining the approach to 
remedial decision making by consolidating the Waste Area Groups based 
on affected environmental media. This approach will reduce the number 
of documents required to make cleanup decisions and will promote a 
comprehensive and coordinated approach to cleanup. The time and 
resources saved by streamlining the process will accelerate the cleanup 
process.
    Under CERCLA, results from environmental investigations are 
submitted to the state and USEPA and maintained as the Administrative 
Record, which documents the environmental decision-making process. 
Since 1993, site environmental information and a duplicate 
Administrative Record have been available to the public at the 
Environmental Information Center in Paducah. Starting in 1989, public 
meetings have been held on approximately a yearly basis to inform the 
public of the status of environmental investigations and cleanup.
    In addition to public meetings required by CERCLA, approximately 40 
other public meetings and more than 100 other special events, tours and 
workshops have been documented since the late 1980s at which 
information was provided about contamination and related environmental 
cleanup activities at the site. As a further communications tool, an 
Environmental Advisory Committee was established in 1986 for quarterly 
updates about environmental issues. That group disbanded in 1996 when 
the Paducah Site Specific Advisory Board was formed under the Federal 
Advisory Committees Act. The SSAB monthly meetings are noted in the 
Federal Register and are open to the public.
    As we move forward, the regulatory agencies and the public 
(including on-site workers) will continue to be fully informed of all 
identified environmental conditions and afforded the opportunity as 
required by CERCLA to participate in the cleanup decision-making 
process.
Environmental Restoration
    In these days of limited federal resources, efficient use of 
available resources is being promoted by prioritizing cleanup actions 
based on risk. To facilitate efficient resource allocation and promote 
a logical environmental remediation of PGDP, five major factors for 
prioritizing environmental restoration have been identified by DOE:

<bullet> Mitigate immediate risks, both on- and off-site.
<bullet> Reduce further migration of off-site contamination.
<bullet> Address sources of off-site surface water and groundwater 
        contamination.
<bullet> Address the remaining on-site contamination.
<bullet> Final decontamination and decommissioning of DOE facilities
    With regard to environmental contamination, interim actions have 
been taken to address the known imminent threats, including providing 
an alternative water supply to affected residents, conducting off-site 
residential well monitoring, and implementing other institutional 
controls such as fish advisories and posting and fencing of creeks. In 
addition, several interim actions had been taken to help reduce off-
site migration of contaminants. These included the construction and 
ongoing operation of two groundwater extraction and treatment systems 
to address the high concentration areas of the northwest and northeast 
TCE plumes, which have jointly treated approximately 600 million 
gallons of contaminated groundwater water since 1995. Several interim 
actions had also been taken for surface water such as using an enhanced 
treatment system for Tc-99 prior to discharge and rerouting plant 
effluent to control migration of contaminated sediment in on-site 
ditches.
    However, while the site had undergone various degrees of 
characterization and there has been a strong emphasis on implementing 
interim actions to address imminent threats, it was apparent that 
limited actions had been taken at the source areas. There was a need to 
further integrate and assess existing data on a site-wide basis to 
support long-term solutions. Therefore, as part of our initial 
transition plan, the existing cleanup strategy has been revised to 
reflect a more aggressive focus on source areas and cleanup on a site-
wide basis, with emphasis on long-term solutions. This new approach is 
projected to result in considerable efficiencies and expedite remedial 
actions for groundwater by approximately six years and surface water by 
approximately three years.
    Additionally, fieldwork for the final characterization phase for 
groundwater was recently completed. A key technology demonstration is 
planned for FY 2000 to test an in situ, passive reactive wall for 
treatment of groundwater contamination. This information will be used 
to finalize the feasibility study and support the selection of a final 
cleanup action for groundwater in FY 2001. If this technology 
demonstration is successful, its use in conjunction with other source 
treatment technologies currently under consideration may prove to be 
considerably more effective and efficient than the existing groundwater 
pump-and-treat systems currently being used for the northwest and 
northeast plume.
    During the first year alone, Bechtel Jacobs Company has made 
significant progress in the areas of both waste management and remedial 
action at Paducah. Examples include the disposal of approximately 982 
tons of waste in the on-site DOE solid waste landfill, shipment of more 
than 81 tons of waste for off-site disposal, and on-site treatment of 
more than 19 tons of wastewater. Additionally, under the remedial 
action project, we treated approximately 200 million gallons of TCE-
contaminated groundwater.
Scrap Metal
    The approximately 50,000 tons of scrap metal currently stored at 
PGDP were generated as a result of numerous cascade upgrades and other 
activities conducted at the plant over the past 45 years. This scrap 
material is surface contaminated with uranium tetrafluoride, uranium 
hexafluoride, and trace elements of technetium. In addition to this 
scrap metal inventory, DOE also has approximately 9,700 tons of 
volumetrically contaminated nickel ingots in storage at PGDP. These 
radioactive nickel ingots are the result of cascade improvements and 
cascade upgrade programs conducted at the Oak Ridge and Paducah cascade 
facilities.
    Cleanup at the scrap yard units has been delayed in the Accelerated 
Cleanup Plan due to funding reductions. This delay has impacted cleanup 
of the surface soils in the scrap yards, the buried radiological waste 
under the scrap piles, and the related surface-water units that receive 
runoff from the scrap yards. These units have been identified as 
potential sources of off-site surface-water contamination. Removal of 
these materials is necessary before scheduled FFA actions can be 
achieved. A listing of the scrap metal by metal type is:

------------------------------------------------------------------------
                                                                  Totals
                          Scrap Metal                             (tons)
------------------------------------------------------------------------
Aluminum.......................................................    3,277
Nickel.........................................................    9,700
Copper.........................................................       43
Iron...........................................................   31,516
Stainless steel................................................       29
Classified Scrap...............................................   15,713
Total..........................................................   60,278
------------------------------------------------------------------------

    The Bechtel Jacobs Company initiated an engineering evaluation/cost 
analysis (EE/CA) in FY 1999 to support an action memorandum to address 
the scrap metal inventory
Waste Management
    Wastes managed by Bechtel Jacobs Company at PGDP include legacy 
wastes that were generated prior to the leasing of production 
facilities to USEC July 1, 1993, and wastes generated from cleanup 
activities. These are classified into five major categories:
    1. Mixed low-level waste (MLLW)
    2. Low-level waste (LLW)
    3. Hazardous waste
    4. Sanitary/industrial waste; and
    5. Transuranic (TRU) waste
    As of 1999, PGDP legacy waste inventory includes 2,953 cubic meters 
of MLLW, 6,499 cubic meters of LLW, and 4.3 cubic meters of TRU waste.
    With regard to waste disposal, the site has completed 
characterization of approximately 12,000 containers of waste to support 
waste classification and evaluation against various waste acceptance 
criteria in preparation for disposal. Additionally, an EE/CA for scrap 
metal disposition was also recently completed. A final decision 
selecting the preferred alternative is expected in the first half of FY 
2000, with fieldwork proposed to begin during the second half of FY 
2000. The Paducah FFA requires removal of all scrap metal by the end of 
FY 2003.
Decontamination and Decommissioning
    A routine surveillance and maintenance program has been conducted 
at the DOE facilities since 1995. Currently, 74 Solid Waste Management 
Units (SWMUs) awaiting remediation, 68 active facilities, and about 107 
off-site and 53 on-site monitoring wells are routinely inspected under 
this program. Maintenance consists of activities designed to ensure 
safe and compliant conditions.
    The inactive facilities included within C-410 Feed Plant Complex 
and the C-340 Metal Reduction Plant comprise about eight acres of 
multi-story floor space. Both complexes were shut down in 1977. Both 
are contaminated with various levels of PCBs, asbestos, and uranium, 
transuranics, and uranium compounds. The Surveillance and Maintenance 
(S&M) program consists of activities necessary to minimize 
environmental, safety, and health vulnerabilities until actual 
decontamination and decommissioning (D&D) of the facilities takes place 
(currently scheduled to begin 2014). Current activities are limited to 
routine inspections of waste storage areas and facility inspections to 
identify needed maintenance and monitor facility integrity.
    The Long Term Surveillance and Maintenance (LTS&M) Program 
maintains facilities and programs following interim or final remedial 
actions, and performs environmental and well sampling in compliance 
with the Paducah DOE environmental monitoring program.
    These post-remedial actions include:

<bullet> maintenance of the Water Policy which provides city water to 
        approximately 100 residents within the area affected by the 
        contaminant plumes;
<bullet> operation and maintenance of the two active pump and treat 
        facilities (Northwest Plume Groundwater System and Northeast 
        Plume Containment System) operating to contain the high 
        concentration zones of the respective plumes;
<bullet> maintenance of the eight institutional control fences and 
        signs which provide public warnings of contamination affecting 
        usage of Little Bayou Creek in off-site areas;
<bullet> maintenance of the approximately 4,000 feet of scrap yards 
        silt fence; and
<bullet> operation and maintenance of the North-South Diversion Ditch.
Uranium Programs
    In the uranium programs, Bechtel Jacobs Company is responsible for 
almost 38,000 cylinders of DUF<INF>6</INF>; maintenance of 
approximately 400 acres of grounds and roads inside and outside the 
security fence; support of the lease agreement between DOE and USEC; 
S&M of inactive facilities; and management of approximately 16,000 
troughs that collect oil drips contaminated with PCBs from the 
ventilation systems within the operating gaseous diffusion plants.
    The uranium program is responsible for the management of all the 
DUF<INF>6</INF> generated since the start of enriched uranium 
production in 1952. Bechtel Jacobs Company also supports both DOE and 
USEC in maintaining the inventory of all uranium through the Nuclear 
Material Control and Accountability program and with receiving Russian 
uranium feeds in support of the Nuclear Non-Proliferation program. 
Management of the DUF<INF>6</INF> program is monitored by the 
Commonwealth of Kentucky and operates in accordance with the Safety 
Analysis Report for the cylinder storage yards. Negotiation of an 
Agreed Order with the Commonwealth of Kentucky for the management of 
the DUF<INF>6</INF> inventory at Paducah is under way.
    The management of 38,000 DUF<INF>6</INF> cylinders requires that 
cylinder integrity be maintained by a program of periodic inspections; 
movement to prevent ground contact, which contributes to accelerated 
corrosion; grit blasting and painting of severely corroded cylinders to 
arrest further corrosion; construction of concrete yards to support 
improved storage conditions; and radioactive contamination monitoring 
to protect employees and the environment.
    DOE is aggressively pursuing a program to convert the existing 
DUF<INF>6</INF> inventories from its current uranium hexafluoride form 
to an oxide form. This program will eliminate the chemical hazard by 
removal of the fluorine component and result in a more stable uranium 
form suited to long-term storage or disposition. The Programmatic 
Environmental Impact Statement was completed in July 1999, and the 
final Record of Decision was issued in August 1999. Award of a contract 
by DOE for the design and construction of uranium conversion facilities 
is scheduled for early 2000.
    Facilities managed by uranium programs at Paducah are all in the 
inactive category and are being monitored to ensure structural 
integrity, adequate access control, maintenance of fire protection 
systems, and containment of contamination until the facilities can be 
transitioned to the Decontamination and Decommissioning program. All 
inactive facilities are periodically monitored and routine maintenance 
conducted to ensure protection for personnel and the environment.
    The internal ventilation ductwork installed to cool the process 
electrical motors in the gaseous diffusion plant building were 
originally constructed with PCB-impregnated gaskets. Over time, PCBs 
leached from the gaskets, requiring installation and management of a 
PCB drip collection system and spill containment program. The PCB drip 
collection system and spill containment program will continue as long 
as USEC or its successor operates the gaseous diffusion plants.
   overview of bechtel jacobs company environment, safety and health 
                                programs
    The terms of our contract required us to hire about 1,600 incumbent 
Lockheed Martin employees performing the scope of work at Oak Ridge, 
Portsmouth, and Paducah. Bechtel Jacobs Company brought in a management 
team with experience in the commercial sector and at other DOE sites. 
We brought in our own, non-incumbent Environment, Safety and Health 
(ESH) managers, including our overall ESH program manager and 
discipline managers for Industrial Safety, Industrial Hygiene, 
Radiation Protection, and Environmental Compliance. We also designated 
an ESH manager to focus solely on the ESH programs of our 
subcontractors. During the three-month phase-in period of our contract, 
these managers reviewed the existing ESH policies, procedures, 
practices, and environmental permits. They also assessed and 
interviewed the incumbent Lockheed Martin ESH staff to satisfy Bechtel 
Jacobs Company that they were qualified. In general, we found that 
existing policies, procedures, and personnel qualifications were 
adequate to ensure safe continuity of operations when we assumed full 
responsibility for operations at the Oak Ridge, Paducah, and Portsmouth 
sites in April 1998.
    We also determined that a number of significant changes were needed 
to accomplish the full transition to an M&I contract over a two-year 
period. I'll highlight two of these: Radiation Protection and 
Environmental Protection.
Radiation Protection
    Our review of the radiation protection procedures revealed that, in 
effect, five separate programs existed at the five separate sites 
(three sites at Oak Ridge, plus Paducah and Portsmouth). Our Radiation 
Protection Manager determined that it would not be efficient for one 
company to operate with five separate sets of procedures. We also 
determined that the procedures needed to change because of the 
fundamental differences between a management and operations approach 
using in-house workers, and an M&I approach where the work is done by 
subcontractors. Because it would have been disruptive and unnecessary 
to implement an entirely new program on the first day of our contract, 
we made appropriate changes in the existing radiation protection 
procedures so we would be able to operate on April 1, 1998, and began a 
process of evolving to an integrated program.
    From April 1, 1998, through September 30, 1998, a single set of 
Bechtel Jacobs Company radiation protection procedures was developed. 
Suggestions for improvements were solicited from the workers using the 
procedures. The staff was trained to the procedures, and the newly-
developed radiation protection procedures were fully implemented by 
October 1, 1998.
    We are currently revising both these procedures and our Radiation 
Protection Program Plan to reflect the November 1998 changes to 10 CFR 
835, ``Radiation Protection for Workers.''
    We conduct our radiation protection program using the procedures, 
an operations manual, and technical basis documents for external and 
internal dosimetry. The operations manual contains guidance needed by 
radiation protection personnel to authorize entry and work in 
radiological areas; to properly post radiation warning signs on areas 
and labels on containers; to conduct surveys for radioactivity on 
buildings and equipment; to conduct air monitoring for radioactivity; 
to control use of industrial radioactive sources; to maintain radiation 
exposures of personnel as low as reasonably achievable; and to conduct 
the routine radiation monitoring in active and inactive work areas to 
ensure personnel are appropriately apprised of the radiation hazards in 
their work space.
    Our technical basis document for external dosimetry describes the 
types of radiation fields expected to be encountered in the work place, 
which ensures that the proper types of radiation monitoring badges are 
being worn by the workers. Our technical basis document for internal 
dosimetry describes the technical rationale for testing individual 
workers for any radioactive material they may have inhaled or ingested.
    In 1998 and 1999 (through June 30) at Paducah, 530 and 311 workers, 
respectively, were monitored for external radiation exposure. The 
average exposure in each year was less than 10 millirem (mrem), 
equivalent to the radiation exposure received in one or two 
transcontinental airplane flights. The maximum individual exposure was 
459 mrem in either year, which is about one-and-one-half times the 
amount of radiation received by a member of the public from natural 
background radiation, and well below the applicable Federal regulatory 
limit of 5,000 mrem.
    In 1998 and 1999 (through June 30) at Paducah, 163 and 107 workers, 
respectively, were monitored for internal radiation. We found that for 
both years only one person had a dose above 10 mrem from uranium. This 
dose (12 mrem) is well below the applicable Federal regulatory limit.
    In 1998 and 1999, we also checked for plutonium, americium, and 
neptunium in six Bechtel Jacobs Company subcontractor workers. We 
checked these workers because, based on available characterization 
data, they performed work in areas where these radionuclides could 
possibly have been present. We found no positive results.
    The preceding data covers only employees of Bechtel Jacobs Company 
and our subcontractors, since USEC performs monitoring for their 
employees.
    As work is transitioned to subcontractors, Bechtel Jacobs Company 
will require that all subcontractors work under our radiation 
protection plan. All radiation safety monitoring will be done by a 
single radiation protection subcontractor to ensure consistency 
throughout our projects.
Environmental Protection
    During the early months of our contract, a due diligence assessment 
and management review was conducted to assess existing environmental 
conditions, regulatory compliance, and cleanup strategies. The 
evaluation included a review of all existing environmental permits and 
agreements, the compliance history, current status, adequacy of 
environmental actions taken to date, remedial priorities, and cleanup 
schedules.
    Based on the results of that effort and information collected to 
date, the environmental permits and agreements were determined to 
adequately address the scope of site conditions. While the facility did 
have some limited history of minor violations, none were considered to 
be associated with imminent threats to human health and environment, 
and all have been resolved to date with only one Notice of Violation, 
which involved administrative record keeping, issued at Paducah since 
1995.
            bechtel jacobs company es&h program improvements
    Our work during the phase-in and transition periods of the contract 
also resulted in the identification of several overall ESH program 
areas for improvement that I would like to briefly highlight.
    First, Bechtel Jacobs Company embraces a Zero Accidents Policy. 
This means that we believe all accidents are preventable. Our goal is 
an injury- and illness-free workplace, zero unpermitted discharges to 
the environment, and no noncompliance with environmental permits or 
laws. While we have yet to reach the zero goal in all areas, we believe 
that our policy reinforces to our workers that accidents or unpermitted 
releases to the environment are unacceptable. One measure of the impact 
of this policy is that since we became the M&I contractor, we reduced 
the lost workday away case rate by 37% and the Occupational Safety and 
Health Administration (OSHA) recordable injury/illness rate by 47%. Our 
current rate for OSHA recordables is 70% below the published Bureau of 
Labor Statistics (BLS) rate for private industry. Our lost workday case 
away rate is 76% below the published BLS rate. At Paducah, the Bechtel 
Jacobs Company staff has worked more than 500 consecutive days without 
a recordable injury case. Since April 1998 at Paducah, there have been 
11 first aid cases, and six radiation contamination cases, one 
radiation uptake case above 10 mrem, no environmental Notices of 
Violation, and one nonconformance with the Kentucky Pollutant Discharge 
Elimination System permit.
    Second, we have made it clear that line management is accountable 
and responsible for ESH performance. Our ESH managers establish the 
policies and procedures, but the people who manage the work are 
accountable for performing the work safely. To ensure safe performance, 
we have deployed our ESH subject-matter experts to the projects so that 
they are directly involved with work planning and execution in the 
field. We have also implemented a safe work operations training course 
for first-line supervisors and ESH safety leadership workshops for our 
project managers. The safe work operations course is scheduled at 
Paducah within the next 30 days.
    Third, we recognized our workers as being in the best position to 
identify the hazards of a job and as having the training, skills, and 
experience to safely mitigate those hazards. As a result, we routinely 
involve our most skilled workers in the ``work planning'' process and 
obtain final reviews and feedback from affected crew members during 
pre-job briefing prior to work execution. We also monitor our 
subcontractors' work planning processes to ensure compliance with 
requirements for worker involvement.
    Finally, I have made it clear that each and every worker is 
empowered to stop work, without fear of reprisal, if he or she believes 
that safety, health, or environmental protection will be compromised by 
a work activity. We initially experienced some worker skepticism about 
this empowerment, but several discussions between DOE staff and our 
workers during the recent stand-down at Paducah confirmed that my 
message has been heard.
    All of these improvements are consistent with our Integrated Safety 
Management System, our system by which each work activity undergoes a 
rigorous five-step process by both workers and management team. These 
steps are:
    1. Define scope of work.
    2. Analyze hazards.
    3. Develop and implement controls to mitigate the hazards.
    4. Perform work within the established controls.
    5. Collect feedback for improvement.
                     subcontractor es&h performance
    With our contract goal to subcontract more than 90 % of the work, 
the safety and environmental protection performance of our 
subcontractors is critical. Before subcontractors can bid on our work, 
they must meet a safety and environmental protection criteria based on 
their past performance. Ten percent of potential subcontractors have 
not met our criteria, which are rigorous. In fact, there have been a 
few complaints about how rigorous they are from the subcontracting 
community. But we know that safety and environmental excellence exists 
in the subcontractor community because there has been no lack of 
qualified bidders meeting our safety and environmental protection 
criteria. We are fully committed to selecting subcontractors who have 
demonstrated the ability to perform work in a safe and environmentally 
sound manner.
    Once on the job, the qualified subcontractors continue to perform 
safely and compliantly, in accordance with approved ESH plans, using a 
graded approach based on job hazards, adhering to their contractual 
requirements, and under our observation. Failure to perform safely and 
compliantly is grounds for subcontract termination for cause. Because 
we want our subcontractors to be successful, we have implemented a 
Safety Advocate program under the direction of a Bechtel Jacobs Company 
ESH Subcontractor Manager. Each subcontract is assigned a Bechtel 
Jacobs Company Safety Advocate (a professional ESH subject-matter 
expert) who works directly with the subcontractor's ESH staff to ensure 
that expectations and requirements are understood and met.
     continuing improvements in safety and environmental protection
    We believe our actions in the areas of industrial safety, radiation 
protection, industrial hygiene and environmental protection are 
effective in protecting our workers, the public, and the environment. 
We also recognize that there is always room for improvement.
    A few weeks ago, a DOE Environment, Safety and Health team 
performed a review at Paducah. The team did not uncover any imminent 
hazards to the workers or the public but did have some preliminary 
verbal comments related to opportunities for improvement in 
radiological protection, procedures and conduct of operations. The team 
shared these comments with us at a meeting on September 3.
    Based on the team's input, Secretary Richardson ordered a one-day 
safety stand down at the Paducah Site on September 9 to strengthen and 
enhance safety programs. He noted that while significant improvements 
have been made over the last several years, the stand down affords an 
opportunity to further build upon existing safety programs. The 
Secretary also said the stand down would give employees and managers an 
opportunity to raise any concerns they may have, get questions answered 
and make suggestions for improved operations. My General Manager for 
operations and our company ESH Manager participated in the stand down.
    Over the years, the DOE and its contractors have found that stand 
downs are an excellent management tool to reinforce the importance of 
safety. By stopping all but the most essential activities, we have been 
able to focus on one very important subject. We have also found that in 
the course of stand downs, employees usually come up with several 
excellent suggestions for improvement.
    The agenda for the one-day stand down included:

<bullet> Distribute and review an information sheet on plutonium and 
        other transuranics at Paducah with each Bechtel Jacobs Company 
        and subcontractor employee.
<bullet> Emphasize use of safety suggestions program as a mechanism to 
        relay anonymous concerns or suggestions.
<bullet> Distribute and review fact sheet on rules (dos and don'ts) for 
        DOE Material Storage Areas to each Bechtel Jacobs Company and 
        subcontractor employee.
<bullet> Survey the site for degraded, missing, or inappropriate 
        postings and barriers.
<bullet> Survey all standing Radiation Work Permits for accuracy, 
        compliance, and currency. Inventory those that should be 
        cancelled or modified.
<bullet> Dedicate a team of subject matter experts to work exclusively 
        on resolving the DOE Material Storage Area nuclear criticality 
        concerns.
<bullet> Walk down and review each ongoing Bechtel Jacobs Company or 
        subcontractor project. Ensure presence of proper permits and 
        other safety documents such as Radiation Work Permits, Hot Work 
        Permits, Lock Out/Tag Out, Job Hazards Analysis, etc. and re-
        emphasize requirements for compliance and conduct of operations 
        for each project with the project staff, both salaried and 
        hourly.
    We believe the stand down met its intended purpose. All the agenda 
items were completed successfully with good involvement by the 
workforce. In the process of discussing the stand down with our 
employees and subcontractors, we heard:

<bullet> Workers wanted more frequent information on dosimetry and air 
        monitoring.
<bullet> Workers understand that they have stop-work authority.
<bullet> Workers feel they can change the system and be part of safety 
        success.
    In summary, since taking over the environmental management and 
uranium programs at Paducah 18 months ago, Bechtel Jacobs Company has 
made measurable improvements in safety, radiation protection, and 
environmental protection, but continuous improvement is our goal. The 
recent visit from the DOE Headquarters ESH review team, and last week's 
stand down, are an integral part of making those improvements. No 
imminent hazards were identified, but we noted several areas for 
improvement and we're taking action. We will continue to work with DOE, 
our employees, and our subcontractors to ensure that we protect 
workers, the public, and the environment.

    Mr. Upton. Thank you.
    Mr. Miller.

                  TESTIMONY OF JAMES H. MILLER

    Mr. Miller. My name is James H. Miller. I am the Executive 
Vice President of USEC Inc., and am responsible for the 
operations at the gaseous diffusion plants located in Paducah, 
Kentucky and Portsmouth, Ohio. USEC leases and operates certain 
portions of the plants in Kentucky and Ohio from the U.S. 
Department of Energy and employs approximately 4,000 people 
with headquarters located in Bethesda, Maryland. I am pleased 
to have the opportunity to provide the subcommittee with 
information concerning USEC's operations.
    We are committed to ensuring that USEC maintains a safe 
work environment for our employees and that our operations 
protect the public and the environment. We have committed 
significant resources to improve the operation of the gaseous 
diffusion plants, and we believe that our efforts thus far have 
been successful.
    You have been provided with advance copies of my complete 
testimony. My intention today is to provide you with some brief 
introductory comments on that testimony and to give you an 
opportunity to ask any questions about USEC's operations that 
you may have.
    The Energy Policy Act of 1992 established the U.S. 
Enrichment Corporation as an interim step to the privatization 
of the uranium enrichment enterprise. In accordance with that 
act, USEC leased portions of the GDPs from DOE and assumed 
responsibility for the management of uranium enrichment 
activities at the GDPs commencing July 1, 1993.
    The Nuclear Regulatory Commission assumed regulatory 
jurisdiction over USEC operations from the Department of Energy 
on March 3, 1997. In accordance with the 1996 USEC 
Privatization Act and the Energy Policy Act, the U.S. 
Government privatized USEC on July 28, 1998. In 1993 USEC 
initiated programs to upgrade nuclear safety, radiologically 
characterize he leased areas at the GDPs, reduce the potential 
exposure of workers to radiation, improve worker safety, 
implement pollution prevention and mitigation activities and 
ensure proper treatment and disposal of wastes.
    Our nuclear safety upgrade program consisted of many 
projects to bring GDP equipment and programs into full 
compliance with NRC requirements and to enhance safety at the 
GDPs. USEC initiated a comprehensive site radiological 
characterization project which was completed in 1998. This 
project surveyed all accessible areas of the GDPs leased by 
USEC to obtain complete information on the extent and the level 
of contamination that might be present. As the survey was 
completed for each area, the postings for the area were 
reviewed in light of the survey results and were adjusted as 
appropriate. USEC also decontaminated areas throughout the 
site. We now conduct routine radiological surveys to ensure 
radiological hazards are identified and communicated to 
employees and that areas are properly posted. Procedures and 
training are in place to ensure proper protection of 
individuals entering radiological areas.
    Our radiation protection program is designed to achieve the 
goal of keeping exposures to radiation from all sources as low 
as reasonably achievable. The doses received by USEC workers at 
the GDPs are in fact very low.
    USEC also undertook immediate action to address industrial 
safety problems. Since taking over the operation of the GDPs, 
we have reduced worker injury rates and lost workdays due to 
injuries to less than half the 1993 rate. USEC has fully 
characterized its waste streams at the GDPs and instituted new 
pollution prevention initiatives. We also initiated waste 
minimization efforts and achieved significant reductions in 
low-level radioactive and hazardous and mixed wastes. We share 
your concern for the health and safety of our workers, their 
families and our community.
    USEC is prepared to assist the committee in any way we can. 
I would be pleased to respond to any questions that you may 
have.
    [The prepared statement of James H. Miller follows:]
 Prepared Statement of James H. Miller, Executive Vice President, USEC 
                                  Inc.
    My name is James H. Miller. I am the Executive Vice President of 
USEC Inc. and am responsible for USEC's operations at the gaseous 
diffusion plants located in Paducah, Kentucky, and Portsmouth, Ohio. 
USEC Inc. is the world leader in production and sale of uranium fuel 
enrichment services for commercial nuclear power plants. With 
headquarters in Bethesda, Maryland, the Company leases and operates 
portions of the plants in Kentucky and Ohio from the U.S. Department of 
Energy and employs approximately 4,000 people.
    I am pleased to provide the Subcommittee with information 
concerning USEC's operation of the gaseous diffusion plants (the 
``GDPs''). USEC is committed to ensuring that it maintains a safe work 
environment for its employees and that its operations protect the 
public and the environment. To that end, USEC has committed significant 
resources to improve the operation of the GDPs. As I will point out 
during this testimony, the record demonstrates that our efforts have 
succeeded.
    My testimony today is comprised of four parts. First, I will 
provide some background describing the transition from a government 
enterprise into a private corporation regulated by NRC, OSHA, EPA and 
other federal and state agencies. Second, I will generally describe the 
state of the GDPs on July 1, 1993, when USEC as a government 
corporation took over management of the uranium enrichment enterprise. 
Third, I will outline the actions taken by USEC from 1993 until today 
to improve and enhance the operation at the plants in the areas of 
worker safety, radiological protection, nuclear safety, and 
environmental protection. Finally, I will describe the results of these 
actions to date.
                               background
    Built in the 1950s to produce enriched uranium for national defense 
and, later, for nuclear fuel for commercial reactors, the GDPs were 
operated by the U.S. Department of Energy (DOE) and its predecessor 
agencies. DOE and its predecessors contracted with private companies to 
manage and operate the GDPs under the agency's direction and regulatory 
oversight. In June 1993, the GDPs were managed and operated for DOE by 
Martin Marietta Energy Systems, a subsidiary of Martin Marietta 
Corporation.
    The Energy Policy Act of 1992, Pub. L. 102-486, established the 
United States Enrichment Corporation, a wholly owned government 
corporation, as an interim step to the privatization of the uranium 
enrichment enterprise. In accordance with the Energy Policy Act, 
commencing July 1, 1993, USEC leased portions of the GDPs from DOE and 
assumed responsibility for the management of uranium enrichment 
activities at the GDPs. USEC, as a government corporation, contracted 
with Martin Marietta Utility Services, later to be Lockheed Martin 
Utility Services, to operate and maintain the GDPs. The Energy Policy 
Act mandated that the GDPs be independently regulated by the U. S. 
Nuclear Regulatory Commission (NRC) and the Occupational Safety and 
Health Administration (OSHA), in addition to the U.S. Environmental 
Protection Agency (EPA) and applicable state agencies.
    The NRC assumed regulatory jurisdiction over USEC operations on 
March 3, 1997. Prior to that time, USEC operations were regulated by 
DOE under a Regulatory Oversight Agreement between DOE and USEC which 
was based upon the existing nuclear safety, safeguards, and security 
requirements of DOE.
    In 1996, the USEC Privatization Act, Pub. L. 104-134, was enacted. 
In accordance with the USEC Privatization Act and the Energy Policy 
Act, the U.S. Government privatized USEC through an initial public 
offering of stock on July 28, 1998. After privatization, USEC initiated 
steps to assume full and direct responsibility for the operations of 
the GDPs. Accordingly, on November 18, 1998, USEC provided notice to 
Lockheed Martin Utility Services as required by contract that USEC was 
terminating its contract to operate the GDPs. On May 18, 1999, USEC 
assumed direct control of the operations of the GDPs.
                 the state of the gdps on july 1, 1993
    The Energy Policy Act directed that DOE complete an environmental 
audit of the GDPs prior to the July 1, 1993, transition to USEC. DOE's 
environmental audit documented that the GDPs were contaminated by a 
number of hazardous and radioactive materials including polychlorinated 
biphenyls (PCBs); organic compounds such as Trichloroethylene; metals 
such as lead, nickel and chromium; asbestos; and radionuclides 
including uranium and technetium. The GDPs were also undergoing cleanup 
and environmental remediation activities under the Resource 
Conservation and Recovery Act (RCRA) and the Paducah GDP was listed on 
the National Priorities List under the Comprehensive Environmental 
Response, Compensation, and Liability Act (CERCLA), also known as 
Superfund. The presence of contamination from transuranics was known as 
a legacy of past operations at the GDPs and the lease with DOE 
specifically indemnifies USEC for any liabilities as a result of 
contamination from transuranics such as plutonium.
    On July 1, 1993, there was incomplete information concerning the 
extent or level of contamination that might be present in the process 
and support buildings or in outside areas. There also was only limited 
characterization of wastes generated. It was assumed that all process 
buildings and most support buildings were potentially contaminated. In 
general, it was also assumed that wastes generated and stored on site 
were mixed wastes, both hazardous and radioactive.
    In addition to the environmental audit, DOE also performed an 
assessment of the condition of the GDPs with respect to industrial 
safety. Under DOE, the operations of the GDPs were not subject to OSHA 
regulation. DOE's assessment identified many problem areas related to 
industrial safety. In 1993, the worker injury rates at both GDPs were 
above industry norms.The USEC Privatization Act provided that any 
liabilities associated with the operation of the uranium enterprise 
(including the operation of the GDPs) prior to July 28, 1998, would 
remain direct liabilities of the U.S. Government and DOE.
                   usec's actions since july 1, 1993
    USEC has made protection of our workers, the public and the 
environment a priority and has committed significant resources to 
improve and enhance the operation of the GDPs. In 1993, USEC initiated 
programs to upgrade nuclear safety, radiologically characterize the 
leased areas at the GDPs, reduce the potential exposure of workers to 
radiation, improve worker safety, implement pollution prevention 
activities and ensure proper treatment and disposal of wastes.
    USEC initiated a comprehensive Nuclear Safety Upgrade program to 
bring the GDPs into full compliance with NRC requirements and to 
enhance safety at the GDPs. DOE funded approximately $220 million of 
this Nuclear Safety Upgrade program.
    USEC also initiated a comprehensive site radiological 
characterization project which was completed in 1998. This project 
surveyed all accessible areas of the GDPs leased by USEC to obtain 
complete information on the extent and level of contamination that 
might be present. The survey included outside areas with miles of 
roadways, millions of square feet of building walls, floors and 
lockers, over a million tools and parts, and millions of document 
pages. As the survey was completed for each area, the postings and 
markings for the area were reviewed in light of the survey results and 
were adjusted as necessary. USEC decontaminated areas throughout the 
site including over 5.5 million square feet of building floor space. 
This project significantly reduced workers' potential exposure to 
radioactive materials.
    USEC undertook immediate action to address the industrial safety 
problem areas. DOE funded $35 million to correct problem areas 
identified in DOE's assessment and other potential safety issues 
identified by USEC. USEC also initiated an effort to improve work 
practices and procedures bringing them in line with industry best 
practices.
    USEC fully characterized its waste streams at the GDPs and 
instituted new pollution prevention initiatives to reduce the amount of 
waste generated and to change waste streams to more benign forms. USEC 
identified and approved commercial licensed offsite waste treatment and 
disposal facilities and began shipping low-level, hazardous and mixed 
wastes off site for proper treatment and disposal at licensed 
commercial facilities.
                            results to date
    USEC's radiation protection program is in compliance with NRC 
regulations. The radiation protection program is designed to achieve 
the goal of keeping exposures to radiation from all sources including 
transuranics as low as reasonably achievable. The effectiveness of 
USEC's program is demonstrated by data showing that the average annual 
dose for all GDP monitored personnel is less than 5 millirem per year 
compared to the federal limit of 5000 millirem per year. The doses 
received by USEC's workers at the GDPs are also well below the averages 
for other NRC licensees. Procedures and training are in place to ensure 
proper protection of individuals entering radiological areas. USEC 
conducts routine radiological surveys to ensure radiological hazards 
are identified and communicated to employees and that areas are 
properly posted. All employees are provided training regarding the 
potential hazards associated with exposure to radioactive materials.
    USEC continually assesses its radiation protection program to 
assure that it is effective and to seek opportunities for improvement. 
USEC's Health Physics organization conducts periodic reviews of the 
radiation protection program. USEC's Safety, Safeguards and Quality 
organization, which is independent of the radiation protection program 
and production, also conducts an audit program of the radiation 
protection program, reviewing different elements of the program 
throughout the year.
    Most recently, during the week ending September 3, 1999, NRC 
conducted a confirmatory inspection of the Paducah plant's radiation 
protection program, specifically examining measures used to protect 
workers and the public from hazards of transuranics. NRC has provided 
USEC with preliminary information that it has found that our program 
adequately protects workers and the public.
    USEC's commitment to protect its neighbors and the environment is 
equally clear from the results it has achieved. USEC monitors its air 
emissions and water discharges to assure that it meets all applicable 
regulatory limits. USEC maintains a number of air monitors offsite and 
conducts additional portable sampling and monitoring onsite. Air 
emissions from USEC's operations at the GDPs have been well below the 
regulatory limits for radionuclides. During USEC's operation of the 
GDPs, air emissions each year typically have resulted in a total of 
less than one-tenth of the EPA standard. Water discharges are monitored 
for uranium, technetium and transuranics either weekly or quarterly 
depending on the nature of the discharge. All USEC water discharges 
have been below regulatory limits.
    USEC's efforts to reduce other industrial safety hazards and 
improve practices also has succeeded in improving worker safety. In 
July 1995, the Paducah GDP reached a significant milestone with two 
million man-hours worked without a lost workday case. Since taking over 
the operation of the GDPs, USEC has reduced worker injury rates and 
lost work days due to injuries to less than half the 1993 rate and well 
below the national average for our industry. USEC also has an 
aggressive pollution prevention program. Low level radioactive waste 
generation was reduced by 36% at the Paducah GDP and 32% at the 
Portsmouth GDP between FY 1996 and FY 1999. USEC achieved similar 
reductions in the amount of hazardous and mixed waste generated. The 
Paducah GDP achieved a 42% reduction in generation of hazardous and 
mixed waste between FY 1995 and FY 1999, and the Portsmouth GDP reduced 
generation by 70% between FY 1994 and FY 1999.
    In 1998, the National Safety Council recognized the Paducah plant 
as successfully improving production processes while achieving 
significant safety gains.
    Finally, as you know, NRC is required to prepare periodic reports 
to Congress on the GDPs' performance. The NRC provided Reports to 
Congress in December 1997 and in January 1999. Both reported that 
USEC's operation of the GDPs has provided adequate protection of the 
public health and safety and the environment and generally has been in 
compliance with NRC regulatory requirements. On January 29, 1999, the 
NRC renewed the GDP Certificates of Compliance for a period of five 
years--the maximum period permitted by the USEC Privatization Act.
                               conclusion
    Congress provided USEC with the mandate to improve the operation of 
the GDPs and to enhance the protection of its workers, the public and 
the environment. USEC is committed to carrying out that mandate. Safety 
is paramount at USEC. We believe that safety and business success are 
intertwined--safe workers and safe facilities are necessary to achieve 
quality performance. USEC has committed significant resources and has 
taken significant strides to ensure safe operation of the GDPs. The 
record demonstrates that our efforts have succeeded. We are proud of 
the dedication and hard work our employees and the results we have 
achieved. We are committed to building upon our success and 
continuously striving to improve.

    Mr. Upton. Thank you.
    You heard those buzzers. We have a series of votes on the 
floor. I know Mr. Burr has a speech at 1:30. I am going to let 
him go first with 5 minutes of questions. When he is done, we 
will adjourn temporarily until 2 o'clock.
    Mr. Burr. I thank the chairman.
    Mr. Nemec, let me ask you, I think it was Mr. Egan who was 
the attorney who had requested documents, specifically the 
Appendix 2B-17 from Bechtel. That has since found its way to 
this committee and also the Louisville paper. Can I ask you as 
a representative of Bechtel, has that been provided to Mr. 
Egan, or do you plan to?
    Mr. Nemec. Congressman, I am not aware of any request that 
Bechtel Jacobs received from the attorneys regarding that. We 
did receive a request from the committee and we did--and we 
were notified that the appendix was not in the document room. 
We found it, we put it in there, we provided a copy to the 
committee. I'm not aware that we received any request from the 
attorneys.
    Mr. Burr. I'm sure if you didn't, they will follow up with 
you.
    Mr. Nemec. I'm sure they will and they will get a copy.
    Mr. Burr. Mr. Hummer, if I may spend a second with you. To 
your knowledge has DOE ever asked Martin Marietta or a 
representative of Martin Marietta to alter or to lose data as 
it related to contamination or worker safety at the Paducah, 
Kentucky plant?
    Mr. Hummer. To my knowledge, that has never happened, Mr. 
Burr.
    Mr. Burr. Has Martin Marietta ever falsified or withheld 
documents from DOE or any regulatory agency with oversight over 
Paducah?
    Mr. Hummer. No, sir.
    Mr. Burr. Has DOE ever requested the appendix missing from 
the 1991 executive summary from Martin Marietta when they were 
the main contractor?
    Mr. Hummer. I don't know the answer to that question.
    Mr. Burr. Are you familiar with the appendix 2B-17?
    Mr. Hummer. Only in the most general terms as it has been 
referred to in this hearing.
    Mr. Burr. As a representative of Martin Marietta, do you 
find it unusual or strange that an appendix that was completed 
in January 1991 was not included in the executive summary 
produced in March of the same year or in the annual 
environmental report that was completed in October 1992 for the 
year encompassing 1991?
    Mr. Hummer. On its face, yes, I do find it strange. I would 
have to look into it further to see if there were reasons for 
it.
    Mr. Burr. You don't have an explanation or a reason as a 
representative of Martin Marietta today?
    Mr. Hummer. I do not.
    Mr. Burr. What is Martin Marietta's position as it relates 
to their contractual obligation to the Department of Energy in 
1991 as it relates to their assessment of contamination, worker 
safety? Were you the sole contractor responsible for it?
    Mr. Hummer. Martin Marietta was the sole contractor at that 
time, yes, and we were responsible for providing a 
comprehensive report on an annual basis.
    Mr. Burr. To your knowledge, did any of the annual 
environmental reports ever include the existence of plutonium 
contamination at the Paducah facility?
    Mr. Hummer. Yes, sir, they did.
    Mr. Burr. As it related to offsite sources?
    Mr. Hummer. Yes.
    Mr. Burr. When was that included?
    Mr. Hummer. I personally have seen a 1996 report that 
included that. I haven't seen others.
    Mr. Burr. Clearly you wouldn't question the existence of 
appendix 2B-17 produced by Martin Marietta that in 1991 found 
offsite contamination of plutonium?
    Mr. Hummer. No, sir.
    Mr. Burr. Do you find it odd that it would take until 1996 
for any official report to the Department of Energy to conclude 
that there was contamination?
    Mr. Hummer. I don't know that there was not--that that 
contamination was not reflected in earlier reports. I do know 
that I saw it in a 1996 report. I did not look at earlier 
reports to determine if it was in those.
    Mr. Burr. Well, I know that all the members have votes to 
get to. My plans are to be back for some point of this. I 
appreciate the witnesses' time. I would yield back, Mr. 
Chairman.
    Mr. Upton. Thank you. We will come back at 2 o'clock.
    [Brief recess.]
    Mr. Upton. We are ready to start.
    I just want to apologize to all the witnesses that we have 
today, because we had to change the--Congress was not in 
session last week on Thursday, I know that it changed your 
plans. It changed our plans, too. At the time the decision was 
made, the eye of the hurricane was expected to pass right down 
Pennsylvania Avenue. That is why I thought it would be best to 
delay the hearing until this week, but obviously we all had 
full schedules as well, and so we are all jockeying things, 
including other subcommittees that are meeting. That is one of 
the reasons why members are in and out. Normally that doesn't 
happen to the degree that it is happening today. We apologize 
in advance. Blame it on Mother Nature and me.
    We will resume with the 5 minutes. I know that the 
Democratic side will be back soon. I know that Mr. Whitfield 
has questions. I know Mr. Burr had a speech. Because of the 
votes it was delayed. But he intends to come back for this 
panel before we start the third one as well.
    Mr. Miller, it is my understanding that a number of years 
ago, the DOE had transferred more than $200 million to USEC to 
prepare the site in Paducah for the event of a possible 
earthquake. And it is my understanding that the work that was 
intended to be done is still--initially the seismic upgrades 
were promised to be done by 1997? It is my understanding that 
you all have delayed the seismic upgrades until next year, 
September of next year, 2000? Seismic upgrade?
    Mr. Miller. Yes, Mr. Chairman, I might make one 
clarification. The $200 million that was funded by the 
Department of Energy was to cover in their entirety all nuclear 
safety upgrades to make the transition from DOE regulation to 
NRC regulation. A portion of that funding, specifically $23 
million, was designated for the seismic work.
    Mr. Upton. At Paducah?
    Mr. Miller. At Paducah.
    Mr. Upton. $23 million of the $200 million?
    Mr. Miller. That is correct, sir, for the seismic project 
at Paducah.
    Mr. Upton. What has happened to that money?
    Mr. Miller. That money has been expended. The project is 
ongoing, with the expected completion date as you have 
indicated, September of 2000. In addition to that $23 million, 
USEC has been funding the additional funding required to 
complete that seismic upgrade project.
    Mr. Upton. Mr. Nemec, in DOE's testimony, they state, a 
little bit later, that in order to address the gaps in the 
company's radiation protection program, DOE will initiate an 
independent and detailed review of Bechtel Jacobs company's 
radiation protection program and its implementation at Paducah.
    Do you believe that the radiation program is broken?
    Mr. Nemec. No, I do not.
    Mr. Upton. And needs to be fixed?
    Mr. Nemec. No, I do not, Mr. Chairman. I believe we have a 
good radiation protection program. But we welcome the review. I 
am sure that through that review, we will find some 
opportunities for some enhancements. But we believe we have a 
good program.
    Mr. Upton. In the earlier panel, a number of the folks that 
testified talked about the full body review--the full body 
count. They had a feeling that, in fact, the readings were 
never given to them. Who has access to that? Do you have those 
records or does DOE?
    Mr. Nemec. I have no knowledge who has those records.
    Mr. Upton. Would you know, Mr. Hummer?
    Mr. Hummer. In general, Mr. Chairman, those records are 
Department of Energy records. Frequently they are maintained by 
the contractor as part of the contract, but the records belong 
to the departments of energy.
    Mr. Upton. But they are Martin Marietta's studies, right? 
They conducted the review. Would they not have been provided up 
the line from the years before?
    Mr. Hummer. I had thought that you were referring 
specifically to the individual results of whole body counts, 
which is an ongoing process. The specific volunteer studies 
that were referred to by the earlier panel, yes, the results of 
those studies would have been provided to the Department of 
Energy. The studies should be in Martin Marietta, Lockheed 
Martin records as well as Department of Energy records. But 
fundamentally since--from this Congress, the Department of 
Energy funds all these activities at these facilities, 
essentially all records, reports, surveys, that sort of thing, 
all belong to the Department of Energy.
    Mr. Upton. Do you know why they would not have been 
provided to the individuals at the time that they were tested?
    Mr. Hummer. No, sir, I do not. During the period I was at 
Oak Ridge as the Director of Safety and Health for Martin 
Marietta Energy Systems, it was a standard practice to discuss 
the results of whole body counts and bioassay results which 
also were for internal contamination with the individual at the 
time those results were received.
    Mr. Upton. Were you aware at all that in fact the counts 
might have been misrepresented or denied to the folks who 
actually undertook the tests?
    Mr. Hummer. No, I was not.
    Mr. Upton. Mr. Whitfield.
    Mr. Whitfield. Thank you, Mr. Chairman.
    Mr. Hummer, Martin Marietta, of course, was the successor 
company to Lockheed Martin. When did Martin Marietta become 
responsible for the offsite part of USEC, of the plant?
    Mr. Hummer. When Martin Marietta became the contractor in 
1984, it had responsibility for both the operation of the 
facility and the environmental management aspects of the 
facility.
    Mr. Whitfield. Now, in 1990, the Tiger team came in and did 
an assessment, setting out deficiencies for the facility. They 
were pretty explicit in those deficiencies. Then the Department 
of Energy came in with their Phase I assessment which went back 
to 1990, and they set out deficiencies in the facility. And 
down in Paducah when we asked Mr. Sadler the question, had the 
deficiencies set out in 1990 been corrected, I don't want to 
put words in his mouth, but he said there were many things that 
had not been corrected. In fact, I remember him inferring that 
most things had not been corrected. But why, during that 
period, when your company was responsible, were those 
corrections not taken care of?
    Mr. Hummer. Martin Marietta and Lockheed Martin were 
responsible for the environmental management aspects at the 
Paducah plant until the spring of 1991 when Bechtel Jacobs was 
awarded the contract--I am sorry, the spring of 1998 when 
Bechtel Jacobs was awarded that contract. During that period, 
essentially all of the findings from the Tiger team report were 
corrected. My understanding is that of the almost 200 findings 
from that report, all but one have been corrected. I'm not sure 
of the specific nature of that one.
    Mr. Whitfield. So out of the 200 deficiencies, your 
testimony is that all but one of the deficiencies was corrected 
by the time that Lockheed Martin relinquished its 
responsibility?
    Mr. Hummer. Yes, sir. The long duration, talking in years, 
to correct what might seem like fairly specific deficiencies 
may be a little hard to understand at first, but many of these 
deficiencies required additional funding through the budget 
process to provide resources in the form of either people, 
equipment or even facilities. Many of them required extensive 
rewriting of program documents, retraining of individuals to 
understand the issues that they were dealing with and what 
their specific responsibilities were. These were not simple 
things to fix.
    Mr. Whitfield. But it's your contention that all of them 
were taken care of except that one?
    Mr. Hummer. Yes, sir.
    Mr. Whitfield. We have heard a lot of testimony today and 
in the newspaper and with individuals personally that indicates 
that there was a culture within the management of this facility 
that I would describe as lackadaisical, lapsing in judgment 
sometimes, not being as up to date on the issues as they should 
have been.
    Would you say it is correct that even though management 
changed in name--Union Carbide, Lockheed Martin, Martin 
Marietta, Bechtel Jacobs--that some individuals just 
transferred from one company to the other? Would you say that 
is correct?
    Mr. Hummer. Absolutely. The vast majority of the people 
were the same people. And in fact the people who operated the 
operational plant for the United States Enrichment Corporation 
were the same Lockheed Martin people that transferred from 
Energy Systems.
    Mr. Whitfield. So it would be correct that even though 
companies changed, individuals were the same?
    Mr. Hummer. Absolutely.
    Mr. Whitfield. When you relinquished responsibility for 
your company, who was the project manager for the cleanup at 
Paducah?
    Mr. Hummer. I'm sorry, I'm not sure I understand the 
question.
    Mr. Whitfield. When Lockheed Martin lost its contract for 
cleanup, who was the project manager at that time?
    Mr. Hummer. I'm not sure. Mr. Nemec is indicating it might 
have been Mr. Massey.
    Mr. Nemec. The site manager at Paducah at that time was 
Jimmy Massey. Jimmy is also the site manager at Paducah today.
    Mr. Whitfield. Mr. Chairman, my 5 minutes is up.
    Mr. Upton. I will let you have some more time at the end. 
We will go to Mr. Strickland. Are you ready?
    Mr. Strickland. Yes, sir.
    Thank you, gentlemen, for trying to help us understand what 
is happening here.
    I have a memo, I don't know if anyone has asked about this 
or not because I arrived just a moment ago. It is a memo from 
Jimmy Massey. It was sent to a number of individuals, regarding 
the safety stand-down. It says, We anticipate that DOE will 
announce a day-long safety stand-down, and on and on. The kinds 
of activities we will do during that day include review and 
spruce up rad postings in DOE areas both on buildings and on 
land masses and so on and so forth. It concludes by saying, I 
need to meet with the project team this afternoon at 2 in the 
small conference room to discuss, and so on and so forth, but 
it concludes with this statement:
    ``and more to come. I still have season tickets to the 
circus for sale if anyone still needs one.'' That last 
statement is very puzzling to me. I'm not sure what it means. 
Is it the Barnum and Bailey circus? I'm just not sure what they 
are talking about there. What I hope it doesn't imply is that 
this matter is being taken lightly, and the implication being 
we're engaged in some kind of frivolous activity with this 
stand-down. Would anyone have any insight into what that may 
mean?
    Mr. Nemec. Congressman Strickland, that statement was an 
inappropriate statement by Jimmy Massey. We take this stand-
down very seriously. We take this investigation very seriously. 
I personally discussed that statement with Mr. Massey after I 
received it. He received--he agrees that it was an 
inappropriate and it won't happen again. We do take it very 
seriously.
    Mr. Strickland. Thank you, Mr. Nemec. I very sincerely 
appreciate that response from you and thank you for your 
opinion. I concur with it certainly.
    There seems to be differences of opinion between some of 
the witnesses that we heard earlier and some of the statements 
that are contained in the testimonies that have been submitted 
to us. I suppose it is possible that there are just legitimate 
differences of interpretation. But some of this seems to be 
material that would be rather difficult to interpret and have 
such a broad difference of opinion.
    For example, in the statement by Mr. Hummer, there is this 
comment:
    ``The potential for internal contamination of radiation 
workers was monitored through a bioassay program. Bioassay was 
a routine part of the radiation protection program at the 
Paducah facility and the other gaseous diffusion facilities 
because of the presence of uranium.''
    Then there are others who indicate that this was not a 
routine activity, that there may have been very limited numbers 
of employees that were ever monitored or tested in this way. 
And so the discrepancy between that statement and this other 
information is troublesome to me. I guess I would like to ask, 
was there routine bioassay monitoring? If so, how many 
employees were involved and during what period of time? Could 
you answer that for me, sir?
    Mr. Hummer. Yes. During the period of time that I was 
Director of Safety and Health for Energy Systems, routine 
bioassay programs were in place for workers who had significant 
potential for ingestion of radioactive contamination. I can't 
tell you exactly how many people were involved. I can get that 
information for you if you like. That program had been in place 
for some time before I arrived. Exactly when it started and how 
it evolved, I would have to get additional information. Some of 
the witnesses this morning, I believe, were responding to 
questions related to whole body counting, which is a support 
system for bioassay. But bioassay is the actual collection of 
biological samples from the individuals and their analysis for 
contamination.
    Mr. Strickland. But that information regarding the number 
of individuals, who they were, when the testing was done, what 
the results were, would that be available to us or would that 
be data that you could put your hands on and make available to 
the committee?
    Mr. Hummer. We should be able to get them from the 
Department of Energy.
    Mr. Upton. Thank you.
    Mr. Hummer, it was alleged, it was indicated in the 
testimony from the first panel from at least two of the 
witnesses, that your companies or subsidiaries knowingly 
disposed of radioactive contaminated waste in offsite landfills 
that were not permitted for such waste. Do you know if your 
company--can you affirm or deny whether that happened?
    Mr. Hummer. Mr. Chairman, to the best of my knowledge, that 
did not happen. These are new allegations to the company. To 
the extent that this and other allegations are raised by the 
lawsuits and other activities that are current, Lockheed Martin 
will do everything in its power to fully investigate these 
matters and resolve them appropriately.
    Mr. Upton. Could you keep us posted of that activity?
    Mr. Hummer. Yes, I will.
    Mr. Upton. There was no way that DOE would have approved 
such a transfer. I can't believe that that would have happened.
    Mr. Hummer. And to the best of my knowledge, there is also 
no way that plant management, Martin Marietta or Lockheed 
Martin plant management, would have approved that activity.
    Mr. Upton. Mr. Miller, we heard from Mr. Fowler sort of an 
ongoing saga of retaliation and harassment. You heard--I think 
you were here for his assessment?
    Mr. Miller. That's correct.
    Mr. Upton. Do you plan on doing anything--even today, I 
think he indicated that he still was followed from stop to 
stop. Are you planning any directive, any meeting? Is there any 
help that you can provide us? What were your thoughts as you 
listened to his riveting testimony?
    Mr. Miller. Mr. Chairman----
    Mr. Upton. I know it disturbed a lot of us up here.
    Mr. Miller. I think first and foremost, speaking for our 
corporation, it is totally appropriate to state in total 
sincerity that our corporation does not tolerate, I do not 
tolerate and will not tolerate harassment, intimidation of any 
nature, whether it be nonmanagement or management employees. 
USEC has pursued these issues, as any corporation should and 
would, vigorously through its tenure taking over these 
facilities wherever and whenever it was found. We have 
administered disciplinary action up to and including discharge. 
I think certainly in this instance, which dates back prior to 
any of these relevant issues that are being raised here today 
by the committee, there are some differences in opinion 
regarding the facts pertaining to vehicle searches. We have 
vigorously researched these issues. The vehicle searches were 
at no greater frequency than other vehicle searches which are 
mandated on our site for security reasons. And we investigated 
the sources of the alleged utilization of pictures, ID 
pictures, in the wrong fashion and have found them not to be 
substantiated, but by an employee in an inappropriate, joking 
manner, and that employee was in fact reprimanded for that 
conduct. I might add, that goes back significantly in time 
during his first years of tenure in the facility.
    But I think it is totally appropriate to say that any type 
of behavior along those lines is not tolerated by our 
corporation and will not be tolerated.
    Mr. Upton. We may just put in the record a number of 
current whistleblower complaints. I guess they are in the 
record. A person alleged he was removed from management, I 
don't know if you know about these or have any comment on these 
that are open. Investigator indicated he is in settlement 
negotiations. We might ask you to respond to these in writing.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED]61428.284
    
    [GRAPHIC] [TIFF OMITTED]61428.285
    
    Mr. Upton. Mr. Whitfield, do you have additional questions?
    Mr. Whitfield. Yes, I do, Mr. Chairman.
    Mr. Miller, we have heard testimony this morning from Mr. 
Fowler and also Dr. Cochran that they today do not consider the 
plant totally safe, that they view it with some significant 
problems still at the production facility. How would you 
characterize the workplace today?
    Mr. Miller. We would definitely not agree with the 
characterization that the employees in the work force today are 
not protected safely and adequately. We feel very comfortable 
and confident that we have very vigorous health and safety 
programs, both from radiological controls, utilizing the ALARA 
program which was referred to earlier, keeping the dose rates 
to our employees as low as reasonably achievable. We have made 
documented, significant improvements since 1993. We have 
essentially cut the average dose rate of our radiation workers 
in half, down to less than 4 millirems on an annual basis 
against the Federal standard of 5,000 millirems as an annual 
limit.
    We have additionally lowered the number of workers that at 
any one point in time received greater than 10 millirems and 
have cut those numbers basically in half since 1993 to 1998.
    We have focused heavily on contamination control. We have 
surveyed all accessible leased areas of the facility and 
implemented not only dose rate control but contamination 
control which was required under our transition to the 
regulations under 10 CFR 20 for NRC certification.
    So I think, Congressman Whitfield, in a very brief, concise 
summary, the programs that we have in place we feel very 
comfortable, do protect our workers. At the same time we 
constantly look for areas of improvement. We can always improve 
and will continue to carry forward with that attitude.
    Mr. Whitfield. Is there plutonium in the plant today?
    Mr. Miller. I think the answer to that would be there are 
certainly trace amounts as a result of the past practices of 
reprocessing reactor tails. So yes, there would be trace 
amounts.
    Mr. Whitfield. Do you consider that harmful to the workers?
    Mr. Miller. Not when we implemented and have implemented 
our protective measures. We take it very seriously, as we do 
take any radiological emission source and, where necessary, we 
have people placed into respirators if the need arises. If 
there is a posted area or a radiological work area where an 
employee is going to enter, the postings are designed to 
understand--so that the individual understands the type of 
activity and the protective equipment necessary to work in 
that, and that the monitoring that is done exiting the 
facilities and in combination with our monthly bioassay or 
urinalysis that is done on all rad workers, we feel very 
comfortable that we have protected our employees and will 
continue to do so in the future.
    Mr. Whitfield. When USEC assumed responsibility for the 
production facility, it is my understanding that an assessment 
was

done of the facility to determine deficiencies and that 55,000 
square feet was decontaminated at that time because of what 
turned up in the assessment. Now, if that is true, that would 
indicate, at least at the time USEC assumed responsibility for 
it, that there were serious problems there. Would you agree 
with that or not?
    Mr. Miller. It is very difficult for me to speak to 
practices and conditions that existed prior to USEC coming on, 
but I do--it is correct that when we implemented our 
contamination control programs and our surveys that there were 
significant areas that required immediate attention.
    Mr. Whitfield. Mr. Nemec, back in April, you conducted some 
readings when workers were around the cylinders with the 
uranium hexafluoride. The readings were quite low. Then when 
the assessment was conducted by the Department of Energy, they 
came in in August and did readings there and there was quite a 
discrepancy in the readings. In fact, they noted that that was 
a significant problem for them at that time. I know that Mr. 
Massey was quoted in the paper as saying that he wanted an 
answer to how that discrepancy occurred. So how did it occur?
    Mr. Nemec. In actuality, the readings that were taken in 
April were consistent with the Department of Energy readings in 
August. They both indicated a level of radiation dose that were 
consistent with one another. Those levels, then, and those 
readings in April were used as a basis whether the employees, 
the subcontractor in this case, would be required to wear a 
dosimeter. We concluded that they would not be required to wear 
one because they would get less than 100 MR of dose during the 
lifetime of the project.
    We revisited that decision after we got the DOE readings, 
because at that time we were not sure as to the accuracy of our 
April reading, and we decided--we set the job down immediately 
and we decided that it would be a prudent approach to put all 
of the workers in dosimeters since we were unsure of what went 
on, and to launch an investigation into what had happened. I 
had our health physics manager, certified health physicist from 
Oak Ridge, come up to the site the day after the incident. I 
happened to be there the night of the incident and was involved 
in making these decisions. He started the investigation which 
ultimately concluded that our initial readings were consistent 
with the DOE readings. But a prudent measure here would have 
been to put the people in dosimeters and we did.
    We have since changed our procedures to not allow that much 
flexibility in the field with regards to use of dosimeters.
    Mr. Whitfield. I understand you to say that your readings 
were consistent with DOE?
    Mr. Nemec. Yes, they were.
    Mr. Whitfield. May I ask one other question, Mr. Chairman? 
Then I will be finished here.
    There has been a lot of discussion about the D&D funds for 
the cleanup. We all recognize that there is not enough money 
there, but out of the $240 million appropriated each year for 
D&D funds, the largest portion of that goes to Oak Ridge, of 
course. In fact, more goes to Oak Ridge than what you add up 
for Portsmouth or Paducah together.
    It is my understanding that of the money that goes to 
Paducah, $37 million a year, that maybe $25 million a year, is 
simply meeting compliance standards, doing testing, and that 
that money does not actually go for cleanup. I know that is 
because of various environmental regulations. But is it 
possible that more money would go for cleanup if you were 
exempted from some of these requirements, assuming you could be 
exempt and still not further endanger the community?
    Mr. Nemec. I suppose it might be possible, but I certainly 
couldn't quantify it. I think many of the things we do under 
our compliance program, we would have to continue in any case. 
We have to monitor our offsite releases and surface water. We 
have to understand the groundwater plume and where it is going 
and continue our pump and treat operations. We have to do the 
surveillance and maintenance on the facilities and the upkeep, 
whether the regulation is there or not, to prevent the spread 
of contamination.
    So I'm not convinced that trying to remove some regulations 
would solve the issue. I think we can, however, work within the 
regulatory environment to streamline some of the up-front 
decisionmaking process and thus use less time and money on that 
which we can then use for cleanup. And we are working on that 
with the regulatory bodies.
    Mr. Whitfield. Mr. Chairman, if we have additional 
questions, we can obviously submit it.
    Mr. Upton. All members will have that opportunity here.
    Mr. Strickland.
    Mr. Strickland. Yes, sir. I have basically two questions. 
One I would want to direct to Mr. Hummer. According to 
testimony from Mr. Key, in 1990 there was a voluntary program 
established to test volunteer employees for transuranics, some 
30 people volunteered. As you know, those results were analyzed 
by a contract laboratory, a decision was made that they were 
invalid, and then there was an opportunity for employees to 
resubmit. According to his testimony, only seven elected to 
participate in the retesting. Those results were looked at by a 
DOE-controlled operation. The results were that there was no 
problem, I guess, with contamination of these employees.
    The question I have is, some employees have indicated to 
me, and I think to others, that they are rather suspicious, 
they have lost some faith, some confidence, that their records 
were handled appropriately. According to his testimony, the 
results from those original samples and the written analysis 
and an explanation as to why they were rejected and what the 
findings were have not been forthcoming.
    And then he has this paragraph, and I would like to share 
it with you. ``If management is correct that the contract 
laboratory simply erred in its performance, there should be 
nothing to fear from the full and free examination of this 
data. However, such needless secrecy breeds mistrust.'' And 
then he says, ``Perhaps the Commerce Committee could assist in 
securing this data for the workers.''
    I guess what I would like to ask you is: Is there a reason 
why this data is not made available so that we can look at the 
difference which may have existed and so that we can determine, 
based upon objective observers, whether or not the contract 
laboratory that did the initial analysis erred in their 
results?
    Mr. Hummer. There is no reason that I know of, Mr. 
Strickland. The reports should be available, although this was 
somewhat before my time. Basically the reports should be 
available and the report of the quality assurance review to 
determine that that reported information was not accurate 
should also be available.
    Mr. Strickland. Mr. Chairman, I would ask that we request 
this information be made available to the committee.
    Mr. Upton. I think that is a very good idea. We will do so.
    Mr. Strickland. The second and my final question has to do 
with the testimony of Dr. Cochran. He alleges in his 
testimony--and I will direct this to you, Mr. Nemec--that 
Bechtel has been interviewing outside contractors to assist in 
the destruction of files at the Paducah plant. I don't know 
what kind of files he may have been alluding to. But I would 
like to ask you if this is true, and if so, what kind of files 
may he be talking about?
    Mr. Nemec. I'm not familiar with what Dr. Cochran was 
referring to. We may have hired a contractor to shred paper 
that we generate in our operation and recycle it. But there is 
no intention to shred any documents or destroy any documents 
that pertain to this or to any other, future or past.
    Mr. Strickland. Mr. Chairman, I would like to request that 
the committee contact past and future contractors and DOE and 
ask that no documents which may have any relevance to this 
investigation at all be destroyed until such time as the 
investigation is completed.
    Mr. Upton. That is fine.
    Mr. Strickland. Thank you. I yield back my time.
    Mr. Upton. Mr. Burr.
    Mr. Burr. I thank the Chair.
    Mr. Hummer, Martin Marietta did a number of internal audits 
on their state of compliance. One that specifically sticks out 
is the compliance as it relates to the National Environmental 
Protection Act. The internal audits as I understand those 
within Martin Marietta said, and I quote, No system is in place 
to ensure that environmental impact assessments prepared in 
compliance with NEPA are honored by plant management. Under the 
current structure, NEPA assessment documents can be altered by 
plant management under a conflict-of-interest situation. Yet 
the 1990 environmental report for the Department of Energy 
stated that Martin Marietta was in compliance with all NEPA 
guidelines.
    Do you care to comment on that?
    Mr. Hummer. Yes, sir, Mr. Burr. I don't find those two 
statements in contradiction. One of them says that there was no 
system in place to ensure that the assessments were honored by 
plant management. That does not say that noncompliances were 
found. It says that there was no system in place to ensure that 
they were honored. Our contention is that the requirements of 
NEPA were being met and we were in compliance during 1990 and 
other years.
    Mr. Burr. Let me go on in the October 1992 internal audit, 
and I quote your auditors. The auditors found, quote, The NEPA 
program is headed in the right direction but all programs have 
not been implemented to keep projects' activities from not 
getting proper NEPA review. Some projects have been initiated 
without NEPA review.
    I would suggest to you that that part of the audit suggests 
that you are not in compliance.
    Mr. Hummer. That says that; that activities not in 
compliance were identified, yes.
    Mr. Burr. What currently does Lockheed Martin have in the 
way of DOE cleanup contracts?
    Mr. Hummer. Lockheed Martin has a contract to operate the 
river protection program for the River Protection Office of DOE 
at the Hanford facility formerly known as the tankways 
remediation system.
    Mr. Burr. That's in the form of a subcontractor at Hanford, 
isn't it?
    Mr. Hummer. No, sir. Right now it is. As of the October 1 
we will be a prime contractor to the River Protection Office.
    Mr. Burr. It is a little over $300 million to Martin 
Marietta currently on that contract?
    Mr. Hummer. Yes, sir.
    Mr. Burr. Where else?
    Mr. Hummer. We do environmental cleanup work at Sandia 
National Laboratory as part of our M&O contract there. We do 
extensive environmental management and cleanup activities in 
Idaho National Engineering Environmental Laboratory as part of 
our contract which ends on the 30th of this month there.
    We also participate with Bechtel Jacobs in the 
environmental management in making sure that things are 
properly identified at the Oak Ridge facility, Y-12 and ORNL so 
when materials are turned over to Bechtel Jacobs for further 
disposition, they are properly identified.
    Mr. Burr. To your knowledge, did Martin Marietta ever 
receive a performance bonus based upon any of the years that 
they represented Paducah under a DOE contract?
    Mr. Hummer. We received award fees during those periods for 
those operations.
    Mr. Burr. Were those award fees ever based upon safety?
    Mr. Hummer. Safety was one of the several evaluation 
criteria used by the Department of Energy to determine the 
award fee, yes, sir.
    Mr. Burr. Given the documents that have made their way to 
the forefront in the last month, as a representative of 
Lockheed Martin, do you believe that Martin Marietta was 
entitled to the qualification of those performance bonuses?
    Mr. Hummer. Yes, I do. None of those performance bonuses or 
award fees was predicated on 100 percent perfect performance. 
Therefore, there is no reason, based on what I have heard, to 
suspect that these particular individual items would drive that 
assessment significantly lower.
    Mr. Burr. I would tell you, Mr. Hummer, in any way, shape 
or form, anybody ever finds that there was an intentional 
effort to withhold documents, that without reading specifically 
that contract with DOE, I think that it would nullify not only 
the performance bonus, but it would probably nullify the 
contract, and I would certainly ask that we look at that 
contract that was in existence then to see if in fact with the 
information we have today it was breached.
    I thank all of our witnesses. This is an extremely 
important process for us to go through, and once again as it 
relates to cleanups that deal with DOE, an extremely difficult 
hearing to present all of the facts.
    I am not yet convinced, Mr. Chairman, and colleagues, that 
in fact we have all of the documents that are available. I only 
hope that Mr. Strickland's request is in fact one that can be 
honored and in fact has not already happened in the case of 
some of the documents that I think exist. I thank the chairman 
and I yield back.
    Mr. Upton. Thank you, panel. As I noted earlier we have 
other members that were not able to be here and we would like 
to have the opportunity to submit additional questions in 
writing to you. If you could respond to that in a fairly prompt 
way, that would be terrific.
    I appreciate your time regarding the delay that we had from 
last week. You are excused, thank you.
    Our final panel includes Dr. David Michaels, Assistant 
Secretary for Environmental Safety and Health at the Department 
of Energy; Mr. Richard Green, Director of Waste Management 
Division, EPA, Region 4; Mr. Malcolm Knapp, Deputy Executive 
Director of Operations for Materials, Research and State 
Programs from the NRC; Mr. Robert Logan, Commissioner of the 
Kentucky Department of Environmental Protection, accompanied by 
Mr. John Volpe, Manager of the Radiation Control Branch at 
Kentucky Cabinet for Health Services.
    Do any of you have counsels or colleagues that are going to 
be helping you in this? If you can identify them by name at 
this time and we will have them sworn in as well.
    Mr. Michaels. This is Mr. Jimmy Hodges who is the manager 
of the Paducah site office for the Department of Energy. This 
is Mr. Jim Olendorf who is the Deputy Assistant Secretary in 
the Environmental Management Office of DOE; and this is Dr. 
David Statler, who is senior manager for the ongoing DOE 
investigation conducted by my office in Paducah.
    Mr. Upton. Anybody else?
    Mr. Richard Green. This is John Johnston who is chief of 
our Federal Facilities Branch at EPA Region 4.
    Mr. Upton. Mr. Knapp?
    Mr. Knapp. This is Mr. Robert Pierson who is chief of the 
responsible branch within the Nuclear Regulatory Commission for 
the Paducah facility.
    Mr. Logan. This is Mr. Michael Haynes and Mr. Downs with 
our Office of General counsel.
    Mr. Upton. At this time if all witnesses and identified 
counsel would stand and raise your right hand.
    [Witnesses and counsel sworn.]
    Mr. Upton. Dr. Michaels, we will start with you. You know 
the order here. Your entire testimony will be made part of the 
record, and if you can limit your remarks to about 5 minutes as 
timed by this fancy timer, that would be terrific.

      TESTIMONY OF DAVID MICHAELS, ASSISTANT SECRETARY FOR 
 ENVIRONMENT, SAFETY AND HEALTH, DEPARTMENT OF ENERGY; RICHARD 
 D. GREEN, DIRECTOR, WASTE MANAGEMENT DIVISION, ENVIRONMENTAL 
PROTECTION AGENCY, REGION 4; MALCOLM R. KNAPP, DEPUTY EXECUTIVE 
   DIRECTOR OF OPERATIONS FOR MATERIALS, RESEARCH, AND STATE 
 PROGRAMS, NUCLEAR REGULATORY COMMISSION; AND ROBERT W. LOGAN, 
COMMISSIONER, KENTUCKY DEPARTMENT OF ENVIRONMENTAL PROTECTION, 
 ACCOMPANIED BY JOHN VOLPE, MANAGER, RADIATION CONTROL BRANCH, 
             KENTUCKY CABINET FOR HEALTH SERVICES3

    Mr. Michaels. Thank you, Mr. Chairman and members of the 
subcommittee. I am pleased to be here today to discuss the 
actions being taken by the Department of Energy in response to 
allegations of current and historical environment safety and 
health problems at Paducah and other DOE gaseous diffusion 
plants.
    I am joined here by Jimmy Hodges, Jim Olendorf and David 
Statler. My complete testimony has been provided to the 
committee for record.
    To begin, I would like to associate myself with the opening 
remarks of the members of this committee. I have spent much of 
my career raising safety and health concerns of Department of 
Energy workers, and before coming to DOE, I was one of its 
strongest critics. In the past year, Secretary Richardson and 
senior management have worked very hard to change the safety 
culture at DOE facilities, and we greatly appreciate the 
bipartisan support the committee is giving us. Clearly though, 
they have a lot of work to do.
    Let me also say at the outset that from the time these 
concerns were brought to his attention, Secretary Richardson 
has made it clear that he would get to the bottom of the issues 
and do what is needed to be done to resolve them. We are 
especially concerned that until 1990, workers at the gaseous 
diffusion plants may not have been fully aware of transuranics 
nor trained in work practices designed to protect them from the 
potential health impacts from exposures to these materials.
    When the Secretary was in Paducah last week, he spoke 
directly with workers and community members. He listened to 
their concerns and apologized to members of the community who 
felt that in the past the government has not been forthcoming 
about the health risks they faced. The Secretary also announced 
that the Clinton administration will propose legislation to 
establish a pilot program for compensating current and former 
workers at Paducah who have cancers caused by job exposures to 
radioactive contaminants.
    As the Secretary said when announcing a proposal to help 
DOE workers who have disease, this administration believes that 
if our workers are ill because of exposure to hazards at the 
workplace, they deserve fair and equitable compensation. I 
understand that there is concern that the proposed program at 
this point is limited to workers at Paducah, but I want to make 
clear that the Secretary's overall commitment applies to all 
DOE workers. It is the intent that it will be a pilot program 
and inform our understanding of possible health impacts at 
other gaseous diffusion plants. The details of the proposed 
pilot are actively being discussed within the administration 
and we expect a legislative proposal will be finalized shortly. 
We look forward to working with members of this committee as we 
develop final legislation.
    The independent oversight team is conducting its 
investigation in Paducah in two phases, the first phase focused 
on environment and health safety practices at Paducah over the 
past decade; the second on historical issues. The team has 
completed its initial Phase I assessment. Their preliminary 
observations were released last week and identified that some 
improvements need to be made in the areas of radiation 
protection, environmental management and oversight.
    In the area of radiological protection, the team observed 
that the Paducah radiological protection program had been 
significantly improved in the early 1990's. At the same time, 
they found that a greater degree of discipline, formality and 
oversight is still needed to ensure that worker exposure is 
maintained as low as reasonably achievable.
    With regard to environmental protection, the team reviewed 
progress under the compliance agreement and examined potential 
sources of continuing groundwater and surface water 
contamination which have not been fully isolated or effectively 
mitigated.
    To address these concerns, the Department hopes to sit down 
with its regulators to reexamine the priorities and pace of 
cleanup activities as called for under the compliance 
agreement. The team will return to Paducah this October, early 
October, to begin the second phase of its investigation. This 
will focus on historical issues at Paducah and will rely 
largely on interviews and review of documents. We will be 
looking to current and former workers and supervisors who have 
specific knowledge of plant operations between the 1950's and 
1990. The team will begin its work in Portsmouth in mid-
December, to be followed at an investigation at Oak Ridge in 
early 2000. This investigation is being supplemented by two 
other assessments of past practices.
    One will try to clearly identify the flow and 
characteristics of recycled uranium within the DOE complex over 
the last 50 years and help us understand exactly where and how 
much of these materials were at various DOE sites and at what 
times.
    The second will seek to establish potential worker 
radiation exposures at the gaseous diffusion plants, especially 
where records are less than complete or where worker exposure 
has not been well characterized.
    Another important part of the Secretary's plan is support 
for expanded medical monitoring for current and former workers 
at all three gaseous diffusion plants in the program managed by 
the workers' union. Over the next year we expect to provide 
complete medical exams for 6,000 workers in Paducah, 
Portsmouth, and Oak Ridge. To support these actions, Secretary 
Richardson announced that the administration will propose a 
$21.8 million amendment to the fiscal year 2000 budget. This 
will include $7 million for expanded medical monitoring and 
$10.7 million to accelerate environmental cleanup activities at 
Paducah and Portsmouth.
    It also includes $4.1 million to accelerate cleanup of 
inactive DOE facilities at Paducah and Portsmouth in order to 
reduce or eliminate chemical hazards, radiologically 
contaminated material, and exposure to workers.
    In addition to these activities, the Secretary has 
indicated that he will hold all DOE contractors, past and 
present, responsible for their actions. To help make that 
determination, the DOE Office of General Counsel is assessing 
the contractual responsibility of DOE's contractors in the 
areas of environment safety and health.
    In closing, Mr. Chairman, our actions to date serve notice 
that the DOE, under the leadership of Secretary Richardson, 
will not tolerate unresolved concerns about worker health and 
safety or unfair treatment to sick workers. I know the 
Secretary is committed to righting any wrongs that may have 
been committed in the past to the work force at this plant, and 
your support of these efforts is critical to our success.
    We appreciate the opportunity to be here today and would be 
pleased to answer any of the committee's questions.
    [The prepared statement of David Michaels follows:]
     Prepared Statement of David Michaels, Assistant Secretary for 
       Environment, Safety and Health, U.S. Department of Energy
    Thank you, Mr. Chairman. I appreciate the opportunity to discuss 
the Department of Energy (DOE) response to allegations of current and 
historical environment safety and health problems at the Paducah plant 
in Paducah, Kentucky. Let me say at the outset that from the time these 
concerns were brought to his attention, Secretary Richardson has made 
it clear that he would conduct a complete and independent investigation 
to determine if any of these concerns were true. He further committed 
to determine if workers were made ill because of inadequate worker 
protections, and that if they were, to seek to provide them with fair 
compensation.
    As the Committee knows, DOE is currently responsible for 
environmental cleanup from waste generated prior to lease of the 
facilities to the Uranium States Enrichment Corporation (USEC) in 1993 
and for the management of the inventory of depleted uranium 
hexafluoride stored at the gaseous diffusion plants, including the 
Paducah plant. This work involves approximately 94 employees of 
Bechtel-Jacobs, the DOE current contractor for cleanup at the Paducah 
site, a transient subcontractor work force of up to 300 workers, and a 
small number of workers for USEC that support site cleanup or 
management of the inventory of depleted uranium hexafluoride.
    Because Paducah is a designated Superfund site, cleanup of 
hazardous substances other than uranium hexafluoride is being conducted 
in accordance with a Federal Facilities Agreement among DOE, the 
Environmental Protection Agency, and the Commonwealth of Kentucky. This 
agreement establishes milestones and a schedule for meeting them. 
Uranium enrichment activities were transferred to USEC in July 1993 in 
accordance with the Energy Policy Act of 1992. Uranium hexafluoride and 
worker safety issues are covered under the authority of the Atomic 
Energy Act with appropriate oversight by DOE. Additionally, USEC 
currently operates under a Nuclear Regulatory Commission certificate 
and is subject to NRC regulation.
    In May 1999, the Department became aware that a qui tam case would 
be filed under the False Claims Act in U.S. District Court. This suit 
alleges fraud on the part of contractors at the Paducah Gaseous 
Diffusion Plant, based on current and past environment, safety and 
health violations. Once the case was filed, it was placed under a court 
seal that prohibited DOE from acknowledging or discussing the case with 
any party outside the federal government. While the allegations could 
not be discussed, the Secretary felt it important to ensure that there 
were no imminent threats to the environment, public health or safety. 
From June 18 to 21 of this year, a technical team of health physicists 
and environmental engineers, led by the Oak Ridge field office and 
supported by my staff, conducted an on-site review of the areas 
currently under DOE's control. This team concluded that there were no 
imminent health or safety threats to DOE's workers. No public dialogue 
could be initiated at that time because of the restrictions imposed by 
the court seal.
    In August, many of the allegations became widely reported in the 
national media. Shortly thereafter, Secretary Richardson called for a 
comprehensive response to the public allegations. Subsequently, the 
court seal was lifted allowing the Department to proceed with that 
response. My testimony today will describe these activities and our 
progress to date in meeting the Secretary's commitments.
    Many of the concerns regarding worker safety and health that have 
been reported to DOE stem from the presence of plutonium and other 
radioactive materials at Paducah, and the question of whether workers 
were adequately informed or prepared to handle such materials. These 
materials resulted from the recycling of uranium from weapons 
production plants to toxic gaseous diffusion plants during the 1950s, 
1960s, and 1970s. After irradiation in a reactor, spent fuel containing 
unused uranium, fission products and transuranics was reprocessed at 
the Hanford, Savannah River, or Idaho sites to separate the plutonium 
and remaining uranium from the fission products. The uranium was 
converted to a transportable form, and was recycled for use at the 
gaseous diffusion plants at Paducah and Portsmouth. Preliminary 
analysis also indicates that recycled materials may have also been 
transferred to the Fernald Feed Materials Production Center and the Y-
12 Plant at Oak Ridge. The gaseous diffusion plants converted the 
incoming uranium to uranium hexafluoride for enrichment in the cascade. 
The concerns that have recently been expressed focus on the transuranic 
elements and fission products that were and are present in this 
recycled uranium. It is estimated that approximately 100,000 tons of 
recycled uranium was fed to the Paducah plant.
    Environmental concerns alleged in the suit include both on-site and 
off-site contamination from legacy radioactive or hazardous materials, 
and potential for harm to workers or public health and safety. Issues 
raised include:

<bullet> possible improper disposal of hazardous or radioactive 
        materials both on- and off-site in publicly accessible areas;
<bullet> apparent inappropriate release of materials that were 
        radioactively contaminated, release of contamination into site 
        streams and drainage ditches, claims of inadequate control and 
        posting of offsite contaminated areas, and
<bullet> suspected exceedences of radiological air emission standards.
Independent Investigation
    The comprehensive investigation into environment, safety and health 
concern, at Paducah is being conducted by a senior team of 
investigators and technical experts from my staff in the Office of 
Environment, Safety and health (EH). The investigation is being 
conducted in two phases. The first phase, now underway, is focused on 
the adequacy of levels of protection provided to workers, the public 
and the environment today and over the past ten years. The second phase 
will focus on the longer-term, more complex environment, safety and 
health issues over the plant's entire history. This phase will involve 
a comprehensive document review as well as interviews with former 
workers. The team will also conduct investigations at the gaseous 
diffusion sites in Piketon, Ohio and Oak Ridge, Tennessee.
    The team of investigators arrived at the Paducah site on August 17 
to begin the first phase of the investigation and to examine 
information on health and safety programs. Over a two-week period, team 
members reviewed documents, conducted numerous interviews with 
officials and workers, conducted radiological surveys, inspected the 
site and collected extensive environmental samples. Samples were 
collected from onsite and offsite groundwater, surface water, and soil 
and sediment, as well as buildings onsite. The samples are being 
analyzed by an independent laboratory to determine the full range of 
chemicals and radionuclides that may have been released into the 
environment as a result of site operations. Some of these samples have 
been split with the Commonwealth of Kentucky. The efforts are being 
closely coordinated with both the Commonwealth of Kentucky and the 
Nuclear Regulatory Commission.
    Additionally, Secretary Richardson has directed that this 
investigation be conducted in close coordination with current and 
former workers and their union representatives. Concurrent with this 
investigation, the Nuclear Regulatory Commission conducted a review of 
radiation protection in the USEC-operated areas and the State of 
Kentucky has increased offsite monitoring.
    The DOE investigatory team is currently in the process of analyzing 
and validating its initial findings and preparing a final report to the 
Secretary. After being briefed on the team's initial observations, 
Secretary Richardson ordered a one-day safety stand down at the Paducah 
Site. While the team found that there had been safety improvements in 
recent years, some practices needed to be further improved and the 
Secretary felt that the cessation of activities would provide an 
opportunity for both workers and managers to focus on safety, raise 
concerns and make suggestions for improved operations.
    In its initial observations, the investigatory team verified 
earlier findings that DOE operations at Paducah do not present imminent 
hazards to the workers or the public. As is the practice in the 
Department's Safety Management Evaluations conducted by the EH 
Oversight staff, the team also identified areas which would benefit 
from improvement in radiological protection, procedures and conduct of 
operations.
    In response to the on-site investigation's preliminary results, DOE 
field and program management has identified initial actions to respond 
to these concerns.
Preliminary Phase One Findings
<bullet> Radiological Protection. The team observed that the Paducah 
        radiological protection program was improved in the early 
        1990s. At the same time, a greater degree of discipline, 
        formality and oversight is still needed to fully protect 
        workers to assure that worker exposure to legacy radiological 
        hazards is maintained as low as reasonably achievable (ALARA). 
        For example, the team found that 25 subcontractor employees 
        working on a project in the uranium hexafluoride 
        (UF<INF>6</INF>) cylinder yard since May could be subject to 
        radiological exposure of greater than 100 millirem in one year 
        and should have worn dosimetry badges. While this level of 
        exposure is not a health hazard in itself, DOE ALARA 
        regulations require that such workers wear personal dosimetry 
        badges at this level of exposure. As a result of this finding, 
        the site stopped work, conducted appropriate training, and 
        issued dosimetry badges to the workers.
      The team also identified a number of radiologically contaminated 
        areas on DOE property that were not adequately controlled in 
        accordance with DOE requirements. Workers have not received 
        training on the hazards associated with working with 
        transuranics since 1992 and such training is not part of the 
        site safety training courses. Workers were also seen handling 
        drums that contained uncharacterized waste and quantities of 
        concentrated Technicium-99. Finally, the team observed 
        weaknesses in the controls that are essential to radiological 
        protection, such as radiation work permits, procedures and 
        procedure adherence, and air monitoring.
    To address these findings, DOE field management will initiate an 
independent and detailed review of the Bechtel Jacobs Company radiation 
protection program and its implementation at Paducah. They will also 
work with the State of Kentucky and EPA Region IV to assure that site 
postings of contaminated areas, as called for in approved CERCLA or 
RCRA decision documents, are adequate.
<bullet> Enviromental Protection. The cleanup of Paducah is covered 
        under a legally enforceable agreement with the Commonwealth of 
        Kentucky and the EPA Region IV. The agreement assigns cleanup 
        priorities and schedule for completing work. Over the last 
        several years, work has been performed in cooperation with the 
        State and EPA to address the immediate risks to public health 
        and environment, and the site is currently in compliance with 
        that agreement. Activities have included providing an alternate 
        water supply to off-site residents and the construction of 
        groundwater collection and treatment facilities to control 
        offsite groundwater contamination. The investigatory team 
        reviewed progress under the agreement and focused on numerous 
        potential sources of continuing groundwater and surface water 
        contamination covered under the agreement that have not yet 
        been fully isolated or effectively mitigated. These include 
        unlined contaminated landfills, scrap yards, burial grounds and 
        spill sites.
      Under the requirements of the cleanup agreement signed in 1998, 
        characterization and cleanup of hazardous facilities and 
        materials has been ongoing at the site in accord with a 
        prioritized schedule that contemplates completion of cleanup in 
        2010. Nonetheless, the team has identified potential hazards 
        that it believes should receive greater priority. For example, 
        material storage areas (DMSA) contain significant volumes of 
        uncharacterized scrap equipment and materials that are 
        potential hazards to workers. Further, process buildings that 
        have been shutdown for more than 20 years contain significant 
        amounts of uncharacterized hazardous materials including 
        uranium in ventilation ducts and piping, receiver ash, and 
        transuranic contamination. Although surveillance and 
        maintenance is conducted, these buildings continue to 
        deteriorate and are not included in the 2010 cleanup schedule. 
        The team recommended that the hazardous materials should be 
        removed, and that these buildings be maintained in a condition 
        that protects workers and the public and minimizes the risk and 
        cost of eventual decommissioning.
      As observed in previous site reviews, many of the 30,000 55-
        gallon drums of low-level waste onsite are stored outside in 
        the elements or on unpaved ground while awaiting shipment. 
        Because of the need to address competing priorities, the 
        planned disposal date for these wastes is not until 2012. As 
        also previously identified, the nearly 37,000 uranium 
        hexafluoride (UF<INF>6</INF>) cylinders are also stored onsite 
        in the open, and constitute long-term radiological and chemical 
        exposure hazards to workers and the public.
      The team reviewed detailed sample results from cascade-processing 
        equipment that was transferred to private industry in 1997 and 
        1998. Approval of these transfers was based on the site policy 
        of using DOE's uranium release criteria, rather than DOE's more 
        restrictive criteria for release of transuranic-contaminated 
        material. Samples indicated that the equipment contained very 
        small, but detectable, quantities of plutonium, neptunium, and 
        americium. The team noted that had appropriate criteria been 
        applied, the release might not have been approved.
    Pending completion of the final investigation report, the 
Department officials responsible for the Paducah site have identified a 
number of steps they will take immediately in response to these issues. 
First, the Department will examine existing State of Kentucky and USEC 
site air monitoring systems to confirm that these systems would record 
any significant DOE contribution to overall site emissions. Second, the 
roofs of several shutdown but yet to be decontaminated buildings will 
be sampled to support fugitive-emissions calculations. Third, as 
required under CERCLA and the site's cleanup agreements, regulators are 
now reviewing the Engineering Evaluation and Cost Analysis for the 
scrap metal piles and Drum Mountain. Characterization and concurrent 
disposal of these materials are scheduled to begin late in the summer 
of 2000. Finally, additional sampling and analysis of off-site areas 
will be carried out.
    As a further step to address hazards, the Bechtel Jacobs corporate 
``Safe Work Operations Workshop,'' initially developed for the Oak 
Ridge site, will be adapted for Paducah-specific issues and presented 
at Paducah. Bechtel Jacobs will also delelop and present a detailed 
radiation safety and environmental protection program training module 
to all personnel who oversee the safety performance of subcontractors. 
Finally, DOE will station two full-time Facility Representatives at 
Paducah to oversee field activities that affect environment, safety and 
health.
    The investigation team will present its full report to the 
Secretary by September 30. In the meantime, DOE managers will continue 
to identify responses to the team's findings. We expect to complete the 
second phase of the Paducah investigation by the end of the year. The 
team will initiate its work at the Portsmouth plant in mid-December, to 
be followed by the investigation at Oak Ridge.
Determine Flow of Recycled Materials Through the DOE Complex
    DOE and its predecessor agencies produced more than 100,000 metric 
tons of recycled feed or waste streams containing trace quantities of 
fission products and plutonium. This material was sent not only to 
Paducah, but also to other sites in the DOE complex. Today, our 
understanding of where that material went is limited. Secretary 
Richardson requested a study that would provide a clear understanding 
of the flow and characteristics of this recycled material.
    The first figure attached shows the historical flow of recycled 
uranium throughout the Department of Energy complex, as we currently 
understand it. Typically, the spent fuel from the production reactors 
was reprocessed in separations facilities that recovered the plutonium 
and uranium, while also separating out almost all of the fission 
products. The separated uranium was converted to uranium oxide 
(UO<INF>6</INF>) and shipped to Paducah or other sites. The figure also 
shows an interaction with foreign military and commercial sources.
    We are concerned not only with the flow of this material, but also 
its characteristics such as the level of residual plutonium and fission 
products. Past DOE studies have suggested that no consistent or 
generally-accepted specification existed for the maximum allowable 
amounts of transuranics and fission product elements in the recycled 
material, although specifications were generally low (i.e. in the range 
of 10 parts per billion (ppb) plutonium). Occasionally, specifications 
could be exceeded, and for certain other recycled uranium bearing 
materials, we know that level of plutonium was higher.
    The figure also shows that Paducah would send uranium-bearing ash 
to Fernald for recovery. A 1985 DOE review revealed that in June 1980, 
the level of plutonium in some of the ash was between 67 ppb and 7,757 
ppb (average about 1123 ppb). Other processes associated with the flow 
of recycled uranium may have also contained higher concentrations of 
transuranics, e.g. plutonium, neptunium and americium. One of the waste 
streams on the figure is shown in color to reflect that the operation 
of washing uranium feed cylinders produced waste that may have been 
higher in transuranics. The material mass flow review we have initiated 
will look into this aspect of the uranium stream.
    The second figure shows the operating periods of the facilities 
involved in recycling uranium. As you can see, recycle activities began 
in the early 1950s, and there were many sites and facilities involved 
in this work. Among these 13 sites, several facilities have been 
decommissioned, making records retrieval more difficult. The data on 
this chart is preliminary. We will have a more complete and accurate 
picture as the mass flow project progresses.
    The mass flow project will address the flow and characteristics of 
recycled uranium over the last fifty years. The specific goals are to:

<bullet> Identify the mass flow of recycled uranium throughout the DOE 
        complex from early production to mid-1999 and create a 
        publicly-available unclassified inter-site flowsheet.
<bullet> Identify the characteristics of, and contaminants in, the 
        major uranium streams, including the technetium, neptunium, 
        plutonium or other radioactive content of concern to worker or 
        public health and safety.
<bullet> Conduct site mass balance activities to identify any 
        significant concern for potential personnel exposure or 
        environmental contamination.
    We expect this work to be complete by June 2000.
Worker Exposure Assessment Project
    An important paint of the Secretary's response to concerns at 
Paducah is to fully address health concerns of current and former 
Paducah workers, especially where records are less than complete, or 
where worker exposure to plutonium and other materials has not been 
well characterized. To address this gap, an aggressive and exhaustive 
search of records will be conducted at Paducah for the time period 
ranging from the early 1950s to the present. Assessments will then be 
performed by analyzing the exposure records of current and former 
workers to determine the extent and nature of exposures, focusing on 
exposure to transuranics. The activity will include identifying, 
retrieving and reviewing exposure records. Should records prove to be 
poor or non-existent, DOE would perform detailed reviews of relevant 
plant process and monitoring data as well as extrapolations based on 
available exposure information.
    The goal of this effort, managed by the DOE Office of Environment, 
Safety and Health and conducted by a team from the University of Utah, 
is to establish the potential ranges of worker radiation exposures and 
identify, document and communicate the radiological issues that may 
have affected worker health at the Paducah site since its opening. This 
work will help inform Paducah workers of their potential radiation 
exposure and will help determine whether there may be any potential for 
adverse worker health impacts from radiation exposure while working at 
the Paducah plant.
    The project began the week of September 13, 1999 when the 
University of Utah team began to interview workers and conduct an on 
site records search. The project is expected to take six months and 
consists of the following subtasks:

<bullet> Mapping the various processes conducted at Paducah and 
        identifying the associated potential radiological hazards, over 
        time. This will include identification of any events, such as 
        equipment modernization, accidents, etc., that may have 
        presented potential radiological hazards to the workers;
<bullet> Identify, retrieve and evaluate radiological and worker 
        exposure records to determine what the available records tell 
        us about radiological conditions and worker radiation exposure 
        data at the site;
<bullet> Establish the feasibility of conducting a bioassay program for 
        workers that would measure actual individual radiation dose 
        taken in the person;
<bullet> Establish the feasibility for and possibly conduct a 
        radioassay, of residual materials at Paducah that would 
        determine the radiological content of those materials and be 
        useful in determining hazards workers were exposed to.
<bullet> Develop occupational exposure profiles. This subtask will 
        compile all information gained in previous subtasks to develop 
        ``bounds'' or ranges of possible radiation exposures of workers 
        at Paducah.
<bullet> Conduct a worker communication program to ensure that workers 
        understand and accept the process use and the results obtained.
    With the possible exception of the bioassay program, this project 
is expected to be complete by April 2000.
Medical Monitoring for Current and Former Workers
    Under an ongoing DOE program being conducted at a number of DOE 
sites, medical monitoring is being provided to 1200 former workers at 
the gaseous diffusion plants (400 workers per year per plant). As part 
of the Secretary's action plan, the program will be expanded to include 
additional former employees at each site as well as current worker at 
each site. The program provides an objective, independent and expert 
evaluation of the health status of workers. The accompanying 
educational program will help workers understand prior exposures and 
current health risks.
    As in the current program, medical screening will be conducted for 
health hazards associated with exposure to a wide range of hazards 
related to a participant's work at the facility. The actual screening 
tests conducted will be tailored to a worker's exposure history and 
will generally include a physical examination, blood tests, and chest 
x-rays. Where warranted by a worker's exposure history, specialized 
tests and other specialized screenings will be conducted. Physicians 
will review individual test results from the screening program and 
communicate results to program participants. They will call patients to 
communicate any urgent findings based on examinations and inform them 
of any need for follow-up. Project personnel will also advise 
participants whom need medical follow up about possible sources of 
health care.
    The DOE-funded medical monitoring program will be independently 
implemented by a consortium of organizations and staffed by highly 
qualified physicians and other health professionals specializing in the 
field of occupational health.
Compensation for Sick Workers
    Although the use of recycled reactor tailings was discontinued by 
the 1970s, plutonium and other transuranic residues are still present 
in small quantities at each facility. Concerns have been expressed 
that, until 1990, workers may not have been adequately informed about 
the contamination or trained in work practices designed to protect them 
from the possible health impacts of such exposures. Enhanced worker 
protection programs for the protection of workers from the hazards of 
plutonium and other radioactive materials were required after 1990.
    Secretary Richardson recently announced that the Administration 
would propose legislation to establish a targeted pilot program to 
provide compensation for Paducah workers who have cancer as a result of 
job-related exposures. It is the intent that this be a pilot project 
that will be able to inform our understanding of possible health 
impacts at the other gaseous diffusion plants. At the same time, the 
White House National Economic Council is leading a study of the 
relationship between occupational disease and work at all DOE sites and 
the adequacy of workers' compensation programs. The details of the 
proposed Paducah pilot are being discussed within the Administration 
and we hope to propose legislation shortly.
Conclusion
    Finally, Mr. Chairman, I want to emphasize that Secretary 
Richardson, on behalf of the entire Administration, takes the concerns 
that have been raised seriously and is committed to investigate and 
resolve them. The investigation is both independent and comprehensive. 
As you have seen, it has already begun to serve to get out the facts 
and correct any current safety shortcomings. The existing environmental 
compliance agreement that guides remedial actions and schedules at the 
site has been agreed to by DOE, the State of Kentucky and the 
Environmental Protection Agency. Where the investigation team's initial 
observations suggest that modifications to this agreement, including 
adjustments in priorities, may be warranted to protect the public and 
worker health and safety, we will pursue them.
    We need to determine whether the Department has known of the 
presence of plutonium and other transuranics at Paducah and other 
sites. We also need to determine how well the workers knew of the 
hazards they were working with, and how well they were protected from 
these hazards--even in very small amounts. We will learn much more as 
our investigation moves ahead and seeks to confirm--in today's 
regulatory environment--whether the presence of these materials 
represented a potential health risk at Paducah or any other DOE plant.
    We will continue our efforts in a manner that is forthright and 
responsive to the public's need for timely information, while at the 
same time being careful that our answers are correct. We will also 
continue to work in a cooperative and transparent way with the workers, 
their representatives, the public, and the Congress. Secretary 
Richardson has made it clear that the days of secrecy and hiding 
information are over. We are committed to getting accurate information 
and doing so in a responsible manner. We are also committed to treat 
the veterans of the Cold War with dignity and with fairness.
    Thank you for the opportunity to testify. I would be happy to 
answer questions from any of the Subcommittee members.

[GRAPHIC] [TIFF OMITTED]61428.286

    Mr. Upton. Thank you, Mr. Michaels.
    Mr. Green.

                  TESTIMONY OF RICHARD D. GREEN

    Mr. Richard Green. Mr. Chairman and members of the 
subcommittee, thank you for the opportunity to talk about 
Paducah today. I am Richard Green, Director of EPA's Waste 
Management Division in EPA's Region 4 office in Atlanta. I am 
responsible for our programs dealing with hazardous substance 
regulation and cleanup, primarily under the Comprehensive 
Environmental Response Compensation Liability Act, CERCLA, or 
Superfund, and the Resource Conservation Recovery Act, or RCRA.
    EPA's role at DOE's Paducah plant and my remarks focus on 
EPA's oversight role as overseers of DOE's cleanup. EPA also 
has regulatory responsibilities for facility compliance with 
permits for its industrial operations which are governed by a 
variety of other environmental laws which did not apply until 
relatively recently in the plant's operation history.
    The Commonwealth of Kentucky is authorized as the primary 
environmental regulator in lieu of EPA under many EPA statutes 
and we work closely with Kentucky in providing oversight of 
DOE's activities pursuant to those authorities.
    I want to preface my comments about the cleanup at Paducah 
by saying that EPA takes the concerns of current and former 
workers regarding possible exposures in the DOE workplace very 
seriously. My focus on the cleanup program does not imply any 
disinterest in those concerns whatsoever. Personally, I was 
moved by testimony that we heard earlier today on Panel I. 
However, my remarks will address efforts under EPA's 
authorities to effect cleanup and to protect nearby 
populations.
    I continue to follow the news reports about Paducah and the 
efforts by DOE's team investigating health and safety issues. 
There is so much to do at the site that it was difficult to 
even determine where to start several years ago. We have been 
actively working to require cleanup to take place. In fact, EPA 
Kentucky and DOE facility representatives are ready now to 
reprioritize cleanup activities to address issues such as the 
removal of the scrap metal piles. We welcome the opportunity to 
work with DOE and Kentucky to identify other cleanup activities 
that can be accelerated.
    In November 1988, EPA issued a CERCLA 104/106 
administrative consent order by which DOE agreed to protect 
nearby homeowners from contaminated groundwater and to clean up 
any related contamination serving as the source for that 
problem. Under this order, DOE has supplied drinking water to 
private residences, continues to conduct monthly sampling of 
drinking water and has completed an initial investigation to 
determine all sources of the contaminants, including 
radionuclides which exceed Safe Drinking Water Act 
requirements. The DOE immediately agreed to provide bottled 
drinking water to nearby residents. Working with EPA and 
Kentucky, DOE extended water lines to homes in the area of 
contamination and initiated an environmental study to determine 
the nature and extent of the contamination that caused the 
offsite release as well as to identify other problem areas.
    The outgrowth of this initial work under the administrative 
order resulted in two key Superfund Records of Decision or RODS 
having to do with the northwest plume and the northeast plume, 
the two major groundwater contamination plumes which are 
advancing from the site to the Ohio River reportedly at about a 
foot a day. These decisions require the Department to extract 
and treat the most contaminated groundwater that is underlying 
the site. They represent EPA's requirement for early action 
under Superfund whenever possible, and they are operating right 
now but they are not the final remedy.
    While these initial cleanup actions were underway, the site 
was proposed for the National Priorities List, the Superfund 
list in 1993, and finalized on that list in May, 1994. Here is 
a summary of what we have required under the order and the NPL 
listing so far: EPA Kentucky and the facility have identified 
areas of known or suspected contamination. We have set 
priorities for study and cleanup and implemented detailed 
studies of the highest priority sites. These include additional 
areas of groundwater contamination that have been identified, 
water and sediments of streams near the facility, soils onsite 
and across the plant for disposal. Six remedial actions have 
been selected and implemented addressing groundwater, sediments 
in ditches, and surface soil at areas within the industrial 
complex. Two removal actions have been taken, one for a 
radiologically contaminated rubble pile off the complex and a 
second for PCB contaminated soils within the complex.
    Several detailed remedial investigations are underway and 
more are set to begin as early as this month. We signed a 
Federal facilities agreement with DOE and Kentucky in February 
1998. It helps coordinate the actions of the three parties and 
sets milestones. It requires the three agencies to coordinate 
with the public about cleanup efforts and to participate in a 
site-specific advisory board which consists of 18 or 20 local 
representatives.
    The actions taken thus far, while significant and 
appropriate, are by no means sufficient to address all of the 
known or potential contamination associated with the facility. 
EPA's context for approaching its oversight of the facility's 
cleanup is that Paducah, just as the rest of the nuclear 
weapons complex, was self-regulated throughout much of its 
operational history. That leads us to expect to find additional 
areas of contamination, such as the landfills referred to by 
Mr. Garland in the Panel I testimony.
    Setting priorities between response to known problems and 
searching for unknown or suspected problems is a challenge but 
it must be done. We take the community's concerns extremely 
seriously, and we are pleased that DOE has expressed interest 
in developing a strategy to investigate offsite areas that may 
contain hazardous waste.
    The environmental priorities at Paducah should be 
reconsidered in light of new concerns being raised. EPA 
supports a differently balanced response to known problems as 
well as a broad-based search for any areas that may be 
contaminated but not presently known. We have done a lot here, 
but a lot remains to be done. Paducah has been constrained not 
only by the DOE budget, but in our opinion by DOE's allocation 
of that budget, particularly regarding cleanup funding. Indeed 
we have been told by DOE that they will not be able to meet 
even the baseline commitments in the FFA beginning in about the 
year 2001. EPA does not accept this explanation and we have 
refused to renegotiate the FFA down. DOE and Kentucky are ready 
to reallocate priorities, add additional actions, and 
accelerate response at the site. Thank you.
    [The prepared statement of Richard D. Green follows:]
  Prepared Statement of Richard D. Green, Director, Waste Management 
       Division, U.S. Environmental Protection Agency, Region IV
    Mr. Chairman, members of the Subcommittee, thank you for the 
opportunity to be here today. I am Richard D. Green, Director of EPA's 
Waste Management Division in the Agency's Region 4 office, Atlanta, 
Georgia. I am responsible for our programs dealing with hazardous 
substance regulation and cleanup, primarily under the Comprehensive 
Environmental Response, Compensation and Liability Act, and the 
Resource Conservation and Recovery Act. EPA's role at the Department of 
Energy's Paducah Gaseous Diffusion Plant in Kentucky, and my remarks, 
focus on EPA's oversight role as overseers of the Department of 
Energy's cleanup. EPA also has regulatory responsibilities for facility 
compliance with permits for its industrial operations governed by a 
variety of other environmental laws. The Commonwealth of Kentucky is 
authorized as the primary environmental regulator in lieu of EPA under 
many EPA statutes, and we work closely with Kentucky in providing 
oversight of DOE's activities pursuant to those authorities.
    I want to preface my comments about the cleanup at Paducah by 
saying that EPA takes the concerns of current and former workers 
regarding possible exposures in the DOE workplace very seriously. My 
focus on the cleanup program does not imply any disinterest in those 
concerns. Rather, my remarks will address efforts under EPA's 
authorities.
    I continue to follow the news reports about Paducah and the efforts 
by the DOE's team investigating health and safety issues. The cleanup 
of Paducah is a large and complex task and has been receiving priority 
attention. In fact, EPA, Kentucky, and DOE facility representatives 
stand ready to reprioritize cleanup activities to address issues such 
as the removal of the scrap metal piles. EPA welcomes the opportunity 
to work with DOE and Kentucky to identify other cleanup activities that 
can be accelerated.
    On November 23, 1988, EPA issued a CERCLA 104 /106 Administrative 
Consent Order by which DOE agreed to protect nearby homeowners from 
contaminated groundwater and to cleanup any related contamination 
serving as the source for that problem. Under this order, DOE has 
supplied drinking water to private residences, continues to conduct 
monthly sampling of drinking water, and has completed an initial 
investigation to determine all sources of the contaminants, including 
radionuclides, which exceed Safe Drinking Water Act requirements. The 
Department immediately agreed to provide bottled drinking water to 
nearby residents. Working with EPA and Kentucky, DOE extended water 
lines to homes in the area of contamination and initiated an 
environmental study (known as the Phase I study) to determine the 
nature and extent of the contamination that caused the offsite release, 
as well as identifying other problem areas.
    The outgrowth of the initial work required by the Administrative 
Order resulted in two key CERCLA Records of Decision: Interim Remedial 
Action of the Northwest Plume, and the Interim Remedial Action of the 
Northeast Plume. These two cleanup decisions require the Department to 
extract the most contaminated groundwater underlying the site. While 
these initial cleanup actions were underway, the site was proposed for 
the National Priorities List in 1993, and in May 1994, EPA finalized 
the addition of the facility to the Superfund National Priorities List.
    EPA, Kentucky and the facility have identified areas of known or 
suspected contamination, set priorities for study and cleanup and 
implemented detailed studies of the highest priority sites. These 
include additional areas of groundwater contamination, water and 
sediments of streams near the facility, soils on-site, and areas the 
Plant used for disposal. Six remedial actions have been selected and 
implemented addressing groundwater, sediments in ditches, and surface 
soil at areas within the industrial complex. Two removal actions have 
been taken, one for a radiologically contaminated concrete rubble pile 
off the industrial complex and a second for PCB contaminated soils 
within the complex. Several detailed remedial investigations are 
underway and more are set to begin as early as this month.
    While these actions were being planned and implemented, a Federal 
Facility Agreement pursuant to CERCLA Section 120 was negotiated and 
signed February 13, 1998. The FFA helps coordinate the actions of DOE, 
EPA, and Kentucky and sets milestones for DOE's cleanup program. The 
Agreement also requires the three agencies to coordinate with the 
public about cleanup efforts and to participate in the Site Specific 
Advisory Board formed in August 1996.
    The actions taken thus far, while significant and appropriate, are 
by no means sufficient to address all of the known or potential 
contamination associated with the Paducah facility. EPA's context for 
approaching its oversight of this facility's cleanup is that Paducah, 
just as the rest of the nuclear weapons complex, was self-regulated 
throughout much of its operational history. That leads us to expect to 
find additional areas of contamination, both on and off-site. Setting 
priorities between response to known problems and searching for unknown 
or suspected problems will always be a formidable challenge. The 
community's concerns regarding additional unknown areas of 
contamination are taken very seriously by this Agency.
    The environmental priorities at Paducah should be reconsidered in 
light of new concerns being raised. EPA supports a differently balanced 
response to known problems as well as a broad-based search for any 
areas that may be contaminated but not presently known.

    Mr. Whitfield [presiding]. Dr. Knapp.

                  TESTIMONY OF MALCOLM R. KNAPP

    Mr. Knapp. Thank you for the opportunity to discuss the 
NRC's responsibilities regarding Paducah. I will briefly 
summarize our responsibilities, the risks posed to workers and 
the public, and our current regulatory actions.
    The Energy Policy Act of 1992 assigns the NRC 
responsibility for regulating the safety, safeguards and 
security of the gaseous diffusion plants, and we take these 
responsibilities very seriously. We certified the plants in 
November 1996 and assumed regulatory responsibility in March 
1997. As stated in our reports to Congress in 1998 and 1999, we 
have determined that both plants are operating safely and in 
accordance with our requirements.
    Under the USEC lease agreements, certain areas are not 
included within the leased areas and these remain under DOE, 
not NRC regulatory responsibility.
    In the figure posted at my left, the blue areas in the 
Paducah plant remain under DOE's authority and responsibility. 
The cream areas are the responsibility of USEC, regulated by 
NRC. The light olive areas are areas of shared responsibilities 
by USEC and DOE for access, and NRC regulates the USEC 
activities in those areas.
    Prior to our assumption of regulatory oversight in 1997, 
USEC performed a site-wide survey of indoor and outdoor areas 
of the plants to identify any contaminated areas. They placed 
placards in those contaminated areas which USEC was releasing 
from DOE to identify them clearly, and they control these areas 
in accordance with their radiation protection program.
    Based upon our review of their records since 1997, worker 
radiation exposures at Paducah in NRC-regulated areas are very 
low and in compliance with NRC requirements. With respect to 
the public and the environment's exposure, the report which 
USEC provided as part of its application for certification and 
a subsequent report in 1997 show that with respect to USEC 
responsibilities, concentrations of transuranic radionuclides 
in airborne emissions, water samples, soil samples and sediment 
samples are within regulatory limits.
    With respect to current NRC regulatory actions, we maintain 
a staff of 2 full-time onsite resident inspectors at each plant 
who are tasked with monitoring day-to-day plant operations, 
including radiological control practices in the area of the 
facility for which we have responsibility. In addition, 
inspections by both headquarters and regional specialists are 
conducted on about a monthly basis to assess performance of 
plant operations.
    An NRC inspection team comprised of health physics 
specialists conducted a confirmatory inspection of USEC's 
radiation protection program during the week of August 20 at 
Paducah. While the team is reviewing the results of that 
inspection, it tentatively concluded that the USEC radiation 
protection program at Paducah is effective in identifying and 
controlling worker exposure to contamination. The team did 
identify two areas that require further investigation: the 
methodology USEC uses to assess transuranic uptakes, and the 
methodology USEC uses to determine the percentage of 
transuranics in the sites' contamination.
    To conclude, USEC is operating the Paducah Gaseous 
Diffusion Plant safely and in accordance with NRC requirements. 
Nevertheless, the recent series of articles has prompted 
additional scrutiny by the NRC to ensure continued protection 
of workers and the public from exposure to uranium and other 
radioactive materials.
    Although our ongoing inspection at Paducah raises several 
issues which require additional information and assessment, 
based on our reviews to date we have found existing exposures 
to USEC workers are well within NRC regulatory limits.
    That concludes my prepared testimony. I will be happy to 
answer questions.
    [The prepared statement of Malcolm R. Knapp follows:]
Prepared Statement of Malcolm Knapp, Executive Assistant, Office of the 
    Executive Director for Operations, Nuclear Regulatory Commission
    Good morning, my name is Malcolm Knapp and I am an Executive 
Assistant in the Office of the Executive Director for Operations. Thank 
you for providing me the opportunity to discuss the NRC 
responsibilities regarding the Paducah gaseous diffusion plant and 
associated current issues. I will briefly summarize these 
responsibilities, risks posed to workers and the public, and NRC's 
current regulatory actions related to the Paducah plant.
NRC Responsibilities
    The Atomic Energy Act (AEA), as amended by the Energy Policy Act of 
1992, assigns NRC the responsibility for regulating the safety, 
safeguards, and security of the gaseous diffusion plants, which are 
owned by the Department of Energy (DOE) but leased and operated by the 
United States Enrichment Corporation (USEC), now a non-Government 
corporation. The NRC takes this responsibility for worker and public 
health and safety very seriously. NRC promulgated requirements in 10 
CFR Part 76 on September 23, 1994, that provide the regulatory basis 
for NRC certification and inspection of USEC's operation of the gaseous 
diffusion plants. A 1997 Memorandum of Understanding (MOU) between DOE 
and NRC further clarifies NRC's and DOE's interactive roles for safety, 
safeguards, and security in those areas leased by USEC.
    NRC certified the gaseous diffusion plants in November 1996 and 
assumed regulatory responsibility in March 1997. As stated in NRC's 
reports to Congress in 1998 and 1999, the NRC has determined that both 
plants are operating safely and in accordance with NRC requirements.
Areas Not Under NRC Responsibility
    Under the USEC-DOE lease agreement, certain areas within the plants 
are not included in the leased areas, and these areas remain under DOE, 
not NRC, regulatory responsibility at Paducah. These are areas 
containing material from operations conducted by DOE to support defense 
program activities (also known as legacy material) and areas containing 
significant quantities of high enriched uranium. DOE retains 
responsibility for environmental protection, safety, safeguards, and 
security for these excluded areas, and DOE retains responsibility for 
environmental restoration activities and waste management of the legacy 
material. Some areas within USEC leased buildings are not part of the 
leased USEC space, these areas were retained by DOE and are used to 
store or contain DOE legacy material. These areas are physically 
delineated as DOE space and are not subject to NRC regulation. Under 
the Atomic Energy Act, unless expressly stated otherwise by statute, 
the NRC does not regulate DOE activities.
Contamination
    Prior to NRC's assumption of regulatory oversight in March 1997, 
USEC performed a site-wide survey of indoor and outdoor areas of the 
plants to identify any contaminated areas. USEC placed placards in 
those contaminated areas which USEC was leasing from DOE and which were 
to be under NRC jurisdiction to identify clearly these contaminated 
areas. In addition, any USEC areas which become contaminated as a 
result of USEC operations, for example, maintenance activities, are 
decontaminated or marked by USEC as contaminated areas. In each of 
these cases, USEC controls these areas in accordance with its Radiation 
Protection Program as described in the Safety Analysis Reports.
    Areas under NRC jurisdiction are routinely surveyed for 
contamination. USEC surveys the lunchrooms and breakrooms in the 
cascade building area control rooms daily during the work week to 
verify that any contamination levels are below limits that ensure 
public and plant staff safety. In addition, onsite NRC resident 
inspectors regularly assess contamination controls to determine the 
effectiveness of the plant Radiation Protection Program. In general, 
these assessments which are reported by the resident inspectors in 
their monthly reports, have found that USEC's contamination controls in 
place on USEC leased space are consistent with the plant Radiation 
Protection Program and are, therefore, acceptable.
Worker Exposure
    Worker exposure occurs from the inhalation or ingestion of 
radioactive material (internal dose) and exposure to radiation from 
sources outside the body (external dose). Both doses are added together 
to calculate total dose.
    Based on NRC review of USEC records since 1997, worker radiation 
exposures at Paducah in NRC-regulated areas are very low and in 
compliance with NRC requirements. The program uses personnel dosimetry 
(badges) for monitoring and recording external radiation exposures and 
analysis of urine samples to monitor and estimate worker internal 
radiation exposures. Radiation doses are reported in units of rem or 
millirem (1000 millirem equals 1 rem). The NRC annual dose limit for a 
worker from NRC licensed operations is 5 rem.
    In 1997, those Paducah workers who did receive a dose had an 
average annual total dose of 0.051 rem, while the average annual total 
dose at an NRC-licensed power reactor was 0.202 rem and at an NRC-
licensed fuel cycle facility was 0.236 rem. The largest total dose 
recorded in 1997 for any worker at the plant was 0.365 rem. Less than 
2% of that dose was estimated to be from internal radiological 
contamination.
    For 1998 the largest total dose recorded for any worker at the 
Paducah plant was 0.382 rem. Again less than 2% of that dose was 
estimated to be from internal radiological contamination. To put these 
doses into perspective, the average dose from natural sources to a 
person in the United States is 0.300 rem per year and, as noted 
previously, the NRC annual limit on total dose from NRC licensed 
operations to a radiological worker is 5 rem.
Public/Environmental Exposure
    USEC provided to NRC and other regulatory agencies an environmental 
compliance status report containing then current environmental and 
effluent monitoring data as part of its application for certification. 
The report for 1997 is publically available and shows that 
concentrations of transuranic radionuclides in airborne emissions, 
water samples, soil samples, and sediment samples are within regulatory 
limits.
    Since NRC assumed regulatory oversight of the gaseous diffusion 
plants on March 3, 1997, NRC is not aware that any disposal by USEC of 
radioactive waste from Paducah has occurred at other than authorized 
disposal facilities. Although portions of the USEC-leased areas are 
contaminated with radioactive materials and will remain contaminated 
during enrichment operations, these areas will be decommissioned by DOE 
after the USEC lease is terminated and prior to release of the site in 
accordance with criteria established by DOE.
No Current Activities Involving Recycled Uranium or Precious Metals
    The reactor tails program, which enriched recycled uranium 
recovered from reprocessed defense reactor fuel, was conducted by the 
Atomic Energy Commission (AEC) and DOE before USEC took over plant 
operations and before NRC assumed regulatory oversight of the gaseous 
diffusion plants on March 3, 1997. The recycling of precious metals 
also was conducted at Paducah by the AEC and DOE before NRC assumed 
regulatory oversight of the gaseous diffusion plants. Although both the 
reactor tails and precious metals recycling programs were completed 
before USEC took over plant operations, USEC's worker protection 
programs are required to assess the potential impacts of contaminants 
from both historical and current operations that may impact the work 
environment.
Current Regulatory Actions
    The NRC maintains a full-time staff of two onsite resident 
inspectors at each plant who are tasked with monitoring day-to-day 
plant operations, including radiological control practices, in those 
areas of the facility for which NRC has regulatory responsibility. In 
addition, inspections by both Headquarters and Regional specialist 
inspectors are conducted on about a monthly basis to assess performance 
of plant operations.
    An NRC inspection team comprised of health physics specialists 
conducted a confirmatory inspection of USEC's Radiation Protection 
Program at the Paducah plant during the week of August 30, 1999, and 
conducted a similar inspection at the Portsmouth plant the week of 
September 13, 1999. Following a review of the results, the team expects 
to close the inspection in mid-October. The objectives of the 
inspection are to confirm the adequacy of USEC's: (1) understanding of 
the radiological contamination on site; (2) controls for worker 
protection for transuranics such as neptunium and plutonium, technetium 
and uranium radionuclides; (3) internal and external dose assessment 
program for these radionuclides; (4) characterization methodology for 
measuring these radionuclides; and (5) environmental and effluent 
monitoring practices for these radionuclides.
    Although the NRC inspection team is still reviewing the results of 
the Paducah and Portsmouth inspections, they have tentatively concluded 
that the USEC Radiation Protection Programs at Paducah and Portsmouth 
are effective in identifying and controlling worker exposure to 
contamination. Air sampling and work controls in areas where workers 
could possibly get exposed to plutonium contamination are effective and 
no internal exposures were indicated. The team identified two issues 
which require further investigation: (1) the methodology USEC uses to 
assess transuranic uptakes; and (2) the methodology USEC uses to 
determine the percentage of transuranics in the site's contamination. 
USEC is preparing information to respond to these issues, and some 
members of the NRC inspection team returned to Paducah this week to 
follow up. Although the methodology used by USEC to assess internal 
dose is being evaluated further, the NRC has not found any indication 
that the annual dose to any worker or member of the public has 
approached NRC safety limits in portions of the facility that are 
regulated by NRC. Inspection exit meetings which are open to the public 
are anticipated to be held near the two sites in early October 1999.
Conclusion
    In conclusion, USEC is operating the Paducah gaseous diffusion 
plant safely and in accordance with NRC requirements. Nevertheless, the 
recent series of articles has prompted additional scrutiny by the NRC 
to ensure continued protection of workers and the public from exposure 
to uranium and other radioactive materials. Although our ongoing 
inspection at Paducah raises several issues that require additional 
information and assessment, based on our reviews to date, we have found 
that existing exposures to USEC workers at the plants are well within 
NRC regulatory limits.

    Mr. Upton. Mr. Logan, I didn't have an opportunity to talk 
to you, but I am delighted to see you and Dr. Volpe here and 
appreciate you taking time to come. You may proceed.

                  TESTIMONY OF ROBERT W. LOGAN

    Mr. Logan. Thank you. My name is Robert Logan, and I am 
Commissioner of the Department for Environmental Protection in 
Kentucky, and with me I have Dr. Volpe who is Manager of the 
Radiation Control Branch in the Cabinet for Health Services. We 
appreciate the opportunity to speak before the committee about 
Kentucky's efforts to address environmental issues at the 
Paducah Gaseous Diffusion Plant.
    The Commonwealth is deeply concerned about the worker 
exposure to citizens in the area, but today my comments are 
focused on environmental issues.
    The Paducah Gaseous Diffusion Plant is situated in western 
Kentucky, located in McCracken County, approximately 9 miles 
west of Paducah and 3 miles south of the Ohio River on a 3,422-
acre Federal reservation. DOE has had exclusive regulatory 
authority for radionuclides on their property. From 1952 until 
the mid-1970's, DOE has had exclusive control over the waste 
generated and disposed at the facility. The Kentucky Cabinet 
currently has regulatory authority for air quality, water and 
waste management. The State authority to regulate these 
concerns comes from the delegation of Federal environmental 
programs including the Clean Water Act, the Clean Air Act, the 
Resource and Conservation and Recovery Act, RCRA.
    The NRC, the U.S. Environmental Protection Agency, and the 
Cabinet for Health Services has primary jurisdiction for 
radioactive air emissions. EPA did not grant authority to 
address radioactive emissions to our air program until July 14, 
1999. Based upon this grant authority, Kentucky has adopted 
subpart H of the Radionuclide Emission Standard for Hazardous 
Air Pollutants. The Cabinet is currently reviewing the USEC 
Title 5 operating air permit application.
    In water, Kentucky began permitting the facility for water 
discharges in 1984 after delegation of the national pollution 
discharge elimination system.
    Under the NPDS program, the Cabinet has issued two permits. 
One permit focuses on discharge associated with plant 
operations, cleanup of groundwater plumes and contaminated 
soils and stormwater runoff from the storage areas and multiple 
landfills. This permit is issued to DOE and its operating 
contractor.
    The second permit is issued to USEC and addresses the 
process water from uranium enrichment, stormwater runoff from 
processing and storage areas, cooling water and sanitary waste 
water.
    The DOE and USEC permits contain monitoring requirements 
and limitations for toxicity, metals, organics, radioactive 
materials, including uranium, technetium-99 and alpha beta 
particles and conventional pollutants. Kentucky performs 
quarterly inspections of both discharge permits. DOE performs 
monthly monitoring for conventional and quarterly monitoring 
for radionuclides. We have issued six Notices of Violations on 
these permits. These NOVs, as we call them, have been obtained 
for the corrective actions for the violations, and subsequent 
inspections of the plant have revealed that corrective actions 
were completed.
    In the area of waste, Kentucky has issued four waste 
management permits to the facility. In 1991, a hazardous waste 
permit was issued under subtitle C requirements under RCRA to 
DOE. This permit requires DOE to characterize and remediate 
contamination at over 200 contaminated areas at the facility. 
In April 1991, Kentucky's Cabinet issued a solid waste disposal 
permit for the disposal of residential waste generated at the 
facility. In February 1985, we issued a solid waste disposal 
permit for the disposal of inert solid waste generated at the 
facility. The residential and inert landfills were capped in 
1995 and 1992 respectively.
    In November 1996, Kentucky issued a solid waste disposal 
permit for the disposal of solid waste generated at the 
facility. DOE has appealed certain conditions contained if the 
permit. DOE is challenging Kentucky's ability to require 
characterization of DOE's solid waste prior to disposal and 
challenges the Cabinet's authority to set limits on the level 
of radioactivity associated with solid waste that can be 
disposed of in a solid waste landfill.
    These challenges are currently pending in State and Federal 
court. These three permits were issued under subtitle D of the 
Solid Waste Disposal Act. Quarterly monitoring was required at 
these subtitle D landfills. This monitoring has identified 
chromium, technetium-99 and TCE as contaminants of the 
groundwater. Kentucky has required DOE to increase the 
frequency of its groundwater monitoring and to provide an 
assessment of the source of the groundwater contamination. DOE 
has advised Kentucky that contamination is not coming from 
these landfills.
    In addition to its regulatory authority, in 1991 the 
Commonwealth entered into an Agreement in Principle with DOE in 
which the Commonwealth conducts oversight of environmental 
remediation. Under the Agreement in Principle, Kentucky has 
conducted 18 separate studies at the facilities concerning the 
fate and transport of contaminants and their associated 
environmental impacts.
    Under health and safety, the Cabinet for Health Services' 
efforts at the Paducah Gaseous Diffusion Plant have been 
redirected toward radiation monitoring and oversight of the DOE 
activities in order to ensure protection of public health and 
the environment. The Cabinet of Health Services provides 
technical advice for onsite and offsite radiation issues at 
Paducah.
    For example, in CHS's activities during the period 1995 to 
1999, they include the collection of over 4,500 samples from 
surface water, groundwater, soil sediments and vegetation in 
the vicinity of the plant.
    CHS has regulatory authority over radiological issues 
outside the facility boundary. The Department of Energy has 
regulatory authority under the Atomic Energy Act with respect 
to nuclear safety issues, including worker health and safety. 
We have also entered into Federal facilities agreement, a site 
management plan. In May 1994 the facility was placed on EPA's 
Superfund national priority list under CERCLA. Therefore, as a 
result of this listing, the Commonwealth of Kentucky, the 
Department of Energy and U.S. EPA have entered into a Federal 
facilities agreement in 1998 which addresses the overlapping 
responsibilities of the U.S. EPA under the State and RCRA and 
CERCLA. This establishes a cleanup time line for the facility 
of 2010.
    Kentucky has concerns about DOE's ability to meet this 
deadline considering its current funding levels. The State is 
also concerned about the extent of remediation that DOE has 
proposed for the facility, and in previous correspondence 
Kentucky has expressed these concerns to DOE management and 
members of the congressional delegation. We have placed 
correspondence in the record, and we want to note that on 
September 14, the Department of Energy press release has 
acknowledged our concerns. We hope DOE will in turn acknowledge 
this into action.
    Soils at the site are collected and analyzed by DOE. 
Kentucky ensures the quality and accuracy of sampling by a 
protocol to split samples with the Department of Energy. Over 
5,000 soil samples have been collected by Kentucky and DOE 
since 1990. The samples were tested for over 400 chemicals on 
the hazardous waste constituent list.
    Mr. Whitfield. Mr. Logan, we have your entire statement. If 
you would summarize.
    Mr. Logan. In summary, Mr. Chairman, Kentucky has several 
major issues that it wants to discuss. First and foremost is 
concern over soils contamination at the site. We have concerns 
about the groundwater contamination in the plume. We want to 
make sure that all of the information that has been developed 
we have received, and we are very concerned regarding the 
recent allegations that radioactive waste may have been 
disposed of at locations previously unknown to the State, and 
we continue to urge DOE to provide full accounting of its past 
disposal practices. And Kentucky is concerned that DOE is not 
receiving the funding necessary to conduct the cleanup in a 
timely manner.
    Mr. Chairman, we believe Congress must provide adequate 
funding to DOE to ensure the protection of the citizens and the 
environment of the Commonwealth of Kentucky.
    [The prepared statement of Robert W. Logan follows:]
     Prepared Statement of Robert W. Logan, Commissioner, Kentucky 
                 Department of Environmental Protection
    Mr. Chairman and members of the committee my name is Robert W. 
Logan. I am Commissioner of the Department for Environmental Protection 
in the Kentucky Natural Resources and Environmental Protection Cabinet 
(NREPC). I have with me today Dr. John Volpe, manager of the Radiation 
Control Branch in the Kentucky Cabinet for Health Services. We are here 
to speak before the Subcommittee on Oversight and Investigations 
concerning the Paducah Gaseous Diffusion Plant (PGDP). The PGDP is a 
large, industrial complex situated in western Kentucky. It is located 
in McCracken County approximately nine miles west of Paducah and three 
miles south of the Ohio River on a 3,423 acre federal reservation. 
Seven hundred forty-eight acres are fenced and contain most of the 
areas used by the PGDP. Surrounding the plant is the West Kentucky 
Wildlife Management Area, composed of 2,781 acres and managed by the 
Kentucky Department of Fish and Wildlife Resources. The PGDP is a 
uranium enrichment facility owned and operated by the U.S. Department 
of Energy (DOE) from 1952 until 1993. On July 1, 1993, United States 
Enrichment Corporation (USEC) assumed operations at the plant. The main 
function of the plant is the enrichment of uranium.
                          regulatory authority
    DOE historically and currently has had exclusive regulatory 
authority for radionuclides on their property. From 1952 until the mid-
1970's, DOE had exclusive control over the waste generated and disposed 
at the facility.
    The Kentucky NREPC currently has regulatory authority for air 
quality, water, and waste management. The state authority to regulate 
these areas comes from the delegation of federal environmental programs 
including the Clean Water Act, the Clean Air Act, and the Resource 
Conservation and Recovery Act (RCRA).
Air
    Kentucky does not have complete authority for Title V of the Clean 
Air Act, however, Kentucky has issued a series of 21 permits to DOE and 
its contractors since March 18, 1980. Air permits have generally not 
regulated radioactive emissions. The Nuclear Regulatory Commission, 
U.S. Environmental Protection Agency (USEPA), and Kentucky Cabinet for 
Health Services (CHS) have had primary jurisdiction over radioactive 
emissions. USEPA did not grant authority to address radioactive 
emissions to air until July 14, 1999. Based upon this grant of 
authority, Kentucky adopted Subpart H, the radionuclide National 
Emission Standard for Hazardous Air Pollutants (NESHAPS). The NREPC is 
currently reviewing the USEC Title V operating permit application.
Water
    Kentucky began permitting the facility for water discharges in 1984 
after delegation of the National Pollutant Discharge Elimination System 
(NPDES) permitting program to Kentucky in September 1983. Under the 
NPDES program, Kentucky NREPC issued two permits. One permit focuses on 
discharges associated with plant operations, cleanup of groundwater 
plumes and contaminated soils, and storm water runoff from storage 
areas and multiple landfills. This permit is issued to the DOE and its 
operating contractor. The second permit is issued to the USEC and 
addresses process water from uranium enrichment, storm water runoff 
from processing and storage areas, cooling water, and sanitary 
wastewater.
    The DOE and USEC permits contain monitoring requirements and 
limitations for toxicity, metals, organics (PCB and TCE), radioactive 
materials (Uranium and Technetium-99 and Alpha and Beta Particles), and 
conventional pollutants.
    Kentucky performs quarterly inspections of both discharge permits. 
DOE performs monthly monitoring for conventional pollutants and 
quarterly monitoring for radionuclides. Six Notices of Violations 
(NOVs) have been issued by Kentucky on these permits. These NOVs 
contained corrective actions for these violations. Subsequent 
inspections revealed that corrective actions were completed.
Waste
    Kentucky issued four waste management permits to the facility. In 
1991, a hazardous waste permit was issued under the subtitle C 
requirements of RCRA, to DOE. This permit requires DOE to characterize 
and remediate contamination at over 200 contaminated areas at the 
facility.
    In April 1981, Kentucky NREPC issued a solid waste disposal permit 
for the disposal of residential waste generated at the facility. In 
February of 1985, Kentucky NREPC issued a solid waste disposal permit 
for the disposal of inert solid waste generated at the facility. The 
residential and inert landfills were closed in 1995 and 1992, 
respectively. In November of 1996, Kentucky issued a solid waste 
disposal permit for the disposal of solid waste generated at the 
facility. DOE has appealed certain conditions contained in the permit. 
DOE is challenging Kentucky's ability to require characterization of 
DOE's solid waste prior to disposal and challenging the Cabinet's 
authority to set limits on the levels of radioactivity associated with 
solid waste that can be disposed in a solid waste landfill. These 
challenges are currently pending in state and federal court. These 
three permits were issued under Subtitle D of the Solid Waste Disposal 
Act.
    Quarterly monitoring is required for the three subtitle D 
landfills. This monitoring has identified chromium, Technetium-99 and 
trichloroethylene (TCE) as contaminants of groundwater. Kentucky has 
required DOE to increase the frequency of its groundwater monitoring 
and to provide an assessment of the source of the groundwater 
contamination. DOE has advised Kentucky that the contamination is not 
coming from these landfills.
Oversight
    In addition to its regulatory authority, in 1991 the Commonwealth 
of Kentucky entered into an Agreement in Principal with DOE in which 
the Commonwealth conducts oversight of environmental remediation. Under 
the AIP, Kentucky has conducted eighteen separate studies at the 
facility concerning fate and transport of contaminants and their 
associated environmental impacts.
Health and Safety
    The Cabinet for Health Services' efforts at the PGDP have been 
directed toward Radiation Monitoring and Oversight of DOE activities in 
order to ensure protection of public health and the environment. CHS 
provides technical advice for on-site and off-site radiation issues at 
PGDP. For example, CHS's activities during the period of FY1995 through 
FY1999 included the collection of over 4500 samples from surface water, 
groundwater, soils, sediment, and vegetation in the vicinity of the 
PGDP. In this time frame, CHS conducted 13,094 radiochemical analyses 
on the samples collected at PGDP and 15,773 quality control analyses to 
ensure the accuracy and precision of PGDP sample results.
    CHS has regulatory authority over radiological issues outside the 
facility boundary.
    The DOE has regulatory authority under the Atomic Energy Act with 
respect to nuclear safety issues including worker health and safety.
Federal Facilities Agreement--Site Management Plan
    In May of 1994, the facility was placed on USEPA Superfund National 
Priority List under the Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA). Therefore, as a result of 
this listing, the Commonwealth of Kentucky, the DOE and the USEPA, 
entered into a Federal Facilities Agreement (FFA) in 1998 which 
addresses the overlapping responsibilities of USEPA and Kentucky under 
the Resource Conservation and Recovery Act (RCRA) and CERCLA.
    The FFA established a clean up time line for the facility of 2010. 
Kentucky has concerns about DOE's ability to meet this deadline 
considering its current funding levels. Kentucky is also concerned 
about the extent of the remediation DOE has proposed for the facility. 
In previous correspondence Kentucky has expressed these concerns to DOE 
management and members of our congressional delegation. We would like 
to place this correspondence into the record today. We want to note 
that a September 14 DOE press release has acknowledged our concerns. We 
hope DOE will turn its acknowledgements into action.
                           site contamination
Soils
    Soil samples are collected and analyzed by the DOE. Kentucky 
assures the quality and accuracy of sampling by a protocol to split 
samples with DOE. Over 5,000 soil samples have been collected by 
Kentucky and DOE since 1990. Over 400 chemicals on the hazardous waste 
constituent list, as well as gross alpha and beta particles, PCBs, 
Technetium-99 and other radioactive elements.
    Over 200 waste management units have been identified in the RCRA 
permit. Contamination at these units includes inorganics, metals, and 
radionuclides. The FFA requires DOE to submit a report detailing the 
overall soil contamination at the facility by November 1999. 
Characterization and remediation of the soil is one of Kentucky's 
highest priorities.
Surface Water
    The USEC facility withdraws approximately 10 million gallons of 
water from the Ohio River daily for the uranium enrichment process. 
Process discharges are to Little and Big Bayou Creeks through permitted 
outfalls. These outfalls from the facility are monitored monthly by the 
NREPC and by the facility. Surface water and sediment samples are 
collected semiannually along Little and Big Bayou Creeks. Soil in the 
discharge water (sediment) and process water are contaminated with low 
levels of PCBs, metals, and radionuclides. DOE has been notified about 
these contaminants.
    Further, CHS performs a risk assessment of the radionuclides levels 
and where elevated levels are identified, DOE is notified by CHS.
Groundwater
    Approximately 9 billion gallons of groundwater are contaminated in 
three groundwater plumes. Trichloroethylene (TCE) was detected in off-
site residential wells in 1988. Trichloroethylene (TCE) and Technetium-
99 (99Tc) were discovered in private water wells north of the plant in 
August 1988. Kentucky notified potentially impacted residents and DOE. 
This prompted DOE to provide municipal water service to residences and 
businesses within the projected area of migration of the contaminated 
groundwater. Ensuing investigations confirmed that TCE and Technetium-
99 (Tc99) were traveling off-site via two massive groundwater plumes, 
the Northeast Plume and Northwest Plume. The Drinking Water Policy Area 
was recently enlarged to accommodate a new plume (southwest plume). 
Most of the groundwater contamination is confined about 60 to 100 feet 
below the surface. Actions have been taken to monitor the progression 
of the groundwater plumes and to assure that no one is drinking and/or 
using impacted groundwater: (1) sealing and capping groundwater wells 
within the Drinking Water Policy Area, (2) converting residences to a 
municipal water supply, (3) conducting door-to-door surveys, (4) 
publishing a newsletter, (5) conducting well-record searches, (6) 
sampling outside the Drinking Water Policy Area, (7) notifying local 
drilling companies about the Drinking Water Policy. DOE is also 
monitoring outside the Drinking Water Policy Area and has installed 
pumps. They are treating wells to slow the progression of the plume.
    Since 1991 over 250 groundwater wells located at various depths 
have been monitored on a biweekly basis. Over 400 chemicals on the 
hazardous waste constituent list, as well as gross alpha and gross beta 
particles, Technetium-99 and other radioactive elements such as 
Uranium, are routinely monitored. Other radioactive elements such as 
Thorium, Plutonium and Neptunium have been detected in a few 
groundwater wells at extremely low concentrations on an irregular 
basis. These include wells located on DOE reservation and property off-
site. Over 10,000 groundwater samples have been collected by Kentucky 
and DOE since 1990.
    Interim corrective actions have already been implemented to slow 
down the progression of the Northeast and Northwest Plumes
    To effectively clean up the groundwater, all sources of groundwater 
contamination must be identified and remedial actions designed to 
address the dense nonaqueous phase liquids (DNAPLS). Remediation of 
groundwater is also one of Kentucky's highest priorities.
Air
    The CHS installed and calibrated eight (8) continuous air samplers 
in the vicinity of the PGDP during FY 1997 to FY 1999. The CHS operates 
the eight air samplers to monitor airborne radioactive emissions from 
PGDP activities. Seven air monitoring stations are located on the DOE 
reservation in the vicinity of plant. One air monitor is located 
approximately 5 miles southeast of the PGDP to determine background 
activity.
    The CHS began collection and analyses of continuous air samples in 
January 1997 following a start-up and calibration period during which 
field operational problems with the samplers were corrected and 
laboratory methods for analyzing the sample filters were developed. 
Filters from continuous air samplers are collected on a weekly basis. 
In excess of 300 samples have been collected from January 1997 to 
present. The CHS conducted 645 radiochemical analyses on the samples.
    Analytical results from all continuous air sampler locations 
indicated that radiation activities were less than the maximum daily 
allowance, MDA, and, therefore, were below the background levels. In 
the event of exceedences, DOE is notified.
Fish and Wildlife
    The West Kentucky Wildlife Management Area (WKWMA) surrounds the 
facility. The NREPC and Kentucky Department of Fish and Wildlife have 
worked since 1992 to evaluate any adverse impact on the environment or 
wildlife in the WKWMA.
    Kentucky currently monitors deer, fish, and other wildlife in the 
WKWMA for contamination from the facility. PCBs found in fish collected 
and analyzed from the Little Bayou Creek prompted Kentucky to issue a 
fish consumption advisory in 1988. Low levels of plutonium were found 
in two samples of deer taken from the WKWMA in 1994. The levels did not 
pose a threat to health. Since that time, subsequent sampling has not 
revealed the presence of plutonium contamination in deer. Low levels of 
PCBs, metals and radionuclides have been found throughout the ecosystem 
in all levels of the food chain. Remediation of the site will be the 
only cure for these problems.
Community Relations and Outreach
    Since 1993, the NREPC, DOE and EPA produce a quarterly newsletter, 
``Kentucky Environmental Oversight News.'' Over 2,300 individuals 
receive copies of the newsletter statewide. However, outreach is 
focused on the Paducah area.
    The NREPC, DOE and EPA began the process of development of a 
citizens' advisory board in January 1995. The site specific advisory 
board (SSAB), created in 1996, is composed of 12 board members from the 
community and five state and federal regulatory agency representatives. 
The board meets periodically to discuss issues related to the 
permitting and corrective action.
    Additionally, in response to recent allegations about the facility, 
Kentucky has established a toll free number for citizens to obtain 
information about the facility and to voice their concerns.
Summary
    Kentucky is concerned with the recent allegations that radioactive 
wastes may have been disposed at locations previously unknown to the 
NREPC. Therefore, we continue to urge DOE to provide a full accounting 
of its past waste disposal practices. As noted Kentucky is concerned 
that DOE is not receiving the funding necessary to conduct the clean up 
in a timely manner. Therefore, we believe that Congress must provide 
adequate funding to DOE to ensure protection of the citizens and 
environment of the Commonwealth of Kentucky.

    Mr. Whitfield. Thank you, Mr. Logan.
    Dr. Knapp, in your opening statement toward the end, you 
were talking about the safety of the production facility 
operated by USEC. In closing, you said several other issues 
have been raised which we are looking at in more detail. What 
issues are you referring to there?
    Mr. Knapp. I was principally referring to the two that I 
mentioned in the latter part of my testimony. They have to do 
with the methodology that USEC is using to assist transuranics 
uptakes and the methodology that they are using to determine 
the percentage of contamination which is transuranics.
    In both cases, the percentages are low enough that we are 
very comfortable that workers are properly protected. That is 
contamination--that is, uptakes in general, as you heard from 
USEC earlier, are very low. They are less than 10 percent of 
NRC's limits for worker exposure. A small fraction of those 
exposures result from transuranics.
    We want to better understand the methodology they use to 
calculate that fraction. So these are not significant issues 
but we simply want to pursue them. It is an area where we want 
more comfort with what is going on. We anticipate having this 
resolved by the time we formally close our inspection in 
October.
    Mr. Whitfield. Since USEC has had responsibility for the 
production facility, have they been cited or fined by NRC?
    Mr. Knapp. They have received a number of violations. They 
have received, I believe, 38 noncited violations, 62 Level 4, 
that is our lowest level of violation. They have been involved 
in 4 of what we call Level 3 violations, one of which did 
result in a civil penalty of $55,000.
    For perspective--and this is a comparison that it is 
difficult to make, this is a somewhat higher level of violation 
than we might find, say, for a 2-unit commercial plant 
regulated by the NRC, but I think it is also fair to say that 
this is a different kind of plant and they are coming under NRC 
regulation, which tends to result in a somewhat higher number 
of violations than we would expect after a few number of years.
    Mr. Whitfield. Is there a significant difference between 
NRC's and DOE's health and safety requirements?
    Mr. Knapp. They are fundamentally identical. The bottom 
line, the requirements that we have for exposures to workers 
and the public, full body dose, dose to parts of the body, are 
identical.
    Mr. Whitfield. Mr. Green and Mr. Logan, if the site at 
Paducah was owned by a private company with the same problems, 
would you be treating them the same way?
    Mr. Richard Green. Congressman, we probably would have done 
things similar to the way we have done them. We entered into 
early action with DOE. We asked them to provide bottled water. 
We do that on the private side regularly. We asked them to take 
interim action on the groundwater. We do that, too. They did 
it.
    We have an enforceable--we entered into an order with them, 
yes. Of course, the main difference in treating a Federal 
facility is we really cannot say to them on the commercial--as 
we would to a commercial polluter and Superfund, if you don't 
do this, we will do it and then we will send you the bill and 
we will cost-recover the money. However, sites this big are 
rare. We have nothing on the commercial side, at least in 
Region 4 that approaches this in terms of size or really 
seriousness.
    Mr. Whitfield. Would you have any ballpark figure of what 
you think it would cost to clean this up?
    Mr. Richard Green. We have identified over 200 solid waste 
management units. We don't have a handle yet on the extent of 
contamination offsite, and not even all of it onsite, as recent 
newspaper reports showed.
    Based upon what we know, however, DOE is saying--and we 
have no real reason to dispute it--that the total cost could 
reach over $200 billion.
    Mr. Whitfield. $200 billion?
    Mr. Richard Green. Yes, sir.
    Mr. Whitfield. Is that DOE-wide or is that just Paducah?
    Mr. Richard Green. No, sir, I believe it is just Paducah. 
Let me confer with Mr. Johnston. (Mr. Owendoff comes forward 
and states that $200 billion is the estimated cost of cleaning 
up the entire DOE complex.)
    Mr. Whitfield. Do you agree with that?
    Mr. Owendoff. I am Jim Owendoff. It is for the entire 
complex: Oak Ridge; Ridgeland in Washington; and Rocky Flats in 
Idaho.
    Mr. Whitfield. Mr. Logan, do you want to respond?
    Mr. Logan. Had this been a private corporation or private 
business, we would have not been as sensitive to the budget 
requirements and the financial impact. We would have entered 
into similar agreements and a plan of action for 
characterization and remediation and a timeframe for cleanup, 
but we would have probably accelerated the schedule.
    Mr. Whitfield. Dr. Michaels, we have talked a little bit 
today about the Tiger team report and you have just completed 
your Phase I assessment back to 1990; and at least my memory 
was that some of the same problems today were there back in 
1990. A significant number of them were the same; is that 
correct?
    Mr. Michaels. It is correct, and at the same time it is not 
correct. They can be characterized the same way, but the 
severity is quite different. You heard about a situation that 
is some ways is out of control. What we saw in a recent 
investigation on which I presented the preliminary findings, we 
found some concerns that we take very seriously, but they were 
in the area of discipline and ALARA, the lowest allowable 
exposure that we can reasonably achieve. And we want to reach 
that, and that is why we took it very seriously. You can't say 
that it is the same extent of problems that the Tiger team saw.
    Mr. Whitfield. More severity than anything else?
    Mr. Michaels. Yes, but the areas in health physics or 
environmental contamination certainly were the same.
    Mr. Whitfield. Did you agree with Mr. Nemec's statement 
that his reading and DOE's reading on the cylinders were 
consistent with each other?
    Mr. Michaels. I haven't looked at that carefully. I don't 
think that they were necessarily inconsistent, but we took it 
seriously enough that we thought that people should be badged.
    Mr. Whitfield. Mr. Logan--well, to be fair about this, you 
have 5 minutes, Mr. Strickland.
    Mr. Strickland. Thank you, Mr. Chairman.
    Dr. Michaels, I have lots of questions to ask you and I 
will try to ask them succinctly, and if you can give me an 
abbreviated response.
    First of all, I have a document here sent by the Deputy 
Director of Naval Reactors, T.J. Glothier, regarding the pilot 
project, and it troubles me greatly. It argues against this 
effort. It says it would set a precedent for compensation of 
occupational radiation injury claims. The draft pilot program 
could establish an inappropriate precedent for other DOE and 
DOD activities where plutonium is handled. It says that the DOE 
proposal sets a precedent without identifying the full 
potential scope of the problem.
    And what this sounds like to me is an attempt to avoid 
responsibility and a fear of setting a precedent and accepting 
liability.
    Now I understand the need for caution, but we are talking 
about human lives and human health and safety, and it really 
troubles me that any part of our government would take such a 
cautious approach. The benefit of the doubt ought to go to 
workers who have been inappropriately exposed to dangerous 
materials. That ought to be the position of this government.
    I have written the White House saying that the workers at 
Portsmouth and the workers at Oak Ridge should not be excluded 
from this. I know that there was a facility that operated 
briefly at Portsmouth--for I don't know how long. It was shut 
down because they couldn't contain the contaminants. Could you 
tell me how long that conversion facility at Portsmouth was 
operational?
    Mr. Michaels. I am sorry, I didn't come prepared with that 
information. I don't think any of our staff here has it either.
    Mr. Strickland. Can you provide that?
    Mr. Michaels. Yes.
    Mr. Strickland. So you can't tell me how much radiation was 
not contained and for how long it was not contained?
    Mr. Michaels. That's correct. Even knowing how long it 
operated, knowing what our records look like, I don't think 
that I would be able to give you those answers.
    Mr. Strickland. So you can't tell me what level of exposure 
workers at Portsmouth may have received while that plant was 
operational?
    Mr. Michaels. That is correct. We have this large 
investigative study that will look at that issue, among the 
other issues, but the best we will do is try to estimate what 
the exposures were.
    Mr. Strickland. I understand, and I have confidence in your 
efforts. But I am just trying to get some things on the record 
here.
    Now, material came to my plant that was dangerous. Workers 
handled it. There was exposure. The operational facility was 
shut down, and yet apparently this administration is prepared 
to send to this Congress legislation asking that workers at 
Paducah be covered and that the workers at Portsmouth and Oak 
Ridge not be covered. Is that your understanding?
    Mr. Michaels. That is my understanding. The Secretary's 
commitment is to make sure that every affected worker is 
covered. We are just trying to figure out how to get there.
    Mr. Strickland. I have total confidence in the Secretary's 
efforts. My statement is directed toward the administration and 
the fact that they are prepared to send to this Congress 
legislation that would exclude workers who have been exposed 
potentially to the very same conditions as the workers at 
Paducah. I do not see how that can be justified.
    Can any of you there at that table give me a rationale for 
why such behavior should be undertaken by this administration?
    Mr. Strickland. Mr. Chairman, I yield back the balance of 
my time.
    Mr. Whitfield. That's the first time I have ever seen a 
panel speechless.
    Mr. Bryant, you have 5 minutes.
    Mr. Bryant. Thank you. I don't think I can say it any 
better than my colleague Mr. Strickland has said it, but 
certainly in terms of Oak Ridge, which is not in my district, 
but I do know that our congressional delegation from Tennessee 
is extremely concerned that any exposure--and certainly there 
appears to have been some--that we go in through all these 
locations and make sure that the workers are adequately 
treated.
    I had a couple of more immediate concerns beyond the 
workers, off the site. I would ask Mr. Knapp, I had asked the 
question earlier to one of the first members of the panel about 
the work that you are doing in terms of improvements to the 
site in the event there were an earthquake there. And my 
understanding, they were 3 years behind schedule. And my 
question was essentially why is it taking so long to get these 
improvements made? In the event there were an earthquake, you 
know, you're risking an awful lot of people around the Paducah 
area.
    Mr. Knapp.  I can't give you all the reasons for the time 
that it takes, but I'll try to say a few things. I have visited 
the site. The improvements are extensive. They involve putting 
a great deal of steel in to brace the structures at two of the 
buildings which are susceptible to earthquakes. The NRC 
received an application from USCC to extend that deadline.
    We looked at it with considerable care. We did a risk 
analysis of it based on, among other things, the fact that they 
have derated the cascade in those buildings to run them at 
below atmospheric pressure which will reduce the consequences 
should a severe earthquake occur. Based on the amount of time 
it would take them to do the work that they have to do, we 
considered that it was acceptable for them to extend that 
period through June 30, 2000.
    We now understand informally, they may come in for a few 
months beyond that and we are considering whether it will be 
acceptable to continue further this delay. I don't have an 
answer to that.
    With respect to other reasons why it is taking so long, a 
part of this, as I mentioned in the early part of my testimony, 
there are areas even within the buildings which USEC has which 
remain under the control of DOE because they have legacy 
material in them. And in some cases, the presence of this 
legacy material, we understand from USEC, makes it difficult 
for them to get into parts of the buildings to be able to 
complete the construction of this bracing.
    And at this time, we understand that when DOE is able to 
release some of these areas, may have an effect on when the job 
will be done. We understand that DOE is working on it 
aggressively. That's the best answer I can give you.
    Mr. Bryant. Thank you.
    Mr. Green, you or Dr. Knapp mentioned this water that's 
going toward the Ohio River. Dr. Cochran, on the first panel, 
indicated it had already arrived. Were you the one that 
mentioned it just a few minutes ago between the two of you?
    Mr. Richard Green. Yes, sir.
    Mr. Bryant. Why is there this disagreement?
    Mr. Richard Green. I noted what Dr. Cochrane said earlier 
and we have no evidence that it has reached the river, haven't 
seen any data to say that it has. We have slowed the migration 
of the plumes significantly. And I am told that there is a 
chance that based on what we see so far, that we could 
intercept them completely. The EPA has not seen any data that 
says they've reached the Ohio.
    Mr. Bryant. That's encouraging. Because certainly I think 
we all agree that what needs to be done there--is it that big a 
problem?
    Mr. Richard Green. Yes, sir.
    Mr. Bryant. Is it being overstated?
    Mr. Richard Green. No, sir, it's not being overstated.
    Mr. Bryant. It seems to me it would be a big problem.
    Mr. Richard Green. It is. We don't want it to reach the 
river. I do want to emphasize that these remedies that are in 
place, that we're calling pump and treat remedies, extraction, 
physically extracting water and treating it and discharging 
treated water, these are interim remedies to stop or slow the 
plume. This is not the final remedy.
    Mr. Whitfield. Mr. Burr.
    Mr. Burr. Mr. Green, I honestly think from your comments 
that you are engaged in this in a very positive way, and I 
thank you for that and for the EPA. And you said something that 
piqued my interest just a little bit. You said when you got 
involved in the site, and I quote you, ``There is so much to 
do, we didn't know where to start.''
    Mr. Richard Green. Yes, sir.
    Mr. Burr. When was that?
    Mr. Richard Green. Well, that was in the mid-eighties, 
actually, when the site was no longer--well, it lost its 
sovereign immunity really, and became subject to the Federal 
Facilities Compliance Act. And then we, State Health 
Department, saw the data and issued the order. And it's not 
that we issued the order on high to DOE; DOE was very 
cooperative in implementing the order. And that's how we--
that's the beginning of our involvement.
    Mr. Burr. The appendix that we've talked about today in the 
executive summary was in fact part of a Superfund 
investigation, am I correct? Or it was a requirement under 
Superfund? Later I guess, 1994, it officially was a Superfund 
site, correct?
    Mr. Richard Green. Later it was, yes. In 1994 it was final 
on the NPL.
    Mr. Burr. That executive summary required EPA approval 
prior to its release, did it not?
    Mr. Richard Green. I need to know, Mr. Burr, if you mean 
the worker health and safety appendix?
    Mr. Burr. It's the Phase I results of site investigation, 
Phase I, done by Martin Marietta, March 22, 1991. It's my 
understanding that to release that, it required EPA approval.
    Mr. Richard Green. Yes, sir, that's correct.
    Mr. Burr. To your knowledge--were you involved in it in 
this site at that time?
    Mr. Richard Green. No, sir.
    Mr. Burr. Okay. Given that that required EPA approval, do 
you have any knowledge of EPA ever going back to request that 
appendix 2B-17 that has been missing for 9 years?
    Mr. Richard Green. I personally don't.
    Mr. Burr. Has EPA requested of the current contractor, 
Bechtel, 2B-17 appendix?
    Mr. Richard Green. I don't know, Mr. Burr.
    Mr. Burr. I would take from that, that you don't currently 
have a copy of the appendix 2B-17.
    Mr. Richard Green. That's correct.
    Mr. Burr. Would you like a copy?
    Mr. Richard Green. I would.
    Mr. Burr. I think our good friends in the front row are 
probably making that note as we go through.
    Dr. Michaels, does DOE have a copy of 2B-17 appendix?
    Mr. Michaels. I'm told we do.
    Mr. Burr. When did you receive that?
    Mr. Michaels. Let me request Jimmy Hodges, manager of the 
Paducah site, to answer this.
    Mr. Hodges. We have a copy of the appendix B that you 
talked about and I don't know the exact date that we actually--
it was received. But when we did note that it was missing from 
the reading room, we were able to find that within a day's time 
and put that back in the reading room. So it did exist. It was 
available. It was just not in the reading room at that time.
    Mr. Burr. You were at the site; am I correct?
    Mr. T4Hodges. Yes, sir.
    Mr. Burr. Was this document really missing for 9 years?
    Mr. Hodges. In my opinion, it was not. It did not appear in 
the reading room, I can't give you an explanation for that. But 
the data was available. It was used in the production of other 
reports that were generated as a result of that site 
characterization. So the data did exist. Why it was not in that 
particular document in the reading room, I don't have a good 
explanation for it.
    Mr. Burr. As a matter of fact the data did not exist in a 
report until 1996 is I think the first indication that we were 
given by Martin Marietta. Can you shed any light on how that 
appendix could be completed in January 1991, the executive 
summary was then completed on March 22, 1991, approved by the 
EPA, and a year later in October 1992, the annual environmental 
report required by DOE was compiled by Martin Marietta and 
neither one, the executive summary nor the annual report, 
referenced to a plutonium contamination?
    Mr. Hodges. I don't know the answer to that sir. I can 
certainly research that and give you a better opinion of what 
might have happened there.
    Mr. Burr. Mr. Logan, does the state of Kentucky have a copy 
of 2B-17 appendix?
    Mr. Logan. Yes, sir we recently received a copy of that on 
a request to DOE. We didn't have, until we read in the paper 
that it was missing. We made a request for it and we did 
receive a copy of it.
    Mr. Burr. I'll be very quick, Mr. Chairman. In that 
document, it states that as much as 240 picocuries per gram of 
soil of plutonium contamination was found. Mr. Knapp, I have no 
idea about this stuff. Is that a lot of plutonium 
contamination?
    Mr. Knapp.  Sir, I'm not a health physicist. I'll be 
delighted to provide that answer for the record, but I don't 
know off the top of my head. Let me check quickly with my 
staff. I'm just not sure we know that right here.
    Mr. Whitfield. Mr. Burr, I think what we'll do is we'll 
each take another round not to exceed 5 minutes.
    Mr. Burr. Can we reverse the order we were in?
    Mr. Whitfield. Do you have to go out somewhere?
    Mr. Burr. Mr. Bryant and I have another hearing downstairs 
that we've patiently--I will wrap up in----
    Mr. Whitfield. Are you asking unanimous consent that----
    Mr. Burr. I would be happy to ask unanimous consent that we 
go in reverse order.
    Mr. Strickland. Can I take 1 minute to ask a question? Then 
I'll be finished.
    Mr. Burr. If the gentleman will allow Mr. Knapp the answer 
to this one, I'll be happy to yield.
    Mr. Knapp.  According to my staff, that concentration is 
approximately 10 times allowable release limits by the NRC.
    Mr. Strickland. Go ahead.
    Mr. Burr. Let me ask it this way.
    Mr. Whitfield. We're going to give you another 5 minutes, 
Mr. Burr.
    Mr. Burr. If this amount of plutonium contamination was 
found onsite, which you have responsibility for, correct--NRC 
has oversight on----
    Mr. Knapp.  If it were found onsite, yes, within the USEC 
areas, yes, we would be responsible for it.
    Mr. Burr. Would you require it to be cleaned up?
    Mr. Knapp.  Yes.
    Mr. Burr. Would it be a worker safety issue?
    Mr. Knapp.  At a concentration that low, I'm not sure I 
would call it a worker safety issue, but an environmental 
protection issue, and it would have to be cleaned up to NRC 
standards.
    Mr. Burr. Mr. Logan, several times in the press, I think 
the Commissioner of Public Health has recently stated, and I 
quote, ``Exhaustive State tests did not show a health threat to 
anyone living in the area around the plant,'' end quote. Now 
that you have available to you appendix 2B-17, is this 
something that the State of Kentucky is going to look at a 
little more seriously as it relates to offsite contamination?
    Mr. Logan. Yes, sir.
    Mr. Burr. In most cases, can this committee assume that a 
lot of the investigations that have happened in the last 
several years are investigations that have used the prior data 
available to determine contamination?
    Mr. Logan. I would think a number of the investigations 
that have been submitted have relied on historical data, but 
also there has been State data that has been generated 
concurrently with that, sir.
    Mr. Burr. And Mr. Green, my last question: Would the EPA 
agree that this level of plutonium contamination is in fact a 
threat?
    Mr. Richard Green. Yes, sir. I'm not--ordinarily I would 
have to consult other people to say yes, but I have a chart in 
my briefing book that leads me to say yes.
    Mr. Burr. I thank all of you for your willingness and 
openness to be here and I yield back, Mr. Chairman.
    Mr. Whitfield. Thank you.
    Mr. Strickland.
    Mr. Strickland. Thank you, Mr. Chairman.
    Dr. Michaels, you went through in your testimony some 
information that I would like to make sure that I have recorded 
accurately. Did you say that you would be at the Portsmouth 
site to begin your investigation by mid-December?
    Mr. Michaels. Sir, we plan to begin the scoping of it in 
November, and we'll be onsite in January.
    Mr. Strickland. Onsite in January. And then you indicated a 
figure of 6,000 workers would be medically monitored or 
screened. And could you tell me where those workers would be 
from?
    Mr. Michaels. That--that's a budget request. The budget 
amendment that the Secretary has asked is for additional money 
to support the expansion of our former working screening 
program to include current workers as well as more former 
workers at the three gaseous diffusion plants, and that would 
be in Portsmouth, Paducah and Oak Ridge.
    Mr. Strickland. And more specifically, my understanding is 
that at Paducah the Department is going to conduct medical 
screenings which are likely to be helpful in detecting early 
health effects from potential exposure to radioactive 
materials, thereby extending the lives of those who may be 
discovered to have problems at an early stage.
    Mr. Michaels. We certainly hope that will be the outcome.
    Mr. Strickland. And that being the case, do you plan to do 
such screening, these lung examinations, for example, at 
Portsmouth and Oak Ridge as well?
    Mr. Michaels. It's my understanding we'll use the same 
protocol at three sites, with variation based on what we know 
about exposure histories. But any expansion to Paducah would be 
the expansion to Portsmouth and Oak Ridge as well, sir.
    Mr. Strickland. Has the Department requested the necessary 
funding in order to make sure that this rather costly operation 
will be adequately funded?
    Mr. Michaels. I believe we've announced the request. I 
don't know if the amendments--yes, I'm told the amendment has 
been sent by the White House to Congress. And we look forward 
to your support on that.
    Mr. Strickland. You have it. I'm looking forward to your 
coming to Portsmouth.
    Mr. Michaels. And as far as you know, I'll be coming to 
Portsmouth before the investigation as well to meet with the 
workers as I promised you.
    Mr. Strickland. Thank you, Dr. Michaels. Thank you, Mr. 
Chairman.
    Mr. Whitfield. Yes, sir. Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman. As Mr. Burr said, 
we're shuttling back and forth between this hearing and another 
hearing. And I know this has been a long day. I spent most of 
my time in here. And I too want to thank all of you, especially 
on this third panel for being so patient and waiting for us.
    Dr. Michaels, same questions in terms of Oak Ridge, and you 
mentioned Portsmouth, and you have the same protocol in line 
for both of the facilities that you would have for Paducah. 
What kind of timeframe are we talking about for Oak Ridge?
    Mr. Michaels. Mr. Bryant, we haven't set a schedule for Oak 
Ridge. We'll be going to Portsmouth next. As we complete that, 
which we see completing in late winter, we'll then go to Oak 
Ridge to look at the specific issues around the transuranics. 
However, at the same time, I didn't really address this in 
terms of Portsmouth directly, but there's a process that 
President Clinton has requested in the memo in July to have us 
look at--have the White House and all the agencies look at 
occupational illness across the DOE weapons complex. And we'll 
be going out, and I specifically will be going out to both Oak 
Ridge and to Portsmouth as well as to other sites to gather 
data about the potential health effects of our exposures there 
to report to the White House in order to understand how we can 
best provide compensation to workers across the complex.
    We have been tasked to finish that entire investigation by 
the end of March. We'll be coming to Oak Ridge probably within 
the next few months to gather more information on that as well.
    Mr. Bryant. It would seem to me in the overall plan by the 
President, Oak Ridge and Portsmouth and Paducah would be very 
high priority since there probably is known damage there. I 
think one of the--Mr. Green mentioned earlier about trying to 
weigh the balance between the known onsite versus the unknown 
offsite and knowing that there's probably something out there, 
but you have to look for it. But we know--we know there are 
things there in Oak Ridge and Portsmouth and Paducah. And I 
would urge you to make that your highest priority as opposed to 
going elsewhere and finding out what the situation might be.
    Let me go back to--and you may have been asked this 
question earlier--but back to Kentucky, I know offsite--when 
your folks first went there, they had to wear protective 
clothing on some of the offsite areas. Are there warnings for 
the general public out there now in those locations? I think 
they were tested and actually some indication of radiation was 
found and the workers did need--not have, but need--protective 
clothing. Is that premise true?
    Mr. Michaels. Dr. David Statler, he's our Deputy Assistant 
Secretary for Oversight who's heading the team down there.
    Mr. Statler. It's important to note the definitions that 
define offsite and onsite at Paducah. You have an area inside 
the secured fence that belongs to DOE. You have almost as large 
or a larger area outside the fence that belongs to DOE, that is 
really DOE property but outside the fence. And then beyond 
that, you have public property or offsite property that borders 
that. There's no fence between that and the DOE property.
    We found through our surveys, we took both surveys, 
radiological surveys as well as independent groundwater 
sediment and surface water samples, and those samples are not 
analyzed yet. They're in the process. But the surveys, we found 
contamination on DOE property beyond the security fence, not on 
public property, that exceeded the limits in 835--10 CFR 835 
for posting, and they were not properly posted. In some cases, 
there were signs of contamination, the levels were not posted. 
There are contaminated ditches and lagoons and properties. And 
in one case where the team went in to a small creek or stream 
to take a sample, they did a survey first, and it required 
booties and gloves and it was not posted as such. So we contend 
that 835 should be applicable to DOE property beyond the fence 
and the postings place.
    Mr. Bryant. The bottom-line question on this is, is there 
any property, whether it's government-owned or public property, 
that the public has access to that would be dangerous that's 
not posted?
    Mr. Statler. The public does have access to that DOE 
property offsite. In most cases it's not fenced. There are a 
few signs saying DOE property, but they have access.
    Mr. Bryant. Is that posted warning?
    Mr. Statler. Not posted adequately in our----
    Mr. Bryant. That's something I'm sure our folks from 
Kentucky will be aware of. Thank you.
    Mr. Whitfield. Mr. Chairman.
    Mr. Upton. Thank you, Mr. Chairman.
    Sorry that I--lots of meetings. It all telescoped, our 
schedules, now we have votes that are going on. I have two 
questions.
    One, Dr. Michaels, it's my understanding that your nuclear 
safety inspectors have never conducted a comprehensive 
compliance inspection at Paducah; is that right? Comprehensive, 
everything.
    Mr. Statler. The Office of Nuclear Safety, between 1991 and 
1995, conducted investigations or assessments there, including 
in 1994 a radiological assessment that identified many of the 
same concerns. We had also performed event investigations at 
that locality in Paducah. Since the transition to NRC and DOE 
of the USEC facilities, other priorities, staffing have 
prevented us from sending a team there. So we have not actively 
done a complete assessment of Paducah since 1995.
    Mr. Upton. But that's going to change now, is that not 
right?
    Mr. Statler. It's already changed. We're doing an 
investigation, yes, sir.
    Mr. Upton. Are we going to see posting--I've known about 
this recreation area that's close by, and I think Mr. Bryant 
was just touching on that now in terms of his question. Is that 
going to change pretty quickly in terms of the warning signs to 
all residents of Paducah not to--and what will those signs say?
    Mr. Statler. The requirements on DOE property on- or 
offsite are defined by 10 CFR 835 and how they should be 
posted. I believe the site has submitted a corrective action 
plan and they are reviewing those postings. We identified more 
than just signs that needed painting. We identified areas 
onsite and offsite on DOE property that were contaminated and 
not posted, or posted improperly. And so I would hope that 
those would be fixed rather quickly, if not already.
    Mr. Upton. Well, again, I apologize for being in and out 
during this hearing but I guess, Mr. Whitfield, if you have no 
further questions.
    Mr. Whitfield. I do. Just one.
    Mr. Upton. I yield back my time.
    Mr. Whitfield. Thank you, Mr. Chairman.
    Mr. Logan, there was a quote from you or Mr. Volpe in the 
Paducah Sun on August 11, 1999 that said if you followed the 
effluent ditch from the plant, ``it leads to Little Bayou Creek 
toward the Ohio River. We have an automatic sampler that 
samples the creek every 6 hours and we have never found 
plutonium.'' Is that correct?
    Mr. Volpe. That's correct. Since we've had that in place, 
it collects a sample every 6 hours. There's detection of 
plutonium at this offsite location.
    Mr. Whitfield. And how long have you had that?
    Mr. Volpe. We have had that in place, I believe it's about 
2 years. We've had to take it out because of vandalism and then 
we put it back in in cages.
    Mr. Whitfield. At any of the other locations, have you 
found traces of plutonium at a level----
    Mr. Volpe. Not with our automatic samplers.
    Mr. Whitfield. Okay. Dr. Michaels, it's my understanding 
that there is some new technology now in which you are able to 
detect lung cancer by using CAT scans. As we go into this 
monitoring program--and I know that dollars are an important 
part of that--I would urge the Department and I would like to 
work with you to see if we can include this CAT scan screen as 
a part of this monitoring process. I hope that you all would 
work with us at least in exploring that.
    Mr. Michaels. Yes, sir. It's certainly one of the things 
under consideration right now. We would be pleased to work with 
you.
    Mr. Whitfield. Well, I want to thank all of you. This has 
been a complex subject and I thank the staff for the tremendous 
job in the short period of time in putting this all together. 
As you know, there may be follow-up hearings on this on the 
House side. We know there will be on the Senate side. And we 
will be following up with some questions for you to answer as 
well. But thank you for your time. Thank you for coming up 
here. And we look forward to working with you and solving the 
problem. Thank you. The hearing is adjourned.
    [Whereupon, at 4 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
     Responses for the Record of Richard D. Green, Director, Waste 
 Management Division, U.S. Environmental Protection Agency, Region 4, 
                            Atlanta Georgia
    Question 1. Based on current institutional controls at the Paducah 
gaseous Diffusion Plant (Paducah), are visitors, workers and residents 
surrounding the Paducah site adequately protected from radiological and 
chemical releases from the Paducah site?
    Response: The protection of area residents and visitors to the 
perimeter of the facility, until such time as remedial actions for past 
releases are completed, is in part accomplished by access restrictions 
and postings of warning signs. These postings have been improved and 
expanded since September 1999, but cannot provide a level of protection 
equivalent to removal of the source of the hazard. Threats to residents 
from drinking water contamination have been controlled by requiring the 
Department of Energy (DOE) to provide clean water to residents in the 
area of the DOE's groundwater releases. Institutional controls on 
withdrawal of contaminated groundwater are currently adequate to 
protect residents. All such institutional controls will be regularly 
reviewed by the EPA, the Commonwealth of Kentucky (KY) and the DOE for 
adequacy.
    Worker safety and the protection of visitors within the perimeter 
of the facility is the responsibility of the DOE for non-production 
areas and of USEC for areas leased from DOE for the production of 
enriched uranium.
    Question 2. During its recent Phase I investigation at the Paducah 
site, the Department of Energy (DOE) sampled environmental media for 
chemical and radiological analysis. Did DOE plan this sampling effort 
with the Environmental Protection Agency (EPA), or share these data 
with EPA in a timely fashion?
    Response. DOE did not plan this sampling effort with the EPA, nor 
did DOE submit the standard pre-investigation work plan to EPA. EPA 
received a copy of this report just prior to its public release. After 
the September 22, 1999 hearing held by the House Commerce Committee, 
EPA requested sampling results from the investigation team. Upon 
Completion of the analysis of most samples and the assessment of the 
data by the investigation team, sampling data was provided to EPA 
Region IV by the State of Kentucky staff on October 8, 1999. An EPA 
project manager was briefed on the final results of the investigation 
on October 14, and the investigation report was published formally on 
October 20. EPA has contacted Dr. David Michaels and Dr. David Stadler, 
of DOE's Environmental, Safety and Health Office of Oversight, who have 
pledged full cooperation with EPA in any subsequent work they undertake 
at the Paducah facility.
    Question 3. Please explain why plutonium contamination in offsite 
sediments was not identified in the Executive Summary of the DOE report 
``Phase I Results of the Site Investigation, March 22, 1991.''
    Response. This Report was prepared as required by EPA's consent 
order, and was reviewed and approved by the Agency. The Executive 
Summary noted those contaminants that were determined by risk 
assessment to pose the principal threat to human health and the 
environment. Because the risk assessment of offsite contamination was 
based on a recreational rather than a residential exposure scenario, 
plutonium was not a principal threat contaminant. Therefore, it was not 
included in the Executive Summary. Its presence was included in the 
text of the Report.
    Question 4. At the hearing, DOE indicated that areas offsite have 
been identified with radiological contamination high enough to require 
sampling technicians wear protective clothing. Why have these 
contaminated areas remained uncontrolled for public access? Are there 
other areas offsite with similar amounts of contamination that are also 
uncontrolled?
    Response. The area in question is one of the outfall ditches at the 
boundary of the fenced perimeter of the facility. The area is known to 
be contaminated and was posted with warning signs prior to the 
investigation. Other areas offsite that are contaminated are also 
posted with seaming signs, primarily along Big and Little Bayou Creeks. 
If DOE had submitted a work plan before the sampling, EPA would have 
informed them of the need for adequate worker protection measures in 
these areas. Postings in the areas in question have been expanded since 
the hearing, and were inspected by personnel from EPA on November 10, 
1999. DOE is reviewing the adequacy of its postings at all areas of 
contamination, and EPA is participating in that effort.
    Question 5. Please describe how the public around Paducah could be 
impacted from contaminated surface waterways around Paducah.
    Response. The public may be exposed to contaminated surface 
waterways through recreational uses, such as fishing and swimming, of 
Big and Little Bayou Creeks. Risk assessment based on such recreational 
use assumes frequent use over a long period of time. Fish have been 
found to be contaminated with levels of PCB's that are not safe for 
human consumption, and those areas of the Creeks have been posted with 
advisories against such consumption.
    Question 6. In light of DOE's recent findings, please describe what 
efforts the EPA is taking to fully characterize offsite contamination 
and ensure the public is adequately protected from offsite releases.
    Response. The Agency sponsored a meeting on November 8-10, 1999 
with DOE, KY and site contractor Bechtel-Jacobs to set priorities for 
response actions in FY 2000, 2001 and 2002. Removal or control of known 
areas of offsite contamination was set as a priority for DOE. 
Investigation of any reports of further offsite contamination was set 
as a priority for all participants. EPA has inspected the DOE postings 
at areas of known offsite contamination for adequacy, and will require 
further postings if necessary. Each participating agency is represented 
on a work group that will prepare a site management plan to remediate 
all areas of contamination by 2010. This Site Management Plan will be 
used in developing DOE's annual budget submittal for cleanup of Paducah 
as required by the Federal Facilities Agreement. All participants 
agreed to streamline their procedures for documenting, submitting and 
approving response actions while still allowing full participation by 
the public.
    Question 7. Why has DOE failed to adequately assess sediments, 
soils, surface water, and other environmental media in areas outside 
the security fence to ensure public safety in these areas?
    Response. Priorities for response at Paducah have been balanced 
between assessment and response to known hazards within a constrained 
budget. Highest priority has been set on groundwater contamination 
beneath the facility and within the Water Policy Area and removal of 
the areas of highest soil/sediment contamination onsite to prevent 
further offsite migration of contamination.
    Question 8. Please list and describe any enforcement actions EPA 
has taken against the United States Enrichment Corporation (USEC) for 
non-compliance with environmental regulations.
    Response. The Commonwealth of Kentucky is fully authorized to 
implement environmental programs in lieu of EPA. EPA is not aware of 
violations of permits by and has thus not taken enforcement action 
against the USEC.
    Question 9. What efforts are currently underway to control ``hot 
spots'' contributing to groundwater contamination around Paducah. 
Specifically, please include a description of your efforts to remove 
TCE stored in the C-400 building. Please also identify any proven 
technologies that may address the problem more effective[ly].
    Response. Trichloroethene (TCE) is not stored in the C-400 building 
to the best of EPA's knowledge. Releases and spills within the building 
in the past have resulted in TCE contamination underneath the building. 
In response to EPA's order, two groundwater withdrawal systems are in 
place within the on-site hot spots to recover TCE. DOE, KY and EPA are 
participating in a panel to evaluate innovative technologies and test 
them on-site, particularly to address ``deep'' contamination of 
geologic strata with TCE. Deployment of these and other technologies, 
such as iron filing ``gates'' to remove TCE as groundwater flows 
through them, are a high priority for FY 2000 and 2001 at the facility.
                                 ______
                                 
   Responses for the Record of John J. Hummer, Director of Corporate 
         Environment, Safety and Health, Lockheed Martin Corp.
    Question No. 1: Please explain why plutonium contamination in 
offsite sediments was not identified in the Executive Summary of the 
Department of Energy (DOE) report ``Phase I Results of the Site 
Investigation, March 22, 1991.''
    Response: The report entitled ``Results of the Site Investigation, 
Phase I'' at the Paducah Gaseous Diffusion Plant was prepared by CH2M 
Hill in accordance with the August 1988 Consent Order between the 
United States Department of Energy (DOE) and the United States 
Environmental Protection Agency, Region IV (USEPA), and pursuant to a 
contract with Martin Marietta Energy Systems, Inc. (MMES).\1\ 
Environmental sampling, laboratory analysis, and reporting of test 
results were performed by and/or on behalf of CH2M Hill. MMES, DOE, 
USEPA, and the Commonwealth of Kentucky were given the opportunity to 
comment on the draft report. To my knowledge, the report provides an 
accurate summation of CH2M Hill's findings and the Executive Summary 
highlights issues considered significant by CH2M Hill. CH2M Hill has 
responded to a number of questions from Congressman Bliley about the 
information in the Report and its Summary, and I have nothing to add to 
their response.
---------------------------------------------------------------------------
    \1\ Now, Lockheed Martin Energy Systems, Inc. (LMES). Hereafter, I 
will refer to the company as MMES/LMES.
---------------------------------------------------------------------------
    Question No. 2: According to the October 1999 Phase I Independent 
Investigation report, DOE identified radioactive ``black ooze'' in 
areas close to offsite landfills that were not permitted for 
radioactive wastes. These offsite residential and sanitary landfills 
were managed by Martin Marietta pursuant to its contract 
responsibilities with DOE.
    a. Did Martin Marietta at any time dispose of radioactive wastes at 
offsite landfills, including the C-746-S residential landfill and the 
C-746-T industrial landfill?
    b. Did Martin Marietta know that DOE Orders require that 
radioactive waste only be disposed of at licensed facilities?
    c. Did anyone from DOE ever approve the disposal of radioactive 
wastes in facilities not licensed for such wastes?
    Response: Both the ``black ooze'' described in the DOE Phase I 
Independent Investigation and the C-746-S landfill to which it is 
adjacent are on the DOE property, and it is my understanding that they 
are considered onsite for purposes of CERCLA cleanup and for state 
permitting purposes. MMES/LMES was not operating the Paducah facility 
at the time the so-called ``black ooze'' was discovered. It is my 
understanding, however, that the ``black ooze'' may have emanated from 
certain roofing materials which were used as fill for a drainage ditch 
relocation project, prior to MMES assuming responsibility in 1984. I do 
not know the extent to which DOE approved and/or participated in the 
disposal of such materials. With regard to the specific questions 
above, I offer the following responses:
    a. I have no information indicating that radioactive wastes 
(meaning wastes with radioactive contaminants above limits allowed by 
DOE) were placed in either the C-746-S residential \2\ landfill or the 
C-746-T industrial landfill. The C-746-S and C-746-T landfills were 
managed by MMES/LMES from 1984 until their closure in 1992 and 1995. 
The landfills are located onsite--meaning that they are on DOE 
property. As far as I know, these landfills were operated by MMES/LMES 
in accordance with state requirements.
---------------------------------------------------------------------------
    \2\ Although the C-746-5 landfill is referred to as 
``residential,'' this is probably because it was used for sanitary 
wastes. The landfill is on DOE property and to my knowledge has only 
been used for DOE wastes.
---------------------------------------------------------------------------
    b. MMES/LMES was certainly familiar with the DOE orders that were 
applicable to it through its contract with DOE. Further, my 
understanding is that DOE requires that the disposal of any radioactive 
waste, as defined by DOE, at a location that is off DOE property must 
conform to applicable state and federal regulations.
    c. I am not aware of any DOE approval to dispose of radioactive 
waste off DOE property at facilities not licensed for such waste.
    Question No. 3: According to the internal Environmental Compliance 
Audit Report by Martin Marietta dated October 1992--and discussed at 
the hearing--Martin Marietta auditors found ``the NEPA program is 
heading in the right direction, but all programs have not been 
implemented to keep projects/activities from not getting proper NEPA 
review . . . some projects have been initiated without NEPA review.'' 
However, Martin Marietta informed DOE in its 1992 Paducah Environmental 
Report ``compliance with NEPA is maintained by following guidelines set 
forth by the CEQ, DOE, and Energy Systems.'' Please explain why Martin 
Marietta reported to DOE it was in compliance with NEPA requirements in 
1992 if Martin Marietta auditors found projects ``initiated without 
NEPA review.''
    Response: Based upon my review of the relevant environmental report 
and audit report to answer this question, the statement regarding NEPA 
compliance presented on page xvi of the 1992 Paducah Environmental 
Monitoring Report appears to be a general program description of the 
guidelines used to implement NEPA requirements. It was not intended to 
be a statement of compliance status. The audit report to which you 
refer was an observation regarding weaknesses in implementation of the 
internal NEPA review procedure, which, if not corrected, could have 
resulted in failure to review a project or activity. It was not a 
finding of non-compliance with NEPA.
    Question No. 4: Was the health physics program in place at the time 
Martin Marietta and later Lockheed Martin were operating the Paducah 
site fully adequate? Did the health physics program provide workers the 
type of protection required by as low as reasonably achievable (ALARA) 
standards?
    Response: It is my understanding that the health physics program in 
place when MMES took over the management of the Paducah facility in 
1984 was considered adequate under the DOE expectations at that time. 
As DOE expectations changed, the health physics program underwent 
changes to bring it into conformance with changing expectations. 
However, based on the information that was available to MMES, the 
health physics program was fully adequate to maintain radiation 
exposures well below established limits.
    It is also my understanding that the radiation doses at Paducah 
were historically low in comparison to other facilities within the DOE 
complex. As a result, the ALARA program at Paducah at the time MMES 
took over the facility management was considered consistent with that 
expected for a low dose facility. However, when the DOE expectations 
changed, the ALARA program also changed.
    Your question about the health physics program providing the type 
of protection required by ``ALARA standards'' suggests that specific 
standards are associated with the ALARA principle. To my knowledge, 
ALARA does not set standards, rather it is a principle: to maintain 
radiation doses as low as reasonably achievable. Thus no specific 
standards are associated with ALARA. It is up to an organization 
implementing ALARA to identify sources of radiation in their 
facilities, determine the reasonably achievable methods to limit the 
radiation exposure to workers from those sources, then implement those 
methods. Continuous review and improvement are implicit in implementing 
ALARA. As described in the preamble to 10 CFR Part 83 5, DOE does not 
intend to establish ALARA as a duty of care for purposes of tort 
litigation.
    Question No. 5: Did ALARA protections extend to eating areas within 
the plant? Were employees routinely monitored for contamination before 
they were allowed to enter eating areas? Were the eating areas 
routinely monitored?
    Response: As the ALARA principle was introduced into DOE 
directives, it was implemented at all areas in the Paducah plant. 
Again, radiological control requirements and practices instituted to 
keep radiation doses ALARA evolved with time. At one time, hygiene 
practices (i.e., handwashing, showering, changing clothes) were thought 
to be sufficient to minimize the spread of contamination. When DOE 
established requirements to monitor employees leaving potentially 
contaminated work areas, those requirements were implemented over time 
at the Paducah plant as funding and resources allowed. Associated with 
this action, workplace monitoring, to include eating areas, was 
increased to ensure that contamination was not being spread from 
radiological areas into non-radiological areas.
    Question No. 6: Did Martin Marietta keep full and adequate records 
of the individual exposure of every plant worker for whom such records 
are required?
    Response: To my knowledge, MMES/LMES generated and maintained the 
necessary records for those employees for whom monitoring was required 
by DOE during the time MMES/LMES managed the Paducah facility.
    Question No. 7: Please describe the monitoring system Martin 
Marietta and later Lockheed Martin had in place to detect contamination 
on people and vehicles leaving the Paducah site?
    Response: The monitoring activities to detect external 
contamination on people and vehicles evolved during the time MMES/LMES 
managed the Paducah facility. To my knowledge, little monitoring to 
detect external contamination was done when MMES began managing the 
facility. Over time, as part of the upgrades to the site contamination 
control program, more monitoring for external contamination was done. 
Vehicles were characterized to determine their radiological status. 
Vehicles with loose contamination were supposed to be removed from 
service and decontaminated prior to returning to service. Once the 
initial characterization was complete, a routine monitoring program was 
established consistent with the potential for becoming contaminated, 
and contaminated vehicles were marked to facilitate control. Once a 
routine monitoring history was established, along with increased 
contamination control at the source, the marking was stopped. The 
monitoring program for items, material, and equipment/vehicles being 
released from radiological areas became the primary method for ensuring 
that no contamination was being spread to non-radiological areas.
    As stated in an earlier response, the radiological control program 
evolved so that those employees in areas where contamination could be 
present were monitored before leaving the potentially contaminated work 
area. I am not aware of any monitoring of individuals upon leaving the 
facility.
    Question No. 8: Was Martin Marietta and/or Lockheed Martin cited 
for health and safety violations while operating the production and 
environmental programs at the Paducah plant?
    Response: Lockheed Martin Utility Services, Inc. (LMUS) was cited 
by the Occupational Safety and Health Administration (OSHA) for health 
and safety violations while operating the production programs at 
Paducah. MMES/LMES were not subject to OSHA regulation, and thus not 
subject to OSHA citation.
    Question No. 9: When did Martin Marietta know that transuranics 
were contained in the recycled spent nuclear fuel sent to Paducah from 
Hanford and the Savannah River Plant?
    Response: I have no reason to believe, and consider it unlikely, 
that DOE or the prior contractor provided information to MMES during 
the 1984 contract transition that transuranics were contained in the 
recycled spent nuclear fuel returns. I also have no reason to believe, 
and consider it even more unlikely, that this type of information was 
given to potential bidders for the contract at the time the request for 
proposals was issued back in the 1980s. Given the information I have 
seen since the transuranic issue was raised in these proceedings, the 
presence of transuranics was clearly known to the managing contractor 
and DOE employees when the materials were sent to Paducah in the 1950's 
and in the years that followed. By the time MMES took over the 
management of the site in 1984, the shipments had ceased, and a 
facility upgrade had been finished which was thought to have removed 
most of the transuranics from the processes. Most of the employees of 
the prior contractor transferred to MMES, with some either retaining or 
assuming management positions with MMES. In addition, in 1985, DOE 
produced a Report Of The Joint Task Force On Uranium Recycle Materials 
Processing, which discusses the presence of transuranics at Paducah, as 
well as at other DOE facilities. One MMES employee was a Task Force 
member, and MMES was on distribution for that report. Thus, MMES 
probably knew in 1984 and certainly knew in 1985 that trace 
transuranics had been contained in the spent nuclear fuel processed in 
the Paducah plant years earlier.
                                 ______
                                 
                        Vorys, Sater, Seymour and Pease LLP
                                                  December 14, 1999
Mr. Dwight Cates
Investigator
U.S. House Commerce Committee
316 Ford House Office Building
Washington, DC 20515
    Dear Mr. Cates: I am writing in response to your recent inquiry 
seeking clarification regarding Jay Hummer's letter of November 22, 
1999 to Chairman Upton.
    We have reviewed the responses in the letter carefully and can 
verify, as I indicated when we first spoke, that Mr. Hummer answered 
the Chairman's questions both individually and in his capacity as a 
representative of Lockheed Martin Corporation, and past and present 
affiliated corporations, which had responsibilities at the Paducah 
Gaseous Diffusion Plant. The responses, therefore, also represent the 
knowledge Lockheed Martin has to date on the matters in question, but 
as you know, Lockheed Martin is currently engaged in an ongoing process 
of investigating the issues. Nevertheless, we have tried to provide you 
with answers that are as complete and responsive as possible at this 
time.
    I hope this adequately responds to your concerns. Please do not 
hesitate to contact me at your earliest convenience if you should have 
any questions. Until then, I remain,
            Very truly yours,
                                                    Richard J. Leon
                                 ______
                                 
 Responses of Joseph F. Nemec, President, Bechtel Jacobs Company, LLC, 
   to Questions from the Subcommittee on Oversight and Investigations
    Question 1. According to the Department of Energy (DOE) Phase I 
Independent Investigation at the Paducah Gaseous Diffusion Plant 
(independent investigation), there is an ``absence of DOE or Bechtel 
Jacobs oversight of radiological work practices.'' Why has there been 
an absence of Bechtel Jacobs oversight at Paducah?
    Response. Bechtel Jacobs provides oversight to work activities at 
Paducah. This is accomplished by our line managers, subcontractor 
technical representatives, safety advocates, as well as independent 
oversight by Performance and Quality Assurance, and Environment, 
Safety, and Health. In the M&I approach, oversight is expected and 
enhanced by each subcontractor's responsibilities for oversight of 
their work activities. This combination provides a defense in-depth 
approach to oversight and managing safety activities for work planning 
and performance.
    The Bechtel Jacobs Company Management and Integration (M&I) 
contract requires us to perform the majority of work utilizing 
subcontractors. It also dictates that we ``flow down'' DOE requirements 
to our subcontractors, including provisions for them to be responsible 
for complying with those requirements, including self-assessment and 
oversight. Accordingly, oversight of work practices is accomplished by 
both Bechtel Jacobs staff, as well as subcontractor Environment, 
Safety, and Health (ES&H) staff. In addition, we are implementing, as 
required by contract, our Integrated Safety Management System (ISMS). 
The ISMS places more emphasis on ``up front'' worker involvement in 
planning and hazard analysis. This approach builds in safe work 
practices to the planning process by those performing the work and 
reduces reliance on ``back end'' oversight to ensure compliance.
    Collectively, the increased responsibility of subcontractors for 
performing their own oversight, the implementation of ISMS, and 
oversight of the subcontractors by the Bechtel Jacobs Company provides 
equivalent oversight when compared to a self-performance management 
approach. Bechtel Jacobs Company is committed to providing the 
appropriate level of oversight to our subcontractors and ensuring that 
they, in turn, are living up to their responsibilities and contractual 
obligations to perform their own measure of oversight for all ES&H 
areas.
    Question 2. According to the independent investigation, ``Bechtel 
Jacobs radiological work permits (RWP) lack information required by 
procedure to control radiological work effectively.'' Please explain 
why Bechtel Jacobs RWPs lack adequate safety information.
    Response. The RWPs referred to were originally designed to be 
generic in nature to support routine work. Bechtel Jacobs Company has 
implemented appropriate action to ensure that the procedure governing 
RWPs is followed rigorously. We have already undertaken the following 
actions:
    All RWPs identify the training requirements to enter the area as 
required by procedure. Radiological survey data are attached to the 
permit, or the permit identifies where the data are located.
    Job specific RWPs are based on the work to be performed, the 
contaminants and levels of contaminants, and existing data. Work scope 
is provided to the health physics department by the task lead. This 
information is reviewed by the health physics dosimetry group and RCT 
supervisors during a pre-job as low as reasonably achievable (ALARA) 
review. Information from the pre-job ALARA review is used to develop 
the RWP. This information is reviewed with the RCT by the RCT 
supervisor. Information on the RWP is reviewed by the work crew during 
a pre-job briefing. All workers must sign the RWP prior to entering the 
work location.
    Question 3. According to the independent investigation, a Bechtel 
Jacobs employee received a 24 mrem dose in 35 days at the cylinder 
yard. Why are Bechtel Jacobs dose rate measurements two to three times 
lower than the dose rate measurements the investigation team has 
observed in the cylinder yard?
    Response. The cylinder yard is a large area, approximately 4.5 
acres. Based on this work activity, a worker normally receives an 
exposure typical of the average from the entire yard. The dose rate 
readings collected by the independent investigation team were obtained 
in areas with higher dose rates. Subsequent to the investigation teams 
survey, the Bechtel Jacobs Company performed a study consisting of 54 
measurements taken systematically at grid points over the entire 
cylinder yard. The Bechtel Jacobs measurements in the higher dose rate 
areas were similar to those taken in the same areas by the 
investigation team and in the April 1999 Bechtel Jacobs Company 
measurements taken prior to the job. The Bechtel Jacobs measurements in 
their totality are representative of the average dose rate on the 
entire yard and are therefore representative of the exposure conditions 
for workers. Despite these facts, the degree of conservatism applied in 
this case was not consistent with my expectations. As a result, 
additional controls will be established to require an independent 
review by our Environment, Safety, and Health manger or designee 
whenever radiation exposure rates could result in a worker exceeding 
the approved monitoring threshold in 10 CFR 835, regardless of the 
duration of the job.
    Question 4. According to the independent investigation, ``Bechtel 
Jacobs cannot adequately demonstrate that the unconditional release of 
equipment from the site is consistent with DOE requirements.'' Why is 
Bechtel Jacobs unable to demonstrate unconditional release of equipment 
consistent with DOE requirements?
    Response. Bechtel Jacobs Company has an established program for 
unconditional release of excess equipment and materials including 
technical basis and guidance that is rigorous, detailed, and complies 
with DOE requirements. The Bechtel Jacobs Company program requires a 
Survey and Release Plan to be prepared for equipment release. The 
Survey and Release Plans are used to document how material is surveyed 
for unconditional release to demonstrate consistency with DOE 
requirements. The independent investigation report noted this on page 
38: ``While Bechtel Jacobs does have a procedure for unrestricted 
release of equipment, they did not apply it during the process of 
releasing the fluorine cells.'' What the independent review team found 
was that the required plan for the release of the fluorine cells was 
not prepared in accordance with the unconditional release procedure and 
all approvals for release were not obtained.
    Radiation surveys were performed by Bechtel Jacobs Company on the 
fluorine cells and samples of the solution in the cells were collected 
and analyzed. The results of the radiation surveys demonstrated that 
the DOE requirements and appropriate release limits (uranium versus 
transuranic) were used. The results of samples of the solution in the 
cells were used to demonstrate that the exposure to the solution would 
not be harmful to health or the environment. DOE approval from the 
Paducah Site Office was obtained for the release, however, DOE 
Headquarters approval was not obtained in accordance with requirements. 
Line management has been directed that an additional independent review 
will be conducted prior to unconditional release of excess equipment 
and materials to ensure required Survey and Release Plans and all 
required approvals have been completed in accordance with requirements.
    Question 5. The independent investigation found several problems 
with subcontractor safety practices. How will Bechtel Jacobs correct 
these deficiencies?
    Response. The Bechtel Jacobs Company subcontract language in 
Exhibit G--Environment, Safety and Health, holds the subcontractors 
fully accountable for ES&H and DOE requirements. Prior to commencement 
of work, all subcontractors are required to prepare and submit a 
comprehensive ES&H plan that includes a crosswalk of all activities in 
the subcontract to the DOE requirements in the Bechtel Jacobs Company 
prime contract and applicable environmental regulations. We agree that 
in a number of instances, some procedures have not been followed by 
subcontractors. Bechtel Jacobs Company has filed occurrence reports 
indicating that we have been vigilant in overseeing subcontractor work 
and in self-reporting. Further, there have been several follow-up 
formal and informal discussions with the involved subcontractors' 
senior management to reinforce the importance Bechtel Jacobs places on 
ES&H compliance and the safety of all workers. We have clearly 
communicated to our subcontractors that poor performance in the ES&H 
arena is grounds for termination.
    The Bechtel Jacobs Company LLC Management and Integration (M&I) 
contract requires implementation of an Integrated Safety Management 
System (ISMS). Bechtel Jacobs Company has implemented the system and 
provided a description of the process in BJC/OR-87, Revision 2, 
Integrated Safety Management System Description, September 1999. A 
further definition of the flow-down of requirements to the work 
execution level, including subcontractors, is discussed in the BJC/OR-
146, Revision 1, Integrated Safety Management System Supplement, July 
1999. As mandated by regulation, we have placed the responsibility for 
the safety and health of their employees directly on subcontractors and 
will maintain an oversight role to ensure compliance. The requirement 
to include qualified ES&H staff as part of the subcontractor project 
team is included in our Exhibit G subcontract language. Subcontractors 
may adopt our health and safety plan or work to their own equivalent 
plan. All subcontractors work to the Bechtel Jacobs Company Radiation 
Protection Plan. Oversight, including the use of radiation control 
technicians under contract to Bechtel Jacobs Company, is an integral 
part of the Radiation Protection Program.
    The ISMS process defines the oversight role of the Bechtel Jacobs 
Company Subcontract Technical Representative (STR), the Safety 
Advocate, and the Bechtel Jacobs project team ES&H members. These 
personnel work directly to review subcontractor programs and 
performance and provide feedback and direction. The STR provides day-
to-day direction to subcontractors and ensures that they comply with 
all of the terms and conditions of their subcontracts, including 
requirements for ES&H performance. The Safety Advocate function was 
specifically created by Bechtel Jacobs Company to assist our 
subcontractors in understanding and implementing DOE ES&H requirements. 
The Safety Advocate provides an additional ``set of eyes'' on 
subcontractor safety performance and augments the presence of the 
Bechtel Jacobs Company ES&H subject matter experts who provide project-
specific oversight working with subcontractor ES&H personnel.
    In addition, we implemented on November 1, 1999, additional 
awareness training for our Safety Advocates to enhance their knowledge 
of radiation safety, environmental protection, industrial hygiene, and 
industrial safety. This training will be completed at Paducah by 
December 31, 1999.
    Question 6. To date, has Bechtel Jacobs been cited for any 
violations of DOE orders or regulations governing health and safety at 
the Paducah plant?
    Response. No.
    Question 7. You currently provide radiation exposure data to 
employees only once a year. During the stand-down, those employees 
indicated that they wanted to receive the data more often. Have you 
agreed to their requests?
    Response. Yes. Bechtel Jacobs Company will develop and implement a 
communications initiative to provide more frequent exposure data to 
employees and subcontractors.
                                 ______
                                 
Responses of James H. Miller, Executive Vice President, USEC, Inc., to 
    Questions from the Subcommittee on Oversight and Investigations
    Question 1. Please describe the current status of each outstanding 
issue with respect to the United States Enrichment Corporation's (USEC) 
Nuclear Regulatory Commission (NRC) Compliance Plan for the Paducah 
site (Compliance Plan).
    a) Please identify the original completion date for each 
outstanding issue in the Compliance Plan.
    b) For those outstanding issues that have missed the original 
completion date, please provide an explanation of why a delay has 
occurred, as well as an explanation of when each outstanding issue will 
be completed
    Response. The NRC issued the initial Certificate of Compliance 
(Rev. 0 of GDP-1) for the Paducah Gaseous Diffusion Plant (PGDP) in 
September 1996 and assumed regulatory oversight of PGDP in March 1997. 
In connection with the initial certification, NRC approved Revision 3A 
of the Compliance Plan, dated August 1, 1996 that was prepared by the 
Department of Energy. The Compliance Plan identified 57 issues that 
required actions to bring PGDP into full compliance with NRC 
regulations, established a plan of action and schedule for completion 
and established the parameters for continued operation until the 
actions were completed. To date, actions have been completed for 51 of 
the 57 issues identified in the Compliance Plan. The following provides 
the information requested for the six outstanding issues:
Issue 2--Upgrade the Application Safety Analysis Report
    Original Completion Date: August 17, 1997
    Current Approved Completion Date: August 17, 1997
    Status: On February 14, 1997 DOE provided USEC with the updated 
safety analysis report. On August 18, 1997 USEC provided a portion of 
the information required by Issue 2 to the NRC and submitted the 
remainder by October 31, 1997. NRC review has been ongoing since that 
time.
    Reason for Delay: The two month delay in USEC's submittal to NRC 
was due to the unanticipated complexity involved in the review of DOE's 
updated safety analysis report. This Issue will remain open until NRC 
review is completed.
Issue 8--Exceptions for Criticality Accident Alarm System
    Original Completion Date: Submitted on April 9, 1996 prior to 
approval of Compliance Plan
    Current Approved Completion Date: Not Applicable
    Status: USEC has provided criticality accident alarm coverage in 
all areas of the plant required by NRC regulations to have such 
coverage. Prior to approval of the Compliance Plan, USEC submitted 
technical analyses required by the Compliance Plan to demonstrate that 
areas identified in the Compliance Plan do not require criticality 
alarm coverage. NRC review has been ongoing since that time. This Issue 
will remain open until NRC review is completed.
    Reason for Delay: Not Applicable
Issue 27--Procedures Program
    Original Completion Date: March 3, 2002
    Current Approved Completion Date: March 3, 2002
    Status: USEC has completed all actions for this Issue except for 
the action which requires that the Plant Operations Review Committee 
(PORC) complete a review of all In-Hand and liquid UF6 handling 
procedures within 5 years from the date that the NRC assumed regulatory 
authority for PGDP (March 3, 1997). This action is on schedule to be 
complete prior to that date.
    Reason for Delay: Not Applicable
Issue 36--Seismic Capability of Buildings C-331 and C-335
    Original Completion Date: December 31, 1997
    Current Approved Completion Date: June 30, 1999
    Status: USEC submitted a certificate amendment request in January 
1999 to request an extension of the completion date until June 30, 
2000. Although NRC has not yet approved this extension, they did issue 
a Notice of Enforcement Discretion on June 30, 1999 which permits USEC 
to continue plant operations until such time as they complete their 
review and issue a certificate amendment. More recently, USEC, DOE and 
NRC met to discuss the issue of removing material from certain DOE 
Material Storage Areas (DMSAs) to support completion of the seismic 
modifications in those areas. USEC is currently on schedule to have all 
the seismic modifications completed by June 30, 2000 except for those 
DMSAs which have not been cleared sufficiently to allow work to be 
completed. USEC has informed NRC that additional time past June 30, 
2000 will be necessary to complete the seismic modifications in areas 
affected by the DMSA issue. USEC, DOE and NRC are currently examining 
this issue and USEC hopes it will be resolved shortly
    Reason for Delay: The Seismic Upgrade Project is a large scale 
steel construction project. The overall project involves 723 steel 
installation locations, 2,530 tons of steel, and 12,000 individual 
steel pieces. In order to install this steel, the demolition of 4,000 
pieces of steel are required. Initially, three Unreviewed Safety 
Questions associated with the installation of the proposed 
modifications were identified, which required NRC review and approval 
prior to beginning actual construction work. Once work was begun in the 
buildings, additional factors delayed the project. The temperatures 
inside the cascade buildings had a greater impact on worker 
productivity than initially projected. In addition, the process of 
removing the existing concrete and steel in preparation for the 
installation of the new steel bracing was much more labor intensive 
than expected. Further, the original design did not identify all of the 
interferences with existing equipment which needed to be relocated or 
resolved. Finally, it has taken much longer than expected to begin 
removal of material from the DMSA locations which must be cleared in 
order for the modifications to be completed.
Issue 46--Criticality Accident Alarm System--Horn Audibility and Issue 
        50--Criticality Accident Alarms for Nearby Buildings
    Original Completion Date: December 15, 1998
    Current Approved Completion Date: January 18, 2000
    Status: This project is on schedule to meet the current approved 
completion date. The upgraded CAAS system has already been placed into 
operation in several facilities on site.
    Reason for Delay: The conceptual design to satisfy the requirements 
of these Compliance Plan actions originally required installation of 
additional air powered CAAS horns and upgrading the existing air system 
to supply the air necessary to power these additional horns. During the 
detailed design process, further reliance on the existing plant air 
system to support the CAAS system was determined to be undesirable. As 
a result, a new system was designed to improve CAAS horn reliability by 
providing a dedicated air system and air accumulators to supply the new 
CAAS horns. To enhance reliability of the sitewide CAAS system, this 
same concept is being applied to all CAAS air horns on site. The change 
in design and increase in scope required a delay of approximately one 
year to complete the entire upgrade but will result in an improved 
system.
    Question 2. Please explain why DOE material storage areas at 
Paducah have not been characterized, analyzed or resolved even through 
they were identified more than two years ago.
    Response. DOE is responsible for characterizing, analyzing or 
resolving the DOE material storage areas (DMSAs) at Paducah. USEC has 
limited responsibilities with respect to the DMSAs as set forth in the 
agreement, ``USEC and DOE Agreement for DOE Material Storage at the 
Gaseous Diffusion Plants'' which was signed by DOE and USEC in May 
1996. This agreement specifies that, to the extent required by NRC, 
USEC will perform the following tasks: (1) visually inspect process 
equipment to identify enriched uranium deposits, (2) segregate 
equipment containing such deposits, (3) establish and maintain DMSA 
boundaries and signage, and (4) maintain necessary documentation 
concerning such activities. USEC has met its responsibilities to the 
extent permitted by DOE. Because of an unreviewed safety question (USQ) 
raised by DOE's subcontractors in early 1997, access to the DMSAs for 
further visual inspections has not been permitted until the USQ is 
resolved by DOE.
    In addition, as requested by DOE, USEC performs services for DOE on 
a reimbursement basis. DOE from time to time has requested USEC to 
perform some services in connection with the DMSAs. In order for DOE to 
resolve the USQ and safely remediate the DMSA areas, the appropriate 
Nuclear Criticality Safety Evaluation (NCSE) and associated procedures 
required development. USEC began this work for DOE early in January 
1998. NCSE development was a complex effort requiring significant 
engineering development work. This NCSE to support DOE DMSA work was 
completed and delivered to BJC in November 1998. DOE/BJC Readiness 
Assessment Team Approval was received in May 1999. DOE/BJC are 
responsible for scheduling the remaining work to address the DMSAs.
    Question 2 (continued) Please explain what schedule or cost impacts 
may occur with USEC's effort to complete seismic upgrades at Paducah 
due to DOE'S failure to characterized, analyze, and resolve DOE 
material storage areas.
    Response. The Seismic Upgrade Project is a large scale steel 
construction project. The overall project involves 723 steel 
installation locations, 2,530 tons of steel, and 12,000 individual 
steel pieces. In order to install this steel, the demolition of 4,000 
pieces of steel are required. Total project cost will be on the order 
of $70 million.
    The Seismic project has been planned and scheduled in an assembly 
line fashion to gain efficiency and maintain project control of the 
contractor. The DMSA delays have caused the Seismic project to ``skip'' 
locations. These ``skipped'' locations have been added to the end of 
the project schedule due to uncertainty as to when the DMSA areas would 
be free of DOE material to allow construction work to occur. The 
``skipping'' of locations requires rescheduling, duplication of Health 
Physics surveys, duplication of welding and burning permits, 
scaffolding construction, etc. In addition, working skipped locations 
later in the scheduling is far less efficient due to the loss of 
assembly line construction techniques.
    The current estimate as to the cost impact of these delays is 
approximately $11 million. The current estimate as to the schedule 
impacts of these delays is approximately 3 months. These estimates were 
formulated prior to the most recent DOE concern with criticality safety 
and therefore are likely to change. Schedule revisions are in process 
to determine the optimum integration of seismic work and required DMSA 
work. The goal is to complete Seismic work in the shortest period of 
time.
    An important decision point will occur in February 2000. Up until 
this point, other Seismic construction work will be available for 
USEC's contractor. Beginning in February 2000, if the DMSA areas are 
not available for work, initial demobilization of the contractor work 
force (approx. 25% to 50%) would begin. Remobilization of this skilled 
work force (i.e., hiring, training, clearances, etc) would add 
significantly to the DMSA schedule and costs.
    Question 3. Is USEC responsible for funding the characterization 
and movement of DOE material storage areas? If so, what is the 
estimated cost of this effort, and how will USEC provide the necessary 
funds to complete characterization in a timely manner?
    Response. No, USEC is not responsible for funding the 
characterization and movement of DOE material storage areas (DMSAs). 
DOE and USEC responsibilities are described in an agreement, ``USEC and 
DOE Agreement for DOE Material Storage at the Gaseous Diffusion 
Plants'' was signed by DOE and USEC on May 28, 1996. DOE is responsible 
for ensuring that DMSAs are maintained in accordance with DOE 
requirements. This agreement specifies that, to the extent required by 
NRC, USEC will perform the following tasks: (1) visually inspect 
process equipment to identify enriched uranium deposits, (2) segregate 
equipment containing such deposits, (3) establish and maintain DMSA 
boundaries and signage, and (4) maintain necessary documentation 
concerning such activities. USEC has met its responsibilities to the 
extent permitted by DOE. Because of an unreviewed safety question (USQ) 
raised by DOE's subcontractors in early 1997, access to the DMSAs for 
further visual inspections has not been permitted until the USQ is 
resolved by DOE. In addition, as requested by DOE, USEC provides 
services to DOE on a reimbursable basis. DOE has from time to time 
requested services from USEC in connection with the DMSAs. USEC has 
performed these services as requested.
    Question 4. According to testimony provided by Mr. Key, USEC's 
training manuals for employees make no reference to plutonium and 
neptunium in the workplace. Is this true, and, if so, why is there no 
such reference?
    Response. Formal training modules regarding transuranics were 
developed and presented to the site personnel in 1992. The training was 
not, however, incorporated into the new employee training and the 
continuing training for site personnel until 1999. The training did 
address the hazards associated with exposure to radioactive material 
and the precautions and procedures to minimize exposure to radioactive 
materials as required by 10 CFR 19.12, Instructions to Workers. The 
activity levels of transuranics in the work place are below the 
thresholds requiring their inclusion in radiation exposure assignment. 
Never-the-less, the current site training programs have been revised to 
include transuranics.
    Question 5. Will the delay in completing seismic upgrades cause a 
delay with USEC's request to NRC to increase uranium enrichment assay 
levels at Paducah from 2.75 percent to 5 percent?
    Response. No. The increase in enrichment assay level to 5 percent 
at PGDP can be accomplished independent of completing the seismic 
upgrade. In a meeting with the NRC on August 3, 1999, USEC informed the 
NRC of its plan to request an increase to the authorized assay limit at 
PGDP in early-2000. USEC has developed a detailed project plan and 
currently intends to submit a Certificate Amendment Request (CAR) to 
increase the assay limit at PGDP by May 2000. NRC must approve the CAR 
prior to USEC implementing changes in operations to support higher 
assay production.
                                 ______
                                 
  Responses of Robert W. Logan, Commissioner, Kentucky Department of 
    Environmental Protection to Questions from the Subcommittee on 
                      Oversight and Investigations
    Question 1. At the hearing, DOE indicated that areas offsite had 
been identified with radiological contamination high enough to require 
sampling technicians wear protective clothing. Why have these 
contaminated areas remained uncontrolled for public access? Are there 
other areas offsite with similar amounts of contamination that are also 
unposted?
    Response: As a U.S. Nuclear Regulatory Commission Agreement State, 
Kentucky's posting requirements can be found in 902 KAR 100:019, 
Sections 23, 24 and 25. In addition, Radiation Dose Limits for 
Individual Members of the Public (902 KAR 100:019, Section 10), and 
Compliance with Dose Limits for Individual Members of the Public (902 
KAR 100:019, Section 11) are identical to U.S. Nuclear Regulatory 
Commission regulations.
    Kentucky has a Field Sampling and Analysis Plan (FSAP) for 
Environmental Monitoring Activities which includes a Health and Safety 
Plan and a Quality Assurance Program Plan.
    All Kentucky activities are conducted according to these plans. 
Monitoring staff are required to have the proper dosimetry and all are 
subject to bioassays. Personnel monitoring data for Commonwealth 
employees are well within the requirements of 902 KAR 100:019.
    Question 2. Why has DOE failed to adequately assess sediments, 
soils, surface water, and other environmental media in areas outside 
the security fence to ensure public safety in these areas?
    Response: DOE's progress in complete characterization of 
environmental media outside the security fence is directly related to 
available funding from Congress. To the best of our knowledge, U.S. 
DOE/PGDP has sampled and characterized those areas outside the 
industrial boundary sufficiently to determine if imminent threats to 
human health and the environment exist. Those areas that the Cabinet 
believes to be a potential threat to public safety were posted with 
warning signs. The Cabinet is aware that contamination exists outside 
the security fence. These contaminated areas and the sources that feed 
contaminants to the surface water system will be investigated under 
review by the Commonwealth and U.S. EPA.
    Question 3. What is the State of Kentucky doing to identify 
radiological contamination at other offsite areas accessible to the 
public?
    Response: The Commonwealth reviews all data and reports provided by 
DOE to determine potential restricted areas, as well as on-site and 
offsite impacted areas. In addition, as indicated above the 
Commonwealth has a FSAP which it utilizes to sample impacted areas.
    The FSAP was designed based upon known release patterns from the 
facility. The FSAP is a dynamic document that can be modified based on 
suspected or known areas of contamination.
    The Commonwealth's efforts are documented by the more than 4,000 
samples collected since 1995.
    Question 4. Based on current institutional controls that inform the 
public and restrict access to offsite contaminated areas, are visitors, 
workers, and residents surrounding the Paducah site adequately 
protected from radiological and chemical releases from the Paducah 
site?
    Response: Based on the information to date, the Natural Resources 
and Environmental Protection Cabinet believes that, adequate 
institutional controls and/or removal actions have been implemented 
outside the security boundary to assure adequate protection of visitors 
to the wildlife management area and residents surrounding the PGDP. The 
Cabinet has not evaluated worker health and safety since the Cabinet 
has no regulatory authority over that issue. U.S. DOE and the USEC are 
obligated to assure worker health and safety.
    Question 5. Illegal dumping activities were reported in Spring 1991 
by Kentucky police investigator Mr. D.W. Senf in memoranda sent to 
Kentucky policy captain J.W. Pennington. Please explain what the State 
of Kentucky did with this information, and whether Mr. Senf's findings 
were resolved.
    Response: Kentucky collected surface soil samples from the area of 
concern in May 1991. The soil samples were analyzed for gamma emitting 
radionuclides and \99\Tc. All radionuclides analyzed for were below 
detection limits.
    In June 1991, a gamma ray dose rate survey was conducted for the 
area of concern in the presence of Mr. Senf. No ``hot spots'' or levels 
above background were observed during the gamma ray dose rate survey.
    Based on the results of the gamma ray dose rate survey and the soil 
sample data, no further action was taken. Mr. Sent did not provide any 
information to suggest further action was necessary. The investigation 
is summarized in a June 17, 1991 memorandum.
    Question 6. The State is authorized or delegated the authority to 
administer several federal environmental laws, including the Clean 
Water Act and the Solid Waste Disposal Act. In addition to permitting 
and monitoring requirements with respect to these programs, does the 
State of Kentucky have any financial obligations with respect to clean-
up activities at the Paducah site?
    Response: No.
    Question 7. In your written testimony, you indicate Kentucky has 
collected over 4,500 samples of surface water, groundwater, soils, 
sediment, and vegetation around the Paducah Plant between 1995-1999. In 
addition, over 13,000 radiochemical analyses and over 15,000 quality 
control analyses have been conducted to ensure the accuracy of DOE and 
contractor results. Based on all the tests the State has performed at 
Paducah, do you think the workers at the Plant and the people who live 
and recreate on lands outside the Plant are safe?
    Response: The Commonwealth as a U.S. Nuclear Regulatory Commission 
Agreement State does not have regulatory authority in regard to DOE 
worker health and safety.
    DOE under the Atomic Energy Act of 1954 is self-regulating for 
radioactive materials.
    Based on available data, there is no immediate threat to public 
health from releases from the site.
    This conclusion is supported by the results of DOE's Phase I 
investigation.
    Question 8. Please list each environmental permit violation 
administered by the State of Kentucky at the Paducah site. Please also 
describe how each violation was corrected.
    Response: See attachment.
      Paducah Gaseous Diffusion Plant--Hazardous Waste Violations
resolutions of violations post 1990 hazardous waste violations ky8-890-
                                008-982
I. 8/22-24/1990 NOV issued, 6 violations written.
    Violations documented were: Insufficient employee training, 
manifests incomplete, restricted wastes stored beyond 1-year period, 
three drums of hazardous waste over 90-day accumulation period, 
facility not operated to prevent releases (based on high number of 
spills).
    Manner in which violations were resolved: All but one violation 
were resolved during an inspection conducted on June 23, 1992. The 
violation involving restricted wastes was resolved with the issuance of 
a Federal Facilities Compliance Agreement that listed guidelines for 
handling waste streams at TSDs.
II. 11/27/91 NOV issued, 11 violations were written.
    Violations documented were: The wastewater stored at building C-733 
from the sump of the same building did not have a ``Waste Container 
Label''. The field inspection log used for buildings C-733 and C-746-R 
Storage Facilities were not consistent with the Part B Permit, Part 
II.B.4, Attachment V, Section F. The inspection log for the Lime 
Precipitation Unit C-400-D lacked the time of inspection in violation 
of 401 KAR 35:020, Section 6. Waste D002, D006, D007, D008 was stored 
beyond 90 days at the Nickel Stripper Unit in violation of 401 KAR 
32:030, Section 5, and KRS 224.866. Weekly container inspections and/or 
daily tank inspections were not conducted during storage of the D002, 
D006, D007, D008 hazardous waste at the Nickel Stripper Unit in 
violation of 401 KAR 35:180, Section 5 and/or 401 KAR 35:190, Section 
6. The C-400-C waste location logs did not describe the storage of the 
D002, D006, D007, D008 hazardous waste in violation of 401 KAR 35:050, 
Section 4. Employees were not completely trained in violation of 401 
KAR 35:020, Section 7, 401 KAR 34:020, Section 7, and the Part B Permit 
Part B.Il.B.5. Manifest Document Number 140 dated 8/22/91 did not have 
a handling code on it in violation of 401 KAR 32: 100. Arrangements of 
response actions during an emergency were not made with the State 
Emergency Response Team in violation 401 KAR 35:030, Section 7. A copy 
of the Contingency Plan was not distributed to the State Emergency 
Response Team in violation of 401 KAR 35:040, Section 4. The Land 
Disposal Restriction Forms accompanying Manifest Document Number 133 
and 135 states that the waste D008, D009 has a capacity variance until 
May 8, 1992, which was not correct due to the presence of D008, lead, 
which was restricted from land disposal as of August 8, 1990. This 
constituted a violation of 40 CFR 268.7.
    Manner in which violations were resolved: Inspection completed on 
June 23, 1992. This inspection also served to resolve all but one of 
the August 22-24, 1990 violations.
III. 6/9/92 NOV issued, 2 violations were written.
    Violations documented were: Waste soil contaminated with dioxins 
was stored at an inappropriate location.
    Manner in which violations were resolved: A June 16th and 17th 
inspection documented that the waste soil was containerized and that it 
had been moved to an acceptable location. All violations corrected.
IV. 10/30/92 NOV issued, 1 violation was written.
    Violations documented were: Wastes were stored in an underground 
storage tank in excess of the 90-day allowed holding time.
    Manner in which violations were resolved: Underground tank was 
certified closed on January 4, 1993.
V. 10/7/93 NOV issued, 3 violations were written.
    Violations documented were: Failure to develop and implement a 
written schedule for inspecting monitoring equipment, safety, and 
emergency equipment important to detecting and responding to 
environmental or human health hazards. Failure to document monitoring, 
safety, and emergency equipment maintained by Chemical Operations and 
the Fire Department Failure to test and maintain all Contingency Plan 
equipment.
    Manner in which violations were resolved: A financial penalty was 
assessed which was paid on 6/8/94.
VI. 2/22/95 NOV issued, 2 violations were written.
    Violations documented were: Failure to manage waste mercury from 
line recorders removed from the enrichment process. Storage of waste 
mercury over 90-days without a permit.
    Manner in which violations were resolved: There was a disagreement 
in regulatory interpretation between DOE and the Commonwealth. DOE 
agreed to accept the Commonwealth's interpretation of the regulations 
and the matter was dropped.
VI. 8/30/99 NOV issued, 1 violations were written.
    Violations documented were: Failure to provide notification of 
activity to be performed inside a Solid Waste Management Unit (SWMU).
    Manner in which violations were resolved: Sampling of 
uncharacterized soil was completed in accordance with the 
Commonwealth's sampling plan. Results were submitted to the 
Commonwealth within the prescribed time limit.
        Paducah Gaseous Diffusion Plant--Solid Waste Violations
Chronology of NOV's at the #073.14 Landfill
08/08/90 Noted Violations--NOV Issued 09/04/90. Communication system 
        not operational (401 KAR 47:120-1); interim cover eroded (401 
        KAR 48:090-7); litter (401 KAR 48:090-9); inadequate daily 
        cover (401 KAR 48:090-3).
12/12/90 Re-inspection: Communication system repaired, interim cover 
        erosion repaired, daily cover applied to working face. All 
        violations resolved.
01/30/92 Noted Violations--NOV Issued 02/13/92. Entrance sign didn't 
        indicate operating hours (401 KAR 48:090-14); erosion and 
        ponding water observed in ditch.
02/26/92 Re-inspection: Entrance sign corrected, erosion repaired, 
        ponding water and drainage problems corrected.
01/27/93 Noted Violations--NOV Issued. Failure to notify within 48 
        hours of receiving groundwater sample results which indicate 
        contamination; failure to arrange for a split sampling event; 
        failure to sample for all required parameters. All violations 
        are of 401 KAR 48:300.
05/19/93 Letter sent discussing notification requirements. DOE 
        submitted revised method of dealing with ground water sample 
        results. NOV resolved.
08/31/93 Noted Violations--NOV Issued. 401 KAR 40:010-4--Failure to 
        comply with instructions to demonstrate compliance with 
        groundwater maximum contaminant levels.
09/09/93 Letter sent rescinding violation due to DOE submitting 
        adequate data and results.
Chronology of NOV's at the #073.15 Landfill
08/08/90 Noted Violations--NOV Issued 09/04/90. 401 KAR 48:060--
        Communication system inoperative; waste not spread or 
        compacted; waste not covered within one week; interim cover is 
        eroded; water ponding in one area.
12/12/90 Follow-up Inspection. Communication system operable, waste 
        compacted and spread, interim cover erosion repaired, and 
        ponded water area regraded. All previous violations corrected.
05/07/91 Noted Violations--NOV Issued 05/20/99. 401 KAR 48:060--Interim 
        cover eroded; water was ponded in interim area.
06/26/91 Follow-up Inspection. Interim cover repaired, ponded water 
        area regraded. All previous violations corrected. No violations 
        noted.
01/30/92 Noted Violations--NOV Issued 02/14/92. 401 KAR 48:060--Water 
        ponded east of interim area; entrance sign did not contain 
        operating hours, both violations.
02/26/92 Follow-up Inspection. Re-inspection: Ponded water regraded, 
        entrance sign corrected, All previously noted violations have 
        been corrected.
09/02/93 Noted Violations--NOV Issued. 401 KAR 40:010-3--Failure to 
        comply with written instructions to prove non-contamination.
09/09/93 Same letter sent for 073-014. NOV resolved.
Chronology of NOV's at the #073.45 Landfill
11/08/94 Noted Violations--Inspected by Donna Shartung: NOV issued 11/
        08/94. 401 KAR 40:020--Failure to notify the cabinet prior to 
        well drilling.
11/24/94 Letter sent to DOE noting regulation requires notification. 
        NOV considered resolved.
       Paducah Gaseous Diffusion Plant--Water Quality Violations
KPDES PERMIT NO. KY0004049 AND KY0102083
    Numeric violations of KPDES permit limits for conventional 
pollutants have generally been corrected by process control changes 
which resulted in more effective treatment. Corrections of numerical 
limit violations have generally occurred quickly, so there has not been 
formal Quarterly Non-Compliance Report (QNCR) action since 1994, other 
than the issuance of a Notice of Violation (NOV). Normally, if the 
problem persisted, a Demand Letter would be issued for the subsequent 
quarter, unless the problem were successfully addressed. (In 1997, for 
example, a Total Residual Chlorine exceedance was cited in one quarter 
and corrected before the next quarter. That was the most recent 
violation of a permitted effluent limit.) Currently, the facility is 
conducting a Toxicity Reduction Evaluation (TRE), to address toxicity 
problems which were identified in 1998.
        Paducah Gaseous Diffusion Plant--Air Quality Violations
1. May 24, 1999 NOV from May 18, 1999, Inspection
May 24,1999 NOV for noncompliance with 401 KAR 58:040 Section 3(1) 
        mailed to United Thermal Industries Incorporated a 
        subcontractor engaged in asbestos removal for USEC. NOV 
        required written response from contractor within fifteen days 
        stating actions taken or to taken correct and prevent future 
        violations.
United Thermal Industries, Inc. failed to have a current KY 
        certification before engaging in the removal of asbestos. Reply 
        to NOV received June 2, 1999, from United Thermal Industries, 
        Inc. Application submitted to Kentucky Division for Air Quality 
        for certificate did not contain requests for Supervisor 
        certifications.
United Thermal Industries, Incorporated submitted applications for 
        Supervisor Certification on May 18, 1999. The Kentucky Division 
        for Air Quality issued Supervisor certifications 1500 hours on 
        the same day.
NOV reply and actions taken by United Thermal Industries Incorporated 
        were sufficient to resolve violation. No further enforcement 
        action deemed necessary. No further violations cited against 
        company.
2. NOV issued on August 28, 1997 from August 7, 1997 Inspection.
NOV issued to USDOE on August 28, 1997 for noncompliance with permit 
        conditions as follows.
USDOE did not record pressure drops for the baghouse that controlled 
        particulate emissions at the uranium hexafluoride cylinder grit 
        blasting operation on September 9, 1996 and October 28, 1996.
USDOE did not promptly notify the Kentucky Division for Air Quality of 
        the above deviations from the permit.
USDOE did not submit notification of start of construction of the 
        vitrification of low level radioactive soil project to the 
        Kentucky Division for Air Quality within thirty days.
NOV required written response from contractor within fifteen days 
        stating actions taken or to taken correct and prevent future 
        violations.
Reply from DOE received on September 11, 1997. DOE will specifically 
        address the permit conditions in new contractor contracts after 
        June 5, 1997. DOE states that they had notified the Cabinet 
        that construction started on October 3, 1996. The Permit 
        condition clearly states that the Kentucky Division for Air 
        Quality is to be notified in writing. No such notification was 
        received by the Division until after the NOV was issued. DOE 
        requested that the violations be withdrawn. Violations were 
        valid and were not withdrawn as requested. Inspections made in 
        1998 and 1999 found no further violations of these permit 
        violations. No further enforcement action was taken as the 
        violations did not repeat.
3. April 5, 1996 inspection report cites possible violation of 401 KAR 
        50:035 Section 5 for operating the northwest plume air stripper 
        without a permit. Possible violation cited as DOE claims CERCLA 
        exemption from permitting. More information requested.
April 26, 1996 letter from USDOE states that the project is subject to 
        CERCLA and exempted from state permitting.
Letter of August 16, 1996 from Mr. Roger Cook, of the Kentucky Division 
        for Air Quality Permit Review Branch to Jimmy Hodges, Site 
        Manager, stating no permit is required for the NW plume 
        project.
4. NOV issued on July 27, 1993 to USEC for violations of 401 KAR 61:015 
        and 401 KAR 5 0:06 Sections 2(2) and 4(1). Noncompliance with 
        regulatory and permit opacity emissions limitations for #2 coal 
        fired indirect heat exchanger.
NOV required written response from contractor within fifteen days 
        stating actions taken or to taken correct and prevent future 
        violations.
Reply received on August 18, 1993 from USEC. Number two indirect heat 
        exchanger taken out of service on July 28, 1993. To ensure 
        future compliance PGDP will switch to alternate indirect heat 
        exchangers fuels when opacity is in excess of the standards.
Letter of September 1, 1993, from Ken Frye, Regional Supervisor, 
        Kentucky Division for Air Quality, to Mr. Charles W. Martin, 
        USEC, stating that August 18, 1993, reply was not totally 
        satisfactory. Taking the #21 indirect heat exchanger off line 
        was the proper action to take but more information on problems 
        with the emission control units was required.
Problem ultimately resolved through repairs and improved operation of 
        the heat exchanger and its control equipment.
5. NOV issued based on August 19, 1992 inspection cited denied access, 
        refusal to release coal samples, and fugitive emissions.
Through several meetings with cabinet management, credentials and 
        access problems were satisfactorily resolved. Coal samples were 
        ultimately received after the cabinet asserted its authority to 
        require them. Fugitive emissions were reduced through better 
        controls, including more thorough and frequent watering of 
        stockpiles and haul roads.
6. NOV issued June 7, 1991 for fugitive emissions from a coal 
        stockpile.
Problem ultimately resolved through enhanced controls, mainly wet 
        suppression.
                                 ______
                                 
  Responses for the Record of David Michaels, Assistant Secretary for 
          Environment, Safety and Health, Department of Energy
                  questions from committee on commerce
    Question 1: Please provide one copy of the Department of Energy's 
(DOE) Phase I independent investigation report (independent 
investigation).
    Answer: A copy of the independent investigation is provided for 
your information and use.


[GRAPHIC] [TIFF OMITTED]61428.287

[GRAPHIC] [TIFF OMITTED]61428.288

[GRAPHIC] [TIFF OMITTED]61428.289

[GRAPHIC] [TIFF OMITTED]61428.290

[GRAPHIC] [TIFF OMITTED]61428.291

[GRAPHIC] [TIFF OMITTED]61428.292

[GRAPHIC] [TIFF OMITTED]61428.293

[GRAPHIC] [TIFF OMITTED]61428.294

[GRAPHIC] [TIFF OMITTED]61428.295

[GRAPHIC] [TIFF OMITTED]61428.296

[GRAPHIC] [TIFF OMITTED]61428.297

[GRAPHIC] [TIFF OMITTED]61428.298

[GRAPHIC] [TIFF OMITTED]61428.299

[GRAPHIC] [TIFF OMITTED]61428.300

[GRAPHIC] [TIFF OMITTED]61428.301

[GRAPHIC] [TIFF OMITTED]61428.302

[GRAPHIC] [TIFF OMITTED]61428.303

[GRAPHIC] [TIFF OMITTED]61428.304

[GRAPHIC] [TIFF OMITTED]61428.305

[GRAPHIC] [TIFF OMITTED]61428.306

[GRAPHIC] [TIFF OMITTED]61428.307

[GRAPHIC] [TIFF OMITTED]61428.308

[GRAPHIC] [TIFF OMITTED]61428.309

[GRAPHIC] [TIFF OMITTED]61428.310

[GRAPHIC] [TIFF OMITTED]61428.311

[GRAPHIC] [TIFF OMITTED]61428.312

[GRAPHIC] [TIFF OMITTED]61428.313

[GRAPHIC] [TIFF OMITTED]61428.314

[GRAPHIC] [TIFF OMITTED]61428.315

[GRAPHIC] [TIFF OMITTED]61428.316

[GRAPHIC] [TIFF OMITTED]61428.317

[GRAPHIC] [TIFF OMITTED]61428.318

[GRAPHIC] [TIFF OMITTED]61428.319

[GRAPHIC] [TIFF OMITTED]61428.320

[GRAPHIC] [TIFF OMITTED]61428.321

[GRAPHIC] [TIFF OMITTED]61428.322

[GRAPHIC] [TIFF OMITTED]61428.323

[GRAPHIC] [TIFF OMITTED]61428.324

[GRAPHIC] [TIFF OMITTED]61428.325

[GRAPHIC] [TIFF OMITTED]61428.326

[GRAPHIC] [TIFF OMITTED]61428.327

[GRAPHIC] [TIFF OMITTED]61428.328

[GRAPHIC] [TIFF OMITTED]61428.329

[GRAPHIC] [TIFF OMITTED]61428.330

[GRAPHIC] [TIFF OMITTED]61428.331

[GRAPHIC] [TIFF OMITTED]61428.332

[GRAPHIC] [TIFF OMITTED]61428.333

[GRAPHIC] [TIFF OMITTED]61428.334

[GRAPHIC] [TIFF OMITTED]61428.335

[GRAPHIC] [TIFF OMITTED]61428.336

[GRAPHIC] [TIFF OMITTED]61428.337

[GRAPHIC] [TIFF OMITTED]61428.338

[GRAPHIC] [TIFF OMITTED]61428.339

[GRAPHIC] [TIFF OMITTED]61428.340

[GRAPHIC] [TIFF OMITTED]61428.341

[GRAPHIC] [TIFF OMITTED]61428.342

[GRAPHIC] [TIFF OMITTED]61428.343

[GRAPHIC] [TIFF OMITTED]61428.344

    Question 2: During its recent independent investigation, DOE 
sampled media for chemical and radiological analysis. What was the 
purpose of this sampling effort, and what are your findings?
    Answer: Environmental samples were collected and analyzed by the 
investigation team in an effort to confirm that the current analytical 
results being reported by the site are accurate and representative of 
actual environmental conditions. This effort was not intended to 
characterize the site for remediation purposes. Remedial Investigations 
studies are conducted by the Department's Environmental Management 
Program and are reviewed and approved by environmental regulatory 
agencies.
    The results of the independent sampling were generally consistent 
with historical environmental monitoring results produced and published 
by the site. There also was general agreement between the independent 
sample results and the results of the analysis of split samples by the 
site. Those matches provides, additional confidence that DOE site 
contractors are producing accurate environmental monitoring results.
    In a few cases, sediment sample results identified contaminants at 
levels not previously identified by the site. These transplant were 
taken at the North-South Diversion Ditch (between Ogden Landing Road 
and the site security fence), and outfalls K011 and K015. These 
discrepancies are likely to be related to the lack of homogeneity of 
contaminants in the soils.
    Question 3: Did DOE plan its independent investigation sampling 
effort with the Environmental Protection Agency (EPA)? If not, please 
explain why. Also, prior to the release of the independent 
investigation report, did EPA request or receive environmental sampling 
data. If not please explain why.
    Answer: DOE did not plan the sampling effort with the EPA. The team 
was directed to conduct an independent investigation of the site, and 
operated under strict deadlines established by the Secretary of Energy 
for the completion of the initial phase of the investigation. In 
planning the independent environmental sampling effort, the team 
evaluated the results of past Remedial Investigations that were 
performed by DOE contractors and overseen and approved by EPA and the 
Commonwealth of Kentucky. These reports described the nature and extent 
of environmental contamination from past releases from the Paducah 
plant. The team utilized these reports, as well as routine 
environmental monitoring results produced by DOE site management, to 
plan the most effective and efficient sampling strategy for the 
independent investigation. Onsite representatives from Kentucky 
participated in the sampling effort by collecting several split samples 
of groundwater, surface water and soils/sediments. The EPA Project 
Manager for Paducah was consulted on the initial conclusions of the 
investigation team immediately following the completion of field 
investigations.
    The EPA did request sampling results from the investigation team. 
Upon completion of the analysis of most samples and the assessment of 
the data by the investigation team, sampling data were provided to EPA 
Region IV and Commonwealth of Kentucky staff on Friday, October 8, 
1999. An EPA project manager was briefed on the final results of the 
investigation on Thursday, October 14, 1999. The investigation report 
was formally published on Wednesday, October 20, 1999.
    Question 4: At the hearing, DOE indicated that areas onsite had 
been identified with radiological contamination high enough to require 
sampling technicians to wear protective clothing. Why have these 
contamination areas remained uncontrolled for public access? Are there 
other areas onsite with similar amounts of contamination that are also 
un-posted?
    Answer: The investigation team noted areas of contamination that 
exceed Bechtel Jacobs radiological posting criteria in outfalls K011, 
the North South Diversion Ditch, and along little Bayou creek on DOE 
property but outside the site security fence. The Bechtel Jacobs health 
physics procedures require that such areas be posted as soil 
contamination areas and/or contamination areas, and that appropriate 
measures be taken to prevent inadvertent entry. Some of these areas 
were posted with signage and wording that were the result of CERCLA 
Records of Decision or interim corrective measures, but these postings 
were not consistent and, in some cases, did not specify the presence of 
a radiological hazard. Neither DOE nor Bechtel Jacobs site 
representatives was able to provide a sound basis for not controlling 
such areas in accordance with the Bechtel Jacobs radiation protection 
program.
    The investigation team noted that the most significant areas of 
contamination have been identified during past investigations, but, the 
full extent of radiological contamination both inside and outside the 
security fence has still not been characterized by a sitewide survey 
and sampling program.
    The Department subsequently made changes to improve the sign 
postings for radioactively contaminated areas on DOE property. Site 
personnel have, for example, posted signs that clearly identify the 
presence of radiological contamination on both sides of the North-South 
Diversion Ditch, and at several outfall ditches and culverts associated 
with Little Bayou Creek.
                     questions from chairman upton
Assessment of Environmental Media
    Question 5: Why has DOE failed to adequately assess sediments, 
soils, surface water, and other environmental media in areas outside 
the security fence to ensure public safety in these areas?
    Answer 5: The Department has worked with regulators in the U.S. 
Environmental Protection Agency (EPA) and the Commonwealth of Kentucky 
to ensure that assessments are done in areas outside the security fence 
to identify contamination in sediments, soils, surface water, and other 
environmental media, as described below. In addition, on November 8th 
and 9th, 1999, representatives from DOE field offices and Headquarters, 
EPA, and Kentucky met to review strategies and priorities for 
assessment and remediation to maximize cleanup within available 
resources.
    DOE regularly assesses conditions, both inside and outside the 
security perimeter, and reports results of environmental monitoring at 
the Paducah Gaseous Diffusion Plant in the site's Annual Environmental 
Report. In addition to the environmental monitoring reported annually 
in this report, the Department has conducted environmental assessments 
and investigations since the discovery of off-site groundwater 
contamination in 1988 to assess conditions outside the security 
perimeter, or contamination inside the security perimeter which could 
migrate beyond the fence boundaries. I would like to provide for the 
record a listing of investigation activities the Department has carried 
out from 1989 to the current time.
    The information follows.

 Environmental Assessments Conducted at Paducah Gaseous Diffusion Plant
                                 (PGDP)
------------------------------------------------------------------------
                                      Assessment/        Report Title/
              Date                   Investigation          Number
------------------------------------------------------------------------
1989-1991.......................  Phase I Site        Phase I Site
                                   Investigation.      Investigation
                                                       Work Plan DOE/OR/
                                                       07-1203. Volumes
                                                       1, 2, and 3
                                                      Results of Site
                                                       Investigation
                                                       Phase I at the
                                                       PGDP KY/F-R-4
1991............................   Public Health and  Results of Public
                                   Ecological          Health and
                                   Assessment.         Ecological
                                                       Assessment KY/SUB/
                                                       13B-97777CP-03/
                                                       1991/1
1990-1992.......................  Phase II Site       Phase II Site
                                   Investigation.      Investigation
                                                       Work Plan KY/ER-3
                                                      Results of the
                                                       Site
                                                       Investigation,
                                                       Phase II at PGDP
                                                       KY/SUB/13B-97777
                                                       P03/1991/1
1993............................  Northwest Plume     Characterization
                                   Investigation.      of the Northwest
                                                       Plume Utilizing a
                                                       Driven Discrete-
                                                       Depth Sampling
                                                       System KY/ER-22
1994............................  Northeast Plume     Field Sampling
                                   Investigation.      Plan for the
                                                       Northeast Plume
                                                       DOE/OR/07-1222&D2
1993-1995.......................  Waste Area Groups   Remedial Facility
                                   (WAG) 1&7.          Investigation
                                                       Work Plan for
                                                       WAGs 1&7 and
                                                       Kentucky Ordnance
                                                       Works SWMUs 94,
                                                       95, and 157 DOE/
                                                       OR/07-1147
                                                      Remedial
                                                       Investigation
                                                       Report for WAGs
                                                       1&7 at PGDP,
                                                       Paducah, KY DOE/
                                                       OR/07-1404
                                                      Remedial
                                                       Investigation
                                                       Report for SWMUs
                                                       94, 95, and 157
                                                       DOE/OR/07-1405
1994-1996.......................  WAG 17............  RCRA Facility
                                                       Investigation
                                                       Work Plan for WAG
                                                       17 at PGDP,
                                                       Paducah, KY DOE/
                                                       OR/07-1202&D2
                                                      Remedial
                                                       Investigation
                                                       Report for WAG 17
                                                       at PGDP, Paducah,
                                                       KY DOE/OR/07-1404
1995-1999.......................  WAG 6.............  Integrated
                                                       Remedial
                                                       Investigation/
                                                       Feasibility Study
                                                       Work Plan for
                                                       Waste Area Group
                                                       6 at the PGDP DOE/
                                                       OR/07-1243&D4
                                                      Remedial
                                                       Investigation
                                                       Report for WAG 6
                                                       at the PGDP,
                                                       Paducah, KY DOE/
                                                       OR/07-1727
                                                       Volumes 1, 2, 3,
                                                       and 4
1996-1999.......................  WAG 27............  Integrated
                                                       Remedial
                                                       Investigation/
                                                       Feasibility Study
                                                       Work Plan for
                                                       Waste Area Group
                                                       27 at the Paducah
                                                       Gaseous Diffusion
                                                       Plant, Paducah,
                                                       Kentucky DOE/OR/
                                                       07-1518&D3
                                                      Remedial
                                                       Investigation
                                                       Report for WAG 27
                                                       at the PGDP,
                                                       Paducah, KY DOE/
                                                       OR/07-1777
                                                       Volumes 1, 2, 3,
                                                       and 4
1997-Current....................  WAG 28............  Work Plan for
                                                       Waste Area Group
                                                       28 Remedial
                                                       Investigation/
                                                       Feasibility Study
                                                       and Waste Area
                                                       Group 8
                                                       Preliminary
                                                       Assessment/Site
                                                       Investigation at
                                                       the Paducah
                                                       Gaseous Diffusion
                                                       Plant, Paducah,
                                                       Kentucky DOE/OR/
                                                       07-1592&D2
                                                       Primary
1998-Current....................  Data Gaps.........  Sampling and
                                                       Analysis Plan to
                                                       Support a Site
                                                       Wide Current
                                                       Remedial Strategy
                                                       for DNAPL DOE/OR-
                                                       07-1719
1998-Current....................  WAG 8.............  Work Plan for
                                                       Waste Area Group
                                                       28 Remedial
                                                       Investigation/
                                                       Feasibility Study
                                                       and Waste Area
                                                       Group 8
                                                       Preliminary
                                                       Assessment/Site
                                                       Investigation at
                                                       the Paducah
                                                       Gaseous Diffusion
                                                       Plant, Paducah,
                                                       Kentucky DOE/OR/
                                                       07-1592&D2
                                                       Primary
------------------------------------------------------------------------

    As a result of these data collection and assessment activities, a 
number of actions have been taken to protect the public's health and 
safety outside the plant security fence. I would like to provide for 
the record a summary of the actions taken.
    The information follows.

 Actions Taken at Paducah Gaseous Diffusion Plant to Protect the Public
                             Health & Safety
------------------------------------------------------------------------
               Project/Event                        Action Taken
------------------------------------------------------------------------
Off-site Groundwater Contamination          Identified and sampled local
 Controls (1988-89).                         wells
                                            Provided interim bottle
                                             water to anyone who wanted
                                             it
                                            Initiated routine
                                             residential sampling
                                            Provided water tanks to any
                                             residents with contaminated
                                             wells
                                            Initiated health surveys of
                                             residents with contaminated
                                             wells
                                            Identified radiological
                                             contamination in Little
                                             Bayou Creek, North/South
                                             Diversion Ditch, and KPDES
                                             Outfall 011. Posted ``No
                                             Trespassing'' signs.
Contaminated Rubble Pile at Ballard County  Removed rubble pile
 Wildlife Area and Related Controls.        Performed systematic search
                                             for other rubble piles
                                             which resulted in
                                             identification of several
                                             additional rubble piles
                                             which were grouped into WAG
                                             17
                                            Performed expedited health
                                             physics surveys of piles
Subsidence Control at the Sewage Treatment  Fenced sewage treatment
 Plant.                                      plant to protect
                                             recreational users of the
                                             area from physical hazards
                                             (i.e., subsidence)
Elevated levels of PCBs in fish...........  Commonwealth of Kentucky
                                             issued a fish advisory for
                                             the Little Bayou Creek and
                                             KPDPS Outfall 011
C-750-A and B Underground Storage Tanks...  Removed tanks in 1991 with
                                             partial soil excavation
                                            Excavated additional soils
                                             and closed in 1998
C-746-K Sanitary Landfill Interim           Installed a low permeability
 Corrective Measures (Initiated in 1992).    cap to repair subsidence
                                             and restore a 5% slope to
                                             the top of the landfill to
                                             assist in precipitation
                                             runoff
                                            Implemented a surface water
                                             monitoring program
                                            Maintenance of a previously
                                             installed leachate
                                             containment dam and filter
                                             trap
Tricliloroethylene (TCE) Use at PGDP......  Use of TCE was discontinued
                                             at PGDP on June 30, 1993
                                            Sludges/sediments from large
                                             degreaser were
                                             containerized and placed in
                                             waste storage
RCRA Closures (1993-present)..............   Closed the following units
                                             in accordance with RCRA: C-
                                             400-B&C Nickel Stripper, C-
                                             409 RCRA Pilot Plant, C-720
                                             Large Degreaser, and C-746-
                                             R RCRA Storage Pad
                                            Closed C-404 Uranium Burial
                                             Ground in 1987
Institutional Control of Off-Site           Installed fencing at 13
 Contamination in Surface Water Interim      sites outside the PGDP
 Corrective Measures (Initiated in 1993).    security perimeter along
                                             the KPDES outfalls 001 and
                                             011, C-616 lagoons, the
                                             NSDD, Big Bayou Creek, and
                                             Little Bayou Creek to
                                             restrict casual public
                                             access
                                            Posted warning signs at C-
                                             616
                                            Posted warning signs at the
                                             Outfalls and NSDD
                                            Posted a Fish Consumption
                                             Advisory for Little Bayou
                                             Creek
Containment of Scrap Yard Sediment Runoff   Installed sill fences around
 Interim Corrective Measures (Initiated in   the scrap yards to filter
 1993).                                      the contaminated silt which
                                             could be mobilized during
                                             rainfall events
                                            Installed gabion type silt
                                             traps with nonwoven
                                             geotextile material in two
                                             ditches draining the scrap
                                             yards to contain
                                             contaminated sediments
Water Policy Engineering Evaluation/Cost    Provided municipal mater
 Analysis (Initiated in 1993).               supply to residents with in
                                             the area that could
                                             potentially be affected by
                                             migration of groundwater
                                             contamination
                                            Established agreements with
                                             residents which restricted
                                             use of their wells
                                            Established agreements with
                                             residents which allowed
                                             access for sampling or
                                             testing
                                            Ongoing payment of
                                             associated water bills
                                            Locked and capped affected
                                             residential wells
North/South Diversion Ditch (NSDD) Record   Installed ion exchange
 of Decision (Initiated in 1994).            system in C-400 to reduce
                                             radionuclide concentrations
                                             in effluents prior to
                                             discharge into the NSDD
                                            Established the target
                                             treatment level as the
                                             Maximum Contaminant Levels
                                             (MCLs)
                                            Installed (by USEC) settling
                                             lagoons at the C-600
                                             facility to remove fly ash
                                             from effluents prior to
                                             discharge to the NSDD
                                            Installed two lift stations
                                             in the NSDD which
                                             discharged to a pipeline to
                                             transport permitted
                                             effluent discharges and
                                             storm water runoff from the
                                             southern end. This system
                                             bypassed approximately 50%
                                             of the NSDD inside the
                                             security perimeter, thereby
                                             reducing the potential for
                                             mobilizing contaminated
                                             sediments in the vicinity
                                             of NSDD
                                            Installed a gabion type rock
                                             structure with nonwoven
                                             geotextile material secured
                                             to the upstream side near
                                             the ditch 001 lift station
                                             to mitigate the potential
                                             for contaminant transport
                                             from the bypassed portion
                                             of the NSDD to offsite area
                                            Installed warning signs on
                                             both sides of the NSDD to
                                             give notice that elevated
                                             levels of radionuclides,
                                             metals, and PCBs are
                                             present in the area
Interim Remedial Action for the Northwest   Installed a total of four
 Plume (Initiated in 1993).                  extraction wells at two
                                             locations (two at each
                                             location) and associated
                                             piping to extract
                                             contaminated groundwater
                                             from the highest
                                             concentration area of the
                                             Northwest plume and pump
                                             this water to a treatment
                                             system
                                            Installed a treatment system
                                             consisting of air
                                             strippers, ion exchange,
                                             and activated carbon to
                                             treat the contaminated (TCE
                                             and Tc-99) groundwater to a
                                             target treatment limit of 5
                                             ppb for tricliloroethene
                                             (TCE) and 900 pCi/g for Tc-
                                             99 prior to discharge to
                                             Outfall 001
Outfall 011 (1995)........................  Lined ditch with bentonite
                                             and installed rip-rap to
                                             reduce transport of PCB-
                                             contaminated sediments
Interim Remedial Action for the Northeast   Installed a total of two
 Plume (Initiated in 1995).                  extraction wells at one
                                             location to extract
                                             contaminated groundwater
                                             from the highest
                                             concentration area of the
                                             Northeast plume
                                            Installed a collection and
                                             piping system to collect
                                             and pump contaminated
                                             groundwater to an existing
                                             cooling tower for
                                             volatilization of TCE and
                                             1,1-dicholoroethene
WAG 22 Solid Waste Management Units (SWMU)  Implemented a groundwater
 2 and 3 Record of Decision (Initiated in    monitoring program in the
 1995).                                      uppermost aquifer, the
                                             Regional Gravel Aquifer, to
                                             detect any release of
                                             contaminants from SWMU 2
                                            Implemented institutional
                                             controls (signs and deed
                                             restriction) at SWW 2
C-746-S&T Landfill Closures...............  Closure was initiated in
                                             accordance with Kentucky
                                             Solid Waste Regulations in
                                             1995
WAG 17 Removal Action (1996)..............  Removed contaminated soils
                                             124 under DOE removal
                                             action authority
                                            Properly packaged and stored
                                             material as waste
WAG 17 Record of Decision (1997)..........  Established that no further
                                             remedial action was
                                             necessary to protect human
                                             health and the environment
WAG 23 Removal Action (1997)..............  Excavated approximately 115
                                             cubic meters from SWMUs 1,
                                             56, 57, 80, and 81 to
                                             reduce PCB levels to below
                                             25 ppm and dioxin levels to
                                             less than 1.3 ppb
WAGs 1 and 7 Record of Decision (Initiated  Deferred investigation and
 in 1998).                                   action on SWMU 38, C-615
                                             Sewage Treatment Plant,
                                             until unit ceases operation
                                            Upgraded groundwater
                                             monitoring system around
                                             the C-746-K landfill
                                            Installed institutional
                                             controls (signs and fences)
                                             around C-746-K
                                            Implemented deed
                                             restrictions on C-746-K
                                            Transferred responsibility
                                             for SWMUs 94, 95, and 157
                                             (all located in former KOW
                                             area) to the Corp of
                                             Engineers
                                            Established that no further
                                             remedial action was
                                             necessary to protect human
                                             health and the environment
                                             for the following SWMUs:
                                             130, 131, 132, 133, 134 and
                                             136
SWMU 91 Record of Decision (Lasagna <SUP>TM</SUP>)     Completed design of Lasagna
 (Initiated in 1999).                        <SUP>TM</SUP> treatment system
                                            Abandoned three wells
                                             located within the SWMU
                                            Removed a cold bath pit used
                                             in testing UF6 cylinders
                                            Construction scheduled for
                                             treatment system September
                                             1999
Radiological Postings (Ongoing)...........  Post areas of radiological
                                             contamination which exceed
                                             limits defined in 10 CFR
                                             835.
------------------------------------------------------------------------

    In addition to the activities identified in the two proceeding 
listings, three major remedial investigations remain to be completed in 
accordance with the Federal Facility Agreement. These include 
investigation of the surface water in FY 2000-2001, investigation of 
surface soils in FY 2001-2002, and investigation of burial grounds in 
FY 2004-2005.
Radiological Contamination
    Question 6: What is DOE doing to identify radiological 
contamination at other offsite areas accessible to the public?
    Answer 6: The Department has conducted a number of investigations 
to identify possible radiological contamination at offsite areas around 
the Paducah, Kentucky site. Where we have identified contamination, we 
have taken steps to mitigate risks to public health and safety.
    Actions taken to identify and address offsite radiological and 
chemical contamination have included routine sampling of residential 
water supplies; provision of alternative water supplies when 
contamination was found in residential wells; removal of deteriorating 
tanks and excavation of contaminated soils; improved treatment of waste 
streams to decrease possible offsite releases; installation of 
additional fencing to restrict access to possible contaminated areas; 
posting of warning signs to prevent use of contaminated water, 
including fishing and recreational use; installation of extraction 
wells to remove contaminated groundwater from various areas around the 
site-, and implementation of a groundwater monitoring program to ensure 
that any releases are detected. A detailed listing of the assessments 
conducted at the Paducah site, and actions taken to protect health and 
safety, was provided for the record in response to the preceding 
question. These listings show, by year, the various Departmental 
actions taken to mitigate the spread of contamination offsite and to 
prevent public access to unsafe areas.
Paducah Gaseous Diffusion Plant
    Question 7: What was the assessed value of natural uranium DOE 
transferred to the United States Enrichment Corporation (USEC) in 1998 
for the purposes of completing nuclear safety upgrades at Paducah?
    Answer: In 1998, the Department transferred 3,803,610 kgU of 
natural uranium and 44.276 Metric Tons of low-enriched uranium to the 
United States Enrichment Corporation for settlement of nuclear safety 
liabilities at the gaseous diffusion plants and other liabilities. The 
value of these transfers was assessed at $220 million.
    Question 8: What portion of the assessed value of the natural 
uranium transferred to USEC was intended to pay for the completion of 
seismic upgrades at Paducah?
    Answer: The Department transferred natural uranium and low-enriched 
uranium valued at $220 million under the Department-negotiated 
agreement with the United States Enrichment Corporation related to 
nuclear safety upgrades costs at the gaseous diffusion plants. That 
agreement settled a number of Departmental liabilities, including 
completion of seismic upgrades at Paducah, which the Department 
estimated would total $34.6 million.
    Question 9: Please explain why DOE material storage areas at 
Paducah have not been characterized, analyzed or resolved even though 
they were identified more than two years ago.
    Answer: There are 148 DOE Material Storage Areas (DMSAs) at the 
Paducah Site. Based on inspections and records review, enough is known 
about the materials and equipment in 70 of these DMSAs to conclude that 
they do not present a criticality hazard. However, there are 78 DMSAs 
in which additional information is needed. Of the 78 DMSAs, 13 present 
the highest priority for near-term characterization and disposition 
because fissile material could be present in quantities that could 
present a hazard under certain conditions.
    Over the last year, the Department had been developing nuclear-
grade procedures and controls for the characterization and disposition 
of DMSAs with a potential for accumulation of fissile materials. 
Because of the nuclear safety aspects of this work, it proceeded at a 
slower pace. For example, we have taken the time that was needed to 
develop procedures to govern this work, to conduct the necessary 
criticality safety evaluations and safety assessments, and to perform a 
readiness assessment--all of which provide the basis for DOE's approval 
to proceed with characterization and disposition actions for the DMSAs.
    Until recently, the priority for DMSA characterization and 
disposition was focused on portions of 24 DMSAs that contain materials 
and equipment that must be moved in order for United States Enrichment 
Corporation's (USEC) seismic upgrade to proceed. However, a recent 
investigation completed by DOE's Office of Environment, Safety and 
Health identified 11 DMSAs that possibly contain fissile materials, 
presenting a criticality hazard--consequently, these areas must also be 
characterized and dispositioned on a priority basis. Subsequent review 
by the DOE contractor identified an additional 2 areas of potential 
concern. About half of these 13 DMSAs that are of concern to DOE are 
the same DMSAs that are a priority with USEC--but some of them are not. 
This has caused the Department to re-examine the priority and schedule 
for characterization and disposition of the DMSAs that are a priority 
for DOE and those that are a priority for USEC. In the interim, until a 
final plan is complete, we have proceeded to characterize and 
disposition/move materials in one DMSA that does not present a 
criticality concern. By doing so, this allows work required by USEC to 
proceed while providing an opportunity for workers to gain more 
experience before handling a DMSA that presents a potential criticality 
hazard.
    We are currently working with the USEC and the Nuclear Regulatory 
Commission to develop a consolidated plan for accelerating the 
characterization and removal or disposition of the DMSAs in a manner 
that meets the needs of both USEC and the Department. It is essential 
that DOE and USEC work closely together on this as the work depends on 
a limited number of properly trained and security-cleared USEC Inc 
employees at the site. Once issued, the final plan will be provided to 
the House Commerce Subcommittee on Oversight and Investigations.
    Question 10: Please explain what schedule or cost impacts may occur 
with USEC's efforts to complete seismic upgrades at Paducah due to 
DOE's failure to characterize, analyze, and resolve DOE material 
storage areas.
    Answer: The Department is presently working with the United States 
Enrichment Corporation (USEC) and the Nuclear Regulatory Commission 
(NRC) to determine the schedule and cost impacts associated with plans 
to remove materials and equipment located in DOE Material Storage Areas 
(DMSAs) to support USEC's seismic upgrade project. However, a recent 
investigation by the Department of Energy (October 1999) identified 
several other DMSAs not related to the seismic upgrade project that 
also require expeditious removal. At present, plans are being developed 
that would allow for timely removal and disposition of all materials 
and equipment in the DMSAs that are adjacent to areas in which seismic 
upgrades are planned, as well as for timely characterization and 
disposition of the additional DMSAs that were identified as potential 
areas of criticality concern in the recent DOE investigation.
    We are working together to develop a comprehensive plan that meets 
the objectives of USEC, which are to complete the seismic upgrades, and 
the objectives of DOE, which are to address DMSAs that may have 
criticality safety concerns on an expedited basis. Once the plan is 
finalized we will be able to provide you the impact on cost and 
schedule.
    Question 11: Is USEC responsible for funding the characterization 
and movement of DOE material storage areas? If so, what is the 
estimated cost of this effort, and how will USEC provide the necessary 
funds to complete the characterization in a timely manner?
    Answer: Generally, the United States Enrichment Corporation (USEC) 
is not responsible for funding the characterization of materials and 
equipment contained in the DOE Material Storage Areas (DMSAs). However, 
since 1997, USEC has been funding and conducting non-characterization 
work associated with the DMSAs in accordance with the agreements signed 
on June 23, 1996, and December 31, 1996. Both of these agreements have 
been previously submitted to the Subcommittee. In addition, to support 
their seismic upgrade project, USEC has also agreed to fund and provide 
manpower for equipment and materials that must be removed from DMSAs in 
order for USEC to complete seismic upgrades.
    The total estimated costs of completing the DMSA removal actions 
for the seismic upgrade project and for the remaining DMSAs where 
potential criticality concerns exist are currently under development by 
the Department and USEC.
Plutonium Contamination
    Question 12: Please explain why plutonium contamination in offsite 
sediments was not identified in the Executive Summary of the DOE report 
``Phase I Results of the Site Investigation, March 22, 1991.''
    Answer l2: The Executive Summary discusses chemical and 
radiological contamination off site, but does not specifically identify 
plutonium contamination, although other radiological contaminants were 
identified in the summary. However, the body of the Phase I Site 
Investigation Report, March 22, 1991, does discuss plutonium 
contamination. The full report received DOE, Environmental Protection 
Agency (EPA), public, contractor, and State review. It is unclear why 
the plutonium contamination was not mentioned in the Executive Summary.
    Prior to the Phase I report, plutonium contamination had been 
identified and reported. For example, the 1980 Annual Site 
Environmental Report contained a table showing that transuranic 
elements (plutonium and neptunium) had been detected in fish, apples, 
milk, and deer. The 1980 report was submitted to various State 
agencies, the U.S. EPA Regional Office, and local news media.
    The Department also identified the presence of plutonium 
contamination and elevated radiation exposure readings in documents 
reporting the results of a Phase I investigation survey, including a 
September 18, 1990, Occurrence Report and a DOE media advisory issued 
on October 1, 1990. The local newspaper, the Paducah Sun, carried a 
story in its October 2, 1990, edition that discussed the presence of 
uranium and ``transuranic elements such as plutonium, neptunium and 
technetium.'' The regulatory agencies in the Commonwealth of Kentucky 
and U.S. EPA were also informed of these findings through the monthly 
reports.
    Question 13: Please explain whether soil sample SS-2--measured as 
part of DOE's independent investigation--is consistent with data 
obtained in the March 22, 1991 Phase I report.
    Answer: The independent investigation team collected a sample in 
the North South Diversion Ditch between Ogden Landing Road and the site 
security fence (sample SS-2). This sample was determined to contain 
elevated plutonium 239/240, neptunium 23.7, and thorium 230 levels. The 
1991 Phase I report and supporting data dated January 4, 1991, contains 
survey and sampling results for soils and sediments in the North South 
Diversion Ditch. The results of these samples in the vicinity of the 
location of SS-2 also showed elevated levels of plutonium, cesium and 
thorium. While the reported levels of plutonium and cesium from the 
1991 samples are consistent with the results of the independent 
investigation team associated SS-2, the level of thorium-230 reported 
in 1991 is significantly lower than the level recently identified by 
the investigation team at that location.
Institutional Controls
    Question 14: Based on current institutional controls that inform 
the public and restrict access to offsite contaminated areas, are 
visitors, workers, and residents surrounding the Paducah site 
adequately protected from radiological and chemical releases from the 
Paducah site?
    Answer ]4: The Department has installed institutional controls that 
restrict access to offsite contaminated areas on DOE property 
surrounding the operating facilities at the Paducah site. The 
Department installed postings, fences, and signs agreed to by the 
Commonwealth of Kentucky and the U.S. Environmental Protection Agency 
as measures that would protect the public and workers. In addition, in 
response to the observations of the investigation team led by the 
Department's Office of Environment, Safety and Health, the Department 
has completed additional postings on DOE property outside the security 
fence that identify radiologically contaminated areas.
Contaminated Water
    Question 15: When contaminated wells were discovered in 1988, EPA 
ordered DOE to provide safe drinking water to private residences and 
the extension of municipal water lines to the homes in the area of 
contamination. In addition, a comprehensive water monitoring program 
was put into effect. The current ``sump & pump'' method for dealing 
with the contaminated water does not appear to be addressing the 
problem at the source. Please explain what efforts are currently 
underway to control ``hot spots'' that are contributing to this 
groundwater contamination. Specifically, please include a description 
of your efforts to remove TCE stored in the C-400 building. Please also 
identify any proven technologies that may address the problem more 
effectively.
    Answer 15: The Department's programmatic strategy for site 
remediation, which was developed in conjunction with, and approved by, 
both EPA and the Commonwealth of Kentucky, utilizes a risk-based 
approach consisting of four phases. The Department will first address 
imminent threats, including both on and off-site conditions; then 
reduce further migration of off-site contamination; then address 
sources of off-site contamination; and lastly address remaining areas 
of on-site contamination.
    Providing municipal water to affected residents and installing 
groundwater pump-and-treat systems were intended to address imminent 
threats and reduce the further mitigation of the high concentration 
portion of the off-site contamination plumes. However, these two steps 
are only intended to serve as interim measures until a more 
comprehensive solution can be developed. DOE recognizes the limitations 
of the existing pump and treat system and acknowledges that any 
comprehensive solution for groundwater must include actions at the 
source areas (i.e., the ``hot spots'' in the vicinity of the C-400 
Building) to be effective.
    The ``hot spots'' in the vicinity of the C-400 Building (Waste Area 
Groups, WAGS, 3, 6, 27, and 28) are the sources of the contaminated 
groundwater migrating from the site. These source areas are 
contamination from past activities; there are no trichloroethylene 
(TCE) materials currently stored in the C-400 Building. DOE recently 
completed remedial investigations for several of the major TCE source 
areas (WAGs 6 and 27) and expects to complete characterization of the 
southwest plume and remaining TCE sources (WAGs 3 and 28) in early FY 
2000. Upon collection of this additional data, the Department will have 
sufficient information to complete a site-wide feasibility study that 
will lead to the selection of a final remedial action for the 
groundwater contamination. The draft feasibility study is scheduled to 
be issued in June 2000.
    To support source remediation, DOE recently completed a successful 
demonstration of the ``LASAGNA'' Technology, which removes TCE from 
soils, and is in the process of full-scale deployment at the TCE test 
pit area. DOE is also conducting a pilot field demonstration of another 
promising new technology in FY 2000. This new in-situ reactive barrier 
technology, when used in conjunction with other source treatment 
technologies, may prove to be significantly more effective than the 
traditional pump and treat systems. In addition, DOE is working to 
identify technologies at Paducah through the Innovative Treatment 
Remediation Demonstration Program (ITRD), which provides outside 
technical expertise to help find solutions to complex remediation 
problems at DOE sites and works with stakeholders to gain acceptance of 
promising technologies. At Paducah, the ITRD is working to identify 
proven technologies to address ground water and soil contamination 
problems.
    Question 16: DOE has proposed a plan to compensate workers at 
Paducah that have demonstrated adverse health effects due to 
radiological exposure. Please explain how causation will be established 
between exposure to radioactive contaminants at Paducah facilities and 
adverse health effects pursuant to the proposed compensation plan.
    Answer: The Department considered a number of options for 
compensating workers at Paducah who have illnesses that may be 
associated with radiological exposure. Because of the lack of exposure 
monitoring data for these workers, it is not possible to accurately 
determine the doses they received. Therefore, in consultation with the 
National Economic Council, the Department elected to adopt the 
Radiation Exposure Compensation Act (RECA) model in developing Title 
III of the legislation. RECA has a compensation program for workers who 
were on site during atmospheric nuclear weapons testing. To be eligible 
for compensation, workers must establish that they were (1) onsite at 
the time of weapons testing and (2) have one of the cancers listed in 
the statute.
    In the Administration's proposal for Paducah workers, criteria are 
that (1) workers must have worked on site for one year during the time 
period winch recycled reactor tailings were processed, (2) worked in a 
position where they were badged for radiation exposure (or should have 
been badged), and (3) have primary cancer of the bone or the lung or 
one of the radiogenic cancers listed in RECA.
    Question 17. Was radiation exposure to workers monitored and 
documented prior to 1989? How could anyone actually prove causation if 
no records were kept?
    Answer: DOE has radiation protection standards and requirements in 
place that include monitoring thresholds, documentation, and reporting 
requirements. At Paducah, DOE has found a lack of exposure monitoring 
data and is currently investigating the adequacy of worker exposure 
records at all three gaseous diffusion plants, including Paducah. While 
it may be difficult to prove causation from these records, causation is 
not the only criteria used in compensation systems. In the program 
established by the Radiation Exposure Compensation Act, workers are 
eligible for compensation is they establish that they were (1) onsite 
at the time of weapons testing and (2) have one of the cancers listed 
in the statute. This was the model used in the Administration's 
proposal for Paducah workers.
Paducah Gaseous Diffusion Plant
    Question 18: Was DOE aware of illegal dumping activities reported 
in Spring 1991 by Kentucky police investigator Mr. D.W. Senf, and 
referenced in Dr. Tom Cochran's written testimony? If so, what did DOE 
do with this information?
    Answer: Based upon our review, it does not appear that DOE was 
aware of a report of illegal dumping made in 1991 by Mr. Senf. In 
recent discussions with the Kentucky Cabinet for Health Services, we 
have been told, in response to that allegation, the cabinet had the 
area in question surveyed and no elevated levels of contamination were 
found.
    Question 19: During Secretary Richardson's most recent visit to 
Paducah, he said DOE would take whatever legal action is necessary to 
``make all former operators at the plant responsible for their roles in 
keeping workers in the dark about plutonium.'' He later commented that 
those actions could impact not just the most recent contractors, but 
Union Carbide as well. Please explain what actions DOE is taking to 
hold former contractors at Paducah responsible for nuclear safety 
deficiencies.
    Answer: The Department's actions include: the investigation of the 
current (since 1990) and prior (before 1990) environment, safety and 
health procedures and practices; evaluation of concerns related to 
operations prior to 1990; examination of relevant site records; 
evaluation of potential liability for civil penalties (applicable to 
activities after January 1996); and assessment of current and prior 
contractual responsibilities and liabilities.

</pre></body></html>
